U.S. Department   of   Commerce
 F Y 2013 AGENCY FINANCIAL REPORT
              This report can be found on the Internet at
   http://www.osec.doc.gov/ofm/OFM_Publications.html.


      If you have questions or comments regarding this
  report, please call the Department’s Office of Financial
 Management at (202) 482-1207 or email Atisha Burks at
ABurks@doc.gov or Gordon Alston at GAlston@doc.gov.


                         Office of Financial Management
                          U.S. Department of Commerce
                           1401 Constitution Avenue, NW
                                  Washington, DC 20230
                                           (202) 482-1207
U.S. Department     of   Commerce
    AGENCY FINANCIAL REPORT




      F I S C A L   Y E A R




      2013
                                      T H E D E PA R T M E N T AT A G L A N C E

HISTORY AND ENABLING LEGISLATION                                    STRATEGIC THEMES

The Department of Commerce was originally established by            PROGRAMMATIC THEMES
Congressional Act on February 14, 1903 as the Department            ■	 Economic Growth
of Commerce and Labor (32 Stat. 826; 5 U.S.C. 591) and was          ■	 Science and Information
subsequently renamed the U.S. Department of Commerce by
                                                                    ■	 Environmental Stewardship
President William H. Taft on March 4, 1913 (15 U.S.C. 1512).
The defined role of the new Department was “to foster, promote,     MANAGEMENT THEMES
and develop the foreign and domestic commerce, the mining,
                                                                    ■	 Customer Service
manufacturing, and fishery industries of the United States.”
                                                                    ■	 Organizational Excellence
                                                                    ■	 Workforce Excellence
MISSION
                                                                    LOCATION
The Department of Commerce creates the conditions for economic
growth and opportunity by promoting innovation, entrepreneurship,
                                                                    The Department is headquartered in Washington, D.C., at the
competitiveness, and stewardship.
                                                                    Herbert Clark Hoover Building, which is located on eight acres
                                                                    of land covering three city blocks. The Department also has field
                         Program Bureaus                            offices in all states and territories and maintains offices in more
                                                                    than 86 countries worldwide.
  ■	     Bureau of Industry and Security (BIS)
  ■	     Economic Development Administration (EDA)                  EMPLOYEES
  ■	     Economics and Statistics Administration (ESA)
         ●	 Bureau of Economic Analysis (BEA)                       As of September 30, 2013, the Department had approximately
         ●	 Census Bureau                                           46 thousand employees.
  ■	     International Trade Administration (ITA)
  ■	     Minority Business Development Agency (MBDA)                BUDGET AUTHORITY
  ■	     National Institute of Standards and Technology (NIST)
         ●	 National Technical Information Service (NTIS)           The Department’s FY 2012 and FY 2013 net budget authority was
  ■	     National Oceanic and Atmospheric Administration            approximately $8.0 billion.
         (NOAA)
  ■	     National Telecommunications and Information                INTERNET
         Administration (NTIA)
  ■	     U.S. Patent and Trademark Office (USPTO)                   The Department’s Internet address is www.commerce.gov.




    II           FY 2013 AGENCY FINANCIAL REPORT
Table of Contents
 Message from Secretary Pritzker	                                                                     IV
 How to Use this Report	                                                                              VI

 Management’s Discussion and Analysis 	                                                                1

 Mission and Organization	                                                                            2
 The Department of Commerce Process for Strategic Planning and Performance Reporting	                 3
 FY 2013 Performance Summary	                                                                         5
 Management Controls 	                                                                                6
   Federal Managers’ Financial Integrity Act (FMFIA) of 1982 	                                        7
   Federal Financial Management Improvement Act (FFMIA) of 1996 	                                     16
   Report on Audit Follow-up 	                                                                        16
   Biennial Review of Fees	                                                                           16

 Financial Section	                                                                                   17

 Message from the Chief Financial Officer	                                                         18
 Financial Management and Analysis 	                                                                  19
 Analysis of FY 2013 Financial Condition and Results 	                                             31
 Summary of Stewardship Information	                                                               41
 Principal Financial Statements 	                                                                  45
   Consolidated Balance Sheets 	                                                                  47
   Consolidated Statements of Net Cost 	                                                          48
   Consolidated Statements of Changes in Net Position 	                                           49
   Combined Statements of Budgetary Resources 	                                                   50
 Notes to the Financial Statements 	                                                               51
 Consolidating Balance Sheet 	                                                                    113
 Required Supplementary Information (Unaudited)	                                                  117
 Required Supplementary Stewardship Information (Unaudited)	                                      125
 Other Information (Unaudited)	                                                                   141
 Independent Auditors’ Report 	                                                                   145

 Appendices	163

 Appendix A: FY 2013 Management Challenges and Actions Taken	                                     165
 Appendix B: FY 2014 Management Challenges	                                                       170
 Appendix C: Improper Payments Information Act (IPIA) of 2002, as Amended, Reporting Details 	    220
 Appendix D: Summary of Financial Statement Audit and Management Assurances 	                     229
 Appendix E: Glossary of Key Acronyms 	                                                           230


 Acknowledgements	232




                                                                                                           III
                                                                    FY 2013 AGENCY FINANCIAL REPORT
M E S S A G E F R O M S E C R E TA R Y P R I T Z K E R




             Message from Secretary Pritzker


                                                          I
                                                               am pleased to present the Department of Commerce’s Agency
                                                             Financial Report (AFR) for fiscal year (FY) 2013. The AFR is an
                                                             opportunity for us to highlight the Department’s accomplishments
                                                          and challenges in FY 2013. This report also provides information on our
                                                          financial management and performance.

                                                          When I came on board as Secretary this past summer, I hung a sign on
                                                          my office door that says “Open for Business.” To me, this simple phrase
                                                          reflects the Department’s focus on creating the right conditions for
                                                          businesses to grow and hire. More than ever before, we are partnering
                                                          with the private sector to foster a vibrant, innovative, and competitive
                                                          American economy.

                                                           In FY 2013, the Department continued to help American businesses
                                                           grow and succeed in the 21st century. In FY 2014, the Department will
             focus on priority areas of trade and investment, innovation, data, and the environment. With these priorities, we will
             continue to support our private sector, which has created 8 million jobs since 2010.

             Our 46,000 employees will continue to play a crucial role. They are working harder than ever to put more and better
             tools in the hands of U.S. firms, despite a challenging fiscal environment.

             The Commerce Department remains committed to operational excellence and public accountability in everything we
             do. This report provides an important window of transparency for our key stakeholders and the American public to
             assess our financial information and performance for this past year.

             Our financial management systems have been found to be in substantial compliance with the Federal Financial
             Management Improvement Act (FFMIA) of 1996. In accordance with Office of Management and Budget (OMB)
             Circulars A-136 and A-11, the financial and performance data published in this report are substantially complete and
             reliable.

             These data provide an accurate and transparent accounting of the Department’s financial situation and high-level
             performance results. For the 15th year in a row, the independent auditors tasked with reviewing our financial
             statements have provided an unqualified opinion. However, the Department received a Significant Deficiency
             relating to needed improvement in two areas: (1) accounting for property at the National Oceanic and Atmospheric
             Administration, and (2) Department-wide information technology, relating to segregation of duties, access controls,
             and configuration management.




  IV          FY 2013 AGENCY FINANCIAL REPORT
                                                                                   M E S S A G E F R O M S E C R E TA R Y P R I T Z K E R




Throughout FY 2013, we greatly improved the controls that surround property, evidenced by the reduction of the FY 2012
Material Weakness to a Significant Deficiency. We will continue making improvements to our property and information
technology, and we will continue to aggressively strengthen those controls in FY 2014.

The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) and OMB Circular A-123 provide the framework within
which Departmental and operating unit managers may determine whether adequate internal controls are in place and
operating as they should. We rely on a wide range of studies conducted by programmatic and administrative managers,
the Office of the Inspector General, the Government Accountability Office, and others to assist in this effort. Based on
activities undertaken during FY 2013, the Department is able to provide an unqualified statement of assurance that its
internal controls and financial management systems meet the objectives of FMFIA.

More detailed performance information and results will be released in the Annual Performance Report in February 2014.

I am proud of the work we do and the progress we have made. I hope you find this report useful.




                                                                         Penny Pritzker
                                                                         Secretary of Commerce
                                                                         December 16, 2013




                                                                                                                                   V
                                                                          FY 2013 AGENCY FINANCIAL REPORT
HOW TO USE THIS REPORT

                                          T
                                                his Agency Financial Report (AFR) for the fiscal year ended
                                                September 30 (FY) 2013 provides the Department of Commerce’s
                                                financial and summary performance information in accordance
                                          with OMB Circular A-136, Financial Reporting Requirements.

                                          Beginning in FY 2013, the Department has chosen to produce an
                                          Agency Financial Report (AFR) and Annual Performance Report (APR).
                                          The Department will include its FY 2013 APR with its Congressional
                                          Budget Justification and will post it on the Department’s Web site at
                                          http://www.osec.doc.gov/bmi/budget/.

                                          The Department’s annual AFR is available on the Department’s Web site
                                          at http://www.osec.doc.gov/ofm/OFM_Publications.html. The Department
                                          welcomes feedback on the form and content of this report.

                                          This report is organized into the following major components:


Statement from the Secretary of Commerce
The Secretary’s statement includes an assessment of the reliability and completeness of the financial and summary
performance information presented in the report and a statement of assurance on the Department’s management
controls as required by the FMFIA.


Management’s Discussion and Analysis (MD&A)
This section provides an overview of the financial and summary-level performance information contained in the
Performance Summary, Financial Section, and Appendices. MD&A includes an overview of the summary of the
performance process and current status of systems and internal control weaknesses.


Financial Section
This section contains details of the Department’s finances in FY 2013. A message from the Department’s Chief
Financial Officer (CFO) is followed by information on the Department’s financial management, analysis of FY 2013
financial condition and results, audited financial statements, required supplementary information, other information,
and the independent auditors’ report.


Appendices
This section provides a discussion of management challenges including actions taken to address them as well as
the FY 2014 management challenges, financial information, and a glossary of key acronyms.
M anagement ’s
D iscussion and
    A nalysis
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                          M I S S I O N A N D O R G A N I Z AT I O N



                                                                   MISSION

                           The Department of Commerce creates the conditions for
                        economic growth and opportunity by promoting innovation,
                               entrepreneurship, competitiveness, and stewardship.




   2          FY 2013 AGENCY FINANCIAL REPORT
                                                                             M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




             T H E D E PA R T M E N T O F C O M M E R C E P R O C E S S F O R
      S T R AT E G I C P L A N N I N G A N D P E R F O R M A N C E R E P O R T I N G



STRATEGIC PLANNING AND PERFORMANCE REPORTING STRUCTURE


T he Department of Commerce strategic plan is developed through meetings and
retreats where leadership uses relevant data and stakeholder input to assess
goals, objectives, and strategies. A new plan is developed at the beginning of
a presidential term. Strategies are affected by bureaus or groups of bureaus,
depending on the objective.

The Department has a four-year strategic plan. However, the plan may
be revised during the four years based on stakeholder feedback,
evidence on the effectiveness of strategies, or changes in the
economic environment. The point of departure for the plan is
the Department’s mission. The plan has four goal areas: Trade
and Investment, Innovation, Environment, and Data. A fifth
goal area “Operational Excellence” provides strategies that
affect mission delivery in all areas. It has the Department
strategies for improving customer service, employee
engagement, and work processes. In all five goals areas
performance indicators are used to define the specific
results a strategic objective should achieve.

In February 2014, the Department of Commerce FY 2014 – FY 2018 Strategic Plan will be posted on
www.Performance.gov. It will also be available on the Department’s Web site.

In addition to the Department structure of goals, objectives, and strategies, there are Agency Priority Goals (APG). These
are two-year initiatives that have been earmarked for focus and close monitoring. The APGs and quarterly progress
reports are posted on www.Performance.gov.

The Congressional budget submission has bureau-specific performance measures required by the Government
Performance and Results Act (GPRA measures). The bureau-specific measures and targets for performance are
linked to resource requirements. The FY 2013 budget submission and associated performance plans can be found at
http://www.osec.doc.gov/bmi/budget/.

Performance measures in Senior Executive Service (SES) member performance plans are linked to the Department’s
system of goals, objectives, APGs, and performance indicators. This supports deployment of strategic plans to bureau
operations.




                                                                                                                                       3
                                                                            FY 2013 AGENCY FINANCIAL REPORT
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




        How the Department‘s Objectives and Measures are Used

        Data on performance measures/indicators are used to assess progress toward goals and objectives and how well
        strategies are working. When considered with business feedback and program evaluations, these measures give valuable
        insight into the effectiveness of Department programs and how to improve programs. Performance results for FY 2013
        and prior years are available in budget submissions. The budget documents also provide information on how results for
        each measure are verified. Department budget submissions can be found at www.osec.doc.gov/bmi/budget/.

        Performance Reviews

        As required by the Government Performance and Results Modernization Act of 2010, Goal Leaders and the Department’s
        Chief Operating Officer (the Deputy Secretary) review progress on APGs. These quarterly reviews have also included other
        performance measures central to “mission health,” the efficiency of operations, Administration Initiatives, and employee
        engagement. During most of FY 2013, the bureau quarterly performance reviews were conducted by the Deputy Secretary
        at meetings with the leadership and staff of the bureau being reviewed. For fourth quarter of FY 2013, APG results were
        reviewed by the entire Executive Management Team; the team includes the leadership of all 12 Departmental bureaus.
        Performance data reviews are also conducted by bureaus, and councils of Chief Financial Officers, Chief Human Capital
        Officers, and Chief Information Officers.

        Financial data are reviewed through audits and other financial management controls. During the FY 2012 Consolidated
        Financial Statement audit, tests and review of the core accounting system and internal controls were conducted as
        required by the Chief Financial Officers (CFO) Act. Further, the Department conducted its assessment of the effectiveness
        of internal control over financial reporting, which includes safeguarding of assets and compliance with applicable laws and
        regulations, in accordance with the requirements of Appendix A of Office of Management and Budget (OMB) Circular
        A-123, Management’s Responsibility for Internal Control. Based on the results of this evaluation, the Department provided
        reasonable assurance that its internal control over financial reporting was operating effectively.




   4          FY 2013 AGENCY FINANCIAL REPORT
                                                                            M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                           FY 2013 PERFORMANCE SUMMARY


Four Agency Priority Goals (APG) were selected by leadership for particular focus. Progress toward performance targets
for the APGs has been monitored at quarterly meetings between the Department’s Chief Operating Officer (the Deputy
Secretary) and Goal Leaders (bureau Under Secretary or Assistant Secretary). Results and goal descriptions are posted
on www.Performance.gov. The following is a summary of FY 2013 APG results.

Expand broadband service to communities. Access to the Internet creates economic and educational opportunity.
Therefore, $4.7 billion in American Recovery and Reinvestment Act of 2009 (ARRA) funds were provided to extend
broadband service to unserved and underserved areas. The Broadband Technology Opportunities Program (BTOP) has
exceeded expectations. A target was set to create 100 thousand additional miles of broadband access by September
2013. By the end of FY 2013 (September 30, 2013), 110,900 miles had been added to the Nation’s broadband network. In
addition, over 20 thousand public access centers have been created and 46 thousand new workstations added. The National
Telecommunications and Information Administration (NTIA) continues to work with grantees to further increase these results.

Increase lead time for flash flood warnings. Flash floods claim more lives than any other type of extreme weather event.
Therefore, an APG was established for the average amount of advanced warning the National Oceanic and Atmospheric
Administration (NOAA) provides to areas subject to flash floods. The seasonal and annual number of weather events
varies widely. This creates challenges for event forecasting and establishing targets. NOAA met and exceeded the target
of 58 minutes; lead time at August 31, 2013 was 66 minutes.

Expand markets for U.S. exporters. Establishing targets for exports is challenging. Export levels are highly influenced
by worldwide economic conditions and currency exchange rates. However, the International Trade Administration (ITA)
established an APG for a subset of exports that could be influenced by focused efforts of its now Global Markets Program.
ITA set a target for increasing the number of current exporters that it could help bring to additional markets. Companies
already exporting have the soft and hard infrastructure to export. The cycle time for assisting them reach additional
markets is often shorter that the time required to help a firm export for the first time. Given the need for short-term
economic growth, focus was given to “new to market.”

ITA essentially reached the target of bringing 6,121 exporters to a second market. By the end of FY 2013, ITA assisted
6,024 firms reach additional markets.

Reduce the patent backlog. Innovation makes U.S. companies competitive and creates jobs. Innovation is supported
by a high functioning intellectual property protection system. Therefore, a FY 2013 APG was established to reduce the
backlog of unexamined patent applications waiting for first action by the U.S. Patent and Trademark Office (USPTO) and
reducing the time for processing patents. Major legislative changes and re-engineering of the patent review process
are central to the approach for accelerating the patent process. The targets for FY 2013 were to reduce the backlog to
529 thousand applications (from 670 thousand at the end of FY 2011). For optimum workload, the inventory of applications
waiting to be processed would be 300 thousand. Another target was to reduce total pendency, or the time for a final
determination on a patent, from 33.7 months (in FY 2011) to 30.1 months. Funding reductions affected progress; however,
as of the fourth quarter of FY 2013, the backlog was decreased to 585 thousand. The average time for total pendency is
currently 29.1 months, faster than the target time. This was accomplished in spite of a spike in new filings in March 2013;
in that month filings were almost 60 percent above the monthly average for the last two fiscal years.




                                                                                                                                      5
                                                                            FY 2013 AGENCY FINANCIAL REPORT
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                   MANAGEMENT CONTROLS




              T
                      he Department’s management is responsible for establishing and maintaining effective internal control
                     and financial management systems that meet the objectives of the Federal Managers’ Financial Integrity
                     Act (FMFIA). During FY 2013, the Department assessed its internal control over the effectiveness and
               efficiency of operations and compliance with applicable laws and regulations in accordance with Office of
               Management and Budget (OMB) Circular A-123, Management’s Responsibility for Internal Control. As a result,
               to the best of my knowledge, the Department is able to provide an unqualified statement of assurance that its
               internal controls and financial management systems meet the objectives of FMFIA.

               During FY 2013, the National Oceanic and Atmospheric Administration (NOAA) successfully remediated the one
               FY 2012 material weakness identified in financial management oversight for the unauthorized reprogramming of
               funds at the National Weather Service. Corrective actions by NOAA include policy and procedural changes that
               increase internal controls. No significant findings were noted in the areas of budgetary controls and accounting
               for satellites and property when the Department assessed its internal control over the effectiveness and
               efficiency of operations and compliance with applicable laws and regulations in accordance with OMB Circular
               A-123.

               The supplemental funding received under the American Recovery and Reinvestment Act of 2009 (ARRA)
               continued to receive comprehensive programmatic and administrative attention throughout the Department in
               order to achieve the legislative goals attributable to it. Funds have been awarded and expended for authorized
               purposes in as prompt and efficient a manner as possible while safeguarding against fraud, waste, and abuse.
               Reporting associated with this funding has been performed clearly, transparently, and comprehensively.
               Monitoring has been and will continue to be conducted to insure that recipients are meeting the goals stated in
               their application and as incorporated into award documents, and will also focus on the results of these activities.

               The Department also assessed the effectiveness of management and administrative internal controls. The Office
               of Human Resources Accountability coordinated and/or led six Delegated Examining on-site accountability and
               oversight audits at several bureaus and operating unit human resources offices.

               Based on reviews conducted by the Department, it has been able to determine that its financial systems are in
               conformance with government-wide requirements.




                                                                              Penny Pritzker
                                                                              Secretary of Commerce
                                                                              December 16, 2013




   6          FY 2013 AGENCY FINANCIAL REPORT
                                                                            M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                    F EDERAL MANAGERS’ FINANCIAL INTEGRITY ACT (FMFIA) OF 1982

The objective of the Department’s management control system is to provide reasonable assurance that:

●●   Obligations and costs are in compliance with applicable laws;

●●   Assets are safeguarded against waste, loss, and unauthorized use of appropriations;

●●   Revenues and expenditures applicable to the Department’s operations are properly recorded and accounted for,
     permitting accurate accounts, reliable financial reports, and full accountability for assets; and

●●   Programs are efficiently and effectively carried out in accordance with applicable laws and management policy.

During FY 2013, the Department reviewed its management control system in accordance with the requirements of FMFIA,
and OMB and Departmental guidelines.

S EC TI O N 2 O F FMFIA – INT E R NAL MA N AG E M E N T CO N T RO L S

Section 2 of FMFIA requires that federal agencies report, on the basis of annual assessments, any material weaknesses
that have been identified in connection with their internal and administrative controls. The efficiency of the Department’s
operations is continually evaluated using information obtained from reviews conducted by the Government Accountability
Office (GAO) and the Office of Inspector General (OIG), evaluations conducted by other federal agencies such as the Office
of Personnel Management (OPM), and other specifically requested studies. The diverse reviews that took place during
FY 2013 relative to non-financial controls provide assurance that Departmental systems and management controls comply
with standards established under FMFIA.

The following table reflects the number of material weaknesses reported under Section 2 of FMFIA in recent years by
the Department.

NUMBER OF MATERIAL WEAKNESSES UNDER SECTION 2

                   NUMBER AT BEGINNING                                                               NUMBER REMAINING AT
                      OF FISCAL YEAR          NUMBER CORRECTED             NUMBER ADDED               END OF FISCAL YEAR

 FY 2009                     1                         0                          0                               1

 FY 2010                     1                         1                          0                               0

 FY 2011                     0                         0                          0                               0

 FY 2012                     0                         0                          1                               1

 FY 2013                     1                         1                          0                               0




                                                                                                                                      7
                                                                            FY 2013 AGENCY FINANCIAL REPORT
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




        Key Administrative and Management Internal Control Activities

        Human Resource Management

        In compliance with FMFIA, the Office of Human Resources Management (OHRM) provides the following information
        regarding the adequacy of management and internal control systems. Highlights of OHRM’s FY 2013 accomplishments
        relative to management and internal controls are detailed below.

        Strategic Human Capital Management. The Department developed a strategic approach to accountability in human
        capital management that proactively addresses the challenges of aligning human capital strategies with Department
        strategies, and to improve leadership, knowledge management, acquisition of talent, and performance. During FY 2013,
        OHRM leadership continued its focus on top-down reviews of systems, human resources (HR) practices, and HR service
        delivery, surveying managers and employees and implementing changes when needed, utilizing technology to run and
        monitor OHRM programs, and continuing to collaborate with business partners to identify customer needs and required
        oversight to mitigate potential risk.

        Oversight and Accountability Audits. In accordance with Title 5, U.S. Code § 1104(a)(2) and Executive Order 13197,
        Government-wide Accountability for Merit Systems Principles; Workforce Information, dated January 18, 2001, and the
        Interagency Delegated Examining Agreement Number DOC-1, between OPM and the Department, and HR Bulletin
        036, FY 2006, Human Resources Management Accountability System, the Office of Human Resources Accountability
        coordinated and/or led six Delegated Examining on-site audits. The Delegated Examining audits have two fundamental
        responsibilities: (1) to ensure that the Department’s vacant positions are filled with the best-qualified persons from a
        sufficient pool or well-qualified, eligible persons; and (2) to uphold the laws, regulations, and policies of merit selections in
        accordance with federal laws, regulations, OPM procedures, and Departmental policies.

        Administrative. During FY 2013, the Director for Human Resources Management continued to monitor internal controls
        for each OHRM office to mitigate risks identified. Weekly monitoring of OHRM’s budget was conducted by the Director
        and Deputy Director and quarterly meetings were held with staff from the Office of Financial Management. OHRM has
        a multi-level review process for all purchases. Typically, the signature from the requestor, the budget officer, the Deputy
        Director, and the Director are required before any funds are expended for equipment, supplies, or training. Property
        management continued to be a high priority for OHRM during FY 2013. All accountable property is physically signed down
        to an end-user after it has been assigned in Sunflower, the Department’s property management system. Training for new
        property custodians continued throughout the year. A complete physical inventory of OHRM’s property was completed
        in the fourth quarter of FY 2013.

        Protecting Personally Identifiable Information (PII). OHRM and the Department remain vigilant to ensure that PII
        records are secure. This includes:

        ●●   Annual audit/review of users’ access and permissions to sensitive data;

        ●●   Identification, implementation, and communication of existing policies that are compliant with safeguarding PII;

        ●●   Exposure of security gaps and providing recommendations to patch the gaps;

        ●●   Coordinate/conduct information technology (IT) security awareness training/briefings; and

        ●●   Communicate the need and monitor the completion of the Department-wide IT security awareness training.




   8           FY 2013 AGENCY FINANCIAL REPORT
                                                                            M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Administrative Services

In June 2012, GAO reported on the accuracy of the Federal Real Property Profile (FRPP). While there was no explicit
direction issued by OMB or the General Services Administration (GSA) regarding the data quality improvement in 2013,
they did revise the 2013 FRPP guidance to eliminate specific data fields and revise data to be reported in other fields.
The Office of Real Property Programs reviewed the real property database and, as part of the FRPP upload for 2013,
updated 9,553 datum to correct identified anomalies as well as self-identified or required revisions in the real property
inventory system. These changes improved the quality and reliability of the Department’s inventory.

Acquisition Improvement Project (AIP) Scalable Acquisition Framework. The Office of Acquisition Management
(OAM) successfully completed Department-wide policy for acquisition project management with the Deputy Secretary’s
signing of the policy on Commerce Acquisition Project Management in November 2012. The remainder of FY 2013 was
devoted to the policy’s implementation to bring about cultural change for its adoption and refinement of processes to make
it work smoothly. OAM also completed all coordination for a complimentary policy on cost estimation and independent
cost estimates. Its purpose is to establish a clear requirement and standard procedures for cost estimating work products
and their review and approval. This policy responds to findings in 2012 by the GAO that identified that the Department did
not have a clear requirement or policy for cost estimating, lacked a standard structure for defining cost estimating work
products and their review and approval, and failed to comply with cost estimating best practices.

Grants Policies and Management. OAM continued its review of the Department’s Grants and Cooperative Agreements
Manual to keep pace with the rapid growth and change in the government-wide financial assistance culture and policy.
In FY 2012, a Department-wide project team, under the direction of OAM’s Grants Management Division, collaborated
on a comprehensive review of all chapters of the manual resulting in significant updates to the document. The revised
manual was issued in March 2013.

The Department’s Financial Assistance Pre-award Notification Requirements for Grants and Cooperative Agreements
informs the public of all statutory, regulatory, and certain other requirements associated with Department grants and
cooperative agreements. This notice was last revised in FY 2008. The project team revisited and updated the notice to
reflect the extensive changes in financial assistance law and policy that have emerged since FY 2008. Consequently, an
update was issued by the Director of OAM and published in the Federal Register in December 2012.

The Department’s Financial Assistance Standard Terms and Conditions (STC), which had not been updated since March
2008, were also subject to review and revision by the intra-agency project team. This work resulted in a significantly
updated document resulting in the issuance of revised STCs in January 2013.

OAM determined that policy revisions should be performed on a more consistent and predictable schedule going forward.
In an effort to establish a more structured schedule to the Department’s STCs, Pre-award Notice, and the Grants Manual,
guidance was issued by OAM requiring the review and revision of these key financial assistance policy documents
annually. Therefore, all bureaus, including program offices and grant offices, and other collateral support offices related
to financial assistance were directed in February 2013 to follow a specific schedule for update, review, and clearance of
these policy documents. The schedule was provided via memorandum from OAM.




                                                                                                                                      9
                                                                            FY 2013 AGENCY FINANCIAL REPORT
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




        ARRA Funds Management. Federally Awarded Contracts—a new C-Awards system (Comprizon) was deployed across
        NOAA, the National Institute of Standards and Technology (NIST), Census Bureau, and the Department in November 2011.
        This new version has improved the Department’s capacity to track the elements required for ARRA Reporting.

        Purchase Card Program. OAM continuously monitors and updates internal control measures and processes to manage
        the Department’s Purchase Card Program and certifies that the appropriate policies and controls are in place and corrective
        actions have been taken to mitigate the risk of fraud and inappropriate charge card practices.

        In FY 2013, the Department enhanced policy requirements, implemented structured procedures, and underwent an
        internal audit by the Department’s OIG to assess the effectiveness of the program’s internal controls. Enhancements
        to the purchase card program included: additional oversight of reconciliation process; development of customized
        classroom training course curriculum to cover various Department-specific aspects of the program; development of an
        online customized refresher training scenario-based course to provide cardholders with situational training; updated the
        Commerce Acquisition Management (CAM) Chapter to address audit findings; and implemented a cardholder community
        newsletter, “APC Digest,” to better communicate updates within the program to the cardholder community.

        Property and Facilities. The Office of Facilities and Environmental Quality (OFEQ) addressed the Herbert C. Hoover
        Building (HCHB) Renovation Project concerns identified by the OIG. OFEQ specifically addressed issues referring to
        actions such as developing metrics for the HCHB renovation. Metrics were included in the Department’s balanced
        scorecard, and are measured to assess budget, schedule, project scope, and frequency of customer disruptions affiliated
        with the renovation.

        In the FY 2012 FMFIA statement, there was mention that OMB and GSA were planning to issue directions that would
        respond to the GAO report on the quality of the facility data reported in the FRPP. While there was no explicit direction
        issued by OMB or GSA regarding the data quality improvement in 2013, they did revise the 2013 FRPP guidance to
        eliminate specific data fields and revise data to be reported in other fields. The Office of Real Property Programs reviewed
        the real property database and reported anomalies to the three bureaus with responsibilities for owned facilities and direct
        leases that are reported to FRPP.


         IT Security Receives Continued Focus

        The Office of the Chief Information Officer (OCIO) conducts reviews of its IT investments to ensure their efficiency
        and effectiveness in support of the Department’s missions. The Department, following OMB policies and guidelines1,
        and complying with Federal Information Security Management Act (FISMA) requirements, oversees and manages IT
        resources by establishing and implementing policies and controls to mitigate IT risks.

        Accomplishments resulting from the Department’s efforts to address the deficiencies include additional policies and
        guidance on password management, role-based training, account management and deactivation, and an annual
        assessment smart spot checklist. The Department continued to develop its HCHB IT Security Shared Services initiative
        including development of IT security policy and identification of common controls to be implemented. The Department
        began implementing an Enterprise Cyber security Monitoring and Operations (ECMO) tool to monitor and track continuous
        monitoring of IT security-related events throughout the Department. The Department continued to work toward



        1   OMB policy and guidelines, and key legislations are available at: http://www.whitehouse.gov/omb/inforeg/infopoltech.html.




  10           FY 2013 AGENCY FINANCIAL REPORT
                                                                               M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




launching an Enterprise Security Oversight Center (ESOC). To manage supply chain risks within certain IT acquisitions,
the Department implemented a supply chain risk management process. The Department also worked with personnel
with significant IT security roles and responsibilities through the CIOs’ Council, the IT Security Coordinating Committee,
the IT Audit Working Group, and the IT Security Shared Services working group to devise enterprise-wide solutions to
deficiencies.

While these improvements will allow the Department to elevate its IT security posture, more work remains to be
accomplished. The OIG acknowledges progress the Department has made toward implementing ECMO and ESOC,
which are critical to maintaining general network hygiene, implementing continuous monitoring, and providing timely
cyber situational awareness across the Department. However, the OIG cautions that timely implementation of these
initiatives is crucial to the Department’s cyber security program; particularly in light of the ever-increasing cyber threats
facing government systems. Thus, the OIG encourages the Department to ensure that current efforts for these initiatives
move forward as planned and that operating units cooperate and participate to the fullest extent. The OIG has ongoing
audit work related to security incident response and recognizes progress the Department is making toward improving
Department-wide incident response.


Accomplishments toward FMFIA

To ensure that the Department effectively manages the ongoing IT security concerns, the OCIO has been developing a
Cyber Security Strategic Plan to strengthen its IT security posture and operations. Additionally, the OCIO security office
continues to conduct rigorous IT security compliance reviews based on FISMA requirements, OMB policy, NIST standards
and guidelines, and previous OIG recommendations.

In addition to completing most significant corrective actions addressing IT security deficiencies, the following are highlights
significant to IT security accomplishments in FY 2013:

OCIO IT Security Performance Measures. New Department-wide metrics were developed for tracking operating unit
program management and technical progress with the implementation of the Cross-Agency Goals for Cyber Security:
Continuous Monitoring; Strong Authentication using Personal Identity Verification (PIV); and Trusted Internet Connection (TIC).

Enterprise Initiatives. Migration of the HCHB network to a commercial TIC provider was completed. The Homeland
Security Presidential Directive 12 (HSPD-12) PIV logical access control requirements were integrated with the Windows 7
migration project undertaken by the Office of the Secretary. Participated in early engagement group for the Department
of Homeland Security (DHS) Continuous Diagnostics and Mitigation program. Received annual DHS TIC Access Provider
(TICAP) Cyber Security Capabilities Validation for the four NOAA TICAPs.


Department of Commerce Computer Security Incident Response Team (DOC-CIRT). Incident tracking system was
implemented. A third-party assessment of the current DOC-CIRT policies, procedures, and capabilities was conducted.
Staffing was increased with two certified incident handlers; quarterly federation of CIRT meetings was established. Revised
DOC-CIRT Service Level Agreement to reflect Department-wide tiered service offerings.


IT Security Policy. Department policies were issued for: Information System Security Training for Significant Roles—an
update to the existing Commerce Interim Technical Requirements (CITR)-006 policy and aims to replace inactive links with




                                                                                                                                         11
                                                                               FY 2013 AGENCY FINANCIAL REPORT
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




        a dynamic training list; Account Deactivation Timeframe Requirements and Reminder Joint Memo to All Staff— memo
        communicating benchmarks for account deactivations upon employee or contractor termination. This version includes
        separate provisions for the servicing HR office and/or Contracting Officer Technical Representative to notify the servicing
        IT office upon an employee or contractor’s departure; Prohibition of Personal E-mail for Official Communication— policy
        memo prohibiting the use of personal e-mail for official Department business; Waiver/Deviation Process—a standard
        recommended taxonomy and guidelines for the use of Departmental waivers and deviations; Password Management—
        Departmental policy outlining requirements for password authentication to Department information systems; and, FAQ
        Guidance #2—frequently asked questions (FAQ) clarifying the Department’s CITR implementation.


        Shared Services. Launched the IT Security Shared Services initiative to explore and expand IT security common control
        opportunities. Established and offered a set of HCHB operating unit common controls in Awareness and Training, Physical
        Security, and Policy and Procedures. Developed the IT Security Shared Services Policy. Created Security Shared Services
        procedures that align to NIST Special Publication 800-53 control families to complement the Security Shared Services IT
        Security Policy.


        Compliance. Completed 34 IT security assessments, exceeding the FY 2013 target of 30 assessments including IT security
        checks of all Department operating units. Conducted pre-assessments of six financial systems in the areas of access and
        configuration management controls. Engaged DHS Risk Vulnerability Assessments for an assessment of the operating
        unit wireless system and two additional independent assessments. Migrated from the Cyber Security Assessment and
        Management (CSAM) 2.0 to CSAM 3.0. Created training manuals and conducted extensive user training. Performed monthly
        reviews of 34 Departmental IT investments and provided IT security program compliance ratings and nine Commerce
        Information Technology Review Board (CITRB) reviews of IT investments. Focused efforts on the Economic Development
        Administration (EDA) compliance and configuration management assessments to assist in recovery and reconstitution of
        EDA IT security infrastructure. Successfully solicited and coordinated the DHS external network vulnerability assessment
        for all of the Department’s operating units except the U.S. Patent and Trademark Office (USPTO).


        IT Security Training. Role-based training to include instructor-led training and virtual Webinar courses on risk assessment,
        common controls, security categorization, risk management framework, and plan of actions and milestones, was expanded.
        Designated IT security administrator to handle training records management in the Commerce Learning Center (CLC)
        application. Integrated Department of Defense Federal Information Systems Security (ISS) Awareness Training in CLC.
        Launched the FY 2013 IT Security Awareness Campaign, which included security conferences, instructor-led trainings,
        and online Webinars. Developed an IT Security Awareness training Web page that provides the training schedule; and list
        of complimentary external security training opportunities. The Department Federal Virtual Training Environment (FedVTE)
        Community, which provides free supplemental online, on-demand cyber security training to the Department’s IT security
        workforce, was established.

        IT Investment Review Process. Since IT expenditures constitute such a large portion of the Department’s annual
        budget (an IT portfolio of $1.64 billion for FY 2013), it is imperative that special management attention be given to the
        Department’s proposed and continuing IT investments. This is done through an OCIO-led Capital Planning and Investment
        Control process to provide timely analysis of the health, risk, and performance of IT investments, including projects under
        development, projects recently completed and deployed, as well as of the overall performance of the IT portfolio.




  12          FY 2013 AGENCY FINANCIAL REPORT
                                                                            M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




This process is based on OMB Exhibit 300, “Capital Asset Plan and Business Case Summary,” and Exhibit 53, “Agency
IT Investment Portfolio,” and has linkage to all Departmental IT planning processes and documents. In a cooperative
effort with the Office of Budget and OAM, the OCIO established the OMB Exhibit 300 as the primary documentation
for summarizing the business case for each IT project, and as the foundation for IT budget justifications, IT acquisition
approvals, and major system reviews. This provides the Department with a consistent foundation for monitoring the
selection, control, and evaluation of major IT investments, helping ensure that proposed investments contribute to the
Department’s strategic vision, mission requirements, and performance goals. It also helps ensure that the operating units
employ sound IT investment methodologies, comply with Departmental and federal architectures, and provide the highest
return on the investment at acceptable project risk.

The OCIO has worked closely with the Office of Budget to establish a framework and schedule for linking the IT
investment review of proposed initiatives with the budget process. As initiatives are developed by the operating units for
submission to the Department, those initiatives that have a significant IT component are reviewed by the OCIO. Major
proposals are reviewed by the Department’s CITRB, which is co-chaired by the CIO and the Chief Financial Officer (CFO)
and Assistant Secretary for Administration, and whose members include the Department’s Budget Officer, Procurement
Executive, Director for the Office of Financial Management, and selected operating unit CIOs. The CITRB evaluates
proposals relative to contribution to the mission, role in maintaining or achieving key performance results, IT security
and privacy management and funding, risk management, acquisition strategy, the viability and appropriateness of the IT
solution including conformance to Departmental and federal architectures, and overall project management. Guidance
for improving project proposals is provided by the CITRB and OCIO staff. This process results in the identification of IT
investment initiatives that have sound IT management proposals.

In addition to the aforementioned focus, the CITRB continues to place emphasis on the link between proposed IT
investments and the qualifications of the IT project managers and contracting officers who manage the Department’s
IT programs. The CITRB ensures that high-quality certification and accreditation packages, which are critical to the
confidentiality, integrity, and availability of the Department’s IT investments, are in place. By ensuring that qualified
managers are available for these programs, the risk associated with large-scale IT investments is significantly reduced.
The OCIO leads a continuing training process for IT project managers, working together with the OHRM, to ensure that
the Department has a pool of well-qualified IT project managers to be assigned to new or continuing projects.

As part of the Department’s risk reduction efforts, the OCIO submits updated reporting and provides CIO ratings for
32 business cases to the federal IT dashboard each month, demonstrating to the public the sound management of
the Department’s IT investments. Based on the findings of the Department’s monthly dashboard review process, an
investment may be identified as requiring either a CITRB review or for a specific major problem, a TechStat. The TechStat
process is a face-to-face, risk-based review by the Department’s senior management that produces corrective action
strategies for any of the Department’s major IT investments which are underperforming or at high risk of underperforming.

On average, the Department achieved within 20 percent of its cost, schedule, and performance targets for the major IT
investments undergoing development and enhancement. This was in large part due to the inability of investments to
implement their original project plans due to drastic budget fluctuations in their budgets throughout the year because of
the prolonged Continuing Resolution and then the sequester.




                                                                                                                                      13
                                                                           FY 2013 AGENCY FINANCIAL REPORT
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




        To provide rigorous analysis of cost, schedule, and performance, in support of the risk review process, the Department
        systematically uses Earned Value Management (EVM) data for major IT investments under development. This provides
        regular monitoring of the performance of Departmental projects and early warning of projects that may not be meeting
        cost, schedule, or performance goals, allowing course correction to bring the development effort back on track, if needed.
        The EVM analysis has been supported by focused training sessions on EVM techniques.

        In addition, operating unit CIOs and major investment owners are required to conduct operational analyses to certify
        that steady-state investments meet cost, schedule, and performance goals. The operating unit reviews of proposed
        and continuing projects are also supplemented with formal evaluation or post-implementation reviews by the CITRB.
        The approach helps ensure all project managers can benefit from lessons learned from other implementation efforts.


        Future Efforts

        The Department is actively proceeding with future plans to respond to the ever changing IT security environment.

        Using new and existing tools and programs, the Department will continue to address significant areas of deficiency and
        strengthen its IT security posture in FY 2014. The Department will leverage the ECMO tool to gain visibility and oversight
        of continuous monitoring throughout the Department. The Department will also work to launch the ESOC to centralize
        management of IT security-related events and continue to implement the PIV program to deliver multifactor logical access
        to Office of the Secretary users.

        The Department will continue to leverage its CSAM tool to track and manage risk and identify IT security weaknesses.
        The HCHB IT Security Shared Services working group will continue to identify common controls and shared services to
        improve and standardize IT security controls within participating bureaus. The Department is also moving forward with
        plans to update and revise the Department’s standards and policies as new guidelines become available.

        In conclusion, the OCIO is able to provide reasonable assurance that management controls are in place and operating
        effectively to oversee and manage the Department’s significant investments in IT. Where the cost, schedule, or
        performance goals of IT investments are not yet being fully achieved, the processes in place have detected the problems
        and directed corrective action.




  14          FY 2013 AGENCY FINANCIAL REPORT
                                                                             M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Other Internal Control Enhancement Activities Continue

During FY 2013, the Department’s OMB Circular A-123 Appendix A review and assessment included the following:

●●   Utilized the Senior Management Council to implement, direct, and oversee the assessment process, and the Senior
     Assessment Team to develop OMB Circular A-123 planning documentation, administer internal control test plans, and
     monitor and review the test work;

●●   Updated Departmental sampling plan and Department-wide testing templates for selected key processes/sub-
     processes;

●●   Each of the Department’s bureaus has completed an entity-level controls assessment as required by OMB Circular
     A-123, Appendix A;

●●   Utilized contractor assistance with performing quarterly validation and verification of acquisition and administrative
     savings including selecting samples and reviewing supporting documentation;

●●   Analyzed the results of the overall effort to assess and document the adequacy of the Department’s internal controls
     in order to develop the annual statement of assurance issued by the Secretary and published in the FY 2013 Agency
     Financial Report;

●●   Utilized contractor assistance with consolidating and analyzing the OMB Circular A-123 Appendix A review lead sheet at
     each of the applicable bureaus including assessing and documenting the findings and recommendations for corrective
     actions (if applicable) at the Department level; and

●●   Initiated the planning phase of the creation of the Office of Forensic Accounting (OFA). Throughout FY 2013, the
     Department has performed research into best practices in order to develop the roles and duties of OFA.


SECTION 4 OF FMFIA – INTERNAL CONTROLS OVER FINANCIAL MANAGEMENT SYSTEMS

As reflected in the following table, the Department has reported no material weaknesses under FMFIA Section 4 in
recent years.

NUMBER OF MATERIAL WEAKNESSES UNDER SECTION 4

                   NUMBER AT BEGINNING                                                                NUMBER REMAINING AT
                      OF FISCAL YEAR           NUMBER CORRECTED            NUMBER ADDED                END OF FISCAL YEAR

 FY 2009                     0                          0                          0                               0

 FY 2010                     0                          0                          0                               0

 FY 2011                     0                          0                          0                               0

 FY 2012                     0                          0                          0                               0

 FY 2013                     0                          0                          0                               0


Based on reviews conducted by the Department and its bureaus for FY 2013, the financial systems in the Department are
compliant with GAO principles and standards, the requirements of the CFO Act, and OMB requirements.




                                                                                                                                       15
                                                                             FY 2013 AGENCY FINANCIAL REPORT
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                 FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA) OF 1996




         
        U nder FFMIA, the Department is required to have financial management systems that comply with federal financial
        management system requirements, federal accounting standards, and the U.S. Government Standard General Ledger at
        the transaction level. In FY 2013, the Department remained in compliance with FFMIA.


                                                          REPORT ON AUDIT FOLLOW-UP




         
         T he Inspector General Act, as amended, requires that the Secretary report to Congress on the final action taken for
         Inspector General audits. This report covers Commerce Department audit follow-up activities for the period June 1, 2012,
         through May 31, 2013.

        SUMMARY OF ACTIVITY ON AUDIT REPORTS
        JUNE 1, 2012 THROUGH MAY 31, 2013

                                                                           FUNDS TO BE PUT TO            NONMONETARY
                                          DISALLOWED COSTS1                   BETTER USE2                  REPORTS3             TOTAL
                                    NUMBER OF                          NUMBER OF                           NUMBER OF
                                     REPORTS              DOLLARS       REPORTS         DOLLARS             REPORTS           REPORTS

         Beginning Balance               20          $	28,822,087          3        $	709,996                   27                50

         New Reports                     25              17,846,288        7          64,942,838                24                56

         Total Reports                   45             46,668,375        10          65,652,834                51               106

         Reports Closed                  (14)            (8,617,789)      (3)            (300,501)             (23)              (40)

         Ending Balance                  31          $	38,050,586          7        $	65,352,333                28                66
         1.	 Disallowed costs are questioned costs that management has sustained or agreed should not be charged to the government.
         2. 	“Funds to be Put to Better Use” refers to any management action to implement recommendations where funds should be applied
             to a more efficient use.
         3.	Includes management, contract, grant, loan, and financial statement audits with nonmonetary recommendations.


                                                             BIENNIAL REVIEW OF FEES


        OMB Circular A-25 Revised, User Charges, requires the biennial review of agency programs to determine whether
        fees should be charged for government goods or services, and to ascertain that existing charges are adjusted to reflect
        unanticipated changes in costs or market values.

        The Department’s bureaus conduct reviews of its programs at least biennially, with some bureaus conducting annual reviews.
        The Department is in compliance with the requirement to adjust its fees to meet the Circular A-25 Revised requirement
        of full-cost recovery for user charges.




  16          FY 2013 AGENCY FINANCIAL REPORT
Financial S ection
MESSAGE FROM THE CHIEF FINANCIAL OFFICER




Message from the Chief Financial Officer

T
       his FY 2013 Agency Financial Report provides financial and high-level program performance information to enable the
       Department’s stakeholders to understand and evaluate the Department’s achievements relative to its mission and
       resources. The Department is committed to operational excellence and providing outstanding service to our customers.
This includes providing the public with highlights of our performance, and detailed financial information. This report also
fulfills several statutory requirements, including the Reports Consolidation Act of 2000, the Chief Financial Officers Act, the
Federal Managers’ Financial Integrity Act (FMFIA), and the Government Management Reform Act.

For FY 2013, the Department achieved an unqualified audit opinion for the fifteenth consecutive year. The Department made
significant progress toward remediating the material weakness identified in FY 2012 related to the National Oceanic and
Atmospheric Administration (NOAA) financial management oversight. These efforts resulted in the material weakness being
reduced to a significant deficiency relating to the accounting for property at NOAA. The Department continued to have a
significant deficiency in Department-wide information technology (IT) relating to segregation of duties, access controls, and
configuration management. We will continue making improvements as it relates to the accounting for property and IT, and
will continue to aggressively strengthen those controls in FY 2014.

The Department is enhancing financial and non-financial controls under FMFIA and Office of Management and Budget (OMB)
Circular A-123. The Department has provided an unqualified statement of assurance that its internal controls and financial
management systems meet the objectives of FMFIA, and that internal controls operated effectively.

The Department’s leadership continues its commitment to our employees and to providing our employees the tools and
services they need to meet our mission. This includes streamlining internal processes and providing more effective enterprise
approach for our key services. This will not only allow for better service delivery, but also smarter and more efficient, effective
use of taxpayer resources.

For example, in 2013 we continued to implement our enterprise-wide Human Resource System, moving from a manual-based
human resource system into one Department-wide solution, with full implementation expected by the end of FY 2014. In
FY 2013 we began the planning phase of the Business Application Solutions (BAS), which is an enterprise shared service
approach with a federal partner agency. BAS will result in Department-wide data standardization supporting data transparency
and enhanced information analysis and decision-making. We also fully implemented the Acquisition Improvement Policy,
which is a Department-wide effort to provide more effective and timely oversight of major acquisition activities. We did this
all while exceeding our target of $176 million in administrative savings.

These are just a few examples that our talented and diverse workforce has demonstrated in FY 2013, with their commitment
to integrity, first-rate customer service, effective stewardship of taxpayer resources, and overall operational excellence.
We will continue this commitment in FY 2014. Our updated Strategic Plan which will be available in 2014 will provide direction
for new initiatives and priorities and position the Department for continued success in the years ahead.




                                                                Ellen Herbst
                                                                Chief Financial Officer
                                                                and Assistant Secretary for Administration
                                                                December 16, 2013



 18         FY 2013 AGENCY FINANCIAL REPORT
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




                    Financial
            M anagement
            and A nalysis
                                                                                  F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




                          F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




U
      nder the Secretary’s leadership, the Department is continuing to give the highest priority to providing accurate financial
      data to its internal and external customers, and to its accountability for all assets. Ensuring that there are strong internal
      controls throughout the Department remains a priority. The Department has created a financial management environment
that complies with federal laws and regulations and that provides its executives with timely, accurate financial and performance
information. This is evidenced with the Department continuing to receive unqualified audit opinions, maintaining a single
integrated financial system, and continuing its compliance with the Federal Financial Management Improvement Act (FFMIA).

Highlights of accomplishments for FY 2013 and future initiatives are discussed further below.



                                           FINANCIAL MANAGEMENT SYSTEMS

The Department maintains an FFMIA-compliant financial management system, the Commerce Business Systems (CBS). CBS
provides reliable, timely information within a sophisticated security infrastructure. The system is capable of producing both
financial and budget reports from information generated within the financial management system. CBS consists of a Core
Financial System, including the Commerce Purchase Card System and the Budget and Execution Data Warehouse. CBS is
interfaced with the Commerce Standard Acquisition and Reporting System (CSTARS), the National Finance Center Payroll System,
and the Automated Standard Application for Payments (ASAP).

The financial information from CBS is integrated in the Corporate Database for consolidated financial reporting, resulting in a
single integrated financial management system. The Corporate Database is a commercial, off-the-shelf software package for
consolidating financial data and producing financial reports. The Corporate Database is an integrated solution that provides
financial statements and Adjusted Trial Balances reported at the Department, bureau, and U.S. Department of the Treasury
(Treasury) Appropriation/Fund Group level. It also provides the ability to perform data analysis and produce the Department’s
footnotes, financial analysis reports, and other additional information required for the government-wide financial statements.

During FY 2013, the Department accomplished the following initiatives:

   ●●   Continued Operations and Maintenance (O&M) activities for CBS;

   ●●   Continued definition and planning for the Business Application Solutions (BAS) project that will modernize the Department’s
        financial and administrative business systems;

   ●●   Completed Initiation and Discovery phases for BAS, including engagement with the U.S. Department of Transportation’s
        (DOT) Enterprise Services Center (ESC) to explore the feasibility of the Department using the DOT ESC Federal Shared
        Service Provider (FSSP) solution to modernize the Department’s core financial, acquisition, property, and data warehouse
        capabilities;

   ●●   Began the Planning phase to develop detailed plans for the implementation of BAS;

   ●●   Continued maintenance for the C.Suite application—CSTARS contract writing and management system—for the National
        Oceanic and Atmospheric Administration (NOAA), Office of the Secretary, National Institute of Standards and Technology
        (NIST), and the Census Bureau;




                                                                                                                                      21
                                                                             FY 2013 AGENCY FINANCIAL REPORT
F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




   ●●   Completed the design, development, and testing of the Six-digit U.S. Standard General Ledger, Accelerated Payments to
        Small Businesses, Summary Level Transfer, and ASAP modifications to CBS and deployed into production;

   ●●   Continued design and development of modifications to CBS to accommodate several new federal mandates, including
        the Government-wide Treasury Account Symbol Adjusted Trial Balance System (GTAS), Payment Application Modernization
        (PAM), and Central Contractor Registration – System for Award Management (CCR-SAM);

   ●●   Completed several technical CBS upgrades, including Fusion Middleware/WebLogic and Single Sign On to Oracle Access
        Manager upgrade;

   ●●   Completed the Oracle database migration to 11g and the upgrade of two of the three bureau’s production environment
        hardware and operating systems;

   ●●   Continued enhancement of the Commerce Community Connector, a central location for the Department’s financial
        and administrative management communities to share information about best practices, challenges and solutions, and
        deadlines;

   ●●   Deployed the production version of the Process Toolbox that describes processes and provides the tools, templates, and
        samples to support the effective management of initiatives and provide guidance on how to perform project management
        and solution deployment activities;

   ●●   Deployed content for the Department’s Enterprise Risk Management (ERM) Framework in the Process Toolbox that
        describes processes and provides the tools, templates, and samples to support the effective enterprise risk management
        in compliance with Department-approved ERM processes;

   ●●   Deployed the redesigned Project Dashboard that provides a Web-based, online graphical view of the Chief Financial Officer
        (CFO)/Assistant Secretary for Administration (ASA) Information Technology (IT) project portfolio, supports communication
        of project status, provides a project document repository, and facilitates IT project status review processes;

   ●●   Completed an inventory and analysis of all CFO/ASA IT systems and projects to support effective IT system portfolio
        management and decision-making;

   ●●   Created an initial draft of the CFO/ASA IT Governance Framework (in alignment with the Department Acquisition Framework
        Policy) to inform and support IT system and project decision-making and CFO/ASA IT planning, policy, and operations;
        ensure that risks are managed appropriately; and verify that resources are being used responsibly and strategically;

   ●●   Continued to assess the Invoice Processing Platform (formerly known as Internet Payment Platform) solution approach and
        next steps; and

   ●●   Maintained and enhanced the Department’s Executive Dashboard application (DASHER). The DASHER provides a
        Department-wide, executive-level overview of the Department’s highest priority and highest risk mission and administrative
        initiatives, including High-Priority Performance Goals, Risk Management, Financial Management, Customer Service, Human
        Capital and Administrative Metrics, as well as more Operational Initiatives such as Acquisition Metrics, Sustainability, and
        Program Results.




  22          FY 2013 AGENCY FINANCIAL REPORT
                                                                                 F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




In FY 2014 and beyond, the Department will continue its efforts to enhance its financial systems. The Department plans to
accomplish the following:

  ●●   Continue O&M activities for CBS;

  ●●   Continue Planning phase and begin Phase I Implementation for BAS;

  ●●   Continue stakeholder outreach, incorporate stakeholder feedback, and include additional process guidance in the production
       version of the process;

  ●●   Complete the design, development, and testing of the GTAS, PAM, ASAP Phase 2, and CCR-SAM modifications to CBS
       and deploy into production;

  ●●   Deploy content for the Department Acquisition Framework Policy in the Process Toolbox that describes processes and
       provides the tools, templates, and samples to support stakeholder communication and organizational compliance with
       Department-approved policy;

  ●●   Develop the initial functional and technical design for the redesigned Modernization Blueprint Portal that will provide CFO/
       ASA IT system portfolio information;

  ●●   	Continue to maintain and enhance the DASHER; and

  ●●   Maintain and enhance the Commerce Community Connector.



                                                   FINANCIAL REPORTING

The Department accomplished the following initiatives that resulted in meeting the aforementioned goals:

  ●●   I	 n 2013, the Department completed payment recapture audits of contracts/obligations for NIST and NOAA, and Department-
        wide grants and other cooperative agreements;

  ●●   Each of the Department’s bureaus/reporting entities continued to prepare or update improper payment risk assessments
       covering all programs/activities as required by the Office of Management and Budget (OMB) Circular A-123,
       Appendix C, Requirements for Effective Measurement and Remediation of Improper Payments. These improper payment
       risk assessments of the entity’s programs/activities also include assessments of the control, procurement, and grants
       management environments, and are now in the continuous process stage of being updated every three years, unless
       significant changes occur, in which case an assessment will be updated more quickly;

  ●●   Implemented in FY 2013, for applicable bureau payment offices, pre-payment eligibility reviews in Treasury’s Do Not Pay
       portal solution;

  ●●   Implemented, effective FY 2013, for NIST and NOAA, Technical Bulletin 2006-1, Recognition and Measurement of Asbestos-
       related Cleanup Costs, which clarifies required recognition of liabilities and expenses for asbestos-related cleanup costs;




                                                                                                                                     23
                                                                             FY 2013 AGENCY FINANCIAL REPORT
F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




   ●●   Piloted, across the Department, full reporting of accounting information on a transactional basis in Treasury’s financial
        systems;

   ●●   Continued to review and validate conference spending to confirm accuracy and compliance with Department policies,
        Federal Travel Regulation (FTR), Federal Acquisition Regulation (FAR), and regulations promulgated by other regulatory
        bodies;

   ●●   Facilitated intragovernmental transaction reconciliations using the Department’s Corporate Database application to
        collect, extract, and report on a quarterly basis its intragovernmental account balances, by trading partner, to Treasury.
        The Department took a proactive approach of initiating contact with all trading partner agencies to reconcile large
        differences. Although the Department has seen an improvement in trading partners’ participation, continued improvement
        is needed in order to reconcile all differences;

   ●●   Quarterly financial metrics were compiled, analyzed, and reported to individual bureaus, which also included a status report
        comparing bureau results with Departmental goals. The results of bureaus’ metrics and any corrective actions needed
        were discussed at the bureau CFO’s individual monthly meetings; and

   ●●   Published guidance on the preparation and submission of financial statements, including a calendar of milestone dates.
        Each quarter, with the participation of all bureaus, guidance was reviewed and updated to reflect lessons learned and to
        identify best practices among the bureaus. When necessary, task forces were formed to resolve issues that could have
        impeded the Department’s ability to produce timely, accurate financial statements.

In FY 2014 and beyond, the Department plans to accomplish the following:

   ●●   Continue to monitor and minimize improper payments, including the performance of payment recapture audits, and carry
        out the FY 2014 implementation for applicable bureau payment offices of pre-payment eligibility reviews in Treasury’s Do
        Not Pay portal solution;

   ●●   Improve the appropriate use of the Purchase Card Convenience Checks by continuing to monitor and evaluate compliance of
        the Department’s Purchase Card Convenience Check usage with FAR, OMB Circular A-123 Appendix B Revised, Improving
        the Management of Government Charge Card Programs, and Commerce Acquisition Manual 1313.301, Purchase Card
        Program;

   ●●   I	mplementation across the Department of full reporting of accounting information on a transactional basis in Treasury’s
         financial systems;

   ●●   Improve safeguards and internal controls regarding the Department’s overall travel card program through the development
        of data analytics methodologies and metrics that will be used to monitor travel card transactions;

   ●●   Continue to work with OMB, Treasury Department, and the government-wide Central Reporting Team to improve the
        intragovernmental transactions reconciliation process; and

   ●●   Continue to work with the Treasury Department to implement GTAS for production FY 2015, except for U.S. Patent and
        Trademark Office (USPTO), which will be implementing GTAS in FY 2014 for expenditure fund groups.




  24          FY 2013 AGENCY FINANCIAL REPORT
                                                                               F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




                                                 GRANT MANAGEMENT

Under the CFO/ASA, the Office of Acquisition Management (OAM) is responsible for the Department’s enterprise-wide grants
management policy, projects, and oversight. The Department’s focus is to standardize policies and procedures for its grant
and cooperative agreement programs in order to strengthen compliance, work toward a single automated grants management
system, and enhance/formalize workforce education. Targeted efforts continue to transform the decentralized Department grants
management community into an effective and efficient partnership. The sharing of resources and responsibilities to accomplish
enterprise goals is a recurring theme throughout the partnership effort.

An important feature of the Department’s effort to move aggressively into the world of electronic grants management is the
continued use of NOAA’s Grants OnLine system. NOAA administers almost two-thirds of the Department’s financial assistance
programs. Grants OnLine is designed to facilitate efficiencies through standardized business processes and provide a direct
interface to other Departmental systems and with grant recipients. It continues to demonstrate significant success in reducing
paperwork, increasing accountability, and simplifying the post award process.

The Department is in the process of migrating NIST and the Economic Development Administration (EDA) to NOAA’s Grants
Online. The current stove piped configuration of separate bureau grant management systems is not conducive to maximum
efficiency in resource and time management. At this point, EDA has completed its charter for consolidation with Grants OnLine
and NIST is in the process of completing its charter.

OAM coordinates regular Departmental Grants Council meetings and works closely with the Office of Inspector General (OIG)
and the Office of General Counsel (OGC) to implement sound policy and ensure consistency for the Department’s financial
assistance programs. The Department is committed to the goal of strengthening its grant operations and improving its business
processes to provide better services to its customers in the federal grant recipient community, and the Grants Council is OAM’s
platform for achieving that goal.

The Department revised its Pre-Award Notice, Grants, and Cooperative Agreements Manual (Grants Manual), and Standard
Terms and Conditions resulting in the publication of these three critical policy guidance documents in the second quarter of
FY 2013. OAM has established a schedule that updates these policy guidance documents on an annual basis that will keep the
Department on pace with the rapidly changing federal financial assistance programs.

The Grants Overview, established in FY 2012, strengthens oversight and provides insight into the extent to which the Department
grants management process functions efficiently and effectively. The Grants Overview examined the status of awards by dollars
in various phases of the grants management process. Risk factors were identified and shared with the Department grants
community.

One of the risk factors identified by the Grants Overview revealed the significant backlog of expired and unexpired
financial assistance awards that are pending closeout but the recipient organization is no longer in existence or is
unresponsive to bureau notifications and requests for information and documentation relative to the closeout of the
award. Accordingly, this information was shared with the Department grants community via the Grants Council and a
tiger team was established to resolve the issue. As a result of this team’s efforts, the Policy for the Unilateral Termination
and/or Administrative Closeout of Certain Financial Assistance Awards when a Recipient is No longer in Existence or
is Unresponsive to Bureau Notifications and Requests for Information was implemented in August 2013. The guidance
provides a policy for Department Grants Officers to effectuate a unilateral termination and/or an administrative closeout of:




                                                                                                                                   25
                                                                          FY 2013 AGENCY FINANCIAL REPORT
F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




   1.	 Expired and unexpired awards pending closeout where the recipient is no longer in existence; and

   2.	 Expired awards pending closeout where the recipient is in existence, but is unresponsive to bureau notifications and
       attempts to contact.

This guidance does not apply to unexpired awards where the recipient is in existence, but is materially non-compliant with the
terms and conditions of the award. In such cases, Grants Officers should take appropriate enforcement action under the award
in accordance with 15 C.F.R. §§ 14.60 – 14.62 or 15 C.F.R. 24.43 (as applicable); the terms and conditions of the award; Chapter
11, ‘Enforcement,” of the Grants Manual; and bureau policy. Once an active award is terminated, such an award may become
subject to this guidance.

This guidance also does not apply to recipients that are a party to an active bankruptcy case which, in accordance with Chapter
4.C.1.b.(4) of the Grants Manual should be coordinated with OGC’s General Litigation Division with such coordination generally
through OGC’s Federal Assistance Law Division (FALD). OGC’s General Litigation Division (through FALD) will also be consulted
where a recipient is dissolved or reorganized upon an order of the U.S. Bankruptcy Court.

Preliminary feedback from Department bureaus suggests that this new policy should facilitate expedited closeout of awards that
fall within this category.

The Grants Overview also includes tracking of pre-award and post-award requirements such as audit resolution and compliance
with negotiated indirect cost rate requirements. The Overview monitors and analyzes these two phases with monthly reports
intended to prompt closer monitoring of the financial assistance award. These are just some of the examples of key activities
of the grants life cycle addressed by the Grants Overview and the Grants Council. Note: in FY 2013 OAM transferred the
responsibility for the negotiation of indirect cost rates back to the respective grant-making bureaus. The Departmental review
concluded that decentralizing this function by moving it back to the bureau grant offices responsible for enforcing the requirement
would result in stronger monitoring and a more efficient business process.

The Grants Overview is regularly updated and serves as a framework for OAM’s effort to reach out to the Department’s grant-
making bureaus to energize the oversight relationship. It has served as the basis for meetings and ongoing dialogue with
each Department bureau to create a path forward for the development of more efficient business practices and tighter internal
controls in the administration of Departmental financial assistance awards.

As of FY 2013, the Department continues to be up-to-date with its three major grant making bureaus—NIST, NOAA, and EDA—
providing accurate and complete prime federal award financial data to USAspending.gov, consistent with the goal established in
the FY 2008 Performance and Accountability Report. The data is downloaded from their respective core financial systems and
uploaded monthly to USASpending.gov through the Data System Validation Tool. In June 2013, the Deputy Controller of OMB
transmitted a memorandum to all agency CFOs in an effort to improve the quality of financial data reported to USASpending.gov.
The Department is in complete compliance with this directive.

OAM will continue to actively seek opportunities to support government-wide goals of transparency and data quality management.




  26          FY 2013 AGENCY FINANCIAL REPORT
                                                                                F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




                                                      HUMAN CAPITAL

Both the President and Congress recognize that the federal workforce is central to the delivery of services to the U.S. public.
Acknowledging that people are the key to mission accomplishment, Departmental leadership continues to implement and
evaluate programs to ensure that there is succession planning in the area of financial management. Internships, leadership
development programs, technical training opportunities, telework, and succession plans are used as vehicles for making
progress in the recruitment, development, and retention of a highly-skilled and diverse workforce. Internship programs provide
students and recent graduates an opportunity to gain hands-on experience, while introducing potential future employees to
the opportunities that exist at the Department. Ongoing training and development opportunities are offered as a component
of continuous learning in the area of financial management. Telework is encouraged as a means of promoting a healthy work/
life balance for sustainable productivity. Succession plans are used to ensure a continuity of operations within the most critical
financial management positions.

The Department continued its recruitment efforts in the area of financial management by hiring student and recent graduate
trainees through the Pathways Programs—the Internship Program, Recent Graduates Program, and Presidential Management
Fellows Program. Collectively, these programs offer federal internships for students in high school through post-graduate
school and career opportunities for recent graduates, providing meaningful training and career development opportunities for
individuals who are at the beginning of their federal service. In FY 2013, the Department hosted 14 Pathways Programs trainees
as accountants and budget analysts, including seven new hires and two who were converted to permanent positions. Trainees
were located within finance and accounting offices in the Bureau of Economic Analysis, Census Bureau, International Trade
Administration, and NOAA.

Developmental opportunities for financial management professionals included the Department’s flagship leadership development
programs, online training courses, and traditional classroom courses and seminars. As one of the Department’s recognized
mission-critical occupations, accounting and budgeting series employees at the GS-13 through GS-15 and equivalent levels are
eligible to apply for the following major leadership development programs: Executive Leadership Development Program and Senior
Executive Service Candidate Development Program. Program activities include competency assessments, formal classroom
training, developmental assignments, seminars, action learning task team projects, and mentoring sessions. The Commerce
Learning Center (CLC), the Department’s Learning Management System, offers 69 Department-wide and bureau-specific online
financial management courses that were completed by 71 employees in the 0500 accounting and budgeting occupational group
and by an additional 502 employees in other occupations, during FY 2013. The CLC also recorded 187 employees in the 0500
occupational group attending 77 financial management classroom courses.

To maintain a highly-skilled financial management workforce, the Department’s retention and succession strategies include
the increased use of telework and development of succession plans. In FY 2013, approximately 32 percent of accounting and
budgeting employees engaged in telework, which is used by the Department to position itself as an “employer of choice” in
attracting qualified employees, facilitating employee work/life balance, increasing employee satisfaction and engagement, and
ultimately increasing employee productivity. Additionally, in accordance with the Balanced Scorecard’s Workforce Excellence
guidance, the Office of the Secretary’s Office of Financial Management has developed a succession plan that focuses on
high-impact, high-risk positions. The plan will be incorporated into the CFO/ASA Succession Plan by the end of FY 2013.




                                                                                                                                    27
                                                                            FY 2013 AGENCY FINANCIAL REPORT
F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




                                              RECEIVABLES AND DEBT MANAGEMENT




T
     he Department provides policies and procedures for the management and collection of non-tax debts owed to Departmental
     entities in its debt collection regulations, Commerce Debt Collection, which adopts and incorporates all provisions of the
     Federal Claims Collections Standards (FCCS), which were jointly published by Treasury and the U.S. Department of Justice.
The Department’s debt collection regulations supplement FCCS by prescribing procedures consistent with FCCS, as necessary
and appropriate for Departmental operations. FCCS clarifies and simplifies federal debt collection procedures and reflects changes
under the Debt Collection Improvement Act of 1996 and the General Accounting Office Act of 1996. The Department also
provides guidance for debt management and collection in its Credit and Debt Management Operating Standards and Procedures
Handbook, to ensure that consistent debt management practices are established and followed throughout the Department, and
to establish and enhance Departmental management practices.




The Debt Collection Improvement Act of 1996 established Treasury as the collection agency for eligible federal agency debts that
are more than 180 days delinquent. It also established Treasury’s Financial Management Service as the federal government’s debt
collection center.

The Department’s gross receivables decreased 14.8 percent, from $620 million at September 30, 2012 to $528 million at September
30, 2013, as reported on the Department’s Treasury Report on Receivables (TROR). TROR is the primary means for the Department
to provide comprehensive information on its gross receivables and delinquent debt due from the public. Debt over 180 days
delinquent increased from $2 million at September 30, 2012 to
$6 million at September 30, 2013. Total delinquencies as a
percentage of gross receivables increased from 1.0 percent at
September 30, 2012 to 2.5 percent at September 30, 2013.
Approximately $47 million in delinquent debt has been referred
to Treasury for cross-servicing since FY 2002.

Prescreening procedures, account-servicing standards, deter-
mined collection of delinquent debt, and extensive referrals of
delinquent debt to Treasury which includes the Treasury Offset
Program have all contributed to effective debt management.




  28          FY 2013 AGENCY FINANCIAL REPORT
                                                                                 F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




                                                   PAYMENT PRACTICES


Prompt Payment




T
     he Prompt Payment Act of 1982 generally requires agencies
     to pay their bills to vendors on a timely basis (within 30
     days of receipt of relevant documents), and to pay interest
penalties when payments are made late. The Department closely
monitors its prompt payment performance, and the bureaus
submit quarterly reports of prompt payment performance to the
Deputy CFO.

The Department has maintained its prompt payment
performance of 99 percent in FY 2013 from 99 percent in
FY 2012. The number of invoices with late-payment interest
penalties decreased significantly to 1,994 in FY 2013 from 2,562 in FY 2012. The Department continues to focus on improving
its prompt payment percentage by working closely with its bureaus to identify opportunities for new or improved business
processes. Most of the Department will be transitioning to DOT ESC which will become the Department’s federal shared-service
provider for accounting services. As such, the Department would in large part adopt ESC’s Internet-based invoice processing
system. USPTO will not be transitioning to ESC, and will instead maintain its own financial system. USPTO is planning to kick
off a series of projects starting in 2015 with the purpose of implementing an Internet-based invoice processing system.

A July 2012 OMB memorandum, Providing Prompt Payment to Small Business Subcontractors, established the executive branch
policy, that, to the full extent permitted by law, agencies shall take steps to ensure that prime contractors are able to pay their
small business subcontractors in a prompt fashion. In particular, agencies should, to the full extent permitted by law, temporarily
for one year accelerate payments to all prime contractors, in order to allow them to provide prompt payments to small business
subcontractors. Agencies shall make payments to all prime contractors as soon as practicable, with a goal of paying all prime
contractors within 15 days of receiving proper documentation. The Department implemented in July 2012 this new payment
policy for all prime contractors, and is monitoring bureaus’ monthly performance. A July 2013 OMB memorandum, Extension of
Policy to Provide Accelerated Payment to Small Business Subcontractors, extends the temporary policy by one year, to July 11,
2014. This extension will allow OMB and agencies to continue to evaluate the impact of accelerated payment on small business
subcontractors. The Department’s acquisition offices are also taking appropriate actions with prime contractors regarding new
and existing contracts to help maximize accelerated payments to small business subcontractors.

Bankcards

The Department is committed to the use of bankcards (purchase cards) as a means to improve mission support by streamlining
the procurement and payment processes, and reducing administrative costs. The Department has implemented more effective
training, oversight, and risk management reviews in order to enhance the purchase card program. Purchase card usage is closely
monitored, and those accounts that are no longer needed are promptly closed. In addition, purchase card accounts without any
activity within the preceding 18-month period are considered “inactive” and are closed unless there are extenuating circumstances.
More customized training requirements for cardholders, approving officials, and program coordinators have been instituted in order
to enhance knowledge of the use and management of the purchase card, administration of the purchase card program, and card
maintenance. This has contributed to a steady decrease in the number of purchase cards issued and in use by the Department.




                                                                                                                                     29
                                                                             FY 2013 AGENCY FINANCIAL REPORT
F I N A N C I A L M A N A G E M E N T A N D A N A LY S I S




Based on the results of OMB Circular A-123, Management’s Responsibility for Internal Control, Appendix A testing by the
Department in FY 2012, the purchase card sub-process continued to present a significant deficiency for the Department.
During FY 2013, OAM updated its purchase card policy to enhance the review and approval process. The Department also
developed and implemented a customized in-class training curriculum and is in the process of developing online purchase card
refresher training. The Department is additionally working closely with bureaus to ensure that appropriate planned corrective
actions were implemented on time. The Department will continue to monitor the internal controls surrounding the purchase card
program and perform the necessary testing to validate whether the proper controls are in place during FY 2014.



                                         LIMITATION S OF THE FINANCIAL STATEMENTS




T
     hese financial statements have been prepared to report the overall financial position and results of operations of the
     Department, pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have been prepared from the books
     and records of the Department in accordance with the form and content prescribed by OMB, the statements are in addition
to the financial reports used to monitor and control budgetary resources that are prepared from the same books and records.

These financial statements should be read with the realization that they are for a component of the U.S. government, a sovereign
entity. One implication of this is that liabilities cannot be liquidated without legislation that provides the resources to do so.




  30          FY 2013 AGENCY FINANCIAL REPORT
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




A nalysis of F Y 2013
Financial Condition
    and R esults
                                                          A N A LY S I S O F F Y 2 0 1 3 F I N A N C I A L C O N D I T I O N A N D R E S U LT S




     A N A LY S I S O F F Y 2 0 1 3 F I N A N C I A L C O N D I T I O N A N D R E S U L T S


Financial Highlights


                                                          Percentage
(Dollars In Thousands)                                     Change             FY 2013         FY 2012
 As of September 30, 2013 and 2012
 Condensed Balance Sheets:
 ASSETS:                                                                                                               TOTAL ASSETS
 Fund Balance with Treasury                                    -7%          $	18,002,497   $	19,261,281                   (In Millions)

 General Property, Plant, and Equipment, Net                   11%            11,103,844     10,000,512              $30,038        $30,420
 Direct Loans and Loan Guarantees, Net                         -6%               533,692        570,348
 Other                                                        -32%               398,278        587,406
 TOTAL ASSETS                                                -0.1%          $	30,038,311   $	30,419,547              FY 2013        FY 2012

 LIABILITIES:
 Unearned Revenue                                               5%          $	1,461,122       $1,386,503
 Federal Employee Benefits                                      5%              897,191          851,211
 Accounts Payable                                              13%              513,815          452,901
 Accrued Grants                                               -16%              536,711          635,856
 Debt to Treasury                                               4%              575,603          554,281
 Accrued Payroll and Annual Leave                             -19%              467,706          580,715
 Other                                                         30%              314,082          241,846
 TOTAL LIABILITIES                                             1%           $	4,766,230    $	4,703,313

 NET POSITION:
 Unexpended Appropriations                                    -20%          $	5,340,879    $	6,716,434
 Cumulative Results of Operations                               5%            19,931,202     18,999,800
 TOTAL NET POSITION                                            -2%          $	25,272,081   $	25,716,234
 TOTAL LIABILITIES AND NET POSITION                          -0.1%          $	30,038,311   $	30,419,547


 For the Years Ended September 30, 2013 and 2012
 Condensed Financing Sources:
 Appropriations Received, Net of Reductions                    -2%          $	 7,733,541   $	 7,878,808
 Imputed Financing Sources from Cost Absorbed by Others        -1%               295,288        297,694
 Other                                                        -56%               183,372        413,840
 TOTAL FINANCING SOURCES                                       -4%          $	8,212,201    $	8,590,342


                                                                                                                     (continued on next page)




                                                                                                                                              33
                                                                             FY 2013 AGENCY FINANCIAL REPORT
A N A LY S I S O F F Y 2 0 1 3 F I N A N C I A L C O N D I T I O N A N D R E S U LT S




(continued from previous page)

                                                                        Percentage
 (Dollars In Thousands)                                                  Change           FY 2013        FY 2012
  For the Years Ended September 30, 2013 and 2012
  Condensed Statements of Net Cost:
  Theme 1: Economic Growth Net Program Costs                                 -29%       $	2,778,159    $	3,902,083
  Theme 2: Science and Information Net Program Costs                        -0.4%         3,619,659      3,635,663
  Theme 3: Environmental Stewardship Net Program Costs                        -3%         2,089,217      2,144,275
  TOTAL NET COST OF OPERATIONS                                              -12%        $	8,487,035    $	9,682,021

  Total Gross Costs                                                           -7%       $	12,056,144 $	13,018,305
  Less: Total Earned Revenue                                                   7%         (3,569,109) 	 (3,336,284)
  Total Net Cost of Operations                                              -12%        $	8,487,035    $	9,682,021


  For the Years Ended September 30, 2013 and 2012
  Selected Budgetary Information:




  Obligations Incurred                                                        1%        $	12,354,766   $	12,238,097




  Outlays, Gross                                                              -7%       $	13,778,017   $	14,754,794




Composition of Assets and Assets by Responsibility Segment




T
     he composition (by percentage) and distribution (by responsibility segment) of the Department’s assets changed somewhat
     from September 30, 2012 to September 30, 2013. Fund Balance with Treasury decreased from 63 percent of total assets
     to 60 percent of total assets. General Property, Plant, and Equipment (General PP&E), Net of Accumulated Depreciation
increased from 33 percent of total assets to 37 percent of total assets. As a result of the above fluctuations (explained in Trends
in Assets section on the following page), the National Oceanic and Atmospheric Administration’s (NOAA) assets increased from
44 percent of total assets to 47 percent of total assets, and the National Telecommunications and Information Administration’s
(NTIA) assets decreased from 35 percent of total assets to 32 percent of total assets.

Total assets amounted to $30.04 billion at September 30, 2013. Fund Balance with Treasury of $18.00 billion is the aggregate
amount of funds available to make authorized expenditures and pay liabilities. General PP&E, Net of $11.10 billion includes
$6.76 billion of Construction-in-progress, primarily of satellites and weather measuring and monitoring systems; $2.09 billion
of Satellites/Weather Systems Personal Property; $1.28 billion of Structures, Facilities, and Leasehold Improvements; and
$971 million of other General PP&E. Direct Loans and Loan Guarantees, Net of $534 million primarily relates to NOAA’s direct loan
programs. Other Assets of $398 million primarily includes Accounts Receivable, Net of $156 million; Advances and Prepayments
of $129 million; and Inventory, Materials, and Supplies, Net of $100 million.




  34           FY 2013 AGENCY FINANCIAL REPORT
                                                            A N A LY S I S O F F Y 2 0 1 3 F I N A N C I A L C O N D I T I O N A N D R E S U LT S




Trends in Assets

Total Assets decreased $381 million or 0.1 percent, from $30.42 billion at September 30, 2012 to $30.04 billion at September 30,
2013. Fund Balance with Treasury decreased $1.26 billion or 7 percent, from $19.26 billion to $18.00 billion, primarily due to a
$959 million decrease in Fund Balance with Treasury for NTIA’s Broadband Technology Opportunities Program (BTOP) – American
Recovery and Reinvestment Act of 2009 (ARRA) mainly due to payments to grantees for prior-years’ unpaid obligations; and
also due to the Economic Development Administration (EDA) receiving a disaster relief and emergency assistance appropriation
of $200 million in FY 2012 but not in FY 2013. General PP&E, Net increased $1.10 billion or 11 percent, from $10.00 billion to
$11.10 billion, mainly due to an increase of $1.33 billion in NOAA Satellites/Weather Systems Personal Property. Other Assets
decreased by $189 million or 32 percent, from $587 million to $398 million, primarily due to a decrease of $117 million in
Intragovernmental Advances and Payments mainly consisting of a decrease of $74 million in NOAA advances to the Department
of the Navy for the Pacific Region Center construction project and a $37 million decrease in NTIA advances to the U.S. Department
of Transportation and the U.S. Department of Homeland Security for its Digital Television Transition and Public Safety Fund, which
includes the Public Safety Interoperable Communications program and other programs. Other Assets also decreased due to
a $41 million decrease in Accounts Receivable With the Public mainly resulting from a $53 million decrease in NOAA Accounts
Receivable from an oil company for restoration activities in response to the 2010 Deepwater Horizon oil spill.




                                                                                                                                           35
                                                                               FY 2013 AGENCY FINANCIAL REPORT
A N A LY S I S O F F Y 2 0 1 3 F I N A N C I A L C O N D I T I O N A N D R E S U LT S




Composition of Liabilities and Liabilities by Responsibility Segment

The composition (by percentage) and distribution (by responsibility segment) of the Department’s liabilities remained
consistent from September 30, 2012 to September 30, 2013. Total liabilities amounted to $4.77 billion at September 30, 2013.
Unearned Revenue of $1.46 billion represents the portion of monies received from customers for which goods and services have
not been provided or rendered by the Department. Federal Employee Benefits Liability of $897 million is composed of the actuarial
present value of projected benefits for the NOAA Corps Retirement System ($612 million) and the NOAA Corps Post-retirement
Health Benefits ($42 million), and the Department’s Actuarial Federal Employees Compensation Act (FECA) Liability ($243 million),
which represents the actuarial liability for future workers’ compensation benefits. Accrued Grants of $537 million, which relates
to a diverse array of financial assistance programs and projects, includes EDA’s accrued grants of $406 million for its economic
development assistance funding to state and local governments. Accrued Payroll and Annual Leave of $468 million includes
salaries and wages earned by employees, but not disbursed as of September 30, 2013. Debt to Treasury of $576 million consists
of $525 million borrowed for NOAA’s direct loan programs, and also includes $51 million borrowed for NTIA’s Public Safety Trust
Fund and State and Local Implementation Fund. Accounts Payable of $514 million consists primarily of amounts owed for goods,
services, or capitalized assets received, progress on contract performance by others, and other expenses due. Other Liabilities
of $314 million primarily includes Environmental and Disposal Liabilities of $157 million, Accrued FECA Liability of $36 million,
Accrued Benefits of $31 million, the International Trade Administration’s (ITA) Foreign Service Nationals’ Voluntary Separation Pay
Liability of $12 million, Resources Payable to Treasury of $11 million, and Capital Lease Liabilities of $7 million.




Trends in Liabilities

Total Liabilities increased $63 million or 1 percent, from $4.70 billion at September 30, 2012 to $4.77 billion at September
30, 2013. Environmental and Disposal Liabilities increased by $97 million or 161 percent, from $60 million to $157 million,
primarily due to a Prior Period Adjustment of $93 million to record the FY 2013 beginning liability balance as of October 1, 2012
for asbestos-related cleanup costs for the National Institute of Standards and Technology (NIST) and NOAA in conformity with
Technical Bulletin 2006-1, Recognition and Measurement of Asbestos-related Cleanup Costs. Unearned Revenue increased by
$75 million or 5 percent, from $1.39 billion to $1.46 billion, primarily due to an increase in the United States Patent and Trademark
Office’s (USPTO) Unearned Revenue, largely from patent fees. Accounts Payable increased by $61 million or 13 percent, from
$453 million to $514 million, primarily due to an increase of $65 million in NOAA Accounts Payable With the Public largely
resulting from improvements to NOAA’s accrual methodology for Accounts Payable. Federal Employee Benefits Liability
increased $46 million or 5 percent, from $851 million to $897 million, primarily due to an increase of $34 million in the NOAA
Corps Retirement System Liability and a $14 million increase in the Department’s Actuarial FECA Liability.




  36           FY 2013 AGENCY FINANCIAL REPORT
                                                             A N A LY S I S O F F Y 2 0 1 3 F I N A N C I A L C O N D I T I O N A N D R E S U LT S




The increases described above for Total Liabilities are offset in large part by two substantial decreases. Accrued Payroll and
Annual Leave decreased by $113 million or 19 percent, from $581 million to $468 million, due to a significant reduction in the
number of days accrued at September 30, 2013 as compared to September 30, 2012. Accrued Grants decreased by $99 million
or 16 percent, from $636 million to $537 million, in part due to a decrease of $34 million in NIST Accrued Grants which largely
resulted from enhancements in NIST’s accrual methodology for Accrued Grants and from payments made to grantees for costs
incurred for NIST’s ARRA funds for construction of research facilities. Accrued Grants also decreased due to a $25 million
decrease in NOAA’s Accrued Grants mainly due to less grantee costs exceeding NOAA’s grant disbursements, and due to a
$16 million decrease in NTIA’s Accrued Grants resulting from accrual methodology enhancements and a $9 million decrease due
to the winding-down of the Public Telecommunications Facilities, Planning and Construction program and programs under the
Digital Television Transition and Public Safety Fund.

Composition of and Trends in Financing Sources

The composition by percentage of the Department’s financing sources
remained consistent from FY 2012 to FY 2013. The Department’s Financing
Sources, shown on the Consolidated Statements of Changes in Net
Position, are traditionally obtained primarily from Appropriations Received,
Net of Reductions. Appropriations Received, Net of Reductions decreased
by $145 million or 2 percent, from $7.88 billion for FY 2012 to $7.73 billion
for FY 2013, mainly due to funding decreases of $560 million resulting
from significant sequestrations in budgetary resources as well as from
across-the-board rescissions of 1.877 percent and 0.2 percent in certain
discretionary accounts. These decreases were offset by $326 million of
appropriations received by NOAA in FY 2013 as a result of the Hurricane
Sandy supplemental appropriation. On January 29, 2013, the President
signed into law the Disaster Relief Appropriations Act, which provides a
total of $50.5 billion in aid for Hurricane Sandy disaster victims and their communities. NOAA received $326 million of funds
under the act in FY 2013 for Hurricane Sandy recovery and other disaster-related activities. Other typical Financing Sources include
net transfers to and from other federal agencies without reimbursement, and imputed financing sources from costs absorbed
by other federal agencies. Other Financing Sources decreased by $230 million or 56 percent, from $414 million to $183 million,
mainly due to a decrease of $239 million in NOAA Transfers In/Out Without Reimbursement, Net with the National Aeronautics
and Space Administration related to a satellite. Total Financing Sources decreased by $378 million or 4 percent, from $8.59 billion
to $8.21 billion, primarily due to decreases resulting from sequestrations, rescissions, and transfers, offset by the new Hurricane
Sandy supplemental appropriation funding for NOAA in FY 2013.


                                                                                                                                            37
                                                                                FY 2013 AGENCY FINANCIAL REPORT
A N A LY S I S O F F Y 2 0 1 3 F I N A N C I A L C O N D I T I O N A N D R E S U LT S




Composition of FY 2013 Net Cost of Operations

In FY 2013, Net Cost of Operations amounted to $8.49 billion, which consists of Gross Costs of $12.06 billion less Earned
Revenue of $3.57 billion.

Theme 1, Economic Growth, with Net Program Costs of $2.78 billion for
the Department (Gross Costs of $5.67 billion less Earned Revenue of
$2.90 billion), is related to enabling economic growth through innovation
and entrepreneurship, market development and commercialization, and
trade promotion and compliance. Theme 1 includes Net Program Costs
of $(226) million (Gross Costs of $2.49 billion less Earned Revenue
of $2.72 billion) for USPTO patents and trademark programs. The
issuance of patents provides incentives to invent and invest in new
technology by allowing innovators the opportunity to benefit from their
discoveries. Registration of trademarks assists businesses in protecting
their investments and safeguards consumers against confusion and
deception in the marketplace by providing notice of trademarks in
use. Through dissemination of patent and trademark information, the
Department promotes a global understanding of intellectual property
protection and facilitates the development and sharing of new technologies worldwide. Theme 1 also includes Net Program
Costs of $665 million (Gross Costs of $728 million less Earned Revenue of $63 million) for NIST’s Measurement and Standards
Laboratories. These laboratories are the stewards of the Nation’s measurement infrastructure, and provide measurement
methods, reference materials, test procedures, instrument calibrations, fundamental data, and standards that comprise essential
tools for research, production, and buyer-seller transactions. NTIA’s programs and activities also support Theme 1, with Net
Program Costs of $1.05 billion (Gross Costs of $1.07 billion less Earned Revenue of $22 million), including $974 million of Gross
Costs for BTOP – ARRA. NTIA serves as the principal adviser to the President on domestic and international communications
and information policy-making, promotes access to telecommunications services for all Americans and competition in domestic
and international markets, manages all federal use of the electromagnetic spectrum and generally promotes efficient use of
spectrum, and conducts telecommunications technology research, including standards-setting in partnership with business and
other federal agencies. ITA’s programs and activities also support Theme 1, with Net Program Costs of $456 million (Gross Costs
of $478 million less Earned Revenue of $22 million). ITA assists the export growth of small and medium-sized businesses,
enforces U.S. trade laws and trade agreements, monitors and maintains trading relationships with established markets, promotes
new business in emerging markets, and improves access to overseas markets by identifying and pressing for the removal of
trade barriers. Theme 1 also includes Net Program Costs of $418 million (Gross Costs of $430 million less Earned Revenue of
$12 million) for EDA. EDA helps distressed communities address problems associated with long-term economic distress, as well
as sudden and severe economic dislocations including recovering from the economic impacts of natural disasters, the closure of
military installations and other federal facilities, changing trade patterns, and the depletion of natural resources.

Theme 2, Science and Information, with Net Program Costs of $3.62 billion for the Department (Gross Costs of $4.14 billion less
Earned Revenue of $523 million), includes Net Program Costs of $2.38 billion (Gross Costs of $2.50 billion less Earned Revenue
of $125 million) for NOAA’s programs and activities related to 1) improving weather, water quality, and climate reporting and
forecasting; and 2) enabling informed decision-making through an expanded understanding of the U.S. economy, society, and
environment by providing data, standards, and services. NOAA develops and procures satellite systems, aircraft, and ships to
provide information to determine weather patterns and predict weather forecasts. The Census Bureau also supports Theme 2,
with Net Program Costs of $1.10 billion (Gross Costs of $1.43 billion less Earned Revenue of $329 million). The Census Bureau
carries out the Decennial Census, periodic censuses, and demographic and other surveys, and prepares and releases targeted
data products for economic and other programs.



  38           FY 2013 AGENCY FINANCIAL REPORT
                                                            A N A LY S I S O F F Y 2 0 1 3 F I N A N C I A L C O N D I T I O N A N D R E S U LT S




Theme 3, Environmental Stewardship, with Net Program Costs of $2.09 billion for the Department (Gross Costs of $2.24 billion
less Earned Revenue of $150 million), includes Net Program Costs of $2.05 billion (Gross Costs of $2.21 billion less Earned
Revenue of $152 million) related to NOAA’s efforts to promote economically-sound environmental stewardship and science,
including developing sustainable and resilient fisheries, habitats, and species; supporting climate adaption and mitigation; and
supporting coastal communities that are environmentally and economically sustainable.

Trends in Net Cost of Operations

The Theme 1 decrease in FY 2013 Net Program Costs over FY 2012 of $1.12 billion or 29 percent, from $3.90 billion to $2.78 billion,
is primarily due to a decrease in Gross Costs of $681 million for NTIA’s BTOP – ARRA as grant costs are decreasing significantly
as the program progresses; a decrease in Gross Costs of $260 million for NTIA’s Digital Television Transition and Public Safety
Fund as programs under this fund are winding-down; and an increase in Earned Revenue of $293 million for USPTO due to
increased fee rates implemented as a result of the Leahy-Smith America Invents Act of 2011. Theme 2 Net Program Costs
decreased slightly by $16 million or 0.4 percent, from $3.64 billion in FY 2012 to $3.62 billion in FY 2013. Theme 3 Net Program
Costs decreased slightly by $55 million or 3 percent, from $2.14 billion to $2.09 billion.

Composition of Selected Budgetary Information

The distribution by responsibility segment of the Department’s Obligations Incurred remained consistent from FY 2012 to
FY 2013, while the distribution by responsibility segment of the Department’s Outlays, Gross changed somewhat. NTIA’s Outlays,
Gross decreased from 13 percent of the Departmental total to 8 percent due to significant decreases in NTIA’s Outlays, Gross as
explained in the Trends in Selected Budgetary Information section below.




Trends in Selected Budgetary Information

The Department’s Obligations Incurred slightly increased by $117 million or 1 percent, from $12.24 billion in FY 2012 to
$12.35 billion in FY 2013. Outlays, Gross decreased by $977 million or 7 percent, from $14.75 billion to $13.78 billion. The
decrease in Outlays, Gross is primarily due to a decrease of $627 million in Outlays, Gross under NTIA’s BTOP – ARRA, from
$1.59 billion to $962 million, mainly due to a decrease in payments to grantees for prior years’ unpaid obligations. The decrease
in Outlays, Gross is also due to a decrease of $199 million in Outlays, Gross under NTIA’s Digital Television Transition and Public
Safety Fund, from $220 million to $21 million, as programs under this fund are winding-down.




                                                                                                                                           39
                                                                               FY 2013 AGENCY FINANCIAL REPORT
A N A LY S I S O F F Y 2 0 1 3 F I N A N C I A L C O N D I T I O N A N D R E S U LT S




  40           FY 2013 AGENCY FINANCIAL REPORT
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




            S ummary of
            S tewardship
            I nformation
                                                                               S U M M A R Y O F S T E W A R D S H I P I N F O R M AT I O N




                      S U M M A R Y O F S T E WA R D S H I P I N F O R M AT I O N

Stewardship Property, Plant, and Equipment (Stewardship PP&E)




T
      he Department has certain resources entrusted to it and certain stewardship responsibilities assumed by the Department.
      The physical properties of Stewardship PP&E resemble those of the General PP&E that is capitalized traditionally in the
      financial statements of federal entities. Given the nature of these assets, federal standard-setting bodies have determined
that valuation is unduly burdensome and matching costs with specific periods is not meaningful. Therefore, federal accounting
standards require the disclosure of the nature and quantity of these assets. The National Oceanic and Atmospheric Administration
(NOAA) is the primary bureau within the Department that maintains Stewardship PP&E, while the National Institute of Standards
and Technology (NIST) and the Census Bureau also maintain Stewardship PP&E.

NOAA maintains the following Stewardship PP&E: 13 National Marine Sanctuaries; Marine National Monuments (Papahãnau-
mokuãkea; Rose Atoll; Marianas Trench; and Pacific Remote Islands); Aleutian Islands Habitat Conservation Area; California’s
Russian River Watershed Habitat Focus Area; Heritage Assets (Galveston Laboratory; National Marine Fisheries Service (NMFS)
St. George Sealing Plant; NMFS Cottage M, St. George; NMFS St. Paul Old Clinic/Hospital; NMFS Aquarium; and Great Lakes
Environmental Research Laboratory, Lake Michigan Field Station); and Collection-type Heritage Assets (primarily included in the
NOAA Central Library, the Thunder Bay Sanctuary Research Collection, and the National Climatic Data Center Library).

NIST maintains Collection-type Heritage Assets under its Museum and History Program, which collects, conserves, and exhibits
artifacts and scientific instruments, equipment and objects, and historical books and manuscripts. The Census Bureau maintains
collection-type heritage assets that help illustrate the social, educational, and cultural heritage of the Census Bureau, including
artifacts, gifts, and collectable assets such as publications, books, manuscripts, photographs, and maps.

Stewardship Investments

Stewardship investments are substantial investments made by the federal government for the benefit of the nation, but are not
physical assets owned by the federal government. Though treated as expenses when incurred to determine the Department’s
Net Cost of Operations, these items merit special treatment, so that users of federal financial reports know the extent of
investments that are made for the long-term benefit of the nation.

Investments in Non-federal Physical Property: These investments are for the purchase, construction, or major renovation of physical
property owned by state and local governments. The Economic Development Administration (EDA) and NOAA have significant
investments in non-federal physical property. EDA’s investments in FY 2013 totaled $348 million and included its Public Works
program, Economic Adjustment Assistance program, Global Climate Change Mitigation Incentive Fund, and Disaster Recovery.
NOAA’s investments in FY 2013 totaled $5 million and included the National Estuarine Research Reserves and the Coastal and
Estuarine Land Conservation Program.

Investments in Human Capital: These investments are for education and training programs that are intended to increase or
maintain national economic productive capacity and produce outputs and outcomes that provide evidence of the constant or
increasing national productive capacity. These investments exclude education and training expenses for federal civilian and
military personnel. The most significant dollar investments in human capital are by NOAA, whose investments in FY 2013
totaled $20 million and included the National Sea Grant College Program, the National Estuarine Research Reserve Program, the
Educational Partnership Program, the Ernest F. Hollings Undergraduate Scholarship Program, the Southeast Fisheries Science
Center’s Recruiting Training Research Program, the Northeast Fisheries Science Center Partnership Education Program, and the
Northeast Fisheries Science Center’s Bradford E. Brown Student Internship Program.



                                                                                                                                     43
                                                                             FY 2013 AGENCY FINANCIAL REPORT
S U M M A R Y O F S T E W A R D S H I P I N F O R M AT I O N




Investments in Research and Development (R&D): These investments include investments in basic research, applied research, and
development, which are made with the expectation of maintaining or increasing national economic productive capacity and/
or yielding other future economic or societal benefits. The only significant investments in R&D are by NIST and NOAA. NIST’s
investments in FY 2013 totaled $625 million, including $604 million for NIST laboratories and $21 million for its Technology
Innovation Program. NOAA’s investments in FY 2013 totaled $513 million, which primarily included $326 million for environmental
and climate programs, and also included $187 million for Fisheries, Marine Operations and Maintenance, Aircraft Services,
National Weather Service, and other programs.




  44          FY 2013 AGENCY FINANCIAL REPORT
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




                 P rincipal
                 Financial
                S tatements
                                                                                          P R I N C I PA L F I N A N C I A L S TAT E M E N T S



United States Department of Commerce Consolidated Balance Sheets
As of September 30, 2013 and 2012 (In Thousands)
                                                                                                        FY 2013                     FY 2012

ASSETS
       Intragovernmental:
       Fund Balance with Treasury (Notes 2 and 18)                                             $       18,002,497          $       19,261,281
       Accounts Receivable (Note 3)                                                                        92,197                     116,009
       Advances and Prepayments                                                                            91,641                     208,368
       Total Intragovernmental                                                                         18,186,335                  19,585,658

       Cash (Note 4)                                                                                        5,806                       4,834
       Accounts Receivable, Net (Note 3)                                                                   64,130                     104,941
       Direct Loans and Loan Guarantees, Net (Note 5)                                                     533,692                     570,348
       Inventory, Materials, and Supplies, Net (Note 6)                                                    99,607                     104,978
       General Property, Plant, and Equipment, Net (Note 7)                                            11,103,844                  10,000,512
       Other (Note 8)                                                                                      44,897                      48,276
TOTAL ASSETS                                                                                   $       30,038,311          $       30,419,547

Stewardship Property, Plant, and Equipment (Note 23)                                               	                           	

LIABILITIES
       Intragovernmental:
       Accounts Payable                                                                        $         150,275           $         156,032
       Debt to Treasury (Note 10)                                                                        575,603                     554,281
       Other
       	 Resources Payable to Treasury                                                                    11,267                      12,862
       	 Unearned Revenue                                                                                313,926                     332,923
       	 Other (Note 11)                                                                                  74,505                     102,412
       Total Intragovernmental                                                                          1,125,576                   1,158,510

       Accounts Payable                                                                                  363,540                     296,869
       Loan Guarantee Liabilities (Notes 5 and 16)                                                           516                         518
       Federal Employee Benefits (Note 12)                                                               897,191                     851,211
       Environmental and Disposal Liabilities (Note 13)                                                  156,673                      59,945
       Other
       	 Accrued Payroll and Annual Leave                                                                 467,706                     580,715
       	 Accrued Grants                                                                                  536,711                      635,856
       	 Capital Lease Liabilities (Note 14)                                                                7,021                       8,377
       	 Unearned Revenue                                                                               1,147,196                   1,053,580
       	 Other (Note 11)                                                                                   64,100                      57,732
TOTAL LIABILITIES                                                                              $        4,766,230          $        4,703,313
Commitments and Contingencies (Note 16)                                                            	                           	

NET POSITION – FY 2012 Restated
      Unexpended Appropriations
      	 Unexpended Appropriations - Funds from Dedicated Collections                           $ 	-                        $ 	-
      	 Unexpended Appropriations - All Other Funds                                              5,340,879                   6,716,434
      Cumulative Results of Operations
      	 Cumulative Results of Operations - Funds from Dedicated Collections (Note 21)                  10,033,602                   9,904,756
      	 Cumulative Results of Operations - All Other Funds                                              9,897,600                   9,095,044
	      Total Net Position – Funds from Dedicated Collections                                   $       10,033,602          $        9,904,756
	      Total Net Position – All Other Funds                                                    $   15,238,479              $       15,811,478
TOTAL NET POSITION                                                                             $   25,272,081              $   25,716,234
TOTAL LIABILITIES AND NET POSITION                                                             $       30,038,311          $       30,419,547

The accompanying notes are an integral part of these financial statements.




                                                                                                                                          47
                                                                                  FY 2013 AGENCY FINANCIAL REPORT
P R I N C I P A L F I N A N C I A L S TAT E M E N T S




United States Department of Commerce Consolidated Statements of Net Cost
For the Years Ended September 30, 2013 and 2012 (Note 17) (In Thousands)

                                                                                 FY 2013            FY 2012


Theme 1: Economic Growth
  Gross Costs                                                                $     5,674,809    $     6,531,035
  Less: Earned Revenue                                                           	(2,896,650)       	(2,628,952)
  Net Program Costs                                                              	2,778,159         	3,902,083


Theme 2: Science and Information
  Gross Costs                                                                     4,142,171          4,156,232
  Less: Earned Revenue                                                           	(522,512)         	(520,569)
  Net Program Costs                                                               3,619,659          3,635,663


Theme 3: Environmental Stewardship
  Gross Costs                                                                     2,239,164          2,331,038
  Less: Earned Revenue                                                           	(149,947)         	(186,763)
  Net Program Costs                                                               2,089,217          2,144,275

NET COST OF OPERATIONS                                                       $     8,487,035    $    9,682,021



The accompanying notes are an integral part of these financial statements.




  48           FY 2013 AGENCY FINANCIAL REPORT
                                                                                                                   P R I N C I PA L F I N A N C I A L S TAT E M E N T S




United States Department of Commerce Consolidated Statements of Changes in Net Position
For the Years Ended September 30, 2013 and 2012 (In Thousands)

                                                                                      FY 2013                                                 FY 2012

                                                                                                                          Restated
                                                               Funds from                                                Funds from
                                                                Dedicated                                                 Dedicated           Restated
                                                               Collections        All Other          Consolidated        Collections          All Other       Consolidated
                                                                (Note 21)          Funds                Total             (Note 21)            Funds             Total
Cumulative Results Of Operations:
	 Beginning Balance                                        $   9,904,756      $    9,095,044 $ 18,999,800 $ 10,018,759                    $   7,569,497       $   17,588,256
	 Changes in Accounting Principle (Notes 7 and 13)             	-                 	(169,319)   	(169,319)  	-                                 	-                  	-
	 Beginning Balance, as Adjusted                               9,904,756           8,925,725   18,830,481   10,018,759                        7,569,497           17,588,256

Budgetary Financing Sources:
	 Appropriations Used                                          	-                 9,096,654                9,096,654      	-                  10,270,400           10,270,400
	 Non-exchange Revenue                                         101,468            	3,754                     105,222      	222,492            	12,541                 235,033
	 Donations and Forfeitures of Cash and
		Cash Equivalents                                             	-                   11,400             11,400             	-                     5,303                     5,303
	 Transfers In/(Out) Without Reimbursement, Net                	3,650             	132,720            136,370             	13,058              109,751                  122,809
	 Rescissions/Sequestrations (Note 18)                         	-                 	-                  	-                  	(350)              	(17,848)                  (18,198)
	 Other Budgetary Financing Sources/(Uses), Net                	-                 	137                	137                	-                     6,208                     6,208

Other Financing Sources (Non-exchange):
	 Donations and Forfeitures of Property                        	-                 	856                	856                	-                  	579                	579
	 Transfers In/(Out) Without Reimbursement, Net                	-                 	(56,353)           	(56,353)           	-                  	182,220            	182,220
	 Imputed Financing Sources from Cost Absorbed
		by Others                                                    	44,818                  250,470             295,288       	-                      297,694               297,694
	 Other Financing Sources/(Uses), Net                          	350                       (2,168)             (1,818)     	19,480                  (27,963)              (8,483)

Total Financing Sources                                            150,286             9,437,470           9,587,756           254,680         10,838,885          11,093,565

Net Cost of Operations                                             (21,440)           (8,465,595)         (8,487,035)         (368,683)        (9,313,338)          (9,682,021)

Net Change                                                         128,846              971,875            1,100,721          (114,003)         1,525,547            1,411,544

Cumulative Results of Operations – Ending Balance               10,033,602             9,897,600          19,931,202         9,904,756          9,095,044          18,999,800

Unexpended Appropriations:
	 Beginning Balance                                            	-                      6,716,434           6,716,434      	-                    9,219,657           9,219,657

Budgetary Financing Sources:
	 Appropriations Received (Note 18)                            	-                      8,293,875           8,293,875      	-                    7,884,258              7,884,258
	 Appropriations Transferred In/(Out), Net                     	-                 	27,299             	27,299             	-                       23,223                23,223
	 Rescissions/Sequestrations of Appropriations (Note 18)       	-                 	     (560,334)     	     (560,334)     	-                        (5,450)              (5,450)
	 Other Adjustments                                            	-                         (39,741)            (39,741)    	-                     (134,854)            (134,854)
	 Appropriations Used                                          	-                     (9,096,654)         (9,096,654)     	-                  (10,270,400)         (10,270,400)

Total Budgetary Financing Sources                              	-                     (1,375,555)         (1,375,555)     	-                   (2,503,223)          (2,503,223)

Unexpended Appropriations – Ending Balance                     	-                      5,340,879           5,340,879      	-                    6,716,434           6,716,434

NET POSITION                                               $ 	10,033,602      $ 15,238,479           $ 25,272,081        $ 	9,904,756     $    15,811,478     $    25,716,234



The accompanying notes are an integral part of these financial statements.




                                                                                                                                                                  49
                                                                                                     FY 2013 AGENCY FINANCIAL REPORT
P R I N C I P A L F I N A N C I A L S TAT E M E N T S




United States Department of Commerce Combined Statements of Budgetary Resources
For the Years Ended September 30, 2013 and 2012 (Note 18) (In Thousands)
                                                                                    FY 2013                                        FY 2012
                                                                                       Non-budgetary Credit                           Non-budgetary Credit
                                                                    Budgetary       Program Financing Accounts       Budgetary     Program Financing Accounts

BUDGETARY RESOURCES:
Unobligated Balance, Brought Forward, October 1                 $ 10,352,397                $    2               $   9,995,115             $    86
Adjustments to Unobligated Balance, Brought Forward              	(157)                         	-                   	3                        	(1)
Unobligated Balance, Brought Forward, October 1, as Adjusted        10,352,240                  	2                    9,995,118                     85
Actual Recoveries of Prior-years Unpaid Obligations                    253,455                  	6,355                  298,066                	4,561
Actual Nonexpenditure Transfers of Unobligated Balance, Net              10,647                 	-                   	17,329                   	-
Borrowing Authority Withdrawn                                       	-                          	(6,355)             	-                        	(4,561)
Other Changes in Unobligated Balance, Net                               (38,198)                	-                     (134,689)               	-
Unobligated Balance From Prior-years Budget Authority, Net          10,578,144                  	2                   10,175,824                     85
Appropriations                                                        7,907,642                 	-                    8,035,812                	-
Borrowing Authority                                                 	251,231                    	48,029              	2,538                     71,668
Spending Authority From Offsetting Collections                       4,232,937                   38,558               4,270,868                 33,701
TOTAL BUDGETARY RESOURCES                                       $ 22,969,954                $     86,589         $ 22,485,042              $      105,454

STATUS OF BUDGETARY RESOURCES:
Obligations Incurred                                            $ 12,268,184                $     86,582         $ 12,132,645              $      105,452
Unobligated Balance, End of Year
	Apportioned                                                          1,499,168                 	-                    1,157,028                	-
	 Exempt From Apportionment                                               3,848                 	-                      136,995                	-
	Unapportioned                                                        9,198,754                  7                    9,058,374                 2
Total Unobligated Balance, End of Year                              10,701,770                          7            10,352,397                          2
TOTAL STATUS OF BUDGETARY RESOURCES                             $ 22,969,954                $     86,589         $ 22,485,042              $      105,454

CHANGE IN UNPAID OBLIGATED BALANCE, NET:
Unpaid Obligations:
Unpaid Obligations, Brought Forward, October 1                  $      8,348,384            $    130,136         $ 11,152,608              $     145,079
Adjustments to Unpaid Obligations, Brought Forward                  	157                        	-                	153                         	4
Obligations Incurred                                                 12,268,184                   86,582           12,132,645                    105,452
Outlays, Gross                                                      	(13,707,047)                (70,970)         (14,638,956)                  (115,838)
Actual Recoveries of Prior-years Unpaid Obligations                     (253,455)               	(6,355)             (298,066)                 	(4,561)
UNPAID OBLIGATIONS, END OF YEAR                                 $    6,656,223              $    139,393         $    8,348,384            $      130,136
Uncollected Customer Payments:
Uncollected Customer Payments, Brought Forward, October 1       $   (608,330)               $    (494)           $   (646,248)             $    (390)
Adjustments to Uncollected Customer Payments, Brought Forward       	-                          	-                   	(158)                    	(1)
Change in Uncollected Customer Payments                              139,541                       27                  38,076                   (103)
UNCOLLECTED CUSTOMER PAYMENTS, END OF YEAR                      $      (468,789)            $       (467)        $ 	(608,330)              $   	(494)

Unpaid Obligated Balance, Net, Brought Forward, October 1       $     7,740,054             $    129,642         $ 10,506,360              $      144,689
Unpaid Obligated Balance, Net, End of Year                      $     6,187,434             $    138,926         $     7,740,054           $   	129,642

BUDGET AUTHORITY, NET:
Budget Authority, Gross                                         $ 12,391,810                $     86,587         $ 12,309,218              $       105,369
Actual Offsetting Collections                                     (4,522,862)                    (98,154)          (4,304,870)                    (104,012)
Change in Uncollected Customer Payments                              139,541                          27               38,076                         (103)
BUDGET AUTHORITY, NET                                           $ 8,008,489                 $   	(11,540)        $ 8,042,424               $         1,254

OUTLAYS, NET:
Outlays, Gross                                                  $ 13,707,047                $    70,970          $ 14,638,956              $     115,838
Actual Offsetting Collections                                     (4,522,862)                   (98,154)           (4,304,870)                  (104,012)
Outlays, Net                                                     	9,184,185                      (27,184)          10,334,086                  	11,826
Distributed Offsetting (Receipts)/Outlays, Net                       (46,853)                   	-                     (62,667)                	-
AGENCY OUTLAYS, NET                                             $     9,137,332             $     (27,184)       $ 10,271,419              $       11,826

The accompanying notes are an integral part of these financial statements.




   50          FY 2013 AGENCY FINANCIAL REPORT
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




              N otes to
            the Financial
             S tatements
                                                                                           N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Notes to the Financial Statements
(All Tables are Presented in Thousands)



     NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES


A	     Reporting Entity




T
      he Department of Commerce (the Department) is a cabinet-level agency of the Executive Branch of the U.S. government.
      Established in 1903 to promote U.S. business and trade, the Department’s broad range of responsibilities includes predicting
      the weather, granting patents and registering trademarks, measuring economic growth, gathering and disseminating
statistical data, expanding U.S. exports, developing innovative technologies, helping local communities improve their economic
development capabilities, promoting minority entrepreneurial activities, and monitoring the stewardship of national assets.
The Department is composed of 12 bureaus, the Emergency Steel Loan Guarantee Program, and Departmental Management.

For the Consolidating Statements of Net Cost (see Note 17), the Department’s entities have been grouped together as follows:

        ●●   National Oceanic and Atmospheric Administration (NOAA)

        ●●   U.S. Patent and Trademark Office (USPTO)

        ●●   Economics and Statistics Administration (ESA) — based on organizational structure

                  ●●   Bureau of Economic Analysis (BEA)

                  ●●   Census Bureau

        ●●   National Institute of Standards and Technology (NIST)

        ●●   National Telecommunications and Information Administration (NTIA)1

        ●●   Others

                  ●●   Bureau of Industry and Security (BIS)

                  ●●   Economic Development Administration (EDA)

                  ●●   Emergency Steel Loan Guarantee Program (ELGP)

                  ●●   International Trade Administration (ITA)

                  ●●   Minority Business Development Agency (MBDA)

                  ●●   National Technical Information Service (NTIS)




1	   The Middle Class Tax Relief and Job Creation Act of 2012 created the First Responder Network Authority as an independent authority within
     NTIA, to provide emergency responders with the first high-speed, nationwide network dedicated to public safety.




                                                                                                                                            53
                                                                                    FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




       ●●   Departmental Management (DM)

                 ●●   Franchise Fund

                 ●●   Gifts and Bequests (G&B)

                 ●●   Herbert C. Hoover Building Renovation Project (HCHB)

                 ●●   Office of Inspector General (OIG)

                 ●●   Salaries and Expenses (S&E)

                 ●●   Working Capital Fund (WCF)


B	     Basis of Accounting and Presentation

The Department’s fiscal year ends September 30. These financial statements reflect both accrual and budgetary accounting
transactions. Under the accrual method of accounting, revenues are recognized when earned and expenses are recognized
when incurred, without regard to the receipt or payment of cash. Budgetary accounting is designed to recognize the obligation
of funds according to legal requirements, which in many cases is made prior to the occurrence of an accrual-based transaction.
Budgetary accounting is essential for compliance with legal constraints and controls over the use of federal funds.

These financial statements have been prepared from the accounting records of the Department in conformance with U.S.
generally accepted accounting principles (GAAP) and the form and content for entity financial statements specified by the Office
of Management and Budget (OMB) in Revised Circular A-136, Financial Reporting Requirements. GAAP for federal entities
are the standards prescribed by the Federal Accounting Standards Advisory Board, which is the official body for setting the
accounting standards of the U.S. government.

Throughout these financial statements, intragovernmental assets, liabilities, earned revenue, and costs have been classified
according to the type of entity with whom the transactions were made. Intragovernmental assets and liabilities are those from
or to other federal entities. Intragovernmental earned revenue represents collections or accruals of revenue from other federal
entities, and intragovernmental costs are payments or accruals to other federal entities.

The Department has allocation transfer transactions with other federal agencies as both a transferring (parent) entity and as a
receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to obligate budget authority
and outlay funds to another department. A separate fund account (allocation account) is created in the U.S. Department of the
Treasury (Treasury) as a subset of the parent fund account for tracking and reporting purposes. All allocation transfers of balances
are credited to this account, and subsequent obligations and outlays incurred by the child entity are charged to this allocation
account as they execute the delegated activity on behalf of the parent entity. Generally, all financial activity related to these
allocation transfers (e.g., budget authority, obligations, and outlays) is reported in the financial statements of the parent entity,
from which the underlying legislative authority, appropriations, and budget apportionments are derived. EDA allocates funds,
as the parent, to the U.S. Department of Agriculture’s Rural Development Administration. Therefore, all financial activity related
to these EDA funds are reported in the Department’s financial statements. NOAA, EDA, the Census Bureau, and BEA have
received allocation transfers, as the child, from the U.S. General Services Administration (GSA), U.S. Environmental Protection
Agency, Delta Regional Authority, Appalachian Regional Commission, and the Northern Border Regional Commission. Activity
relating to these child allocation transfers is not reported in the Department’s financial statements, except that the Department
has recognized Imputed Costs and Imputed Financing Sources From Cost Absorbed by Others for expenses, as the child, under
GSA’s Federal Buildings Fund.




  54          FY 2013 AGENCY FINANCIAL REPORT
                                                                                    N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




C	   Funds from Dedicated Collections

Effective FY 2013, the Department implemented Statement of Federal Financial Accounting Standards (SFFAS) 43, Funds from
Dedicated Collections: Amending SFFAS 27, Identifying and Reporting Earmarked Funds, changing the name and description of
Earmarked Funds. The financial statements affected by the change are the Consolidated and Consolidating Balance Sheets (Net
Position section), and the Consolidated Statements of Changes in Net Position.

Funds from Dedicated Collections are financed by specifically identified revenues, often supplemented by other financing sources
that are originally provided to the federal government by a non-federal source, which remain available over time. These specifically
identified revenues and other financing sources are required by statute to be used for designated activities, benefits, or purposes,
and must be accounted for separately from the government’s general revenues.

Funds from Dedicated Collections include general funds, public enterprise revolving funds (not including credit reform financing
funds), special funds, and a trust fund. (See Note 21, Funds from Dedicated Collections.)

In accordance with SFFAS 43, Funds from Dedicated Collections are restated for the comparative FY 2012 financial statements
and Note 21.


D	   Elimination of Intra-entity and Intra-Departmental Transactions and Balances

Transactions and balances within a reporting entity (intra-entity) have been eliminated from the financial statements, except
as noted below. Transactions and balances among the Department’s entities (intra-Departmental) have been eliminated from
the Consolidated Balance Sheets, the Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in
Net Position. The Statements of Budgetary Resources are presented on a combined basis; therefore, intra-Departmental and
intra-entity transactions and balances have not been eliminated from these statements.


E	   Fund Balance with Treasury

Fund Balance with Treasury is the aggregate amount of funds in the Department’s accounts with Treasury. Deposit Funds include
amounts held in customer deposit accounts.

Treasury processes cash receipts and disbursements for the Department’s domestic operations. Cash receipts and disbursements
for the Department’s overseas operations are primarily processed by the U.S. Department of State’s financial service centers.


F	   Accounts Receivable, Net

Accounts Receivable are recognized primarily when the Department performs reimbursable services or sells goods. Accounts
Receivable are reduced to net realizable value by an Allowance for Uncollectible Accounts. This allowance is estimated periodically
using methods such as the identification of specific delinquent receivables, and the analysis of aging schedules and historical
trends adjusted for current market conditions.




                                                                                                                                     55
                                                                             FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




G	     Advances and Prepayments

Advances are payments the Department has made to cover a part or all of a grant recipient’s anticipated expenses, or are advance
payments for the cost of goods and services to be acquired. For grant awards, the recipient is required to periodically (monthly
or quarterly) report the amount of costs incurred. Prepayments are payments the Department has made to cover certain periodic
expenses before those expenses are incurred, such as subscriptions and rent. Advances and Prepayments are included in
Other Assets.


H	     Direct Loans and Loan Guarantees, Net

A direct loan is recorded as a receivable after the Department disburses funds to a borrower. The Department also makes loan
guarantees with respect to the payment of all or part of the principal or interest on debt obligations of non-federal borrowers to
non-federal lenders. A borrower-defaulted loan guaranteed by the Department is recorded as a receivable from the borrower after
the Department disburses funds to the lender.

Interest Receivable generally represents uncollected interest income earned on loans. For past-due loans, only up to 180 days
of interest income is generally recorded.

Foreclosed Property is acquired primarily through foreclosure and voluntary conveyance, and is recorded at the fair market value
at the time of acquisition. Foreclosed Property is adjusted to the current fair market value each fiscal year-end.

Direct Loans and Loan Guarantees Obligated before October 1, 1991 (pre-FY 1992): Loans Receivable are reduced by an Allowance for Loan
Losses, which is based on an analysis of each loan’s outstanding balance. The value of each receivable, net of any Allowance for
Loan Losses, is supported by the values of pledged collateral and other assets available for liquidation, and by the Department’s
analysis of financial information of parties against whom the Department has recourse for the collection of these receivables.

The Economic Development Revolving Fund is required to make annual interest payments to Treasury after each fiscal year-end,
based on its outstanding receivables as of September 30.

Direct Loans and Loan Guarantees Obligated after September 30, 1991 (post-FY 1991): Post-FY 1991 obligated direct loans and loan
guarantees and the resulting receivables are governed by the Federal Credit Reform Act of 1990.

For a direct or guaranteed loan disbursed during a fiscal year, a subsidy cost is initially recognized. Subsidy costs are intended
to estimate the long-term cost to the U.S. government of its loan programs. The subsidy cost equals the present value of
estimated cash outflows over the life of the loan, minus the present value of estimated cash inflows, discounted at the applicable
Treasury interest rate. Administrative costs such as salaries are not included in the subsidy costs. Subsidy costs can arise from
interest rate differentials, interest subsidies, delinquencies and defaults, loan origination and other fees, and other cash flows.
The Department calculates its subsidy costs based on a model created and provided by OMB.

A Loan Receivable is recorded at the present value of the estimated cash inflows less cash outflows. The difference between
the outstanding principal of the loan and the present value of its net cash inflows is recorded as the Allowance for Subsidy Cost.
A subsidy reestimate is normally performed annually, as of September 30. The subsidy reestimate takes into account all factors
that may have affected the estimated cash flows. Any adjustment resulting from the reestimate is recognized as a subsidy
expense (or a reduction in subsidy expense). The portion of the Allowance for Subsidy Cost related to subsidy modifications and
reestimates is calculated annually, as of September 30.

The amount of any downward subsidy reestimates as of September 30 must be disbursed to Treasury in the subsequent
fiscal year. Appropriations are normally obtained in the following fiscal year for any upward subsidy reestimates.


  56          FY 2013 AGENCY FINANCIAL REPORT
                                                                                       N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




I	   Inventory, Materials, and Supplies, Net

Inventory, Materials, and Supplies, Net are stated at the lower of cost or net realizable value primarily under the average,
weighted-average, and first-in, first-out methods, and are adjusted for the results of physical inventories. Inventory, Materials,
and Supplies are expensed when consumed. There are no restrictions on their sale, use, or disposition.


J	   General Property, Plant, and Equipment, Net

General Property, Plant, and Equipment, Net (General PP&E) is composed of capital assets used in providing goods or services.
General PP&E is stated at full cost, including all costs related to acquisition, delivery, and installation, less Accumulated
Depreciation. General PP&E also includes assets acquired through capital leases, which are initially recorded at the amount
recognized as a liability for the capital lease at its inception.

Capitalization Threshold: The Department’s general policy is to capitalize General PP&E if the initial acquisition price is $25 thousand
or more and the useful life is two years or more. NOAA, NIST and USPTO are an exception to this policy, based on a cost vs.
benefits and materiality analysis given the size of these bureaus, having a capitalization threshold of $200 thousand for NOAA,
and $50 thousand for NIST and USPTO. General PP&E with an acquisition cost less than the capitalization threshold is expensed
when purchased. All bureaus other than NOAA have a personal property bulk purchase capitalization threshold of $250 thousand,
and NOAA has a personal property bulk purchase capitalization threshold of $1 million.

Depreciation: Depreciation is recognized on a straight-line basis over the estimated useful life of the asset with the exception of
leasehold improvements, which are depreciated over the remaining life of the lease or over the useful life of the improvement,
whichever is shorter. Land and Construction-in-progress are not depreciated.

Real Property: GSA provides most of the facilities in which the Department operates, and generally charges rent based on
comparable commercial rental rates. Accordingly, GSA-owned properties are not included in the Department’s General PP&E.
The Department’s real property primarily consists of facilities for NIST and NOAA. Land Improvements consist of a retaining wall
to protect against shoreline erosion.

Construction-in-progress: Costs for the construction, modification, or modernization of General PP&E are initially recorded as
Construction-in-progress. The Department’s construction-in-progress consists primarily of satellites under development for
NOAA, and major laboratory renovations and construction projects under development for NIST. Upon completion of the work,
the costs are transferred to the appropriate General PP&E account.

For the completion of satellites, the Department has elected to change its method of accounting for transferring costs from
Construction-in-progress to completed General PP&E. Historically, the Department generally views satellites as operational when
all NOAA’s instruments associated with satellites are declared operational; however, in certain cases, effective for FY 2013, NOAA
will declare certain instruments operational if the instruments are not interdependent.


K	   Notes Receivable

Notes Receivable, included in Other Assets, arise through the NOAA sale of foreclosed property to non-federal parties.
The property is used as collateral, and an Allowance for Uncollectible Amounts is established if the net realizable value of
the collateral is less than the outstanding balance of the Notes Receivable. An analysis of the collectability of receivables
is performed periodically. Any gains realized through the sale of foreclosed property are initially deferred and recognized in
proportion to the percentage of principal repaid.




                                                                                                                                        57
                                                                                FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




L	     Non-entity Assets

Non-entity assets are assets held by the Department that are not available for use in its operations, and for which a liability has
been recorded. Non-entity Fund Balance with Treasury includes customer deposits held by the Department until customer orders
are received, and monies payable to the Treasury General Fund for custodial activity and loan programs. Non-entity Direct Loans
and Loan Guarantees, Net includes EDA’s Drought Loan Portfolio; the amount of the portfolio is also recorded as Resources
Payable to Treasury.


M	     Liabilities

A liability for federal accounting purposes is a probable and measurable future outflow or other sacrifice of resources as a result
of past transactions or events.

Accounts Payable: Accounts Payable are amounts primarily owed for goods, services, or capitalized assets received, progress on
contract performance by others, and other expenses due.

Debt to Treasury: The Department has borrowed funds from Treasury through the Fisheries Finance Financing Account for
various NOAA direct loan programs, through the Fishing Vessel Obligation Guarantee (FVOG) loan guarantee program, and
through NTIA’s Public Safety Trust Fund, and State and Local Implementation Fund. To simplify interest calculations, the
Fisheries Finance Financing Account and FVOG borrowings are dated October 1. Interest rates are based on a weighted
average of rates during the term of the borrowed funds. The weighted average rate for each cohort’s borrowing is recalculated
at the end of each fiscal year during which disbursements are made. Annual interest payments on unpaid principal balances
as of September 30 are required. Principal repayments are required only at maturity, but are permitted at any time during the
term of the loan. The Department’s primary financing source for repayments of Debt to Treasury is the collection of principal
on the associated Loans Receivable, and deposits from public safety communications and electromagnetic spectrum auction
proceeds. Balances of any borrowed but undisbursed Fisheries Finance Financing Account and FVOG funds will earn interest
at the same rate used in calculating interest expense. The amounts borrowed by NTIA are interest-free. The amounts
reported for Debt to Treasury include accrued interest payable.

Resources Payable to Treasury: Resources Payable to Treasury includes liquidating fund assets in excess of liabilities that are being
held as working capital for the Economic Development Revolving Fund loan programs and the FVOG loan guarantee program.
EDA’s Drought Loan Portfolio is a non-entity asset; therefore, the amount of the Portfolio is also recorded as Resources Payable
to Treasury. The Drought Loan Portfolio collections are returned to the Treasury General Fund annually, and the liability is reduced
accordingly.

Unearned Revenue: Unearned Revenue is the portion of monies received for which goods and services have not yet been provided
or rendered by the Department. Revenue is recognized as reimbursable costs are incurred, and the Unearned Revenue balance
is reduced accordingly. Unearned Revenue also includes the balances of customer deposit accounts held by the Department.
The intragovernmental Unearned Revenue primarily relates to monies collected in advance under reimbursable agreements.
The majority of the Unearned Revenue with the public represents patent and trademark application and user fees that are
pending action.

Accrued FECA Liability: The Federal Employees Compensation Act (FECA) provides income and medical cost protection to covered
federal civilian employees injured on the job, to employees who have incurred work-related occupational diseases, and to
beneficiaries of employees whose deaths are attributable to job-related injuries or occupational diseases. The FECA program
is administered by the U.S. Department of Labor (DOL), which pays valid claims against the Department and subsequently
seeks reimbursement from the Department for these paid claims. Accrued FECA Liability, included in Intragovernmental Other
Liabilities, represents amounts due to DOL for claims paid on behalf of the Department.


  58          FY 2013 AGENCY FINANCIAL REPORT
                                                                                      N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Loan Guarantee Liabilities: Post-FY 1991 obligated loan guarantees are governed by the Federal Credit Reform Act of 1990. For a
guaranteed loan disbursed during a fiscal year, a subsidy cost is initially recognized. Subsidy costs are intended to estimate the
long-term cost to the U.S. government of its loan programs. The subsidy cost equals the present value of estimated cash outflows
over the lives of the loans, minus the present value of estimated cash inflows, discounted at the applicable Treasury interest rate.
Administrative costs such as salaries are not included in the subsidy costs. Subsidy costs can arise from interest rate differentials,
interest subsidies, delinquencies and defaults, loan origination and other fees, and other cash flows. The Department calculates
its subsidy costs based on a model created and provided by OMB.

For a non-acquired guaranteed loan outstanding, the present value of the estimated cash inflows less cash outflows of the loan
guarantee is recognized as a Loan Guarantee Liability. The Loan Guarantee Liability is normally reestimated annually each fiscal
year, as of September 30. The subsidy reestimate takes into account all factors that may have affected the estimated cash flows.
Any adjustment resulting from the reestimate is recognized as a subsidy expense (or a reduction in subsidy expense).

Federal Employee Benefits:

Actuarial FECA Liability: Actuarial FECA Liability represents the liability for future workers’ compensation (FWC) benefits, which
includes the expected liability for death, disability, medical, and miscellaneous costs for approved cases. The liability is determined
by DOL annually, as of September 30, using a method that utilizes historical benefits payment patterns related to a specific
incurred period to predict the ultimate payments related to that period. For FY 2013, projected annual payments are discounted
to present value based on OMB’s interest rate assumptions which are interpolated to reflect the average duration in years for
income payments and medical payments. In FY 2012, these projected annual benefit payments were discounted to present
value using OMB’s economic assumptions for ten-year Treasury notes and bonds.

To provide more specifically for the effects of inflation on the liability for FWC benefits, wage inflation factors (Cost of Living
Allowance) and medical inflation factors (Consumer Price Index - Medical) are applied to the calculation of projected future
benefits. The actual rates for these factors are also used to adjust the methodology’s historical payments to current-year constant
dollars.

The model’s resulting projections are analyzed by DOL to ensure that the amounts are reliable. The analysis is based on four
tests: 1) a sensitivity analysis of the model to economic assumptions; 2) a comparison of the percentage change in the liability
amount to the percentage change in the actual incremental payments; 3) a comparison of the incremental paid losses per case (a
measure of case severity) in charge back-year to the average pattern observed during the most current three charge back-years;
and 4) a comparison of the estimated liability per case in the projection to the average pattern for the projections of the most
recent three years.

NOAA Corps Retirement System Liability and NOAA Corps Post-retirement Health Benefits Liability: These liabilities are recorded at
the actuarial present value of projected benefits, calculated annually, as of September 30. The actuarial cost method used to
determine these liabilities is the aggregate entry age normal method. Under this method, the actuarial present value of projected
benefits is allocated on a level basis over the earnings or the service of the group between entry age and assumed exit ages.
The portion of this actuarial present value allocated to the valuation year is called the normal cost. For purposes of calculating the
normal cost, certain actuarial assumptions utilized for the actual valuation of U.S. Military Retirement System are used. Actuarial
gains and losses, and prior and past service costs, if any, are recognized immediately in the fiscal year they occur, without
amortization. The medical claim rates used for the NOAA Corps Post-retirement Health Benefits Liability actuarial calculations
are based on the claim rates used for the U.S. Department of Defense Medicare-Eligible Retiree Health Care Fund actuarial
valuations. Demographic assumptions appropriate to covered personnel are also used. For background information about these
plans, see Note 1.Q, Employee Retirement Benefits.




                                                                                                                                       59
                                                                               FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Environmental and Disposal Liabilities: The Department has incurred asbestos-related cleanup costs related to the costs of
removing, containing, and/or disposing of asbestos-containing materials from property, plant, and equipment; specifically, from
facilities owned by NIST and NOAA, and from ships owned by NOAA. Effective FY 2013, as described in Note 13, Environmental
and Disposal Liabilities, the Department implemented Technical Bulletin 2006-1, Recognition and Measurement of Asbestos-
related Cleanup Costs, which clarifies required recognition of liabilities and expenses for asbestos-related cleanup costs. The
Department has estimated its liabilities for asbestos-related cleanup costs for both friable and nonfriable asbestos-related cleanup
costs. Estimates of asbestos-related cleanup costs are reviewed periodically, and updated as appropriate, to account for actual or
estimated increases or decreases in asbestos-containing materials, material changes due to inflation or deflation, and changes in
regulations, plans, and/or technology.

NIST operates a nuclear reactor licensed by the U.S. Nuclear Regulatory Commission, in accordance with NIST’s mission of
setting standards and examining new technologies. The Department currently estimates the cost of decommissioning this facility
to be $75.3 million. The NIST decommissioning estimate includes an assumption that an offsite waste disposal facility will
become available, when needed, estimated in 2029. Currently, an offsite disposal location has not been identified, and the NIST
environmental liability cost estimate includes an amount approved by the Nuclear Regulatory Commission for offsite waste
disposal. The total estimated decommissioning cost is being accrued on a straight-line basis over the expected life of the facility.
Under current legislation, funds to cover the expense of decommissioning the facility’s nuclear reactor should be requested in a
separate appropriation when the decommissioning date becomes relatively certain.

The Department has incurred cleanup costs related to the costs of removing, containing, and/or disposing of hazardous waste
from facilities used by NOAA. The Department has estimated its liabilities for environmental cleanup costs at all NOAA-used
facilities, including the decommissioning of ships. The largest of NOAA’s environmental liabilities relates to the cleanup of the
Pribilof Islands in Alaska, which contains waste from the U.S. Department of Defense’s use during World War II. The Department
does not recognize a liability for environmental cleanup costs for NOAA-used facilities that are less than $25 thousand per project.
When an estimate of cleanup costs includes a range of possible costs, the most likely cost is reported. When no cost is more
likely than another, the lowest estimated cost in the range is reported. The liability is reduced as progress payments are made.

The Department may have liabilities associated with lead-based paints (LBP) at certain NOAA facilities.The Department has
scheduled surveys to assess the potential for liabilities for LBP contamination. All known issues, however, are contained, and
NOAA facilities meet current environmental standards. No cost estimates are presently available for facilities that have not yet
been assessed for LBP issues.

Accrued Payroll and Annual Leave: These categories include salaries, wages, and other compensation earned by employees, but
not disbursed as of September 30. Annually, as of September 30, the balances of Accrued Annual Leave are adjusted to reflect
current pay rates. Sick leave and other types of non-vested leave are expensed as taken.

Accrued Grants: The Department administers a diverse array of financial assistance programs and projects concerned with the entire
spectrum of business and economic development efforts that promote activities such as expanding U.S. exports, creating jobs,
contributing to economic growth, developing innovative technologies, promoting minority entrepreneurship, protecting coastal
oceans, providing weather services, managing worldwide environmental data, and using telecommunications and information
technologies to better provide public services. Disbursements of funds under the Department’s grant programs are generally
made when requested by grantees. These drawdown requests may be received and fulfilled before grantees make the program
expenditures. When the Department has disbursed funds but the grant recipient has not yet reported expenditures, these
disbursements are recorded as advances. If a recipient, however, reports program expenditures that have not been advanced
by the Department by September 30, such amounts are recorded as grant expenses and grants payable as of September 30.




  60          FY 2013 AGENCY FINANCIAL REPORT
                                                                                         N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Capital Lease Liabilities: Capital leases are leases for property, plant, and equipment that transfer substantially all the benefits and
risks of ownership to the Department.

ITA Foreign Service Nationals’ Voluntary Separation Pay: This liability, included in Other Liabilities, is based on the salaries and benefit
statuses of employees in countries where governing laws require a provision for separation pay.

Contingent Liabilities and Contingencies: A contingency is an existing condition, situation, or set of circumstances involving
uncertainty as to possible gain or loss. The uncertainty will ultimately be resolved when one or more future events occur or fail
to occur. A contingent liability (included in Other Liabilities) and an expense are recognized when a past event has occurred, and
a future outflow or other sacrifice of resources is measurable and probable. A contingency is considered probable when the
future confirming event or events are more likely than not to occur, with the exception of pending or threatened litigation and
unasserted claims. For pending or threatened litigation and unasserted claims, the future confirming event or events are likely
to occur. A contingency is disclosed in the Notes to the Financial Statements if any of the conditions for liability recognition are
not met and there is at least a reasonable possibility that a loss or an additional loss may have been incurred. A contingency is
considered reasonably possible when the chance of the future confirming event or events occurring is more than remote but less
than probable. A contingency is not recognized as a contingent liability and an expense nor disclosed in the Notes to the Financial
Statements when the chance of the future event or events occurring is remote. A contingency is considered remote when the
chance of the future event or events occurring is slight.

Liabilities Not Covered by Budgetary Resources: These are liabilities for which congressional actions are needed before budgetary
resources can be provided. The Department anticipates that liabilities not covered by budgetary resources will be funded from
future budgetary resources when required. These amounts are detailed in Note 15.

Under accrual accounting, the expense for annual leave is recognized when the leave is earned. However, for most of the
Department’s fund groups, appropriations are provided to pay for the leave when it is taken. As a result, budgetary resources do
not cover a large portion of Accrued Annual Leave.

The Department generally receives budgetary resources for Federal Employee Benefits when they are needed for disbursements.


N	   Commitments

Commitments are preliminary actions that will ultimately result in an obligation to the U.S. government if carried through, such
as purchase requisitions, estimated travel orders, or unsigned contracts/grants. Major long-term commitments are disclosed in
Note 16, Commitments and Contingencies.


O	   Net Position

Net Position is the residual difference between assets and liabilities, and is composed of Unexpended Appropriations and
Cumulative Results of Operations.

Unexpended Appropriations represent the total amount of unexpended budget authority that is classified as appropriations, both
obligated and unobligated. Unexpended Appropriations is increased for Appropriations Received, is reduced for Appropriations
Used, and is adjusted for other changes in appropriations, such as transfers and rescissions. Cumulative Results of Operations
is the net result of the Department’s operations since inception.




                                                                                                                                          61
                                                                                  FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




P	     Revenues and Other Financing Sources

Appropriations Used: Most of the Department’s operating funds are provided by congressional appropriations of budget authority.
The Department receives appropriations on annual, multiple-fiscal year, and no-year bases. Upon expiration of an annual or
multiple-fiscal year appropriation, the obligated and unobligated balances retain their fiscal year identity, and are maintained
separately within an expired account. The unobligated balances can be used to make legitimate obligation adjustments, but are
otherwise not available for expenditures. Annual and multiple-fiscal year appropriations are canceled at the end of the fifth fiscal
year after expiration. No-year appropriations do not expire. Appropriations of budget authority are recognized as used when
costs are incurred, for example, when goods and services are received or benefits and grants are provided.

Exchange and Non-exchange Revenue: The Department classifies revenue as either exchange revenue or non-exchange revenue.
Exchange revenue is derived from transactions in which both the government and the other party receive value, including
processing patents and registering trademarks, the sale of weather data, nautical charts, and navigation information, and other
sales of goods and services. This revenue is presented on the Department’s Consolidated Statements of Net Cost, and serves
to reduce the reported cost of operations borne by the taxpayer. Non-exchange revenue is derived from the government’s
sovereign right to demand payment, including fines for violations of fisheries and marine protection laws. Non-exchange revenue
is recognized when a specifically identifiable, legally enforceable claim to resources arises, and to the extent that collection
is probable and the amount is reasonably estimable. This revenue is not considered to reduce the cost of the Department’s
operations and is therefore reported on the Consolidated Statements of Changes in Net Position.

In certain cases, law or regulation sets the prices charged by the Department, and, for program and other reasons, the Department
may not receive full cost (e.g., the processing of patents and registering of trademarks, and the sale of weather data, nautical
charts, and navigation information). Prices set for products and services offered through the Department’s working capital funds
are intended to recover the full costs incurred by these activities.

Imputed Financing Sources from Cost Absorbed by Others (and Related Imputed Costs): In certain cases, operating costs of the Depart­
ment are paid for in full or in part by funds appropriated to other federal entities. For example, Civil Service Retirement System
pension benefits for applicable Departmental employees are paid for in part by the U.S. Office of Personnel Management (OPM),
and certain legal judgments against the Department are paid for in full from the Judgment Fund maintained by Treasury.
The Department includes applicable Imputed Costs on the Consolidated Statements of Net Cost. In addition, an Imputed
Financing Source from Cost Absorbed by Others is recognized on the Consolidated Statements of Changes in Net Position.

Transfers In/(Out): Intragovernmental transfers of budget authority (i.e., appropriated funds) or of assets without reimbursement
are recorded at book value.


Q	     Employee Retirement Benefits

Civil Service Retirement System (CSRS) and Federal Employees Retirement System (FERS): Most employees of the Department participate
in either the CSRS or FERS defined-benefit pension plans. FERS went into effect on January 1, 1987. FERS and Social Security
automatically cover most employees hired after December 31, 1983. Employees hired prior to January 1, 1984 could elect to
either join FERS and Social Security, or remain in CSRS.

The Department is not responsible for and does not report CSRS or FERS assets, accumulated plan benefits, or liabilities
applicable to its employees. OPM, which administers the plans, is responsible for and reports these amounts.




  62          FY 2013 AGENCY FINANCIAL REPORT
                                                                                       N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




For CSRS-covered regular employees, the Department was required to make contributions to the plan equal to 7 percent of an
employee’s basic pay. Employees contributed 7 percent of basic pay. For each fiscal year, OPM calculates the U.S. government’s
service cost for covered employees, which is an estimate of the amount of funds, that, if accumulated annually and invested over
an employee’s career, would be enough to pay that employee’s future benefits. Since the U.S. government’s estimated service
cost exceeds contributions made by employer agencies and covered employees, this plan is not fully funded by the Department
and its employees. The Department has recognized an Imputed Cost and an Imputed Financing Source From Cost Absorbed by
Others for the difference between the estimated service cost and the contributions made by the Department and its covered
employees.

For FERS-covered regular employees, for employees hired prior to January 1, 2013, the Department was required to make
contributions of 11.9 percent of basic pay. Employees contributed 0.8 percent of basic pay. Effective January 1, 2013, for new
employees as defined in Public Law 112-96, Section 5001, the Department was required to make contributions of 9.6 percent of
basic pay. Employees contributed 3.1 percent of basic pay. For each fiscal year, OPM calculates the U.S. government’s service
cost for covered employees. Since the U.S. government’s estimated service cost exceeds contributions made by employer
agencies and covered employees, this plan was not fully funded by the Department and its employees. The Department has
recognized an Imputed Cost and an Imputed Financing Source From Cost Absorbed by Others for the difference between the
estimated service cost and the contributions made by the Department and its covered employees.

Employees participating in FERS are covered under the Federal Insurance Contributions Act (FICA), for which the Department
contributes a matching amount to the Social Security Administration.

NOAA Corps Retirement System: Active-duty officers of the NOAA Corps are covered by the NOAA Corps Retirement System,
an unfunded, pay-as-you-go, defined-benefit plan administered by the Department. Participants do not contribute to this plan.
Plan benefits are based primarily on years of service and compensation. Participants, as of September 30, 2013, included 322 active
duty officers, 369 nondisability retiree annuitants, 16 disability retiree annuitants, and 51 surviving families. Key provisions include
voluntary nondisability retirement after 20 years of active service, disability retirement, optional survivor benefits, Consumer Price
Index (CPI) optional survivor benefits, and CPI adjustments for benefits.

Foreign Service Retirement and Disability System, and the Foreign Service Pension System: Foreign Commercial Officers are
covered by the Foreign Service Retirement and Disability System and the Foreign Service Pension System. ITA makes
contributions to the systems based on a percentage of an employee’s pay. Both systems are multi-employer plans
administered by the U.S. Department of State. The Department is not responsible for and does not report plan assets,
accumulated plan benefits, or liabilities applicable to its employees. The U.S. Department of State, which administers the
plan, is responsible for and reports these amounts.

Thrift Savings Plan (TSP): Employees covered by CSRS and FERS are eligible to contribute to the U.S. government’s TSP,
administered by the Federal Retirement Thrift Investment Board. A TSP account is automatically established for FERS-
covered employees, and the Department makes a mandatory contribution of one percent of basic pay. The Department
also makes matching contributions of up to four percent of basic pay for FERS-covered employees. FERS and CSRS-
covered employees have no limit on the percentage of pay contributed to their TSP account. However, the total employee
regular contribution for 2013 and 2012 may not exceed the IRS limit of $17.5 thousand and $17 thousand, respectively. The
Department makes no matching contributions for CSRS-covered employees. TSP participants age 50 or older who are
already contributing the maximum amount of contributions for which they are eligible may also make catch-up contributions,
subject to the IRS dollar limit for catch-up contributions.




                                                                                                                                        63
                                                                                FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Federal Employees Health Benefit (FEHB) Program: Most Departmental employees are enrolled in the FEHB Program, which provides
post-retirement health benefits. OPM administers this program and is responsible for the reporting of liabilities. Employer agencies
and covered employees are not required to make any contributions for post-retirement health benefits. OPM calculates the U.S.
government’s service cost for covered employees each fiscal year. The Department has recognized the entire service cost of
these post-retirement health benefits for covered employees as an Imputed Cost and an Imputed Financing Source From Cost
Absorbed by Others.

NOAA Corps Post-retirement Health Benefits: Active-duty officers of the NOAA Corps are covered by the health benefits program for
the NOAA Corps, which provides post-retirement health benefits. This is a pay-as-you-go plan administered by the Department.
Participants do not make any contributions to this plan.

Federal Employees Group Life Insurance (FEGLI) Program: Most Department employees are entitled to participate in the FEGLI
Program. Participating employees can obtain basic term life insurance, with the employee paying two-thirds of the cost and the
Department paying one-third. Additional coverage is optional, to be paid fully by the employee. The basic life coverage may be
continued into retirement if certain requirements are met. OPM administers this program and is responsible for the reporting
of liabilities. For each fiscal year, OPM calculates the U.S. government’s service cost for the post-retirement portion of basic life
coverage. Because the Department’s contributions to the basic life coverage are fully allocated by OPM to the pre-retirement
portion of coverage, the Department has recognized the entire service cost of the post-retirement portion of basic life coverage
as an Imputed Cost and an Imputed Financing Source From Cost Absorbed by Others.


R	     Use of Estimates

The preparation of financial statements requires the Department to make estimates and assumptions that affect these financial
statements. Actual results may differ from those estimates.


S	     Tax Status

The Department is not subject to federal, state, or local income taxes. Accordingly, no provision for income taxes is recorded.


T	     Fiduciary Activities

Fiduciary activities are the collection or receipt, and the management, protection, accounting, and disposition by the U.S.
government of cash or other assets in which non-federal individuals or entities have an ownership interest that the U.S. government
must uphold. Fiduciary cash and other assets are not assets of the U.S. government, and, accordingly, are not recognized in the
accompanying consolidated financial statements.

The Department’s fiduciary activities consist of the following:

The Patent Cooperation Treaty authorizes USPTO to collect patent filing and search fees on behalf of the World Intellectual
Property Organization (WIPO), European Patent Office, Korean Intellectual Property Office, and the Australian Patent Office,
from U.S. citizens requesting an international patent. The Madrid Protocol Implementation Act authorizes USPTO to collect
trademark application fees on behalf of the International Bureau of WIPO from U.S. citizens requesting an international trademark.
These fiduciary activities are reported in Note 20.




  64          FY 2013 AGENCY FINANCIAL REPORT
                                                                             N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




  N O T E 2 . F U N D B A L A N C E W I T H T R E A S U RY

Fund Balance with Treasury, by type, is as follows:
                                                                            FY 2013                      FY 2012

         General Funds                                                  $     7,903,145             $      8,987,526
         Revolving Funds                                                        790,716                     970,075
         Special Funds
         	   Digital Television Transition and Public Safety Fund            8,828,569                    8,842,490
         	 Patent and Trademark Surcharge Fund                               233,529                     233,529
         	Others                                                            	82,511                     	83,948
         Deposit Funds                                                      	135,562                    	138,405
         Trust Funds                                                          28,427                       4,611
         Other Fund Types                                                         38                         697
         Total                                                          $   18,002,497              $    19,261,281



Status of Fund Balance with Treasury is as follows:
                                                                            FY 2013                      FY 2012

         Temporarily Precluded From Obligation                          $       947,581             $       796,526
         Unobligated Balance
           Available                                                        1,470,060                   1,293,699
           Unavailable                                                      9,126,545                   9,058,369
         Obligated Balance Not Yet Disbursed                                6,089,565                    7,740,057
         Non-budgetary                                                      	368,746                    	372,630
         Total                                                          $   18,002,497              $    19,261,281

See Note 18, Combined Statements of Budgetary Resources, for legal arrangements affecting the Department’s
use of Fund Balance with Treasury for FY 2013 and FY 2012.




                                                                                                                              65
                                                                      FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




   N O T E 3 . A C C O U N T S R E C E I VA B L E , N E T

                                                                       FY 2013
                                                               Accounts          Allowance for               Accounts
                                                              Receivable,        Uncollectible              Receivable,
                                                                Gross              Accounts                    Net
                   Intragovernmental                      $        92,197        $ 	-                   $           92,197
                   With the Public                        $        75,908        $       (11,778)       $           64,130

                                                                       FY 2012
                                                               Accounts          Allowance for               Accounts
                                                              Receivable,        Uncollectible              Receivable,
                                                                Gross              Accounts                    Net
                   Intragovernmental                      $       116,009        $ 	-                   $          116,009
                   With the Public                        $       116,327        $       (11,386)       $          104,941


As a major partner in the federal response to the 2010 Deepwater Horizon oil spill, NOAA has incurred certain costs for providing
coordinated scientific weather and biological response services to that region, for which it expects to be reimbursed. NOAA
has receivables from an oil company (With the Public) for restoration activities that are winding down totaling $13.0 million and
$66.0 million as of September 30, 2013 and 2012, respectively. NOAA believes these receivables are fully collectible, based on
costs submitted to date, and reimbursements received. Therefore, no allowance for uncollectible accounts has been established
for these receivables.



   NOTE 4. CASH

                                                                                         FY 2013                    FY 2012
           Cash Not Yet Deposited with Treasury                                      $        5,453            $         4,463
           Imprest Funds                                                                 	353                       	371
           Total                                                                     $          5,806          $          4,834


Cash Not Yet Deposited with Treasury primarily represents patent and trademark fees that were not processed as of September 30,
due to the lag time between receipt and initial review. Certain bureaus maintain imprest funds for operational necessity, such as
law enforcement activities, and for environments that do not permit the use of electronic payments.




  66          FY 2013 AGENCY FINANCIAL REPORT
                                                                              N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




  NOTE 5. DIRECT LOANS AND LOAN GUARANTEES, NET

The Department operates the following direct loan and loan guarantee programs:

        Direct Loan Programs:
        EDA                                 Drought Loan Portfolio
        EDA                                 Economic Development Revolving Fund
        NOAA                                Alaska Purse Seine Fishery Buyback Loans
        NOAA                                Bering Sea and Aleutian Islands Non-Pollock Buyback Loans
        NOAA                                Bering Sea Pollock Fishery Buyback
        NOAA                                Coastal Energy Impact Program (CEIP)
        NOAA                                Crab Buyback Loans
        NOAA                                Federal Gulf of Mexico Reef Fish Buyback Loans1
        NOAA                                Fisheries Finance Individual Fishing Quota (IFQ) Loans
        NOAA                                Fisheries Finance Traditional Loans
        NOAA                                Fisheries Finance Tuna Fleet Loans
        NOAA                                Fisheries Loan Fund
        NOAA                                New England Groundfish Buyback Loans1
        NOAA                                New England Lobster Buyback Loans1
        NOAA                                Pacific Groundfish Buyback Loans
        1   No loans have been issued under these programs as of September 30, 2013.

        Loan Guarantee Programs:
        EDA                                 Economic Development Revolving Fund
        ELGP-Steel                          Emergency Steel Loan Guarantee Program
        NOAA                                Fishing Vessel Obligation Guarantee Program (FVOG Program)



The net assets for the Department’s loan programs consist of:

                                                                             FY 2013                     FY 2012
        Direct Loans Obligated Prior to FY 1992                          $       14,750             $        17,062
        Direct Loans Obligated After FY 1991                                    518,423                     552,764
        Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees               	3                          	4
        Defaulted Guaranteed Loans from Post-FY 1991 Guarantees                     516                         518
        Total                                                            $      533,692             $        570,348




                                                                                                                               67
                                                                       FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Direct Loans Obligated Prior to FY 1992 consist of:

                                                                  FY 2013
                                                                                                            Value of Assets
                                                              Loans                                           Related to
                      Direct                                Receivable,        Interest    Allowance for     Direct Loans,
                   Loan Program                               Gross           Receivable    Loan Losses           Net
 CEIP                                                     $     20,021      $    5,222     $ (19,561)      $ 	5,682
 Drought Loan Portfolio                                          5,684         	-             	-                    5,684
 Fisheries Loan Fund                                               148              16        	(164)          	-
 Economic Development Revolving Fund                             3,416               3        	(35)                 3,384
 Total                                                    $    29,269       $    5,241     $   (19,760)    $      14,750


                                                                  FY 2012
                                                                                                            Value of Assets
                                                              Loans                                           Related to
                      Direct                                Receivable,        Interest    Allowance for     Direct Loans,
                   Loan Program                               Gross           Receivable    Loan Losses           Net
 CEIP                                                     $     20,124      $    5,065     $ (19,404)      $ 	5,785
 Drought Loan Portfolio                                          7,207              95        	(73)                 7,229
 Fisheries Loan Fund                                               148              16        	(164)          	-
 Economic Development Revolving Fund                             4,066              22        	(40)                 4,048
 Total                                                    $    31,545       $    5,198     $   (19,681)    $      17,062




  68          FY 2013 AGENCY FINANCIAL REPORT
                                                                            N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Direct Loans Obligated After FY 1991 consist of:

                                                         FY 2013
                                                 Loans                               Allowance for          Value of Assets
                                               Receivable,          Interest         Subsidy Cost              Related to
             Direct Loan Program                 Gross             Receivable       (Present Value)        Direct Loans, Net

    Bering Sea and Aleutian Islands
       Non-Pollock Buyback Loans               $     33,468    $        265         $     4,862             $     38,595
    Bering Sea Pollock Fishery Buyback               38,070          	37                  2,294                   40,401
    Crab Buyback Loans                               87,235           1,248              23,033                  111,516
    Fisheries Finance IFQ Loans                      24,015             225               3,982                   28,222
    Fisheries Finance Traditional Loans            	218,917          	1,882              30,847                 251,646
    Pacific Groundfish Buyback Loans                 29,498          	46                  7,845                   37,389
    Alaska Purse Seine Fishery Buyback Loans         10,106          	15                    533                   10,654
    Total                                      $   441,309     $        3,718       $    73,396             $   518,423


                                                         FY 2012
                                                 Loans                               Allowance for          Value of Assets
                                               Receivable,          Interest         Subsidy Cost              Related to
             Direct Loan Program                 Gross             Receivable       (Present Value)        Direct Loans, Net

    Bering Sea and Aleutian Islands Non-
       Pollock Buyback Loans                   $     32,122    $           72       $     6,425             $     38,619
    Bering Sea Pollock Fishery Buyback               42,695            	75                2,817                   45,587
    Crab Buyback Loans                               89,533             2,786            24,424                  116,743
    Fisheries Finance IFQ Loans                      24,803               240             4,054                   29,097
    Fisheries Finance Traditional Loans            	240,004            	1,964            29,876                 271,844
    Pacific Groundfish Buyback Loans                 30,040            	989               7,724                   38,753
    Alaska Purse Seine Fishery Buyback Loans         11,861            	13                  247                   12,121
    Total                                      $   471,058     $        6,139       $    75,567             $   552,764


New Disbursements of Direct Loans (Post-FY 1991):

             Direct Loan Program                   FY 2013              FY 2012

    Fisheries Finance IFQ Loans                $       1,922       $        5,595
    Fisheries Finance Traditional Loans               18,181               56,734
    Bering Sea and Aleutian Islands
       Non-Pollock Buyback Loans                   	2,700               	-
    Alaska Purse Seine Fishery Buyback Loans       	-                   13,133
    Total                                      $      22,803       $       75,462




                                                                                                                             69
                                                                       FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Subsidy Expense for Direct Loans by Program and Component:

Subsidy Expense for New Disbursements of Direct Loans:

                                                                    FY 2013
                                                                                     Fees and
                                                 Interest Rate                        Other
        Direct Loan Program                       Differential       Defaults       Collections      Other          Total
 Fisheries Finance IFQ Loans                     $ 	(419)           $ 	4           $ 	(13)         $ 	176         $ 	(252)
 Fisheries Finance Traditional Loans                 	(2,628)         	11             	(86)          	804           	(1,899)
 Bering Sea and Aleutian Islands
    Non-Pollock Buyback Loans                        	(843)             	870          	-               	-             	27
 Total                                           $        (3,890)   $       885    $ 	(99)         $       980    $   (2,124)

                                                                    FY 2012
                                                                                     Fees and
                                                 Interest Rate                        Other
        Direct Loan Program                       Differential       Defaults       Collections      Other          Total
 Fisheries Finance IFQ Loans                     $ 	(1,205)         $ 	11          $ 	(35)         $ 	472         $ 	(757)
 Fisheries Finance Traditional Loans                 	(8,017)         	60             	(194)         	2,763         	(5,388)
 Total                                           $        (9,222)   $         71   $ 	(229)        $      3,235   $   (6,145)


Modifications and Reestimates:

                                  FY 2013                                                              FY 2013
                                                               Total               Interest Rate    Technical        Total
             Direct Loan Program                            Modifications          Reestimates     Reestimates    Reestimates
 Bering Sea and Aleutian Islands Non-Pollock
    Buyback Loans                                           $   	-                 $ 	-            $ 	1,206       $ 	1,206
 Bering Sea Pollock Fishery Buyback                             	-                   	-              	30            	30
 Crab Buyback Loans                                             	-                   	-                 618            618
 Fisheries Finance IFQ Loans                                    	-                   	-              	(3)           	(3)
 Fisheries Finance Traditional Loans                            	-                   	-              	(953)         	(953)
 Pacific Groundfish Buyback Loans                               	-                   	-              	(465)         	(465)
 Alaska Purse Seine Fishery Buyback Loans                       	-                   	-              	(462)         	(462)
 Total                                                      $   	-                 $ 	-            $ 	(29)        $ 	(29)


                                  FY 2012                                                              FY 2012
                                                               Total               Interest Rate    Technical        Total
             Direct Loan Program                            Modifications          Reestimates     Reestimates    Reestimates
 Bering Sea and Aleutian Islands Non-Pollock
    Buyback Loans                                           $   	-                 $ 	-            $ 	523         $ 	523
 Bering Sea Pollock Fishery Buyback                             	-                   	-              	911           	911
 Crab Buyback Loans                                             	-                   	-              	(7,434)       	(7,434)
 Fisheries Finance IFQ Loans                                    	-                   	-              	1,045         	1,045
 Fisheries Finance Traditional Loans                            	-                   	-              	7,481         	7,481
 Fisheries Finance Tuna Fleet Loans                             	-                   	-              	-             	-
 Pacific Groundfish Buyback Loans                               	-                   	-              	552           	552
 Total                                                      $   	-                 $ 	-            $ 	3,078       $ 	3,078

  70          FY 2013 AGENCY FINANCIAL REPORT
                                                                                    N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Total Direct Loan Subsidy Expense:

                     Direct Loan Program                            FY 2013                  FY 2012

         Bering Sea and Aleutian Islands Non-Pollock
           Buyback Loans                                          $ 	1,233              $ 	523
         Bering Sea Pollock Fishery Buyback                         	30                     	911
         Crab Buyback Loans                                         	618                    	(7,434)
         Fisheries Finance IFQ Loans                                      (255)                       288
         Fisheries Finance Traditional Loans                        	(2,852)                	2,093
         Pacific Groundfish Buyback Loans                           	(465)                  	552
         Alaska Purse Seine Fishery Buyback Loans                   	(462)                  	-
         Total                                                    $ 	(2,153)            $ 	(3,067)


Subsidy Rates for Direct Loans by Program and Component:

Budget Subsidy Rates for Direct Loans for the Current Fiscal-year’s Cohorts:

                                                             FY 2013
                                                                                      Fees and
                                                  Interest Rate                        Other
            Direct Loan Program                    Differential      Defaults        Collections            Other              Total
 Fisheries Finance IFQ Loans                        (10.87) %           0.10 %      	(0.40) %           	8.47 %            	(2.70) %
 Fisheries Finance Traditional Loans                  (7.95) %          0.06 %      	(0.49) %           	3.55 %            	(4.83) %


                                                             FY 2012
                                                                                      Fees and
                                                  Interest Rate                        Other
            Direct Loan Program                    Differential      Defaults        Collections            Other              Total
 Fisheries Finance IFQ Loans                        (23.54) %           0.19 %      	(0.79) %           	11.34 %           	(12.80) %
 Fisheries Finance Traditional Loans                (18.46) %           0.06 %      	(0.53) %           	5.16 %            	(13.77) %
 Alaska Purse Seine Fishery Buyback Loans             (3.24) %          4.24 %      	0.00 %             	0.00 %               1.00     %

The budget subsidy rates disclosed pertain only to the reporting period’s cohorts. These rates cannot be applied to the new
disbursements of direct loans during the reporting period to yield the subsidy expense. The subsidy expense for new disbursements
of direct loans for the reporting period could result from disbursements of loans from both the reporting period’s cohorts and prior
fiscal-year(s) cohorts. The subsidy expense for the reporting period may also include modifications and reestimates.




                                                                                                                                     71
                                                                              FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Schedule for Reconciling Allowance for Subsidy Cost (Post-FY 1991 Direct Loans):

                                                                                           FY 2013                 FY 2012
    Beginning Balance of the Allowance for Subsidy Cost                                $ 	75,567               $ 	80,837

    Add Subsidy Expense for Direct Loans Disbursed During the
      Reporting Years by Component:
    		     Interest Rate Differential Costs                                                        3,890                9,222
    		     Default Costs (Net of Recoveries)                                               	(885)                  	(71)
    		     Fees and Other Collections                                                                99                      229
    		     Other Subsidy Costs                                                                      (980)              (3,235)
    Total of the above Subsidy Expense Components                                                  2,124                6,145

    Adjustments:
    		Loan Modifications                                                                   	-                            (131)
    		Fees Received                                                                                  (96)                (305)
    		     Subsidy Allowance Amortization                                                       (4,262)            	(7,901)
    		Other                                                                                	34                     	-
    Total of Adjustments                                                                        (4,324)                (8,337)
    Ending Balance of the Allowance for Subsidy Cost Before Reestimates                    	73,367                 	78,645
    Add or Subtract Subsidy Reestimates by Component:
    		Technical/Default Reestimates                                                        	29                     	(3,078)
    Ending Balance of the Allowance for Subsidy Cost                                   $        73,396         $       75,567


Defaulted Guaranteed Loans from Pre-FY 1992 Guarantees:

                                                                  FY 2013
                                                                                                        Value of Assets
                                               Defaulted                                              Related to Defaulted
          Loan Guarantee                    Guaranteed Loans           Interest    Allowance for       Guaranteed Loans
             Program                        Receivable, Gross         Receivable   Loan Losses          Receivable, Net
FVOG Program                                $             7,318      $ 	1          $ 	(7,316)         $ 	3

                                                                  FY 2012
                                                                                                        Value of Assets
                                               Defaulted                                              Related to Defaulted
          Loan Guarantee                    Guaranteed Loans           Interest    Allowance for       Guaranteed Loans
             Program                        Receivable, Gross         Receivable   Loan Losses          Receivable, Net
FVOG Program                                $             7,318      $ 	1          $ 	(7,315)         $ 	4




  72          FY 2013 AGENCY FINANCIAL REPORT
                                                                                    N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Defaulted Guaranteed Loans from Post-FY 1991 Guarantees:

                                                          FY 2013
                                                                                                                  Value of Assets
                                         Defaulted                                      Allowance for           Related to Defaulted
        Loan Guarantee                Guaranteed Loans             Interest             Subsidy Cost             Guaranteed Loans
           Program                    Receivable, Gross           Receivable           (Present Value)            Receivable, Net
FVOG Program 	                       $       14,128             $ 	1,254              $ 	    (14,866)           $               516


                                                          FY 2012
                                                                                                                  Value of Assets
                                         Defaulted                                      Allowance for           Related to Defaulted
        Loan Guarantee                Guaranteed Loans             Interest             Subsidy Cost             Guaranteed Loans
           Program                    Receivable, Gross           Receivable           (Present Value)            Receivable, Net
FVOG Program 	                       $       14,128             $ 	   1,254           $ 	    (14,864)           $               518



Loan Guarantees:

Guaranteed Loans Outstanding:

Outstanding non-acquired guaranteed loans as of September 30, 2013 and 2012, which are not reflected in the financial
statements, are as follows:

                                                      FY 2013                                              FY 2012
                                        Outstanding               Amount of               Outstanding                    Amount of
                                         Principal of            Outstanding               Principal of                 Outstanding
        Loan Guarantee                Guaranteed Loans,            Principal            Guaranteed Loans,                 Principal
           Program                       Face Value              Guaranteed                Face Value                   Guaranteed
FVOG Program                         $ 	1,195                   $ 	1,195               $ 	1,613                       $ 	1,613



New Guaranteed Loans Disbursed:

There were no new guaranteed loans disbursed during FY 2013 and FY 2012.

Loan Guarantee Liabilities:

                                                                                FY 2013                              FY 2012
                                                                            Loan Guarantee                       Loan Guarantee
                                                                           Liabilities for Post-                Liabilities for Post-
                                                                          FY 1991 Guarantees,                  FY 1991 Guarantees,
                      Loan Guarantee Program                                  Present Value                        Present Value
        FVOG Program                                                  $                516                 $                 518




                                                                                                                                      73
                                                                             FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Subsidy Expense for Loan Guarantees by Program and Component:

Subsidy Expense for New Loan Guarantees Disbursed:

As there were no new guaranteed loans disbursed during FY 2013 and FY 2012, there is not any related subsidy expense.


Modifications and Reestimates:

                               FY 2013                                                        FY 2013
              Loan Guarantee                      Total                   Interest Rate      Technical           Total
                 Program                       Modifications              Reestimates       Reestimates       Reestimates
       FVOG Program                           $ 	-                       $ 	-               $ 	-              $ 	-


                               FY 2012                                                        FY 2012
              Loan Guarantee                      Total                   Interest Rate      Technical           Total
                 Program                       Modifications              Reestimates       Reestimates       Reestimates
       FVOG Program                           $ 	-                       $ 	-               $ 	(1)            $ 	(1)


Total Loan Guarantee Subsidy Expense:

                           Loan Guarantee Program                       FY 2013                FY 2012
          FVOG Program                                             $ 	-                    $ 	(1)


Subsidy Rates for Loan Guarantees by Program and Component:

Budget Subsidy Rates for Loan Guarantees for the Current Fiscal-year’s Cohorts:

         There were no new cohorts of guaranteed loans during FY 2013 and FY 2012.

Schedule for Reconciling Loan Guarantee Liabilities (Post-FY 1991 Loan Guarantees):

                                                                                          FY 2013               FY 2012

          Beginning Balance of Loan Guarantee Liabilities                            $ 	518               $ 	       563
          Adjustments:
          	   Interest Accumulation on the Liabilities Balance                            	-                  	(45)
          	Other                                                                          	(2)                	-
          Ending Balance of Loan Guarantee Liabilities                               $        516         $         518




  74          FY 2013 AGENCY FINANCIAL REPORT
                                                                                       N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Administrative Expenses:

Administrative expenses in support of the Department’s direct loan and loan guarantee programs consist of:

                        Direct Loan Program                               FY 2013                      FY 2012
          Drought Loan Portfolio and
             Economic Development Revolving Fund                     $               256        $              696
          NOAA Direct Loan Programs                                             3,147                         2,780
          Total                                                      $          3,403           $             3,476

                     Loan Guarantee Program                               FY 2013                      FY 2012
          FVOG Program                                               $               170        $              141




    N O T E 6 . I N V E N T O RY, M AT E R I A L S , A N D S U P P L I E S , N E T

                      Category                           Cost Flow Assumption                  FY 2013                FY 2012
Inventory
Items Held for Current Sale
	    NIST Standard Reference Materials                   Average                           $     22,087           $       21,612
	Other                                                   Various                                      305                    923
Allowance for Excess, Obsolete, and
   Unserviceable Items                                                                                 (60)                   (93)

Total Inventory, Net                                                                             22,332                  22,442


Materials and Supplies
Items Held for Use
	    NOAA’s National Logistics Support Center            Weighted-average                        51,507                  46,700
	Other                                                   Various                                     5,168                 4,902
Items Held for Repair
	    NOAA’s National Reconditioning Center               Weighted-average                           39,761                41,576
Allowance for Excess, Obsolete, and
   Unserviceable Items                                                                          (19,161)                 (10,642)

Total Materials and Supplies, Net                                                                   77,275               82,536

Total                                                                                      $     99,607           $     104,978


NIST’s Standard Reference Materials Program provides reference materials for quality assurance of measurements, while NOAA’s
Materials and Supplies are primarily repair parts for weather forecasting equipment.




                                                                                                                                        75
                                                                              FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




   N O T E 7 . G E N E R A L P R O P E R T Y, P L A N T, A N D E Q U I P M E N T, N E T

                                                                  FY 2013
                                                    Useful Life                       Accumulated
                   Category                          (Years)            Cost          Depreciation        Net Book Value
       Land                                               N/A     $ 	16,632          $ 	-               $         16,632
       Land Improvements                              30-40                  2,996            (1,563)               1,433
       Structures, Facilities, and
          Leasehold Improvements                          2-50          1,949,787          (670,153)           1,279,634
       Satellites/Weather Systems
          Personal Property                               3-20          5,999,648         (3,909,346)          2,090,302
       Other Personal Property                            2-30          2,876,375         (1,927,274)       	949,101
       Assets Under Capital Lease                         3-40      	23,237            	(19,287)            	3,950
       Construction-in-progress                           N/A       	6,762,792         	-                   	6,762,792
       Total                                    	                 $ 	17,631,467      $ 	(6,527,623)     $ 	11,103,844



The Department elected to change its method of accounting for the completion of satellites, as discussed in Note 1J, General
Property, Plant, and Equipment, Net. As a result, the FY 2013 Net Position – Cumulative Results of Operations beginning balance
(as of October 1, 2012) is reduced for depreciation expense of $75.9 million, on the Changes in Accounting Principle line on the
FY 2013 Consolidated Statement of Changes in Net Position.



                                                                  FY 2012
                                                    Useful Life                       Accumulated
                   Category                          (Years)            Cost          Depreciation        Net Book Value
       Land                                               N/A     $ 	       16,733   $ 	-               $         16,733
       Land Improvements                              30-40                  2,996            (1,471)               1,525
       Structures, Facilities, and
          Leasehold Improvements                          2-50          1,778,876          (616,975)           1,161,901
       Satellites/Weather Systems
          Personal Property                               3-20          4,734,829         (3,973,204)            761,625
       Other Personal Property                            2-30          2,697,484         (1,772,375)       	925,109
       Assets Under Capital Lease                         3-40      	23,182            	(19,203)            	3,979
       Construction-in-progress                           N/A       	7,129,640         	-                   	7,129,640
       Total                                    	                 $ 	16,383,740      $ 	(6,383,228)     $ 	10,000,512




  76           FY 2013 AGENCY FINANCIAL REPORT
                                                                                      N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




   NOTE 8. OTHER ASSETS

                                                                     FY 2013                    FY 2012
         With the Public                                         	                          	
         Advances and Prepayments                            $          37,534          $          40,220
         Note Receivable                                                 1,517                      1,567
         Bibliographic Database, Net                                     5,728                      6,114
         Other                                                   	118                       	375
         Total                                               $          44,897          $          48,276


As of September 30, 2013 and 2012, there is one Note Receivable with a maturity date of July 2024 and an interest rate of
7.0 percent. The balance includes accrued interest.

The bibliographic database relates to NTIS’s scientific and technical information used to prepare products and services for sale.
The database is stated at capitalized costs of $70.0 million and $67.8 million, less accumulated amortization of $64.3 million and
$61.7 million, as of September 30, 2013 and 2012, respectively.



   NOTE 9. NON-ENTITY ASSETS

The assets that are not available for use in the Department’s operations are summarized below:

                                                                     FY 2013                    FY 2012
         Intragovernmental                                       	                          	
         Fund Balance with Treasury                          $ 	121,319                 $ 	124,296
         Accounts Receivable                                     	7,222                            10,496
         Total Intragovernmental                                       128,541                    134,792

         With the Public
         Cash                                                    	1,145                     	1,133
         Accounts Receivable, Net                                         331                        490
         Direct Loans and Loan
            Guarantees, Net                                      	8,407                     	7,229
         Other                                                   	1,674                     	-
         Total                                               $         140,098          $         143,644




                                                                                                                                       77
                                                                                 FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




     N O T E 1 0 . D E B T T O T R E A S U RY

                                                                  FY 2013
                                                                   Beginning              Net Borrowings              Ending
                              Loan Program                          Balance                (Repayments)               Balance
            Direct Loan Program
            Fisheries Finance, Financing Account              $         551,742           $      (27,177)       $        524,565

            Loan Guarantee Program
            FVOG Program                                                          1           	(1)                  	-
            NTIA’s Public Safety Trust Fund, and
              State and Local Implementation Fund                 	2,538                         48,500                   51,038
            Total                                             $ 	554,281                  $      21,322         $        575,603


 For the Direct Loan program, maturity dates range from September 2013 to September 2052, and interest rates range from
 2.59 to 5.84 percent. For NTIA’s Debt to Treasury, the maturity date is September 30, 2022, and the amounts borrowed
 are interest-free.

                                                              FY 2012
                                                              Beginning               Net Borrowings                Ending
                             Loan Program                      Balance                 (Repayments)                 Balance
            Direct Loan Program
            Fisheries Finance, Financing Account          $          539,302          $        12,440       $          551,742

            Loan Guarantee Program
            FVOG Program                                                    699                  (698)                        1
            NTIA’s Public Safety Trust Fund, and
              State and Local Implementation Fund             	-                                2,538                    2,538
            Total                                         $ 	540,001                  $        14,280       $          554,281




  78          FY 2013 AGENCY FINANCIAL REPORT
                                                                                N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




  NOTE 11. OTHER LIABILITIES

                                                                      FY 2013                                         FY 2012
                                                                     Non-current
                                             Current Portion           Portion                Total                      Total
        Intragovernmental
        Accrued FECA Liability              $        27,103      $         8,402       $         35,505         $          36,197
        Accrued Benefits                             30,608          	-                          30,608                    53,117
        Custodial Activity                              230          	-                               230                     490
        Downward Subsidy Reestimates
          Payable to Treasury                         7,222          	-                            7,222                   10,496
        Other                                           940          	-                               940                    2,112
        Total                               $        66,103      $         8,402       $          74,505        $        102,412


        With the Public
        ITA Foreign Service Nationals’
           Voluntary Separation Pay         $         2,783      $         9,439       $         12,222         $          11,745
        Contingent Liabilities (Note 16)                625          	-                               625                     502
        Employment-related                            5,842          	-                            5,842                    4,295
        Other                                        45,411          	-                          45,411                    41,190
        Total                               $        54,661      $         9,439       $         64,100         $          57,732



The Current Portion represents liabilities expected to be paid by September 30, 2014, while the Non-current Portion represents
liabilities expected to be paid after September 30, 2014.




                                                                                                                                 79
                                                                          FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




   NOTE 12. FEDERAL EMPLOYEE BENEFITS

                                                                                     FY 2013                FY 2012
          Actuarial FECA Liability                                               $ 	242,691            $ 	228,211
          NOAA Corps Retirement System Liability                                   	612,200                	577,900
          NOAA Corps Post-retirement Health Benefits Liability                     	42,300                 	45,100
          Total                                                                  $ 	897,191            $ 	851,211


Actuarial FECA Liability:

Actuarial FECA liability is calculated annually, as of September 30. For discounting projected annual future benefit payments to
present value, the interest rate assumptions used by DOL were as follows:

                                                                                     FY 2013                FY 2012
          Year 1                                                                   	2.73%                  	2.29%
          Year 2 and Thereafter                                                    	3.13%                  	3.14%


The wage inflation factors (Cost of Living Allowance) and medical inflation factors (Consumer Price Index - Medical) applied to the
calculation of projected future benefits, and also used to adjust the methodology’s historical payments to current-year constant
dollars, were as follows:

                                                          FY 2013
                                                                Cost of Living   Consumer Price
                           Fiscal Year                           Allowance       Index - Medical
                  2014                                              1.67 %             3.46 %
                  2015                                              1.80 %             3.82 %
                  2016                                              2.20 %             3.83 %
                  2017                                              2.20 %             3.82 %
                  2018                                              2.20 %             3.82 %

                                                          FY 2012
                                                                Cost of Living   Consumer Price
                           Fiscal Year                           Allowance       Index - Medical
                  2013                                              2.83 %             3.65 %
                  2014                                              2.03 %             3.66 %
                  2015                                              1.93 %             3.72 %
                  2016                                              2.00 %             3.73 %
                  2017                                              2.03 %             3.80 %




  80          FY 2013 AGENCY FINANCIAL REPORT
                                                                                     N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




NOAA Corps Retirement System Liability:

This liability represents the unfunded actuarial present value of projected plan benefits. The actuarial calculation is performed
annually, as of September 30. The September 30, 2013 and 2012 actuarial calculations used the following economic
assumptions:
                                                                           FY 2013                     FY 2012
         Discount Rate                                                      4.23%                        4.43%
         Annual Basic Pay Scale Increases                                   2.93%                        2.96%
         Annual Inflation                                                   2.43%                        2.46%

Schedule for Reconciling NOAA Corps Retirement System Liability:

A reconciliation of the NOAA Corps Retirement System Liability from the beginning balance to the ending balance, including the
components of the related pension costs included in the Consolidated Statements of Net Costs, follows:
                                                                                               FY 2013                     FY 2012
         Beginning Balance - NOAA Corps Retirement System Liability                      $         577,900            $        524,100
         Add Pension Costs:
           Normal Cost                                                                         11,900                           10,600
           Interest on the Unfunded Liability                                                 	23,900                           24,300
           Actuarial (Gains)/Losses, Net
              From Experience                                                                 	3,300                             3,700
              From Discount Rate Assumption Change                                            	17,100                           24,100
              From Long-term Assumption Changes
                 Annual Inflation                                                             	(1,900)                    	4,600
                 Annual Basic Pay Scale Increases                                             	(800)                      	(800)
                 Demographic                                                                  	3,100                      	9,800
                  Other                                                                       	900                        	-
            Total Pension Costs                                                                     57,500                      76,300
         Subtract Benefit Payments                                                            	(23,200)                        (22,500)
         Ending Balance - NOAA Corps Retirement System Liability                         $        612,200             $        577,900


NOAA Corps Post-retirement Health Benefits Liability:

This liability represents the unfunded actuarial present value of projected post-retirement plan benefits. The actuarial calculation
is performed annually, as of September 30. The actuarial calculations used the following economic assumptions:
                                                                           FY 2013                     FY 2012
         Discount Rate                                                      4.21%                        4.42%
         Ultimate Medical Trend Rate                                        5.35%                        5.25%




                                                                                                                                      81
                                                                             FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Schedule for Reconciling NOAA Corps Post-retirement Health Benefits Liability:

A reconciliation of the NOAA Corps Post-retirement Health Benefits Liability from the beginning balance to the ending balance,
including the components of the related post-retirement health benefits costs included in the Consolidated Statements of Net
Costs, follows:
                                                                                               FY 2013                     FY 2012
          Beginning Balance - NOAA Corps Post-retirement Health
            Benefits Liability                                                             $         45,100            $      48,400
          Add Health Benefits Costs:
            Normal Cost                                                                         1,400                          1,400
            Interest on the Unfunded Liability                                                 	1,800                          2,000
              Actuarial (Gains)/Losses, Net
                 From Experience                                                               	1,200                            700
                 From Discount Rate Assumption Change                                          	600                            1,200
                 From Long-term Assumption Changes
                    Medical Claims Costs                                                       	(5,300)                        (6,300)
                    Other                                                                      	100                               200
              Total Health Benefits Costs                                                              (200)                    (800)
          Subtract Benefit Payments                                                            	(2,600)                        (2,500)
          Ending Balance - NOAA Corps Post-retirement Health
            Benefits Liability                                                             $         42,300            $      45,100




    N O T E 1 3 . E N V I R O N M E N TA L A N D D I S P O S A L L I A B I L I T I E S

                                                                             FY 2013                   FY 2012
          Asbestos-related Cleanup Costs                                 $        95,832         $ 	-
          Nuclear Reactor                                                         56,232           55,036
          Pribilof Islands                                                         2,074            2,352
          Other                                                                    2,535            2,557
          Total                                                          $       156,673         $            59,945


The Department has incurred asbestos-related cleanup costs related to the costs of removing, containing, and/or disposing
of asbestos-containing materials from property, plant, and equipment, specifically from facilities owned by NIST and NOAA
and from ships owned by NOAA. Effective FY 2013, the Department implemented Technical Bulletin 2006-1, Recognition and
Measurement of Asbestos-related Cleanup Costs, which clarifies required recognition of liabilities and expenses for asbestos-
related cleanup costs. Prior to this technical bulletin, most federal entities had recognized liabilities for the removal of asbestos
that posed an immediate health threat (i.e., friable asbestos), but many federal entities had not prepared an estimate of cleanup
costs for the future removal of asbestos that did not pose an immediate health threat (i.e., nonfriable asbestos). The Federal
Accounting Standards Advisory Board determined that additional guidance was needed to clarify that federal entities need
to estimate all asbestos-related cleanup costs, and not just those costs related to asbestos that require immediate cleanup.
The FY 2013 beginning liability balance (as of October 1, 2012) for asbestos-related cleanup costs of $93.4 million is recorded as
a Change in Accounting Principle on the FY 2013 Consolidated Statement of Changes in Net Position.




  82          FY 2013 AGENCY FINANCIAL REPORT
                                                                                     N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




   NOTE 14. LEASES

Capital Leases:

Assets under capital leases are as follows:

                                                                           FY 2013                     FY 2012
         Structures, Facilities, and Leasehold Improvements           $ 	22,957                   $ 	22,902
         Equipment                                                         	280                       	280
         Less: Accumulated Depreciation                                    	(19,287)                  	(19,203)
         Net Assets Under Capital Leases                              $         3,950             $           3,979


Capital Lease Liabilities are primarily related to NOAA. NOAA has real property capital leases covering both land and buildings.
The majority of these leases are for weather forecasting offices, but the leases are also for radar system sites, river forecasting
centers, and National Weather Service enforcement centers. NOAA’s real property capital leases range from 10 to 40 years.

Capital Lease Liabilities:

Future payments due under capital leases are as follows:

                                                                 FY 2013
                                                            General PP&E Category
                   Fiscal Year                     Real Property              Personal Property                          Total
               2014                                $        3,051               $ 	317                             $           3,368
               2015                                         1,886                    	293                                      2,179
               2016                                            874                   	350                                      1,224
               2017                                           808                    	-                                           808
               2018                                           808                    	-                                           808
               Thereafter                                   8,334                    	-                                        8,334
         Total Future Lease Payments                       15,761                              960                           16,721
         Less: Imputed Interest                             (7,277)                            (25)                            (7,302)
         Less: Executory Costs                              (2,398)                  	-                                       (2,398)
         Net Capital Lease Liabilities             $        6,086               $              935                 $             7,021




                                                                                                                                         83
                                                                             FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




                                                                           FY 2012
                                                                     General PP&E Category
                       Fiscal Year                          Real Property                Personal Property       Total
                  2013                                      $        3,674                 $ 	95             $       3,769
                  2014                                               2,985                     	-                    2,985
                  2015                                               1,870                     	-                    1,870
                  2016                                                    874                  	-                        874
                  2017                                                    809                  	-                        809
                  Thereafter                                         9,141                     	-                    9,141
          Total Future Lease Payments                               19,353                            95            19,448
          Less: Imputed Interest                                     (7,932)                          (6)            (7,938)
          Less: Executory Costs                                      (3,127)                   	(6)                  (3,133)
          Net Capital Lease Liabilities                     $        8,294                 $          83     $       8,377


Operating Leases:

Most of the Department’s facilities are rented from GSA, which generally charges rent that is intended to approximate commercial
rental rates. For federally owned property rented from GSA, the Department generally does not execute an agreement with
GSA; the Department, however, is normally required to give 120 to 180 days notice to vacate. For non-federally owned property
rented from GSA, an occupancy agreement is generally executed, and the Department may normally cancel these agreements
with 120 days notice.

The Department’s 1) estimated real property rent payments to GSA for FY 2014 through FY 2018; and 2) future payments due
under noncancellable operating leases (non-GSA real property) are as follows:

                                                    FY 2013
                                                                General PP&E Category
                                                              GSA                    Non-GSA
                       Fiscal Year                        Real Property             Real Property
                  2014                                $         274,528         $         23,515
                  2015                                          278,500                   21,462
                  2016                                          274,168                   17,144
                  2017                                          276,935                   11,332
                  2018                                          280,041                   11,091
                  Thereafter                                          1                   87,132
          Total Future Lease Payments                                           $        171,676

          1	   Not estimated.




  84           FY 2013 AGENCY FINANCIAL REPORT
                                                                                    N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




   N O T E 1 5 . L I A B I L I T I E S N O T C O V E R E D B Y B U D G E TA RY R E S O U R C E S

                                                                              FY 2013                    FY 2012
         Intragovernmental
         Accrued FECA Liability                                          $        35,408           $         36,097
         Total Intragovernmental                                                  35,408                     36,097

         Accrued Payroll                                                     	50,955                   	39,450
         Accrued Annual Leave                                                	272,350                       270,955
         Federal Employee Benefits                                               897,191               	851,211
         Environmental and Disposal Liabilities                              	156,673                        59,945
         Contingent Liabilities                                                      625                         502
         Unearned Revenue                                                        489,275                    592,829
         ITA Foreign Service Nationals’ Voluntary Separation Pay                  12,222                      11,745
         Other                                                                        100                           3
         Total                                                           $     1,914,799           $     1,862,737


Due to USPTO’s funding structure, budgetary resources do not cover a portion of its Unearned Revenue. The Unearned
Revenue reported above is the portion of USPTO’s Unearned Revenue that is considered not covered by budgetary resources.
USPTO’s Unearned Revenue is a liability for revenue received before the patent or trademark work has been completed.
Budgetary resources derived from the current reporting period’s revenue have been partially used to cover the current reporting
period’s costs associated with unearned revenue from a prior reporting period. In addition, the current patent fee structure sets
low initial application fees that are followed by income from maintenance fees as a supplement in later years to cover the full cost
of the patent examination and issuance processes. The combination of these funding circumstances requires USPTO to obtain
additional budgetary resources to cover its liability for unearned revenue.




                                                                                                                                     85
                                                                             FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




   NOTE 16. COMMITMENTS AND CONTINGENCIES

Commitments:

The Department has entered into long-term contracts for the purchase, construction, and modernization of environmental
satellites and weather measuring and monitoring systems. A summary of major long-term commitments as of September 30,
2013 is shown below.

Major Long-term Commitments:

                                                                    FY 2013
Description                           FY 2014             FY 2015   FY 2016      FY 2017      FY 2018       Thereafter       Total
Geostationary Operational
  Environmental Satellites $ 	977,700               $ 	874,700 $ 	810,700      $ 	731,300 $ 	603,700       $ 	2,825,900   $ 	6,824,000
Convergence Satellites                	916,000        	958,600      	943,600    	921,100      	892,700      	2,997,200     	7,629,200
Polar Operational                                                                             	             	
   Environmental Satellites           	29,400         	32,200       	28,100     	5,700        	-            	-             	95,400
Ocean Surface Topography              	37,000         	25,700       	7,500      	7,300        	7,300             7,200     	92,000
Deep Space Climate                                                                                          	
  Observatory                         	23,700         	7,800        	3,200      	2,400        	2,300        	-                  39,400
Weather Service                       	56,025         	82,027       	81,966     	50,219       	50,546       	50,880        	371,663
Total                              $ 2,039,825 $ 	1,981,027 $ 	1,875,066       $ 	1,718,019 $ 	1,556,546   $ 	5,881,180   $ 	15,051,663

Legal Contingencies:

The Department is subject to potential liabilities in various administrative proceedings, legal actions, environmental suits, and
claims brought against it. In the opinion of the Department’s management and legal counsel, the ultimate resolution of these
proceedings, actions, suits, and claims will not materially affect the financial position or net costs of the Department.

Probable Likelihood of an Adverse Outcome:

The Department is subject to potential liabilities where adverse outcomes are probable, and claims are approximately
$625 thousand and $502 thousand as of September 30, 2013 and 2012, respectively. Accordingly, these contingent liabilities
were included in Other Liabilities on the Consolidated Balance Sheets as of September 30, 2013 and 2012, respectively. For a
majority of these claims, any amounts ultimately due will be paid out of Treasury’s Judgment Fund. For the claims to be paid by
Treasury’s Judgment Fund, once the claims are settled or court judgments are assessed relative to the Department, the liability
will be removed and an Imputed Financing Source From Cost Absorbed by Others will be recognized.

Reasonably Possible Likelihood of an Adverse Outcome:

The Department and other federal agencies are subject to potential liabilities for a variety of environmental cleanup costs,
many of which are associated with the Second World War, at various sites within the U.S. Since some of the potential
liabilities represent claims with no stated amount, the exact amount of total potential liabilities is unknown, but may
exceed $235.5 million as of September 30, 2013. For these potential liabilities, it is reasonably possible that an adverse
outcome will result. It is not possible, however, to speculate as to a range of loss. In the absence of a settlement
agreement, decree, or judgment, there is neither an allocation of response costs between the U.S. government and other
potentially responsible parties, nor is there an attribution of such costs to or among the federal agencies implicated in the




  86          FY 2013 AGENCY FINANCIAL REPORT
                                                                                   N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




claims. Although the Department has been implicated as a responsible party, the U.S. Department of Justice was unable
to provide an amount for these potential liabilities that is attributable to the Department. Of these potential liabilities, all
will be funded by Treasury’s Judgment Fund, if any amounts are ultimately due.

The Department and other federal agencies are subject to other potential liabilities. Since some of the potential liabilities
represent claims with no stated amount, the exact amount of total potential liabilities is unknown, but may exceed $95.3 million
as of September 30, 2013. For these potential liabilities, it is reasonably possible that an adverse outcome will result. It is not
possible, however, to speculate as to a range of loss. Of these potential liabilities, most will be funded by Treasury’s Judgment
Fund, if any amounts are ultimately due.

Guaranteed Loan Contingencies:

Fishing Vessels Obligation Guarantee Program: This loan guarantee program has outstanding non-acquired guaranteed loans (fully
guaranteed by the Department) as of September 30, 2013 and 2012, with outstanding principal balances totaling $1.2 million
and $1.6 million, respectively. A loan guarantee liability of $516 thousand and $518 thousand is recorded for the outstanding
guarantees as of September 30, 2013 and 2012, respectively.

Restructuring the National Polar-orbiting Operational Environmental Satellite System (NPOESS) to the Joint
Polar Satellite System (JPSS):

In 2010, the Executive Office of the President directed the restructure of the government’s approach to meeting its polar-orbiting
environmental data collection needs, to put the critical program on a more sustainable path towards success and announced
NOAA and the Air Force will cease the joint procurement of NPOESS.

NOAA, with the National Aeronautics and Space Administration (NASA) as its acquisition agent, is responsible for JPSS, which
will fly in the afternoon orbit. The U.S. Department of Defense is responsible for the early morning orbit, and will continue to
provide observations in the midmorning. The agencies will continue to partner in those areas that have been successful in the
past, such as sharing a common ground system. NOAA and NASA will continue to partner to ensure a successful way forward
for the respective programs, while utilizing international partnerships to sustain and enhance weather and climate observation
from space.

The restructuring effort primarily occurred in FY 2011. During this time, NOAA and the Air Force continued to work together to
decide which program components will transfer to NOAA to become part of JPSS. During FY 2011, the following equipment
and instruments were transferred to NOAA under the NASA/NOAA Memorandum of Understanding and NASA contracts: 1)
ground systems equipment; 2) Ozone Mapping and Profiler Suite; 3) Cross-track Infrared Sounder; and 4) Visible Infrared Imaging
Radiometer Suite Flight Model 2 for JPSS-1. Advanced Technology Microwave Sounder was transferred to NOAA. As a result of
the restructuring efforts, NOAA recorded additional impairment costs totaling $98.3 million in FY 2012.

NOAA/NASA will develop the JPSS-1 spacecraft based on the design used for the Suomi National Polar-orbiting Partnership
(S-NPP) satellite, and NOAA is planning a request for proposal to compete contract construction for the spacecraft for JPSS-2 in
FY 2014. NOAA/NASA launched the S-NPP satellite on October 28, 2011.

In FY 2013, NOAA placed the Common Ground System into service, at a cost of $1.07 billion. The Common Ground System will
continue to undergo significant system development in the future, which will result in asset improvements.




                                                                                                                                    87
                                                                             FY 2013 AGENCY FINANCIAL REPORT
       N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




    N O T E 1 7 . C O N S O L I D AT E D S TAT E M E N T S O F N E T C O S T

United States Department of Commerce Consolidating Statement of Net Cost
For the Year Ended September 30, 2013

                                                                                                                                                          Intra-
                                                                                                                         Departmental    Combining     Departmental            Consolidating
                                       NOAA          NTIA         NIST         USPTO             ESA         Others      Management        Total       Eliminations               Total

Theme 1: Economic Growth
    Intragovernmental Gross Costs   $ 	- $           82,077 $     128,948 $    540,346 $ 	              - $ 270,225      $ 78,968       $ 1,100,564 $           (99,147)       $ 1,001,417
    Gross Costs With the Public      	-             990,514       882,595     2,000,081     	-               772,969         27,233       4,673,392     	             -          4,673,392
       Total Gross Costs             	-            1,072,591     1,011,543    2,540,427     	           -    1,043,194     106,201        5,773,956             (99,147)         5,674,809
    Intragovernmental Earned
         Revenue                     	-              (21,847)     (88,509)       (8,841)     	          -     (21,530)     (70,350)       $(211,077)            99,147             (111,930)
    Earned Revenue From the
        Public                       	-                  (46)      (59,174)   (2,711,131)    	          -     (14,365)           (4)     (2,784,720)        	         -         (2,784,720)
       Total Earned Revenue          	-              (21,893)     (147,683)   (2,719,972)   	           -     (35,895)     (70,354)      (2,995,797)            99,147          (2,896,650)
    Net Program Costs                	-            1,050,698      863,860      (179,545)    	           -    1,007,299      35,847        2,778,159         	         -          2,778,159
Theme 2: Science and Information
    Intragovernmental Gross Costs      443,802         7,895     	-           	-                 386,840        7,354       78,968         924,859              (99,077)           825,782
    Gross Costs With the Public       2,058,890      10,923      	-           	-             1,150,818         68,524        27,234       3,316,389         	         -          3,316,389
       Total Gross Costs              2,502,692      18,818      	-           	-                1,537,658      75,878      106,202        4,241,248             (99,077)         4,142,171
    Intragovernmental Earned
         Revenue                       (114,026)     (13,919)    	-           	-                 (323,196)    (64,576)     (70,350)        (586,067)            99,077            (486,990)
    Earned Revenue From the
        Public                          (11,139)        (868)    	-           	-                  (12,878)    (10,633)           (4)        (35,522)        	         -            (35,522)
       Total Earned Revenue            (125,165)     (14,787)    	-           	-                 (336,074)    (75,209)     (70,354)        (621,589)            99,077            (522,512)
    Net Program Costs                 2,377,527       4,031      	-           	-             1,201,584            669       35,848        3,619,659         	         -          3,619,659
Theme 3: Environmental
Stewardship
    Intragovernmental Gross Costs      335,498     	-            	-           	-            	-               	-             78,982         414,480              (68,016)           346,464
    Gross Costs With the Public       1,865,448    	-            	-           	-            	-               	-              27,252       1,892,700                        -     1,892,700
       Total Gross Costs              2,200,946    	-            	-           	-            	-               	-            106,234        2,307,180             (68,016)         2,239,164
    Intragovernmental Earned
         Revenue                        (78,357)   	-            	-           	-            	-               	-            (70,371)        (148,728)            68,016             (80,712)
    Earned Revenue From the
        Public                          (69,231)   	-            	-           	-            	-               	-                  (4)        (69,235)     	            -            (69,235)
       Total Earned Revenue            (147,588)   	-            	-           	-            	-               	-            (70,375)        (217,963)            68,016            (149,947)
	   Net Program Costs                 2,053,358    	-            	-           	-            	-               	-             35,859        2,089,217     	             -          2,089,217
                                                  		 	
NET COST OF OPERATIONS              $ 4,430,885 $ 	1,054,729 $    863,860 $ (179,545) $ 1,201,584 $ 1,007,968 $ 107,554                 $ 8,487,035 $ 	-                       $ 8,487,035




          88            FY 2013 AGENCY FINANCIAL REPORT
                                                                                                         N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




United States Department of Commerce Consolidating Statement of Net Cost
For the Year Ended September 30, 2012

                                                                                                                                                      Intra-
                                                                                                                    Departmental    Combining      Departmental   Consolidating
                                       NOAA         USPTO          ESA          NIST         NTIA        Others     Management        Total        Eliminations      Total

Theme 1: Economic Growth
    Intragovernmental Gross Costs   $ 	- $          483,396 $ 	- $              125,745 $    345,827 $ 272,589 $ 79,800            $ 1,307,357 $ 	(95,034)        $ 1,212,323
    Gross Costs With the Public      	-            1,837,551     	-            972,610      1,674,127    807,458       26,966        5,318,712      	-              5,318,712
       Total Gross Costs             	-           2,320,947      	-           1,098,355     2,019,954   1,080,047     106,766        6,626,069      	(95,034)       6,531,035
    Intragovernmental Earned
         Revenue                     	-           	(7,823)       	-           	(118,029)    	(26,001)   	(18,635)    	(71,877)      $	(242,365)        95,034      	(147,331)
    Earned Revenue From the
        Public                       	-           	(2,419,259)   	-           	(51,128)     	(11)       	(11,217)    	(6)           	(2,481,621)    	-             	(2,481,621)
       Total Earned Revenue          	-           	(2,427,082)   	-           	(169,157)    	(26,012)   	(29,852)    	(71,883)      	(2,723,986)       95,034      	(2,628,952)
    Net Program Costs                	-           	(106,135)     	-            929,198      1,993,942   1,050,195      34,883        3,902,083      	-              3,902,083
Theme 2: Science and Information
    Intragovernmental Gross Costs      503,442    	-               430,834    	-               9,267        7,549      79,800        1,030,892      	(87,433)         943,459
    Gross Costs With the Public       1,971,193   	-             1,142,989    	-               13,120     58,505       26,966        3,212,773      	-              3,212,773
       Total Gross Costs              2,474,635   	-             1,573,823    	-              22,387      66,054      106,766        4,243,665      	(87,433)       4,156,232
    Intragovernmental Earned
         Revenue                     	(121,911)   	-             	(311,753)   	-            	(15,641)   	(57,841)    	(71,877)      	(579,023)         87,433      	(491,590)
    Earned Revenue From the
        Public                       	(13,415)    	-             	(4,863)     	-            	(215)      	(10,480)    	(6)           	(28,979)       	-             	(28,979)
       Total Earned Revenue          	(135,326)   	-             	(316,616)   	-            	(15,856)   	(68,321)    	(71,883)      	(608,002)         87,433      	(520,569)
    Net Program Costs                2,339,309    	-             1,257,207    	-               6,531    	(2,267)       34,883        3,635,663      	-              3,635,663
Theme 3: Environmental
Stewardship
    Intragovernmental Gross Costs      336,681    	-             	-           	-            	-          	-             79,823          416,504      	(89,071)           327,433
    Gross Costs With the Public       1,976,631   	-             	-           	-            	-          	-             26,974        2,003,605      	-              2,003,605
       Total Gross Costs              2,313,312   	-             	-           	-            	-          	-            106,797        2,420,109      	(89,071)       2,331,038
    Intragovernmental Earned
         Revenue                     	(106,167)   	-             	-           	-            	-          	-           	(71,898)      	(178,065)         89,071      	(88,994)
    Earned Revenue From the
        Public                       	(97,763)    	-             	-           	-            	-          	-           	(6)           	(97,769)       	-             	(97,769)
       Total Earned Revenue          	(203,930)   	-             	-           	-            	-          	-           	(71,904)      	(275,834)         89,071      	(186,763)
	   Net Program Costs                 2,109,382   	-             	-           	-            	-          	-             34,893        2,144,275      	-              2,144,275
NET COST OF OPERATIONS              $ 4,448,691 $ 	(106,135) $ 1,257,207 $     929,198 $ 2,000,473 $ 1,047,928 $ 104,659           $ 9,682,021 $ 	-               $ 9,682,021




                                                                                                                                                                   89
                                                                                                 FY 2013 AGENCY FINANCIAL REPORT
    N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Major Programs: The following tables illustrate major programs of the Department. “Other Programs” refers to the other programs within
each theme. The “Others” column refers to the Department’s reporting entities that are not listed. The Others column data and the
Other Programs data are presented solely to reconcile these tables to the Combining Total columns on the Consolidating Statements of
Net Cost.

United States Department of Commerce Combining Statement of Net Cost by Major Program
For the Year Ended September 30, 2013
                                                                                                   Census                                      Combining
              PROGRAM COSTS                              NOAA              NTIA       NIST         Bureau          USPTO          Others         Total
Theme 1: Economic Growth
Measurements and Standards Laboratories
	 Gross Costs                                         $	-             $ 	- $ 728,183 $ 	-                        $	-              $	-          $     728,183
	 Less: Earned Revenue                                 	-               	-  	 (62,933) 	-                         	-               	-                 (62,933)
	 Net Program Costs                                    	-               	-   665,250   	-                         	-               	-                665,250
Broadband Technology Opportunities Program
	 Gross Costs                                          	-                  973,612    	-           	-             	-              	-               973,612
	 Less: Earned Revenue                                 	-              	         -    	-           	-             	-              	-               	-
	 Net Program Costs                                    	-                  973,612    	-           	-             	-              	-               973,612
Patents
	 Gross Costs                                          	-              	-             	-           	-               2,281,196     	-                2,281,196
	 Less: Earned Revenue                                 	-              	-             	-           	-             	(2,458,295)    	-               (2,458,295)
	 Net Program Costs                                    	-              	-             	-           	-             	 (177,099)     	-                  (177,099)
Trademarks
	 Gross Costs                                          	-              	-             	-           	-                  213,147    	-                  213,147
	 Less: Earned Revenue                                 	-              	-             	-           	-               	 (261,677)                      (261,677)
	 Net Program Costs                                    	-              	-             	-           	-             	    (48,530)   	-                  (48,530)
Other Programs
	 Gross Costs                                          	-                   98,979     283,360     	-                  46,084     1,149,395         1,577,818
	 Less: Earned Revenue                                 	-                  (21,893)   	 (84,750)   	-                              (106,249)         (212,892)
	 Net Program Costs                                    	-                   77,086      198,610    	-                  46,084     1,043,146         1,364,926
Net Program Costs for Theme 1                          	-              1,050,698       863,860     	-             	 (179,545)     1,043,146         2,778,159

Theme 2: Science and Information
Decennial and Periodic Censuses
	 Gross Costs                                          	-              	-             	-               254,707    	-              	-               254,707
	 Less: Earned Revenue                                 	-              	-                          	         -    	-              	-               	-
	 Net Program Costs                                    	-              	-             	-               254,707    	-              	-               254,707
Weather, Water, and Climate
	 Gross Costs                                           1,345,237      	-             	-           	-             	-              	-                1,345,237
	 Less: Earned Revenue                                    (65,093)     	-             	-           	-             	-              	-                  (65,093)
	 Net Program Costs                                     1,280,144      	-             	-           	-             	-              	-                1,280,144
Other Programs
	 Gross Costs                                            1,157,455          18,818    	-            1,174,257     	-                290,774         2,641,304
	 Less: Earned Revenue                                     (60,072)        (14,787)   	-            (329,153)     	-               (152,484)         (556,496)
	 Net Program Costs                                      1,097,383           4,031    	-             845,104      	-                138,290         2,084,808
Net Program Costs for Theme 2                            2,377,527           4,031    	-            1,099,811     	-                138,290         3,619,659

Theme 3: Environmental Stewardship
Sustainable Fisheries
	 Gross Costs                                           1,222,506      	-             	-           	-             	-              	-                1,222,506
	 Less: Earned Revenue                                    (112,206)    	-             	-           	-             	-              	-                  (112,206)
	 Net Program Costs                                     1,110,300      	-             	-           	-             	-              	-                1,110,300
Other Programs
	 Gross Costs                                             978,440      	-             	-           	-             	-               106,234          1,084,674
	 Less: Earned Revenue                                     (35,382)    	-             	-           	-             	-               (70,375)          (105,757)
	 Net Program Costs                                       943,058      	-             	-           	-             	-                35,859            978,917
Net Program Costs for Theme 3                           2,053,358      	-             	-                          	-                35,859          2,089,217
NET COST OF OPERATIONS                                $ 4,430,885     $ 1,054,729 $ 863,860 $ 1,099,811          $	(179,545) $ 1,217,295       $    8,487,035


       90         FY 2013 AGENCY FINANCIAL REPORT
                                                                                  N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




United States Department of Commerce Combining Statement of Net Cost by Major Program
For the Year Ended September 30, 2012
                                                          Census                                                             Combining
            PROGRAM COSTS                   NOAA          Bureau           NIST          USPTO             Others              Total
Theme 1: Economic Growth
Measurements and Standards Laboratories
	 Gross Costs                             $	-           $ 	-           $     811,695 $ 	-               $ 	-             $     811,695
	 Less: Earned Revenue                     	-             	-               	(125,094)  	-                 	-                 	(125,094)
	 Net Program Costs                        	-             	-                 686,601   	-                 	-                   686,601
Patents
	 Gross Costs                              	-             	-               	-             2,079,357       	-                   2,079,357
	 Less: Earned Revenue                     	-             	-               	-           	(2,180,532)      	-                 	(2,180,532)
	 Net Program Costs                        	-             	-               	-           	(101,175)        	-                 	(101,175)
Trademarks
	 Gross Costs                              	-             	-               	-             201,307         	-                   201,307
	 Less: Earned Revenue                     	-             	-               	-           	(246,550)        	-                 	(246,550)
	 Net Program Costs                        	-             	-               	-           	(45,243)         	-                 	(45,243)
Other Programs
	 Gross Costs                              	-             	-                286,660        40,283         3,206,767           3,533,710
	 Less: Earned Revenue                     	-             	-               	(44,063)    	-                	(127,747)         	(171,810)
	 Net Program Costs                        	-             	-                242,597        40,283         3,079,020           3,361,900
Net Program Costs for Theme 1              	-             	-                929,198     	(106,135)        3,079,020           3,902,083

Theme 2: Science and Information
Decennial and Periodic Censuses
	 Gross Costs                              	-             325,354          	-           	-                	-                 325,354
	 Less: Earned Revenue                     	-             	-               	-           	-                	-                 	-
	 Net Program Costs                        	-             325,354          	-           	-                	-                 325,354
Weather, Water, and Climate
	 Gross Costs                              1,186,688      	-               	-           	-                	-                  1,186,688
	 Less: Earned Revenue                     	(67,816)      	-               	-           	-                	-                 	(67,816)
	 Net Program Costs                        1,118,872      	-               	-           	-                	-                  1,118,872
Other Programs
	 Gross Costs                              1,287,947      1,134,931        	-           	-                  308,745           2,731,623
	 Less: Earned Revenue                     	(67,510)      	(311,497)       	-           	-                	(161,179)         	(540,186)
	 Net Program Costs                        1,220,437        823,434        	-           	-                  147,566           2,191,437
Net Program Costs for Theme 2              2,339,309      1,148,788        	-           	-                  147,566           3,635,663

Theme 3: Environmental Stewardship
Sustainable Fisheries
	 Gross Costs                               1,262,385     	-               	-           	-                	-                  1,262,385
	 Less: Earned Revenue                     	(126,357)     	-               	-           	-                	-                 	(126,357)
	 Net Program Costs                         1,136,028     	-               	-           	-                	-                  1,136,028
Other Programs
	 Gross Costs                              1,050,927      	-               	-           	-                 106,797             1,157,724
	 Less: Earned Revenue                     	(77,573)      	-               	-           	-                	(71,904)          	(149,477)
	 Net Program Costs                          973,354      	-               	-           	-                  34,893            1,008,247
Net Program Costs for Theme 3               2,109,382     	-               	-           	-                    34,893            2,144,275
NET COST OF OPERATIONS                    $ 4,448,691   $ 1,148,788    $    929,198    $ 	(106,135) $ 3,261,479          $      9,682,021




                                                                                                                                   91
                                                                           FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




   N O T E 1 8 . C O M B I N E D S TAT E M E N T S O F B U D G E TA RY R E S O U R C E S

Budgetary Resources:

The amount of Budget Authority, Appropriations, on the Combined Statements of Budgetary Resources (SBR) reconciles to the
amount of Budgetary Financing Sources, Appropriations Received, reported on the Consolidated Statements of Changes in Net
Position (SCNP), as follows:

                                                                                             FY 2013                   FY 2012
            Budget Authority, Appropriations (SBR)                                       $     7,907,642       $       8,035,812
            Reconciling Items:
               Appropriations for Receipts Unavailable for Obligation on SBR;
                 $0 on SCNP                                                                         (347)          	       4,302
               Negative Appropriations for Permanent Reductions on SBR;
                 $0 on SCNP as Classified as Rescissions/ Sequestrations
                 of Appropriations on SCNP                                                      560,334                    5,450
               Transfers In/Out, Net on SBR;
                  $0 on SCNP as Classified as Transfers on SCNP                                 (155,674)               (124,628)
               Appropriations for Temporary Reductions on SBR;                                                     	
                 $0 on SCNP                                                                        3,671           	-
               Appropriated Receipts for NOAA and DM/G&B on SBR;
                 $0 on SCNP as Classified as Earned Revenue on Consolidated
                 Statements of Net Cost                                                          (21,751)          	(36,678)
            Budgetary Financing Sources, Appropriations Received (SCNP)                  $    8,293,875        $        7,884,258


Total borrowing authority available for NTIA’s Public Safety Trust Fund, and State and Local Implementation Fund amounted
to $206.3 million and $0, while total borrowing authority available for NOAA’s loan programs amounted to $138.9 million
and $129.6 million, as of September 30, 2013 and 2012, respectively. The Borrowing Authority amounts reported in the SBR
Budgetary Resources section represent only borrowing authority realized during the fiscal year being reported. See Note
1M, Debt to Treasury, for debt repayment requirements, financing sources for repayments, and other terms of borrowing
authority used.

All of the Department’s reporting entities have one or more permanent no-year appropriations to finance operations.

Permanent reductions to the Department’s budgetary resources under Public Laws 113-6 and 113-2 amounted to $560.3 million
for FY 2013, while permanent reductions for FY 2012 under Public Law 112-55 amounted to $23.6 million. These permanent
reductions are included in the SBR Budgetary Resources section, and are also included on the Rescissions/Sequestrations lines
of the SNCP when applicable.

Legal arrangements affecting the Department’s use of Unobligated Balances of Budget Authority and/or Fund
Balance with Treasury during FY 2013 and FY 2012 include the following:

       ●●   The Department’s Deposit Funds, reported in Note 2, Fund Balance with Treasury, are not available to finance operating
            activities. These funds are also included in Note 2 on the line Non-budgetary (breakdown by status).




  92           FY 2013 AGENCY FINANCIAL REPORT
                                                                                    N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




     ●●   The Department’s Fund Balance with Treasury as of September 30, 2013 and 2012 includes $790.1 million of USPTO
          offsetting collections exceeding the current fiscal year and prior fiscal years’ appropriations. USPTO may use these
          funds only as authorized by the U.S. Congress, and only as made available by the issuance of a Treasury warrant.
          These funds are included in Note 2 on the lines General Funds (breakdown by type), and Temporarily Precluded From
          Obligation (breakdown by status).

     ●●   The Omnibus Budget Reconciliation Act of 1990 established surcharges on certain statutory patent fees collected
          by USPTO. Subsequent legislation extended the surcharges through September 30, 1998. These surcharges were
          deposited into the Patent and Trademark Surcharge Fund, a Special Fund Receipt Account at Treasury. USPTO may use
          monies from this account only as authorized by Congress and made available by the issuance of a Treasury warrant.
          As of September 30, 2013 and 2012, $233.5 million is held in the Patent and Trademark Surcharge Fund. These funds
          are included in Note 2 on the lines Patent and Trademark Surcharge Fund - Special Funds section (breakdown by type),
          and Non-budgetary (breakdown by status).

     ●●   The Department’s Fund Balance with Treasury as of September 30, 2013 includes $147.7 million of USPTO sequestered
          funds temporarily not available. These funds are included in Note 2 on the lines General Funds (breakdown by type), and
          Temporarily Precluded from Obligation (breakdown by status).

     ●●   The Department’s Fund Balance with Treasury as of September 30, 2013 and 2012 includes unapportioned funds for
          the Digital Television and Transition Public Safety Fund of $8.80 billion and $8.75 billion, respectively. These funds are
          included in Note 2 on the lines Digital Television and Transition Public Safety Fund - Special Funds section (breakdown by
          type), and Unobligated Balance - Unavailable (breakdown by status).

     ●●   The Department’s Fund Balance with Treasury as of September 30, 2012 includes $17.8 million of funds temporarily not
          available for the Coastal Zone Management Fund, which accounts for the Coastal Energy Impact Program direct loans.
          These funds are included in Note 2 on the lines Revolving Funds (breakdown by type), and Temporarily Precluded From
          Obligation (breakdown by status).

     ●●   For loan programs prior to the Federal Credit Reform Act of 1990 (pre-FY 1992 loans), most or all liquidating fund
          unobligated balances in excess of working capital needs are required to be transferred to Treasury as soon as practicable
          during the following fiscal year.

     ●●   For direct loan programs under the Federal Credit Reform Act of 1990 (post-FY 1991 loans) that have outstanding debt
          to Treasury, regulations require that most unobligated balances be returned to Treasury on September 30, or require that
          the borrowing authority be cancelled on September 30.

     ●●   For loan guarantee programs under the Federal Credit Reform Act of 1990 that have outstanding debt to Treasury,
          regulations require that unobligated balances in excess of the outstanding guaranteed loans’ principal and interest be
          returned to Treasury on September 30.

Comparison to Budget of the U.S. Government: There are no material differences between the amounts reported
in the FY 2012 and FY 2011 Combined Statement of Budgetary Resources and the actual FY 2012 and FY 2011 amounts
reported in the FY 2014 and FY 2013 budget of the U.S. government, respectively. The President’s Budget that will report
actual amounts for FY 2013 has not yet been published.




                                                                                                                                     93
                                                                             FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Apportionment Categories of Obligations Incurred:

Category A apportionments distribute budgetary resources by fiscal quarters, whereas Category B apportionments typically
distribute budgetary resources by activities, projects, objects, or a combination of these categories.

The amounts of Direct (i.e., derived from Appropriations) and Reimbursable (i.e., derived from Spending Authority From Offsetting
Collections) Obligations Incurred by apportionment category are as follows:

                                                                                        FY 2013
                                                                 Direct              Reimbursable                   Total
          Category A                                      $ 	2,661,918           $       2,988,976         $       5,650,894
          Category B                                          	5,582,690                   939,840                 6,522,530
          Exempt from Apportionment                           	181,342               	-                              181,342
          Total Obligations Incurred                      $      8,425,950       $       3,928,816         $      12,354,766

                                                                                        FY 2012
                                                                 Direct              Reimbursable                   Total
          Category A                                      $ 	2,878,116           $       2,818,764          $       5,696,880
          Category B                                          	5,397,788                   968,668                  6,366,456
          Exempt from Apportionment                           	174,761               	-                               174,761
          Total Obligations Incurred                      $      8,450,665       $        3,787,432         $     12,238,097


Undelivered Orders: Undelivered orders were $5.73 billion and $7.35 billion as of September 30, 2013 and 2012, respectively.

Digital Television Transition and Public Safety Fund: NTIA’s Digital Television Transition and Public Safety Fund (Fund) was
created by the Digital Television Transition and Public Safety Act of 2005. The Fund received proceeds from the auction of licenses
for recovered analog spectrum from discontinued analog television signals, and provides funding for several programs from
these receipts; as of September 30, 2013, payments for the programs under the Fund may not exceed $2.82 billion. The Federal
Communications Commission (FCC) completed the auction of licenses for recovered analog spectrum in March 2008. The
auction resulted in proceeds of $18.96 billion, which were deposited to the Fund by FCC on June 30, 2008. In September 2009,
the Fund transferred $7.36 billion to the General Fund of the Treasury as required by the Act. The Department understands that
Congress’ intent is for the Fund to further transfer funds beyond the needs of its programs to the General Fund of the Treasury.
As of September 30, 2013, the Fund has a Net Position, Cumulative Results of Operations balance of $8.86 billion.



   NOTE 19. CUSTODIAL NONEXCHANGE ACTIVITY

NOAA receives interest, penalties, and fines primarily related to its past due Accounts Receivable, while BIS receives civil
monetary penalties from private entities that violate the Export Administration Act. These collections are required to be transferred
to Treasury. For FY 2013, the Department has custodial nonexchange revenue of $6.5 million; custodial nonexchange revenue
of $229 thousand was payable to Treasury as of September 30, 2013. For FY 2012, the Department had custodial nonexchange
revenue of $8.8 million; custodial nonexchange revenue of $490 thousand was payable to Treasury as of September 30, 2012.




  94          FY 2013 AGENCY FINANCIAL REPORT
                                                                           N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




  N O T E 2 0 . F I D U C I A RY A C T I V I T I E S

Schedule of Fiduciary Activities for the Year Ended September 30, 2013:

                                                                                          FY 2013
                                                               Patent
                                                             Cooperation              Madrid
                                                               Treaty                 Protocol                       Total
       Fiduciary Net Assets, Beginning Balance           $ 	12,620               $    	         400          $   	     13,020
       Contributions                                          	162,565               	17,451                     	180,016
       Disbursements to and on Behalf of Beneficiaries        	(160,821)             	(17,367)                   	(178,188)
       Increase/(Decrease) in Fiduciary Net Assets            	1,744                 	84                         	1,828
       Fiduciary Net Assets, Ending Balance              $    	   14,364         $    	         484          $   	     14,848


Fiduciary Net Assets as of September 30, 2013:

                                                                                          FY 2013
                                                               Patent
                                                             Cooperation              Madrid
                                                               Treaty                 Protocol                       Total
       Fund Balance with Treasury                        $    	   14,364         $ 	484                      $   	     14,848


Schedule of Fiduciary Activities for the Year Ended September 30, 2012:

                                                                                          FY 2012
                                                               Patent
                                                             Cooperation              Madrid
                                                               Treaty                 Protocol                       Total
       Fiduciary Net Assets, Beginning Balance           $ 	12,864               $    	         338          $   	     13,202
       Contributions                                          	153,716               	14,361                     	168,077
       Disbursements to and on Behalf of Beneficiaries        	(153,960)             	(14,299)                   	(168,259)
       Increase/(Decrease) in Fiduciary Net Assets            	(244)                 	62                         	(182)
       Fiduciary Net Assets, Ending Balance              $    	   12,620         $    	         400          $   	     13,020


Fiduciary Net Assets as of September 30, 2012:

                                                                                          FY 2012
                                                               Patent
                                                             Cooperation              Madrid
                                                               Treaty                 Protocol                       Total
       Fund Balance with Treasury                        $    	   12,620         $ 	400                      $   	     13,020




                                                                                                                             95
                                                                    FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




     N O T E 2 1 . F U N D S F R O M D E D I C AT E D C O L L E C T I O N S

The following tables depict major funds from dedicated collections separately chosen based on their significant financial activity
and importance to taxpayers. All other funds from dedicated collections not shown are aggregated as “Other Funds from
Dedicated Collections.”

United States Department of Commerce Consolidating Balance Sheet – Funds from Dedicated Collections
As of September 30, 2013

                                                                 NTIA Digital                      Environmental
                                                                  Television        Damage          Improvement       Other
                                                USPTO Funds     Transition and    Assessment            and        Funds from      Total Funds
                                               from Dedicated   Public Safety    and Restoration     Restoration   Dedicated     from Dedicated
                                                 Collections         Fund        Revolving Fund         Fund       Collections     Collections

 ASSETS
   Fund Balance with Treasury                  $ 	1,879,152     $ 8,828,569        $ 199,417        $   28,677     $ 51,831      $ 10,987,646
   Cash                                               4,309      	-                 	-                  	-          	-                  4,309
   Accounts Receivable, Net                             177      	-                    1,496            	-              196             1,869
   General Property, Plant, and
     Equipment, Net                                257,008       	-                  	-              	-             	-                257,008
   Other                                             9,658           31,143          	35             	34            	1,093             41,963
 	 TOTAL ASSETS                                $ 2,150,304      $ 8,859,712        $ 200,948        $ 28,711       $ 53,120      $ 11,292,795

 LIABILITIES
 	 Accounts Payable                            $   80,399       $ 	2               $    255         $ 	-           $   3,224     $         83,880
 	 Debt To Treasury                                	-             	-                   	-             	-              51,038               51,038
 	 Federal Employee	 Benefits                       9,711         	-                   	-             	-            	-                      9,711
 	Other                                                                                                             	                	
    	 Accrued Payroll and Annual Leave             170,265        	-                  119             	-                 152               170,536
    	 Accrued Grants                            	-                	1,331             	550             1,100         	288                     3,269
    	 Unearned Revenue                             931,548        	-                 	-               	-            	-                     931,548
 		 Other Liabilities                                9,144        	-                   39             	-                  28                 9,211
 	 TOTAL LIABILITIES                           $ 1,201,067      $  1,333           $  963           $ 1,100        $ 54,730      $       1,259,193

  NET POSITION
 	 Unexpended Appropriations                   $ 	-             $ 	-               $ 	-             $ 	-           $ 	-          $ 	-
 	 Cumulative Results of Operations              949,237          8,858,379          199,985          27,611         (1,610)       10,033,602
 	 TOTAL NET POSITION                          $ 949,237        $ 8,858,379        $ 199,985        $ 27,611       $ (1,610)     $ 10,033,602
 	 TOTAL LIABILITIES AND
   NET POSITION                                $ 2,150,304      $ 8,859,712        $ 200,948        $    28,711    $ 53,120      $ 11,292,795




     96       FY 2013 AGENCY FINANCIAL REPORT
                                                                                                  N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




United States Department of Commerce Consolidating Balance Sheet – Funds from Dedicated Collections
As of September 30, 2012 (Restated)

                                                             NTIA Digital                             Environmental
                                                              Television         Damage                Improvement         Other
                                            USPTO Funds     Transition and     Assessment                   and         Funds from          Total Funds
                                           from Dedicated   Public Safety     and Restoration           Restoration     Dedicated         from Dedicated
                                             Collections         Fund         Revolving Fund               Fund         Collections         Collections

 ASSETS
   Fund Balance with Treasury              $ 1,606,244      $ 8,842,490         $ 229,485              $       36,197    $ 24,832         $ 10,739,248
   Cash                                          3,330        	       -           	     -                  	        -      	    -                3,330
   Accounts Receivable, Net                        751        	       -             1,468                  	        -         182                2,401
   General Property, Plant, and
     Equipment, Net                            236,979          	     -           	      -                 	        -        	  -              236,979
   Other                                        13,106           74,523           	     1                          42        	  -               87,672
 	 TOTAL ASSETS                            $ 1,860,410      $ 8,917,013         $ 230,954              $       36,239    $ 25,014         $ 11,069,630

 LIABILITIES
 	 Accounts Payable                        $   75,186       $     1,346         $       17,278         $ 	          -    $    155         $         93,965
 	 Debt To Treasury                            	-               	-                  	        -           	          -       2,538                    2,538
 	 Federal Employee and Veteran Benefits        8,209           	     -             	        -           	          -     	     -                    8,209
 	Other                                                                                                                   	                   	
    	 Accrued Payroll and Annual Leave         200,395                   10          379                   	   -          	     -             	     200,784
    	 Accrued Grants                         	       -                7,093       	  586                   1,172          	 244                       9,095
    	 Unearned Revenue                         830,954          	         -       	    -                 	     -          	     -                   830,954
 		 Other Liabilities                           18,792          	         -          115                 	     -              422                    19,329
 	 TOTAL LIABILITIES                       $ 1,133,536      $         8,449     $ 18,358               $   1,172         $ 3,359          $       1,164,874

  NET POSITION
 	 Unexpended Appropriations               $ 	         -    $ 	        -        $ 	     -              $ 	          -    $ 	    -         $ 	             -
 	 Cumulative Results of Operations              726,874       8,908,564          212,596                      35,067      21,655                 9,904,756
 	 TOTAL NET POSITION                      $     726,874    $ 8,908,564         $ 212,596              $       35,067    $ 21,655         $       9,904,756
 	 TOTAL LIABILITIES AND
   NET POSITION                            $ 1,860,410      $ 8,917,013         $ 230,954              $       36,239    $ 25,014         $ 11,069,630



United States Department of Commerce Consolidating Statement of Net Cost – Funds from Dedicated Collections
For the Year Ended September 30, 2013

                                                             NTIA Digital                             Environmental
                                                              Television         Damage                Improvement         Other
                                            USPTO Funds     Transition and     Assessment                   and         Funds from          Total Funds
                                           from Dedicated   Public Safety     and Restoration           Restoration     Dedicated         from Dedicated
                                             Collections         Fund         Revolving Fund               Fund         Collections         Collections

Theme 1: Economic Growth
   Gross Costs                             $ 2,540,427      $   50,185          $ 	-                   $ 	-              $ 	19,529        $     2,610,141
   Less: Earned Revenue                     	(2,719,972)        	-                	-                     	-                	-                 	(2,719,972)
   Net Program Costs                        	(179,545)          50,185            	-                     	-                	19,529               (109,831)

Theme 2: Science and Information
   Gross Costs                                 	-               	-                  	-                     	-                	-               	-
   Less: Earned Revenue                        	-               	-                  	-                     	-                	-               	-
     Net Program Costs                         	-               	-                  	-                     	-                	-               	-

Theme 3: Environmental Stewardship
   Gross Costs                                 	-               	-                  113,041                7,456                 10,774       131,271
   Less: Earned Revenue                        	-               	-                  	-                     	-                	-               	-
     Net Program Costs                         	-               	-                      113,041            	7,456            10,774                131,271
NET COST OF OPERATIONS                     $ 	(179,545)     $       50,185      $ 113,041              $        7,456    $ 30,303         $          21,440




                                                                                                                                                        97
                                                                                        FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




United States Department of Commerce Consolidating Statement of Net Cost – Funds from Dedicated Collections
For the Year Ended September 30, 2012 (Restated)

                                                                  NTIA Digital                        Environmental
                                                                   Television        Damage            Improvement            Other
                                                USPTO Funds      Transition and    Assessment              and             Funds from          Total Funds
                                               from Dedicated    Public Safety    and Restoration       Restoration        Dedicated         from Dedicated
                                                 Collections          Fund        Revolving Fund           Fund            Collections         Collections

Theme 1: Economic Growth
   Gross Costs                                  $ 2,320,947      $   327,399           $ 	        -       $	           -   $	        391     $     2,648,737
   Less: Earned Revenue                          	(2,427,082)        	-                  	        -        	           -    	          -         	 (2,427,082)
   Net Program Costs                             	(106,135)          327,399             	        -        	           -    	        391             221,655

Theme 2: Science and Information
   Gross Costs                                   	-                  	-                  	        -           	        -       	-                	           -
   Less: Earned Revenue                          	-                  	-                  	        -           	        -       	-                	           -
    Net Program Costs                            	-                  	-                  	        -           	        -       	       -         	           -

Theme 3: Environmental Stewardship
   Gross Costs                                   	-                  	-                  127,756                   9,746           9,526               147,028
   Less: Earned Revenue                          	-                  	-                  	     -              	        -       	-                	           -
    Net Program Costs                            	-                  	-                  127,756                   9,746           9,526               147,028
NET COST OF OPERATIONS                          $ 	(106,135)     $    327,399          $ 127,756          $        9,746   $       9,917     $         368,683



United States Department of Commerce Consolidating Statement of Changes in Net Position –
Funds from Dedicated Collections
For the Year Ended September 30, 2013

                                                                  NTIA Digital                        Environmental
                                                    USPTO          Television        Damage            Improvement            Other
                                                  Funds from     Transition and    Assessment              and             Funds from          Total Funds
                                                  Dedicated      Public Safety    and Restoration       Restoration        Dedicated         from Dedicated
                                                  Collections         Fund        Revolving Fund           Fund            Collections         Collections

Cumulative Results of Operations:
	 Beginning Balance                              $     726,874   $ 8,908,564       $     212,596      $           35,067   $ 21,655           $ 9,904,756
Budgetary Financing Sources:
	 Non-exchange Revenue                               	-              	-                      94,780       	-                       6,688               101,468
   Transfers In/(Out) Without
       Reimbursement, Net                            	(2,000)        	-                       5,650       	-                   	-                        3,650
Other Financing Sources (Non-exchange):                                                                                        	                 	
   Imputed Financing Sources from Cost
       Absorbed by Others                            44,818          	-                	-                 	-                   	-                       44,818
   Other Financing Sources (Uses), Net               	-              	-                	-                 	-                   	350                        350
Total Financing Sources                              42,818          	-                100,430            	-                    7,038                  150,286
Net Cost of Operations                                179,545        	(50,185)         	(113,041)         	(7,456)             	(30,303)         	(21,440)

Net Change                                            222,363        	(50,185)           (12,611)         	(7,456)             (23,265)          	128,846

Cumulative Results of
Operations - Ending Balance                           949,237         8,858,379          199,985                  27,611           (1,610)           10,033,602

NET POSITION                                     $    949,237    $ 8,858,379       $     199,985      $           27,611   $ (1,610)          $ 10,033,602




  98          FY 2013 AGENCY FINANCIAL REPORT
                                                                                               N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




United States Department of Commerce Consolidating Statement of Changes in Net Position –
Funds from Dedicated Collections
For the Year Ended September 30, 2012 (Restated)

                                                               NTIA Digital                        Environmental
                                              USPTO             Television        Damage            Improvement          Other
                                            Funds from        Transition and    Assessment              and           Funds from        Total Funds
                                            Dedicated         Public Safety    and Restoration       Restoration      Dedicated       from Dedicated
                                            Collections            Fund        Revolving Fund           Fund          Collections       Collections

Cumulative Results of Operations:
	 Beginning Balance                        $       602,260    $ 9,235,963       $    123,522       $       35,076     $ 21,938         $ 10,018,759
Budgetary Financing Sources:
	 Non-exchange Revenue                         	          -      	         -         202,772           	9,736                9,984           222,492
   Transfers In/(Out) Without
       Reimbursement, Net                      	    (1,000)      	         -        14,058             	-                	     -              13,058
	Rescissions/Sequestrations                    	          -      	         -        	-                 	-                	 (350)         	      (350)
Other Financing Sources (Non-exchange):                                                                                  	               	
   Other Financing Sources/(Uses), Net              19,479       	        -         	-                 	1                	       -            19,480
Total Financing Sources                             18,479       	        -         216,830            	 9,737               9,634           254,680
Net Cost of Operations                             106,135       	 (327,399)        	 (127,756)        	 (9,746)         	(9,917)        	 (368,683)

Net Change                                         124,614       	 (327,399)          89,074           	       (9)            (283)      	 (114,003)

Cumulative Results of
Operations - Ending Balance                        726,874       8,908,564           212,596               35,067        21,655           9,904,756

NET POSITION                               $       726,874    $ 8,908,564       $    212,596       $       35,067     $ 21,655         $ 9,904,756


Below is a description of major Funds from Dedicated Collections shown in the above tables.

The USPTO Funds from Dedicated Collections consist of its Salaries and Expenses Fund, Patent and Trademark Fee Reserve Fund,
and Patent and Trademark Surcharge Fund.

The Salaries and Expenses Fund contains monies used for the administering of the laws relevant to patents and trademarks
and advising the Secretary of Commerce, the President of the United States, and the Administration on patent, trademark,
and copyright protection, and trade-related aspects of intellectual property. This fund is used for USPTO’s three core business
activities – granting patents; registering trademarks; and intellectual property policy, protection, and enforcement – that promote
the use of intellectual property rights as a means of achieving economic prosperity. These activities give innovators, businesses,
and entrepreneurs the protection and encouragement they need to turn their creative ideas into tangible products, and also
provide protection for their inventions and trademarks. USPTO may use monies from this account only as authorized by Congress.

The Patent and Trademark Fee Reserve Fund is a provision that requires USPTO to deposit all patent and trademark fees collected
in excess of the annual appropriation amount into the fund. Funds made available may only be used for expenses of the office
relating to the processing of patent applications and for other activities, services, and materials relating to patents and applicable
administrative costs.

The Patent and Trademark Surcharge Fund, a Special Fund Receipt Account at Treasury, is discussed in Note 18, Combined
Statements of Budgetary Resources. USPTO may use monies from this account only as authorized by Congress and made
available by the issuance of a Treasury warrant. As of September 30, 2013 and 2012, $233.5 million is held in this fund.




                                                                                                                                                99
                                                                                      FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




The NTIA Digital Television Transition and Public Safety Fund makes digital television available to every home in America, improves
communications between local, state, and federal agencies, allows smaller television stations to broadcast digital television,
and improves how warnings are received when disasters occur. NTIA received funding from borrowings from the Bureau
of Public Debt, and repaid the Bureau of Public Debt from the proceeds of the auction of recovered analog spectrum which
was completed in March 2008. The proceeds from the auction provide funding for several programs, and has been and is
expected to be further used to reduce the National Deficit. The law establishing this program can be found in the Deficit
Reduction Act of 2005 (Public Law 109-171), Sections 3001-3014.

The Damage Assessment and Restoration Revolving Fund receives monies for the reimbursement of expenses related to oil or
hazardous substance spill response activities, or natural resource damages assessment, restoration, rehabilitation, replacement,
or acquisition activities conducted by NOAA. The recovered sums by a federal, state, indian, or foreign trustee for natural resource
damages is retained by the trustee and is only used to reimburse or pay costs incurred by the trustee for the damaged natural
resources. The law establishing the Damage Assessment and Restoration Revolving Fund can be found in 33 USC Section 2706.

The Environmental Improvement and Restoration Fund makes available interest that was earned in the Fund in the previous fiscal
year. 80 percent of such amounts shall be made available to be equally divided among the Directors of the National Park
Service, the United States Fish and Wildlife Service, the Bureau of Land Management, and the Chief of the Forest Service
for high-priority deferred maintenance and repairs and modernization of facilities that directly enhance the experience
of visitors, including natural, cultural, recreational, and historic resources protection projects in National Parks, National
Wildlife Refuges, and the public lands, and for payment to the State of Louisiana and its lessees for oil and gas drainage in
the West Delta field. 20 percent of such amounts shall be made available to the Secretary of Commerce for the purpose
of carrying out marine research activities in the North Pacific. The law establishing the Environmental Improvement and
Restoration Fund can be found at 43 USC Section 1474d.



   N O T E 2 2 . R E C O N C I L I AT I O N O F N E T C O S T O F O P E R AT I O N S T O B U D G E T

The Reconciliation of Net Cost of Operations to Budget reconciles the Department’s Resources Used to Finance Activities
(first section), which consists of the budgetary basis of accounting Net Obligations plus the proprietary basis of accounting Other
Resources, to the proprietary basis of accounting Net Cost of Operations. The second section, Resources Used to Finance
Items Not Part of Net Cost of Operations, reverses out items included in the first section that are not included in Net Cost of
Operations. The third section, Components of Net Cost of Operations that Will Not Require or Generate Resources in the Current
Period, adds items included in Net Cost of Operations that are not included in the first section.

The third section’s subsection, Components Requiring or Generating Resources in Future Periods, includes costs reported in the
current period that are included in the Liabilities Not Covered by Budgetary Resources reported in Note 15. This subsection does
not include costs reported in prior fiscal years that are also included in Liabilities Not Covered by Budgetary Resources.




  100         FY 2013 AGENCY FINANCIAL REPORT
                                                                                                N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




The reconciliations of Net Cost of Operations to Budget for the years ended September 30, 2013 and 2012 are as follows:
                                                                                                                        FY 2013            FY 2012
Resources Used to Finance Activities:
Budgetary Resources Obligated:
Obligations Incurred                                                                                              $ 12,354,766       $ 12,238,097
Less: Spending Authority From Offsetting Collections and Actual Recoveries of Prior-years Unpaid Obligations        	(4,531,305)       	(4,607,196)
Obligations Net of Offsetting Collections and Actual Recoveries                                                      7,823,461           7,630,901
Less: Distributed Offsetting (Receipts)/Outlays, Net                                                                 	(46,853)          	(62,667)
Net Obligations                                                                                                        7,776,608          7,568,234

Other Resources:
Donations and Forfeitures of Property                                                                                       856               579
Transfers In/(Out) Without Reimbursement, Net                                                                          (56,353)          182,220
Imputed Financing Sources From Cost Absorbed by Others                                                               	295,288           	297,694
Other Financing Sources/(Uses), Net                                                                                      (1,818)           (8,483)
Net Other Resources Used to Finance Activities                                                                           237,973            472,010
Total Resources Used to Finance Activities                                                                            8,014,581          8,040,244

Resources Used to Finance Items Not Part of Net Cost of Operations:
Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but Not Yet Provided               1,619,746          3,088,147
Resources that Fund Expenses Recognized in Prior Periods                                                             	(1,819)           	(5,718)
Budgetary Obligations for Downward Subsidy Reestimates Payable to Treasury                                           	(21,447)          	(6,375)
Budgetary Offsetting Collections and Receipts that Do Not Affect Net Cost of Operations:
	 Distributed Offsetting (Receipts)/Outlays, Net (excludes Clearing Accounts’ Gross Costs)                                 46,853            62,667
  Credit Program Collections which Increase Loan Guarantee Liabilities or Allowance for Subsidy Cost                       68,158            68,138
  Budgetary Financing Sources/(Uses), Net                                                                                (113,241)          137,002
Resources that Finance the Acquisition of Assets                                                                     	(2,032,544)       	(2,231,293)
Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of Operations:
  Change in Unfilled Customer Orders                                                                                 	4,502             	(15,472)
  Donations and Forfeitures of Property                                                                                 (856)                (579)
  Transfers In/(Out) Without Reimbursement, Net                                                                      	56,353            	(182,220)
  Other Financing Sources/(Uses), Net                                                                                	1,818             	8,483
	Other                                                                                                               	(5,027)           	(3,409)
Total Resources Used to Finance Items Not Part of Net Cost of Operations                                                (377,504)          919,371
Total Resources Used to Finance Net Cost of Operations                                                                 7,637,077         8,959,615

                                                                                                                            (continued on next page)




                                                                                                                                                101
                                                                                        FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




(continued from previous page)
                                                                                                                     FY 2013          FY 2012
Components of Net Cost of Operations that Will Not Require or Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
Increase in Accrued Annual Leave Liability                                                                         	1,395           	394
Increase in Federal Employee Benefits                                                                               45,980           42,729
Increase in Environmental and Disposal Liabilities                                                                 	4,473           	-
Increase (Decrease) in Contingent Liabilities                                                                      	123             	(2,900)
Reestimates of Credit Subsidy Expense                                                                                1,801            3,440
Other                                                                                                               13,810            5,545
Total Components of Net Cost of Operations that Will Require or Generate Resources in Future Periods                   67,582          49,208

Components Not Requiring or Generating Resources:
Depreciation and Amortization                                                                                        736,100          551,210
NOAA Impairment of Construction-in-progress (Note 16)                                                              	-                  98,260
NOAA Issuances of Materials and Supplies                                                                            12,729            21,581
Revaluation of Assets or Liabilities                                                                                24,186          	20,728
Other                                                                                                              	9,361           	(18,581)
Total Components of Net Cost of Operations that Will Not Require or Generate Resources                               782,376          673,198
Total Components of Net Cost of Operations that Will Not Require or Generate Resources in the Current Period         849,958          722,406
NET COST OF OPERATIONS                                                                                         $    8,487,035   $    9,682,021




   N O T E 2 3 . S T E WA R D S H I P P R O P E R T Y, P L A N T, A N D E Q U I P M E N T

This note provides information on certain resources entrusted to the Department and certain stewardship responsibilities
assumed by the Department. The physical properties of Stewardship Property, Plant, and Equipment (Stewardship PP&E)
resemble those of the General PP&E that is capitalized traditionally in the financial statements of federal entities. Due to the
nature of these assets, however, valuation would be difficult and matching costs with specific periods would not be meaningful.
Therefore, federal accounting standards require the disclosure of the nature and quantity of these assets. NOAA, NIST, and the
Census Bureau are the only entities within the Department that have Stewardship PP&E. Additional information on Stewardship
PP&E is presented in the Required Supplementary Information section.

Stewardship Marine Sanctuaries, Marine National Monuments, Conservation Area, and Habitat Focus Area:

Written policy statements or permit guidelines for the National Marine Sanctuaries and Marine National Monuments have been
developed for the areas of acoustic impacts, artificial reefs, climate change, invasive species, and marine debris. The Office of
Marine National Sanctuaries answers the most frequently asked questions related to alternative energy and oil and gas policy
decisions for national marine sanctuaries.

NOAA maintains the following Stewardship PP&E, which are similar in nature to stewardship land:

National Marine Sanctuaries: In 1972, Congress passed the Marine Protection, Research, and Sanctuaries Act (Act) in response
to a growing awareness of the intrinsic environmental and cultural value of coastal waters. The Act authorized the Secretary
of Commerce to designate special nationally-significant areas of the marine environment as national marine sanctuaries.
These protected waters provide a secure habitat for species close to extinction, and also protect historically significant shipwrecks
and prehistoric artifacts. National marine sanctuaries are also used for recreation (e.g., boating, diving, and sport fishing), and
support valuable commercial industries such as fishing and kelp harvesting. As of September 30, 2013, 13 National Marine




  102          FY 2013 AGENCY FINANCIAL REPORT
                                                                                   N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Sanctuaries, which include both coastal and offshore areas, have been designated, covering a total area of nearly 32,685 square
miles. This number includes the incorporation of a large area of the Rose Atoll Marine National Monument, discussed below, into
the National Marine Sanctuary of American Samoa. Each individual sanctuary site (Monterey Bay, the Florida Keys, the Olympic
Coast, and Channel Island are the largest four) conducts research and monitoring activities to characterize existing resources and
document changes.

Papahãnaumokuãkea Marine National Monument: The majority of all coral reef habitats located in U.S. waters surround the
Northwestern Hawaiian Islands (NWHI). Papahãnaumokuãkea Marine National Monument was designated by Presidential
Proclamation in 2006 and overlays several previously designated protected areas and forges a co-management regime for the
entire area. The overlayed protected areas comprising the monument are the NWHI Coral Reef Ecosystem Reserve (from 3
to 50 miles in federal waters from the corridor of islands of the NWHI); the National Wildlife Refuges (the islands, atolls and
some federal waters); and the State of Hawaii Refuge and lands and waters. The Monument is co-managed by NOAA and the
Department of the Interior, in close coordination with the state of Hawaii.

Rose Atoll Marine National Monument: On January 6, 2009, President Bush designated the Rose Atoll Marine National Monument
in American Samoa. The monument is the largest and most comprehensive contiguous protected area in the region that
overlays the pre-existing Rose Atoll National Wildlife Refuge and a majority of the area of the recently expanded National
Marine Sanctuary of American Samoa Muliava Unit. It also includes 20 acres of land and 1,600 acres of lagoon and extends
50 nautical miles seaward from the mean low water line of the atoll. It also includes one of the most pristine atolls in the
world. The areas around the atoll support a dynamic reef ecosystem that is home to many land and marine species, many
of which are threatened or endangered. The Department of the Interior has primary management responsibility of the atoll
while NOAA has primary management responsibility for the marine areas of the monument seaward of mean low water, with
respect to fishery-related activities regulated pursuant to the Magnuson-Stevens Fishery Conservation and Management Act
(16 U.S.C. 1801 et seq.) and any other applicable authorities. An intergovernmental committee comprised of NOAA, Department
of the Interior, and the American Samoa Government has been established to develop and coordinate management strategies.
NOAA continues to progress with management planning and fisheries management strategies and published a final rule for
non-commercial fishing in June 2013.

Marianas Trench Marine National Monument: On January 6, 2009, President Bush designated the Marianas Trench Marine National
Monument. The Monument consists of approximately 96,000 square miles of submerged lands and waters of the Mariana
Archipelago. It includes three units: the Islands Unit, the waters and submerged lands of the three northernmost Mariana Islands;
the Volcanic Unit, the submerged lands within 1 nautical mile of 21 designated volcanic sites; and the Trench Unit, the submerged
lands extending from the northern limit of the Exclusive Economic Zone of the United States in the Commonwealth of the
Northern Mariana Islands (CNMI) to the southern limit of the Exclusive Economic Zone of the United States in the Territory of
Guam. No waters are included in the Volcanic and Trench Units, and CNMI maintains all authority for managing the three islands
within the Islands Unit (Farallon de Pajaros or Uracas, Maug, and Asuncion) above the mean low water line. The Department of
the Interior, in consultation with NOAA, has management responsibility for the monument. With respect to fishery-regulated
activities regulated pursuant to the Magnuson-Stevens Fishery Conservation and Management Act and any other applicable
authorities, however, NOAA has primary management responsibility and when necessary consults with the Department of the
Interior. The Marianas Trench Monument Advisory Council meets regularly to progress management planning and cooperative
management of the monument. NOAA continues to progress with management planning and fisheries management strategies
and published a final rule for non-commercial fishing in June 2013.

Pacific Remote Islands Marine National Monument: On January 6, 2009, President Bush designated the Pacific Remote Islands
Marine National Monument. The Pacific Remote Islands area consists of Wake, Baker, Howland, and Jarvis Islands, Johnston
Atoll, Kingman Reef, and Palmyra Atoll, which lie to the south and west of Hawaii. The Monument overlays the existing National




                                                                                                                                   103
                                                                            FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Wildlife Refuges and beyond, extending the marine protected area to 50 nautical miles from the center of each island or atoll.
The Monument has endemic species, including corals, fish, shellfish, marine mammals, seabirds, water birds, land birds, insects,
and vegetation not found elsewhere in the world.

The Department of the Interior has responsibility for management of the Monument in consultation with NOAA, including out to
12 nautical miles from the mean low water lines of Wake, Baker, Howland, and Jarvis Islands, Johnston Atoll, Kingman Reef and
Palmyra Atoll, pursuant to applicable legal authorities. NOAA continues to progress with management planning and fisheries
management strategies and published a final rule for non-commercial fishing in June 2013.

Aleutian Islands Habitat Conservation Area: On July 28, 2006, NOAA formally established the Aleutian Islands Habitat Conservation
Area in Alaska, which covers nearly 370,000 square miles and may harbor among the highest diversity of deep-water corals
in the world. The conservation area established a network of fishing closures in the Aleutian Islands and Gulf of Alaska, and
protects habitat for deep-water corals and other sensitive features that are slow to recover once disturbed by fishing gear or other
activities. Six small areas that include fragile coral gardens discovered by NOAA Fisheries Service scientists are closed to all
bottom-contact fishing gear. This effort is part of a network of new marine protected areas in Alaskan waters designed to protect
essential fish habitat and prevent any further damage of the area.

California’s Russian River Watershed Habitat Focus Area: The Habitat Focus Area provides a framework for NOAA to think and act
strategically across all programs to increase the effectiveness of our efforts to improve habitat conditions for fisheries, marine
life, and coastal communities. To that end, NOAA is identifying places where its offices can effectively focus their resources to
meet their habitat conservation mandates on a watershed scale.

Once the host of vibrant coho salmon and steelhead runs, the Russian River was a premiere recreational fishing destination.
By 2000, coho salmon were virtually extinct from the river and the remaining habitats are badly degraded. Under the Endangered
Species Act, California’s coho salmon are now listed as endangered and steelhead are listed as threatened. Heavy demand for
and competing uses of the river’s water adds to the stress on fish. As a valuable resource for Sonoma and Mendocino County
agriculture and viticulture, as well as domestic water supply, water extraction from the river and tributaries can leave fish stranded
during periods of critical demand in the spring, summer, and early fall. Russian River Valley communities are also impacted by
frequent flooding. Steep hills and numerous canyons make accurate rainfall predictions and flood forecasts difficult.

NOAA’s expertise in flood and weather forecasting, integrated monitoring, habitat protection and restoration, stakeholder
education, and coastal and ocean planning and management will be critical to addressing the issues that challenge this watershed.

NOAA’s goals in the Russian River watershed include:

   ●●   Rebuilding endangered coho and threatened chinook and steelhead stocks to sustainable levels;

   ●●   	Improving rainfall, flooding, and frost forecasts in the Russian River watershed;

   ●●   Increasing community resiliency to flood damage; and

   ●●   Improving planning and water management strategies.

Building on its efforts in the Russian River, NOAA will begin to select habitat focus areas in other coastal regions over the coming
year, starting with Alaska and the Pacific Islands.




  104         FY 2013 AGENCY FINANCIAL REPORT
                                                                                       N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Heritage Assets:

Heritage assets are unique for their historical or natural significance, for their cultural, educational, or artistic importance, or for
their significant architectural characteristics. The Department generally expects that these assets will be preserved indefinitely.

In cases where a heritage asset also has a practical and predominant use for general government operations, the asset is
considered a multi-use heritage asset. The cost of a multi-use heritage asset is capitalized as General PP&E and is depreciated
over the useful life of the asset.

NOAA has established policies for heritage assets to ensure the proper care and handling of these assets under its control
or jurisdiction. The Deputy Under Secretary of NOAA established the Heritage Assets Working Committee to administer
NOAA’s stewardship policies and procedures. In carrying out these policies and procedures, the Working Committee:

   ●●   Maintains a nationwide inventory of heritage assets, ensuring that they are identified and recorded in the Personal
        Property Heritage Asset Accountability System;

   ●●   	Establishes nationwide NOAA policies, procedures, and standards for the preservation, security, handling, storage, and
         display of NOAA heritage assets;

   ●●   Tracks and updates each loan of NOAA heritage assets, including assigning current values and inventory numbers, and
        reporting the current conditions of heritage assets;

   ●●   Determines the feasibility of new asset loans, such as meters, standard tide gauges, portraits, and books for exhibit
        loans; and

   ●●   Collects heritage assets and properties of historic, cultural, artistic, or educational significance to NOAA.

NOAA maintains the following Heritage Assets:

Galveston Laboratory: Galveston Laboratory provides scientific information on the management of commercial and recreational
shellfish and finfish; conservation of coastal habitats; and protection of threatened and endangered marine species of the Gulf of
Mexico. Galveston Laboratory is comprised of seven buildings that were originally part of Fort Crockett, Texas, an army coastal
defense facility built shortly after 1900. These buildings are eligible for placement on the National Register. The laboratory is
situated on the site of the Historic Fort Crockett, one block from the Gulf of Mexico on Galveston Island, Texas, and is the only
federal fisheries laboratory west of the Mississippi River on the Gulf. A high quality seawater system delivers as much as
50,000 gallons daily and supplies large tanks, aquaria and raceways for experiments on estuarine and marine organisms making
it the largest and most extensive federally operated sea water system in the southeastern United States. The lab occupies
about 55,000 square feet of research and administrative space shared with Texas A&M University and the Texas Institute of
Oceanography. It is equipped with two facilities for sea turtle research focused since 1978 on the endangered Kemp’s Ridley
and is the only federal facility in the United States dedicated to captive rearing of sea turtles. NOAA’s sea turtle facility occupies
the southwest corner of the campus and is co-located with Texas Marine Mammal Stranding Network. Due to its historic
significance, exterior architectural features, and predominant use in government operations, Galveston Laboratory is considered
a multi-use heritage asset.

National Marine Fisheries Service (NMFS) St. George Sealing Plant: On St. George Island, in the Pribilof Islands group, Alaska, is the
only remaining northern fur seal pelt processing building in the world. In 1986, the building was listed on the National Register
of Historic Properties, within the Seal Islands National Historic Landmark. The Pribilof Islands commercial fur seal harvest was
an extremely profitable business for the U.S. government, and, by the early 1900s, had covered the purchase price of Alaska.
The building is the largest on the island, and is comprised of four distinct work areas from the seal pelt processing area. In 1950,



                                                                                                                                       105
                                                                                FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




the original wood-framed pelt processing plant was destroyed in a fire and rebuilt in 1951 with concrete walls on remnants of the
original foundation. Harsh weather and a lack of maintenance funding after the expiration of the Northern Fur Seal Convention in
1985 resulted in significant deterioration of the building by the early 1990s.

In November 1999, after numerous site surveys and assessments, the building’s crumbling foundation was stabilized and the
building’s exterior was painted. This effort allowed for NOAA’s continued, but limited, use of the building by NMFS’s Alaska
Region and Alaska Fisheries Science Center to achieve NOAA’s mission on St. George Island. In addition, the U.S. Fish and
Wildlife Service (USFWS) Alaska Maritime National Wildlife Refuge used the building as a bunkhouse until 2006, when NOAA’s
Safety Officer and the USFWS Safety Officer both determined the bunkhouse portion of the building lacked sufficient means
of egress in the event of fire and deemed it to be unsafe for habitation. It was determined by USFWS that the cost of making
the necessary modifications to the space was not fiscally justifiable. NOAA’s Preserve America program funded an interpretive
display project in the Seal Plant to promote public outreach and education for the modest tourism program on St. George.

NMFS Cottage M, St. George: The last remnants of the U.S. commercial harvest of northern fur seals can be found on St. George
Island, in the Pribilof Islands group, Alaska. In 1986, Cottage M (locally known as Cottage C), was listed on the National Register
of Historic Places within the Seal Islands National Historic Landmark. This building was constructed in the 1930s and was the
residence of the island doctor and hospital through 1955, when the current clinic/hospital was built. Later, the construction of
a health clinic on St. George Cottage M provided housing for government scientists and managers. In recent years, USFWS
Alaska Maritime National Wildlife Refuge staff have also used the building. NMFS Cottage M is considered a multi-use heritage
asset because of the critical housing for NOAA’s research and management staff, along with USFWS staff.

NMFS St. Paul Old Clinic/Hospital: On St. Paul Island, in the Pribilof Islands group, Alaska, fewer historic structures remain than on
St. George Island. In 1986, the clinic/hospital was listed on the National Register of Historic Places within the Seal Islands National
Historic Landmark. The old clinic/hospital is the combination of three historic buildings (physician’s house, 1929; dispensary,
1929; and hospital, 1934) connected in 1974 with an addition. The building was used as a clinic/hospital through 2006 under a
Memorandum of Agreement between NMFS and the Department of Health, Education and Welfare, and later, the Indian Health
Service/Bureau of Indian Affairs. Since August 2007, NMFS has maintained the facility. The facility is vacant and in significant need
for repair before it can be utilized. During the winter of 2010, there was a freeze resulting in broken plumbing pipes and substantial
flooding and icing throughout the building. All surface finishes on walls and most floors and most wall insulation have been
removed. The electrical, heating, plumbing supply, waste drain, and fire sprinkling systems are non-functional. An engineering
assessment has been completed which indicates that the north and south sections of the structure (built in 1929 and 1934) are
in poor condition. The assessment recommended demolition vice repair of these sections due to the extensive amount of work
required to bring these oldest portions of the structure to meet modern code compliance. The report recommended temporary
shoring of the north and south sections to reduce the possibility of collapse until a decision is made with respect to the future
renovation of the facility. Additional options are now under review regarding the future of the property. A cost-benefit evaluation
of renovation of the facility to accommodate the future needs of St. Paul Island is on hold while these options are considered.

NMFS Aquarium: In Woods Hole, Massachusetts, this aquarium was established in 1875 by Spencer Baird, the originator of NMFS.
In addition to being part of the first laboratory of today’s NMFS, this aquarium is the oldest marine research display aquarium in
the world. It is used to educate the public, raise public awareness of NMFS activities, and accommodate in-house research for
the Northeast Fisheries Science Center. The aquarium houses 16 permanent exhibition tanks and approximately 12 freestanding
aquaria and touch tanks holding more than 140 species of fish and invertebrates and, on occasion, sea turtles. The facility also has
an exterior seal habitat that currently exhibits non-releasable harbor seals obtained through the NOAA marine mammal stranding
network. The tanks range in size from 75 to 2,800 gallons. NMFS Aquarium is considered a multi-use heritage asset because it
is also used for NOAA’s scientific research, which is part of its mission.




  106         FY 2013 AGENCY FINANCIAL REPORT
                                                                                        N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Great Lakes Environmental Research Laboratory (GLERL)/Lake Michigan Field Station (LMFS): In Muskegon, Michigan, the GLERL
main building, constructed in 1904 by the U.S. Life Saving Service, is eligible for National Register designation and has been
recognized by state and local historical societies for its maritime significance. With the creation of the U.S. Coast Guard in
1915, the facility was transferred and served as a base for search and rescue operations for 75 years. In 2004, a renovation
project was completed that restored the exterior to its original architecture and color scheme – a style that is considered
rare. Today, GLERL carries out research and provides scientific products, expertise, and services required for effective
management and protection of Great Lakes and coastal ecosystems. GLERL/LMFS includes three buildings and a research
vessel dockage. The function of the field station is to provide a base of operations for GLERL’s primary research vessel,
which is presently the Research Vessel Laurentian, and to provide a focal point for GLERL’s research on Lake Michigan. Due
to its historic significance, exterior architectural features, and predominant use in government operations, GLERL/LMFS is
considered a multi-use heritage asset.

Collection-type Heritage Assets:

NOAA:

NOAA’s collection-type heritage assets are comprised primarily of books, journals, publications, photographs and motion pictures,
manuscripts, records, nautical chart plates, and artifacts. Many of these heritage assets are maintained by the NOAA Central
Library (Library). As evidenced by a search of international catalogs, 35 to 50 percent of the Library’s collection is unique.
Historically, 40 percent of the items catalogued are not found anywhere else. Many older books cannot be replaced. The works
include 17th century works of Francis Bacon and Robert Boyle, 18th century works of Daniel Bernouilli, Daniel Defoe, and Pierre
Bougher, and 19th and 20th century works of Benjamin Franklin and George Washington Carver. The Library has an extensive
collection of historical Coast and Geodetic Survey materials (from 1807) and Weather Bureau materials (from the 1830s), including
foreign and historical meteorological data, information on instruments, and metadata.

NOAA’s collection-type heritage assets include items in the Thunder Bay Sanctuary Research Collection (Collection). In 2004, the
Thunder Bay National Marine Sanctuary (jointly managed by NOAA and the State of Michigan to protect and interpret a nationally
significant collection of shipwrecks and other maritime heritage resources) established an agreement with the Alpena County
George N. Fletcher Public Library to jointly manage this Collection. Amassed over a period of more than 40 years by historian
C. Patrick Labadie, the Collection includes information about such diverse subjects as Great Lakes ports and waterways, docks,
cargoes, ships, shipbuilders, owners and fleets, machinery and rigging, notable maritime personalities, and shipwrecks. Special
features of the Collection are extensive collections of 1) data cards listing most of the ships on the Great Lakes before year 1900,
a roster of some 15,000 vessels complete with descriptive data and highlights of the ships’ careers and their ultimate losses;
and 2) ship photograph negatives of 19th and 20th century Great Lakes ships. Heritage assets also include copies of vessel
ownership documents, contemporary ship photographs, books, and other items documenting the Great Lakes history.

NOAA’s collection-type heritage assets also include items in the National Climatic Data Center Library. Heritage assets include
1) books, manuals, and slides; 2) thermometers, gauges, and radiosondes; and 3) laboratory equipment.

Historical artifacts are designated collection-type heritage assets if they help illustrate the social, educational, and cultural heritage
of NOAA and its predecessor agencies (Coast and Geodetic Survey, U.S. Fish Commission, the Weather Bureau, the Institutes
for Environmental Research, the Environmental Science Services Administration, etc.). These include, but are not limited to,
bells, gyrocompasses, brass citations, flags, pennants, chronometers, ship seals, clocks, compasses, fittings, miscellaneous ship
fragments, lithographic plates, barometers, rain gauges, and any items that represent the uniqueness of the mission of NOAA
and its predecessor agencies.




                                                                                                                                        107
                                                                                 FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




NOAA’s Logistics Office continually conducts inventories of its collection-type heritage assets. Many items that were once
classified as an individual collection are now included in existing collections. Other items are now deemed as not meeting the
heritage asset criteria.

NIST:

NIST currently maintains collection-type heritage assets under its Museum and History Program, which collects, conserves,
and exhibits artifacts, such as scientiﬁc instruments, equipment, objects, and records of signiﬁcance to NIST and predecessor
agencies. This program provides institutional memory and demonstrates the contributions of NIST to the development of
standards measurement, technology, and science. The Information Services Office (ISO) maintains the historical archives, rare
book collection, and oversees the oral history program. The historical archives and rare book collection contain titles that are
considered “classics” of historical scientiﬁc interest, books by prominent contemporary scientists, and books by NIST authors
or about NIST work. Titles are recommended for inclusion by ISO staff and customers. Materials are not speciﬁcally purchased
for the collection nor are funds speciﬁcally allocated for the collection. Photos and manuscripts include images of NIST staff,
facilities, and artifacts that demonstrate NIST accomplishments.

NIST’s Museum and History Program has policies in place for acquisitions and loans. Objects are either on display or in storage
and are not used by visitors. Archives, including the historical book collection, are used according to established research library
policies and procedures. When considering artifacts for accession, the following criteria are considered:

   ●●   Direct connection to NIST program activity;

   ●●   Direct connection to a NIST prominent person;

   ●●   Physical size; and

   ●●   Safety considerations.

Archive material is not loaned. Artifacts are rarely loaned, but can be loaned within established policies and procedures for
educational purposes, scholarly research, and limited public exhibition to qualiﬁed institutions. The loan policy packet for these
artifacts includes an introduction to the NIST Loan Program, Borrower Checklist, Artifact Loan Request, NIST Loan Policy,
Insurance Requirements, Facilities Report, Outgoing Loan Agreement, Condition Report Form, and Outgoing Loan Process.

ISO preserves and promotes the history of NIST through a program that collects, organizes, and preserves records of enduring
value and encourages and supports their use by researchers. The policies and procedures cover such topics as submitting
reference inquiries, regulations for use of the archives collection, scope of archives collection, criteria for accepting archival
material, providing physical and bibliographic access, preservation, and reviewing the collection.

Census Bureau:

Collection-type heritage assets maintained by the Census Bureau are items considered unique for their historical, cultural,
educational, technological, methodological, or artistic importance. They help illustrate the social, educational, and cultural
heritage of the Census Bureau. Some items because of their age or obvious historical significance are inherently historical
artifacts. Some examples of these historical artifacts include:

1900 Hollerith Key Punch: Census Bureau clerks used the key punch during the 1900s to punch round holes into cards for tabulation
by electric tabulating machines housed at the Census Bureau. The key punch increased the speed with which clerks could
transfer data entered on census schedules to the punch cards used to tabulate census results.




  108         FY 2013 AGENCY FINANCIAL REPORT
                                                                                       N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Hollerith Tabulator (Dial): The Hollerith Tabulator dial was manufactured by the Tabulating Machine Company for the Census Bureau.
The Hollerith Tabulator dial mechanically illustrated the data being read from punched paper cards entered into the tabulator.
The holes punched in cards were sensed by pins or pointers making contact through the holes to a drum. The completion of an
electric circuit through a hole advanced the counter on this dial representing data tabulated for a specific population, economic,
or agriculture inquiry on the census schedule.

Gang Punch: The gang punch was manufactured by the Tabulating Machine Company for the Census Bureau. The gang punch was
used for recording facts common to a number of punch cards, such as the month, day, year, etc. It is equipped with a number of
moveable punches, which can easily be changed and set for any desired combination. Using the gang punch, clerks could punch
a number of cards at once, thus speeding the transcription of data.

Pantograph: This item was manufactured by the Tabulating Machine Company for the Census Bureau. Census Bureau clerks used
the pantograph, or keyboard punch, to transfer information on the census schedule to punch cards. To operate the pantograph,
the clerk guided one end of the lever over a board showing the categories of information from the census (age, sex, place of
birth, etc.) and depressed the lever at the appropriate position, punching a hole in the punch card. With the information found
on the schedule translated into punch holes on cards, the data could then be read and the results tallied by tabulators designed
to read the punch cards.

Census Bureau Enumerators Badge: The Census Bureau provided enumerators with badges during the 1900s and later censuses,
and recipients were instructed to wear them when on duty. The 1900s instructions to enumerators noted that the badge offered
additional evidence of the bearer’s authority to ask the question required by law. Furthermore, enumerators were instructed
to wear the badge attached to the vest under the coat, and to exhibit it only when it would aid the enumerator in obtaining the
information. Upon completion of the census, the Census Bureau permitted enumerators to keep the badge as a souvenir of their
service.

Data Stewardship Button: The data stewardship button served as a visible reminder to employees that the Census Bureau complies
with all federal legal requirements affecting the collection, handling, and dissemination of personal and business information.
In addition, the Census Bureau believes that individuals and businesses have fundamental rights to be treated fairly and ethically
when asked to provide their personal information to the government for statistical purposes.

Steel Hand Bander: The steel hand bander is used to secure paper, boxes, and other goods to pallets, via ribbons of steel,
for shipment. The Census Bureau has used similar banders since the early 20th century to secure boxes of questionnaires,
publications, etc., for shipment to census offices throughout the United States, Puerto Rico, and the Island Areas.

Unisys Tape and Reel: It is assumed that Unisys Corporation manufactured this tape and reel in the 1980s. This tape technology,
released in 1964, introduced what is now generally known as 9-track tape. The magnetic tape is ½ inch wide, with eight data
tracks and one parity track for a total of nine parallel tracks. Data is stored as 8-bit characters, spanning the full width of the tape
(including the parity bit). Various recording methods are used to place the data on tape, depending on the tape speed and data
density, including PE (phase encoding), GCR (group code recording), and NRZI (non-return-to-zero, inverted).

Film Optical Sensing Device for Input to Computers (FOSDIC): This 1980s file cabinet-sized version of FOSDIC was manufactured by the
Census Bureau for the 1990 census. During the 1950s, the Census Bureau and the National Bureau of Standards developed the
FOSDIC system, which took census and survey questionnaires that had been photographed onto microfilm, read blackened dots
opposite the appropriate answers, and transferred that data to magnetic tape. These tapes constituted the input for the Census
Bureau’s computers. One important result of this process was the elimination of most discrepancies in data records sent for
processing. First used to process 1960 census results, FOSDIC played an integral part in the Census Bureau’s data processing
system into the mid-1990s.



                                                                                                                                       109
                                                                                FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




Artwork and Gifts: The Census Bureau’s artwork and gifts include items bequeathed to, given to, or commissioned by the agency,
such as posters, paintings, sculptures, postage stamps, photographs, antiques, memorial plaques, cultural artifacts from other
statistical agencies and countries, awards, time capsules, buttons and badges, and more.

The Census Bureau has developed a Project Charter for heritage assets which has developed policies and procedures for the
acquisition and removal of Census Bureau’s heritage assets. If a Census Bureau employee receives a gift from a foreign government’s
statistical agency or any other agency while on official government travel, the Census Bureau employee will deliver the item to a
member of the Census Bureau’s Heritage Assets Committee (Committee) for review upon his or her return to the Census Bureau,
if the item is valued at more than $25. The Committee will decide if the item meets the criteria for a heritage asset based on the
uniqueness, historical age, and/or if the item helps to illustrate the Census Bureau’s historic contributions to the nation’s growth.
If the item is deemed a heritage asset, the applicable property management office will ensure the heritage asset is catalogued
and stored in a safe, secure environment, allowing for appropriate preservation and conservation. All necessary actions will be
taken to reduce deterioration of heritage assets due to environmental conditions, and to limit damage, loss, and misuse of heritage
assets. The Committee meets on a regular basis to determine if any heritage assets should be removed from the approved list,
or if a newly arrived item should be classified as a heritage asset. Once a determination has been made to no longer classify an
item as a heritage asset, the Census Bureau will follow any applicable established policies and procedures for surplus property.




  110         FY 2013 AGENCY FINANCIAL REPORT
                                                                                      N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




The following table summarizes the Department’s Collection-type Heritage Assets activity and balances.

Collection-type Heritage Assets:

(In Actual Quantities)

                                                                       Quantity of                                  Quantity of
                                                                       Items Held                                   Items Held
                                                                      September 30,     FY 2013          FY 2013   September 30,
 Category                       Description of Assets                     2012         Additions       Withdrawals     2013
 NOAA Central Library:
    Circulating Collection      Books, journals, and other
                                publications                                   1      	N/A             	N/A                          1
    Rare Book Room
    Collection                  Books and publications                         1      	N/A             	N/A                          1
    Collection of
    Photographs and Motion
    Pictures               Photographs and motion pictures                     1      	N/A             	N/A                          1
    Other                       Artifacts, documents, and other                                        	
                                items                                         56      	-               	-                          56
 National Ocean Service–        Data cards, photograph negatives,
 Thunder Bay Sanctuary          document copies, photographs,
 Research Collection            books, and other items                   106,254      	-               	-                    106,254
 National Climatic Data         Artifacts, books, documents, and
 Center Library                 other items                                  325      	-                      100                 225
 NOAA Others                    Artifacts, artwork, books, films,
                                instruments, maps, and records             3,431      	10                      43               3,398
 NIST Artifacts and             National Bureau of Standards
 Scientific Measures            (NBS)/NIST scientific instruments,
                                equipment, and objects                     1,015      	32              	-                       1,047
 NIST Historical Books          Books of historical scientific
 and Manuscripts                interest, books by prominent
                                contemporary scientists, and
                                books by NBS/NIST authors and
                                manuscripts of NBS/NIST staff,
                                facilities, and artifacts                     61      	-               	-                          61
 Census Bureau Artwork          Artifacts, artwork, books, films,
 and Gifts                      instruments, and records                     132      	13              	-                         145
 Census Bureau                  Publications, books, manuscripts,
 Collectable Assets             photographs, and maps                         30      	3               	1                          32
 Total                                                                   111,307              58              144            111,221

 N/A - Not applicable; this category is reported as one collection.


Additional information on the condition of the above Collection-type Heritage Assets is presented in the Required Supplementary
Information section.




                                                                                                                                         111
                                                                              FY 2013 AGENCY FINANCIAL REPORT
N O T E S T O T H E F I N A N C I A L S TAT E M E N T S




  112         FY 2013 AGENCY FINANCIAL REPORT
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




            Consolidating
              Bal ance
               S heet
                                  United States Department of Commerce Consolidating Balance Sheet
                                  As of September 30, 2013 (In Thousands)
                                                                                                             Intra-
                                                                                           Consolidating Departmental                                      Census                                                                                                                              Franchise
                                                                                              Total      Eliminations                      BIS             Bureau        DM/G&B         DM/S&E             DM/WCF                         EDA                    ELGP       ESA/BEA              Fund               HCHB                         ITA                   MBDA                   NIST           NOAA                NTIA                 NTIS                   OIG                    USPTO

                                  ASSETS

                                  Intragovernmental:
                                  Fund Balance with Treasury                               $ 18,002,497       $	             -    $ 22,740            $       611,823 $ 4,776           $ 23,024           $ 55,796           $ 1,089,559                $           291    $ 15,338           $ 2,906             $ 22,531         $ 123,047              $           18,915     $ 712,598 $ 3,571,670                  $ 9,683,276 $ 30,182                    $           17,289     $ 1,996,736
                                  Accounts Receivable                                               92,197             (16,648)              294               12,651     	        -             10,275               697                    309             	          -    	            -            	       -    	           -                4,361      	                 -                 6,582           67,623                  137            5,791                       78                    47
                                  Advances and Prepayments                                          91,641             (68,415)            3,643               30,392     	        -              6,980               504                   1,109         	             -              922                  164     	           -                9,524                  1,573                   4,911           57,971             39,277               480                    880                     1,726
                                  Total Intragovernmental                                       18,186,335             (85,063)        26,677                 654,866         4,776          40,279                 56,997         1,090,977                         291             16,260                3,070        	22,531          136,932                       20,488                 724,091        3,697,264           9,722,690            36,453                 18,247             1,998,509

                                  Cash                                                               5,806     	             -     	              -       	          -    	        -     	            -     	            -     	                -         	-                 	            -     	-                  	           -    	                 -    	                 -    	                 -            353     	               -              48          	-                                5,405
                                  Accounts Receivable, Net                                          64,130     	             -             4,248                9,034     	        -                  6                49                    103             	-                         40      	-                  	           -                  170                       8                 10,289           37,877              1,775               401          	-                                 130
                                  Direct Loans and Loan Guarantees, Net                            533,692     	             -     	              -       	          -    	        -         	        -         	        -                  9,068            	-              	            -     	-                  	           -    	                 -       	              -    	                 -        524,624     	               -   	              -       	-                  	                  -
                                  Inventory, Materials, and Supplies, Net                           99,607     	             -     	              -                 91    	        -     	            -                  2                   157             	-              	            -     	-                  	-               	                 -       	              -                27,164          72,107     	               -              86          	-                  	                  -
                                  General Property, Plant, and Equipment, Net                   11,103,844     	             -                   11           124,544         6,305               2,053              4,577                   412             	-                        333      	-                         23,936                4,438         	              -               954,653       9,701,634              21,904              1,275                   761                   257,008
                                  Other                                                             44,897     	             -             1,188                    81            4                   2     	            -     	                -            	-              	            -     	-                  	           -                1,494         	              -                  898            27,332    	               -            5,965                        1                  7,932

                                  TOTAL ASSETS                                             $ 30,038,311       $ (85,063)          $ 32,124            $       788,616 $ 11,085          $ 42,340           $ 61,625           $ 1,100,717                $           291    $ 16,633           $ 3,070             $ 46,467         $ 143,034              $           20,496     $ 1,717,095 $ 14,061,191               $ 9,746,369 $ 44,228                    $           19,009     $ 2,268,984


                                  LIABILITIES

                                  Intragovernmental:
                                  Accounts Payable                                         $       150,275    $ (15,613)          $ 1,190             $        11,528 $	           -    $ 4,556            $ 1,042            $              170         $	-                $ $1,233           $	              -   $	           -   $            2,342     $              136     $             2,116 $       121,196    $          2,553 $ 8,930                $             789      $              8,107
                                  Debt to Treasury                                                 575,603     	             -     	              -       	          -    	        -     	            -     	            -     	                -            	          -    	            -     	              -    	           -    	                 -       	              -       	              -        524,565              51,038     	              -       	              -       	               -
                                  Other
                                  	   Resources Payable to Treasury                                 11,267     	             -     	              -       	          -    	        -     	            -     	            -                  9,747            	          -    	            -     	              -    	           -    	                 -       	              -       	              -          1,520        	            -   	              -       	              -       	               -
                                  	   Unearned Revenue                                             313,926             (68,415)              293              161,685     	        -              8,023             45,268                 40,677            	          -               99                  164     	           -                  586                       5                 61,275          20,214              32,133              5,041                   944                     5,934
                                  	Other                                                            74,505              (1,035)            1,051               22,619     	        -              1,985              1,765                   281             	          -              877             	       -               9                 4,046                    546                   5,913          25,917                   891             167                    329                     9,144

                                  Total Intragovernmental                                        1,125,576             (85,063)            2,534              195,832     	        -             14,564             48,075                 50,875            	          -             2,209                 164                9                  6,974                   687                  69,304         693,412              86,615             14,138                  2,062                   23,185

                                  Accounts Payable                                                 363,540     	             -               991               48,318         	 (64)               288               6,106                   579             	-                       1,245     	-                            114                 6,376                   365                  12,731         205,162                3,181             3,431                  2,425                  72,292
                                  Loan Guarantee Liabilities                                           516     	             -     	              -       	          -    	        -     	            -     	            -        	             -            	-              	            -     	-                  	           -       	              -       	              -       	              -            516        	            -   	              -       	              -       	               -
                                  Federal Employee Benefits                                        897,191     	             -             3,237              130,057     	-                      2,474              5,780                   996             	-                        570      	-                            53                 8,648                  2,438                  11,651         718,502               2,068               942                        64                  9,711
                                  Environmental and Disposal Liabilities                           156,673     	             -     	              -       	          -    	        -     	            -     	            -        	             -            	-              	            -     	-                  	           -       	              -       	              -               124,277          32,396        	            -   	              -       	              -       	               -
                                  Other
                                  	   Accrued Payroll and Annual Leave                            467,706      	             -             4,533               82,245             60              2,934              5,688                  2,183            	-                       5,268     	-                            88                 21,110                   615                  31,350         134,546               3,324              1,120                  2,377                  170,265
                                  	   Accrued Grants                                               536,711     	             -         	          -       	          -    	        -                  -     	            -                406,336            	-              	-                 	-                  	           -                  385                  2,016                  45,931          34,768               47,275    	              -       	              -       	               -
                                  	   Capital Lease Liabilities                                       7,021    	             -     	              -       	          -    	        -                  -     	            -        	             -            	-              	-                 	-                  	           -       	              -       	              -                  936            6,085        	            -   	              -       	              -       	               -
                                  	   Unearned Revenue                                           1,147,196     	             -             5,682                2,531     	        -                  -     	            -                   164             	-              	-                 	-                  	           -               15,433         	              -                45,071          29,364                   327            4,330         	              -           1,044,294
                                  	Other                                                            64,100     	             -                39                4,740     	        -                  -     	            -        	             -            	-              	-                 	-                  	          1                12,221         	              -                 6,469          40,629        	            -   	              -                      1       	               -

                                  TOTAL LIABILITIES                                        $ 4,766,230        $ (85,063)          $ 17,016            $       463,723 $           (4)   $ 20,260           $ 65,649           $ 461,133                  $	-                $ 9,292            $            164    $         265    $ 71,147               $            6,121     $           347,720 $ 1,895,380        $        142,790 $ 23,961               $            6,929     $ 1,319,747


                                  NET POSITION

                                  Unexpended Appropriations
                                  	   Unexpended Appropriations - Funds from
                                       Dedicated Collections                               $	             -   $	             -    $	              -   $	             - $	          -    $	            -    $	            -    $	                -        $	             -   $	            -    $	              -   $	           -   $	                 -   $	                 -   $	                 - $	            -   $	               - $	               -   $	                 -   $	                  -
                                  	   Unexpended Appropriations - All Other Funds                5,340,879     	             -         21,993                 269,943     	        -         24,473         	            -                641,878                    291             11,816        	           -        	22,371             105,192                     17,678                478,863       2,990,087             748,303     	              -                7,991         	               -
                                  Cumulative Results of Operations
                                  	   Cumulative Results of Operations - Funds from                                                                                                                                                                  	
                                       Dedicated Collections                                    	10,033,602    	             -     	              -       	          -        	    -     	            -     	            -        	             -            	          -        	        -        	           -       	        -       	              -       	              -       	              -        245,906            8,838,459    	              -       	              -               949,237
                                  	   Cumulative Results of Operations - All Other Funds         9,897,600     	             -             (6,885)             54,950         11,089             (2,393)            (4,024)                (2,294)           	          -            (4,475)               2,906           23,831               (33,305)                (3,303)               890,512       8,929,818               16,817            20,267                  4,089         	               -

                                  Total Net Position - Funds from Dedicated Collections         10,033,602         	         -     	-                     	          -    	        -     	            -         	        -            	         -                	      -        	        -            	       -                -           	          -           	          -           	          -        245,906            8,838,459        	          -           	          -               949,237




FY 2013 AGENCY FINANCIAL REPORT
                                  Total Net Position - All Other Funds                          15,238,479         	         -         15,108                 324,893         11,089         22,080                 (4,024)               639,584                    291              7,341                2,906           46,202               71,887                 14,375             1,369,375         11,919,905            765,120             20,267                 12,080             	           -

                                  TOTAL NET POSITION                                       $ 25,272,081       $	-                 $ 15,108            $       324,893 $ 11,089          $ 22,080           $ (4,024)          $ 639,584                  $           291    $         7,341    $ 2,906             $ 46,202         $ 71,887               $           14,375     $ 1,369,375 $ 12,165,811               $ 9,603,579 $ 20,267                    $           12,080     $ 949,237

                                  TOTAL LIABILITIES AND NET POSITION                       $ 30,038,311       $ (85,063)          $ 32,124            $       788,616 $ 11,085          $ 42,340           $ 61,625           $ 1,100,717                $           291    $ 16,633           $ 3,070             $ 46,467         $ 143,034              $           20,496     $ 1,717,095 $ 14,061,191               $ 9,746,369 $ 44,228                    $           19,009     $ 2,268,984




              115
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                C O N S O L I D AT I N G B A L A N C E S H E E T




                                  See accompanying independent auditors’ report.
C O N S O L I D AT I N G B A L A N C E S H E E T




  116          FY 2013 AGENCY FINANCIAL REPORT
F   I   N   A   N   C   I   A    L       S     E   C   T   I   O   N




                    R equired
            S upplementary
              I nformation
                        ( u n au d i t e d )
                                                                   R E Q U I R E D S U P P L E M E N TA R Y I N F O R M AT I O N ( U N A U D I T E D )




Required Supplementary Information (Unaudited)

A	   Deferred Maintenance and Repairs

Deferred Maintenance and Repairs are maintenance and repairs that were not performed when they should have been, that
were scheduled and not performed, or that were delayed for a future period. Maintenance and Repairs are activities directed
towards keeping Property, Plant, and Equipment (PP&E) in acceptable operating condition. These activities include preventive
maintenance, normal repairs, replacement of parts and structural components, and other activities needed to preserve the asset
so that it can deliver acceptable performance and achieve its expected life. Maintenance and Repairs exclude activities aimed
at expanding the capacity of an asset or otherwise upgrading it to serve needs different from or significantly greater than those
originally intended. Critical maintenance is defined as those projects where the required maintenance and repairs will have a
critical impact on the public access, functionality and mission support, health and safety, and life cycle cost of a facility if the
maintenance or repairs is not performed. The significant portions of Departmental Deferred Maintenance and Repairs relate to
PP&E of both the National Oceanic and Atmospheric Administration (NOAA) and the National Institute of Standards and Technology
(NIST). These two entities represent 96 percent of the Department’s General PP&E, Net balance as of September 30, 2013.

NOAA:

NOAA uses the Condition Assessment Survey (CAS) method to identify and quantify Deferred Maintenance and Repairs for
assets meeting NOAA’s $200 thousand capitalization threshold. The CAS method employs a periodic inspection of real property,
heritage assets, ships, and other applicable assets to determine its current condition and to estimate costs to correct any
deficiencies. Estimated costs reflect potential costs variance of +/- 10 percent.

The following shows NOAA’s Deferred Maintenance and Repairs for projects with estimated costs greater than $50 thousand
(Buildings and Structures; and Heritage Assets) and $25 thousand (Ships; and Other), as of September 30, 2013:

                   (In Thousands)
                                                          Asset                     Estimated Cost to Return
                             PP&E Category              Condition                   to Acceptable Condition
                     Buildings and Structures                3                      $ 65,286       to    $ 79,794
                     Heritage Assets                        4, 3                       11,756      to       14,369
                     Ships                                   2                         24,545      to       29,999
                     Other                                   3                        	162         to      	198
                     Total                                                          $ 101,749      to    $ 124,360


The CAS method for all PP&E categories is based on a five-point scale, with 1 representing excellent condition;
2 – good condition; 3 – fair condition; 4 – poor condition; and 5 – very poor condition. NOAA has established a “facility
condition code” to classify the conditions of Buildings and Structures. Each building or structure is assessed an individual
“facility condition code.” The average of the individual “facility condition codes” determines the CAS Asset Condition. The
Deferred Maintenance and Repairs amounts reported represent non-critical maintenance and repairs to bring the Buildings
and Structures to good condition. Buildings and Structures Deferred Maintenance and Repairs are comprised of projects
submitted to the Capital Improvements Program. For Heritage Assets, the Deferred Maintenance and Repairs amounts
reported represent non-critical maintenance to bring each class of Heritage Assets to an acceptable condition through




                                                                                                                                               119
                                                                                   FY 2013 AGENCY FINANCIAL REPORT
R E Q U I R E D S U P P L E M E N TA R Y I N F O R M AT I O N ( U N A U D I T E D )




cleaning, restoration, and preservation. NOAA has established a “range of current asset condition code” to classify the
conditions of Ships. The average of the individual “range of current asset condition codes” determines the CAS Asset
Condition.

NIST:

NIST also uses the CAS method to estimate Deferred Maintenance and Repairs. NIST values the condition of assets using a
five-point scale, with 1 representing excellent condition; 2 – good condition; 3 – acceptable condition; 4 – poor condition; and 5 – very
poor condition. Assets that are assessed at 4 or 5 require maintenance and repairs to increase their value to 3, or acceptable condition.
The following shows NIST’s Deferred Maintenance and Repairs as of September 30, 2013:

                    (In Thousands)
                                                                                       Estimated Cost to Return
                                  PP&E Category                      Asset Condition   to Acceptable Condition
                     Mechanical and Electrical Devices                         5       $ 162,539 to   $   179,649
                     Buildings (Internal Structures)                           4          31,683 to        35,018
                     Buildings (External Structures)                           4          10,036 to        11,092
                     Total                                                             $ 204,258 to $ 225,759


B	    Stewardship Marine Sanctuaries, Marine National Monuments, Conservation Area, and Habitat Focus Area

NOAA maintains the following sanctuaries, marine national monuments, and conservation area, which are similar in nature to
stewardship land and which are more fully described in Note 23, Stewardship Property, Plant, and Equipment, of the Notes to
the Financial Statements.

National Marine Sanctuaries: Marine sanctuaries provide protection for nationally significant natural areas, including species close
to extinction, and protect historically significant shipwrecks and prehistoric artifacts. Each of the 13 sanctuaries, which may
include habitats as diverse as near-shore coral reefs and open ocean, conducts research and monitoring activities to characterize
existing resources and document changes. Resource status in the marine sanctuaries varies from good to poor, depending on
resource type. Where conditions are compromised, they appear to reflect historical levels of use and development, and in some
cases recent disturbances (e.g., diseases that have caused mass mortality of critically important species). The effects of recent
disturbance may have been exacerbated by impaired environmental conditions in some areas. Human activities related to each
of these threats are the focus of current management efforts, and favorable trends in resource quality appear to be the result of
active management.

Papahãnaumokuãkea Marine National Monument: The majority of all coral reef habitats located in U.S. waters surround the
Northwestern Hawaiian Islands (NWHI). The Papahãnaumokuãkea Marine National Monument, located off the coast of the NWHI,
encompasses nearly 140,000 square miles of U.S. waters, including approximately 5,200 square miles of relatively undisturbed
coral reef habitat that is home to more than 7,000 species. The condition of the Papahãnaumokuãkea Marine National Monument
is good, but resources in the Monument are affected by an abundance of marine debris, and face emerging threats related to
climate change (e.g., increasing temperature, acidification, and sea level).

Rose Atoll Marine National Monument: The atoll includes the Rose Atoll National Wildlife Refuge. It also includes 20 acres of land
and 1,600 acres of lagoon and extends 50 nautical miles seaward from the mean low water line of the atoll. It is one of the
most pristine atolls in the world. The areas around the atoll support a dynamic reef ecosystem that is home to many land and
marine species, many of which are threatened or endangered. The condition of the Rose Atoll Marine National Monument is



  120          FY 2013 AGENCY FINANCIAL REPORT
                                                               R E Q U I R E D S U P P L E M E N TA R Y I N F O R M AT I O N ( U N A U D I T E D )




good, though it has apparently not recovered completely from the effects of a 1993 shipwreck and spill that altered community
structure on a large portion of the reef.

Marianas Trench Marine National Monument: The Marianas Trench Marine National Monument consists of approximately 96,000
square miles of submerged lands and waters of the Mariana Archipelago. It includes three units: the Islands Unit, the waters
and submerged lands of the three northernmost Mariana Islands; the Volcanic Unit, the submerged lands within 1 nautical mile
of 21 designated volcanic sites; and the Trench Unit, the submerged lands extending from the northern limit of the Exclusive
Economic Zone of the United States in the Commonwealth of the Northern Mariana Islands (CNMI) to the southern limit of the
Exclusive Economic Zone of the United States in the Territory of Guam. The condition of the Marianas Trench Marine National
Monument is good.

Pacific Remote Islands Marine National Monument: The Pacific Remote Islands area consists of Wake, Baker, Howland, and Jarvis
Islands, Johnston Atoll, Kingman Reef, and Palmyra Atoll, which lie to the south and west of Hawaii. With the exception of Wake
Island, these islands are administered as National Wildlife Refuges by the U.S. Fish and Wildlife Service of the Department of the
Interior. They sustain many endemic species including corals, fish, shellfish, marine mammals, seabirds, water birds, land birds,
insects, and vegetation not found elsewhere. The condition of the Pacific Remote Islands Marine National Monument is good.

Aleutian Islands Habitat Conservation Area: This conservation area in Alaska, which covers nearly 370,000 square miles, may harbor
among the highest diversity of deep-water corals in the world, and protects habitat for deep water corals and other sensitive
features that are slow to recover once disturbed by fishing gear or other activities. The condition of the Aleutian Islands Habitat
Conservation Area is generally good, although some specific resources are threatened. For example, the conservation area
contains six small areas of fragile coral gardens.

California’s Russian River Watershed Habitat Focus Area: Once the host of vibrant coho salmon and steelhead runs, the Russian River
was a premiere recreational fishing destination. By 2000, coho salmon were virtually extinct from the river, and the remaining
habitats are badly degraded. Heavy demand for and competing uses of the river’s water adds to the stress on fish. Russian River
Valley communities are also impacted by frequent flooding. Steep hills and numerous canyons make accurate rainfall predictions
and flood forecasts difficult. The condition of California’s Russian River Watershed Habitat Focus Area is fair.


C	   Collection-type Heritage Assets

NOAA:

NOAA’s collection-type heritage assets are comprised primarily of books, journals, publications, photographs and motion pictures,
manuscripts, records, nautical chart plates, and artifacts. Many of these heritage assets are maintained by the NOAA Central
Library (Library). As evidenced by a search of international catalogs, 35 to 50 percent of the Library’s collection is unique.
Historically, 40 percent of the items catalogued are not found anywhere else. The Library has an extensive collection of historical
Coast and Geodetic Survey materials (from 1807) and Weather Bureau materials (from the 1830s), including foreign and historical
meteorological data, information on instruments, and metadata.

NOAA’s collection-type heritage assets include items in the Thunder Bay Sanctuary Research Collection, composed primarily of a)
data cards listing most of the ships on the Great Lakes before 1900, a roster of some 15,000 vessels complete with descriptive
data and highlights of the ships’ careers and their ultimate losses; and b) ship photograph negatives of 19th and 20th century
Great Lakes ships.

NOAA’s collection-type heritage assets also include items in the National Climatic Data Center Library. Heritage assets include
a) books, manuals, and slides; b) thermometers, gauges, and radiosondes; and c) laboratory equipment.




                                                                                                                                           121
                                                                               FY 2013 AGENCY FINANCIAL REPORT
R E Q U I R E D S U P P L E M E N TA R Y I N F O R M AT I O N ( U N A U D I T E D )




NOAA uses the Condition Assessment Survey (CAS) method to describe the condition of its assets. The CAS method is based
on a five-point scale with 1 representing excellent condition; 2 – good condition; 3 – fair condition; 4 – poor condition; and 5 – very
poor condition. Assets with the condition assessment level between 1 through 3 are defined as being suitable for public display.
The books, journals, and other publications that make up the majority of the NOAA Central Library collection-type heritage assets
are in 4 – poor condition, and 5 – very poor condition. The heritage assets of the Thunder Bay Sanctuary Research Collection
are in 2 – good condition, and the heritage assets of the National Climatic Data Center Library are generally in 3 – fair condition.

NIST:

NIST currently maintains the Museum and History Program, which collects, conserves, and exhibits artifacts such as scientific
instruments, equipment, objects and records of significance to NIST and the National Bureau of Standards (NBS). This program
provides institutional memory and demonstrates the contributions of NIST to the development of standards, measurement,
technology, and science. Conditions of these artifacts are listed in the Registrar’s database and are generally fair.

NIST Information Services Office (ISO) maintains NIST Heritage Assets (artifacts), historical archives, a historical book collection,
and oversees the oral history program. The book collection contains titles that are of historical scientific interest, rare titles, and
books by NIST authors or about NIST work. Materials are not specifically purchased for the collection nor are funds specifically
allocated for the collection. Conditions of the books are generally fair. The archives maintain photos of NIST staff, facilities, and
artifacts that demonstrate NIST accomplishments. These images are in good condition.

Census Bureau: Heritage assets at the Census Bureau are items considered unique for their historical, cultural, educational,
technological, methodological, or artistic importance. These assets help illustrate the social, educational, and cultural heritage of
the Census Bureau. Some items, because of their age or obvious historical significance, are inherently historical artifacts. These
historical artifacts include but are not limited to: Hollerith Key Punch, Hollerith Tabulator, Gang Punch, Pantograph, Census Bureau
Enumerators Badge, Unisys Tape and Reel, Film Optical Sensing Device, Artwork and Gifts, and any items which represent the
uniqueness of the mission of the Census Bureau. The heritage assets at the Census Bureau are classified as generally being in
good condition.


D	    Schedule of Budgetary Resources by Major Budget Account

The following table illustrates the Department’s FY 2013 budgetary resources by major budget account. The “Other Programs”
column refers to the Department’s reporting entities and their budget accounts that are not listed.




  122          FY 2013 AGENCY FINANCIAL REPORT
                                                                                                           R E Q U I R E D S U P P L E M E N TA R Y I N F O R M AT I O N ( U N A U D I T E D )




United States Department of Commerce Schedule of Budgetary Resources by Major Budget Account
For the Year Ended September 30, 2013 (In Thousands)
                                                                                                                                                                                                           NTIA
                                                                                                                         NOAA          NTIA Digital                    Census                          Broadboand
                                                                                      NOAA              USPTO         Procurement,      Television       ITA           Bureau                           Technology
                                                                                    Operations,         Salaries      Acquisition,    Transition and  Operations      Periodic              EDA        Opportunities
                                                                   Combining       Research, and          and             and         Public Safety      and        Censuses and            Grant        Program -           Other
                                                                     Total           Facilities        Expenses       Construction         Fund      Administration   Programs              Fund           ARRA            Programs

BUDGETARY RESOURCES:
Unobligated Balance, Brought Forward, October 1                $ 10,352,399        $   243,147     $   237,873        $   42,232      $ 8,764,234      $   29,632       $   132,024     $   184,312 $  2,976           $     715,969
Adjustments to Unobligated Balance, Brought Forward              	(157)                	-              	-                 	-           	-                  	-               	-              	(157)    	-
Unobligated Balance, Brought Forward, October 1, as Adjusted       10,352,242           243,147        237,873              42,232        8,764,234         29,632           132,024        184,155       2,976             715,969
Actual Recoveries of Prior-years Unpaid Obligations                   259,810            38,051         21,351              27,088           21,443         14,962            25,367         47,162       2,036              62,350
Actual Nonexpenditure Transfers of Unobligated Balance, Net            10,647          	-              	-                 	-              	-                 6,440          	-              	-           	-                   4,207
Borrowing Authority Withdrawn                                      	(6,355)            	-              	-                 	-              	-               	-               	-              	-           	-                	(6,355)
Other Changes in Unobligated Balance, Net                          	(38,198)           	(18,193)       	-                 	(10,895)       	-               	(4,805)         	(1,428)        	-           	-                	(2,877)
Unobligated Balance From Prior-years Budget Authority, Net         10,578,146           263,005          259,224             58,425       8,785,677         46,229          155,963         231,317       5,012              773,294
Appropriations                                                       7,907,642         3,237,440       	-                 1,903,988           4,300        439,862          620,728         182,017      	-                1,519,307
Borrowing Authority                                                   299,260          	-              	-                 	-              	-               	-               	-              	-           	-                  299,260
Spending Authority From Offsetting Collections                      4,271,495           216,209        2,672,335              2,790           7,039         14,671            5,952           2,649       2,640            1,347,210
TOTAL BUDGETARY RESOURCES                                      $ 23,056,543        $ 3,716,654     $ 2,931,559        $ 1,965,203     $ 8,797,016      $ 500,762        $     782,643   $    415,983 $        7,652    $ 3,939,071


STATUS OF BUDGETARY RESOURCES:
Obligations Incurred                                           $ 12,354,766        $ 3,370,608     $ 2,489,268        $ 1,800,354     $ 	-             $ 475,054        $     643,417   $    360,319 $ 	-              $ 3,215,746
Unobligated Balance, End of Year                                	
   Apportioned                                                    1,499,168            268,474         442,291            138,923         	-               14,170             3,087         48,571       	-                  583,652
   Exempt From Apportionment                                          3,848            	-              	-                 	-              	-               	-               	-              	-           	-                    3,848
   Unapportioned                                                  9,198,761             77,572         	-                  25,926         8,797,016        11,538           136,139          7,093        7,652              135,825
Total Unobligated Balance, End of Year                             10,701,777            346,046         442,291            164,849        8,797,016         25,708           139,226         55,664          7,652          723,325
TOTAL STATUS OF BUDGETARY RESOURCES                            $ 23,056,543        $ 3,716,654     $ 2,931,559        $ 1,965,203     $ 8,797,016      $ 500,762        $     782,643   $    415,983 $        7,652    $ 3,939,071


CHANGE IN UNPAID OBLIGATED BALANCE, NET:
Unpaid Obligations:
Unpaid Obligations, Brought Forward, October 1                 $      8,478,520    $ 1,947,905     $      344,792     $ 1,208,910     $     73,956     $      91,352    $     215,394 $ 1,099,997 $ 1,709,644 $ 1,786,570
Adjustments to Unpaid Obligations, Brought Forward                          157     	-                 	(1)            	(1)               	(1)                     1        	-                155           1             3
Obligations Incurred                                                 12,354,766       3,370,608         2,489,268       1,800,354         	-                 475,054          643,417     360,319   	-            3,215,746
Outlays, Gross                                                     	(13,778,017)    	(3,431,922)       	(2,547,148)    	(1,947,571)       	(20,960)        	(465,008)       	(685,617)  	(396,131)  	(962,052)  	(3,321,608)
Actual Recoveries of Prior-years Unpaid Obligations                	(259,810)       	(38,051)          	(21,351)       	(27,088)          	(21,443)        	(14,962)        	(25,367)   	(47,162)   	(2,036)    	(62,350)
UNPAID OBLIGATIONS, END OF YEAR                                $    6,795,616      $ 1,848,540     $     265,560      $ 1,034,604     $      31,552    $     86,437     $     147,827   $ 1,017,178 $      745,557     $ 1,618,361

Uncollected Customer Payments:
Uncollected Customer Payments, Brought Forward, October 1      $ 	(608,824)        $ 	(453,844)    $ 	(35)            $ 	-            $ 	-             $ 	(17,125)      $ 	-            $ 	- $ 	-                      $ 	(137,820)
Adjustments to Uncollected Customer Payments,
   Brought Forward                                                 	-                  	-              	(1)               	-              	-               	-               	-              	-           	-                        1
Change in Uncollected Customer Payments                            139,568             104,072         	(11)              	-              	-               7,368            	-              	-           	-                   28,139
UNCOLLECTED CUSTOMER PAYMENTS, END OF YEAR                     $ 	(469,256) $ 	(349,772) $ 	(47) $ 	-                                 $ 	-             $ 	(9,757)       $ 	-            $ 	- $ 	-                      $ 	(109,680)


Unpaid Obligated Balance, Net, Brought Forward, October 1      $     7,869,696     $ 1,494,061     $     344,757      $ 1,208,910     $      73,956    $     74,227     $     215,394   $ 1,099,997 $ 1,709,644        $ 1,648,750

Unpaid Obligated Balance, Net, End of Year                     $    6,326,360      $ 1,498,768     $     265,513      $ 1,034,604     $      31,552    $     76,680     $     147,827   $ 1,017,178 $      745,557     $ 1,508,681


BUDGET AUTHORITY, NET:
Budget Authority, Gross                                        $ 12,478,397        $ 3,453,649     $ 2,672,335        $ 1,906,778     $    11,339      $ 454,533        $    626,680 $ 184,666 $   2,640 $ 3,165,777
Actual Offsetting Collections                                    	(4,621,016)        	(320,281)      	(2,822,057)       	(2,790)          	(7,039)       	(22,039)          	(5,952)  	(2,649)   	(2,640)  	(1,435,569)
Change in Uncollected Customer Payments                             139,568            104,072       	(11)              	-                	-                7,368           	-        	-         	-             28,139
BUDGET AUTHORITY, NET                                          $     7,996,949     $ 3,237,440     $ 	(149,733) $ 1,903,988           $       4,300    $ 439,862        $     620,728   $    182,017 $ 	-              $ 1,758,347


OUTLAYS, NET:
Outlays, Gross                                                 $ 13,778,017        $ 3,431,922     $ 2,547,148        $ 1,947,571     $    20,960      $ 465,008        $    685,617 $ 396,131 $  962,052 $ 3,321,608
Actual Offsetting Collections                                   	(4,621,016)         	(320,281)     	(2,822,057)       	(2,790)           	(7,039)       	(22,039)          	(5,952)  	(2,649)   	(2,640)   	(1,435,569)
Outlays, Net                                                         9,157,001         3,111,641       	(274,909)         1,944,781          13,921        442,969            679,665        393,482       959,412         1,886,039
Distributed Offsetting (Receipts)/Outlays, Net                     	(46,853)           	-              	-                 	-              	-               	-               	-              	-           	-                	(46,853)
AGENCY OUTLAYS, NET                                            $     9,110,148     $ 3,111,641     $ 	(274,909) $ 1,944,781           $      13,921    $ 442,969        $     679,665   $    393,482 $     959,412     $ 1,839,186




                                                                                                                                                                                                             123
                                                                                                                                 FY 2013 AGENCY FINANCIAL REPORT
R E Q U I R E D S U P P L E M E N TA R Y I N F O R M AT I O N ( U N A U D I T E D )




  124          FY 2013 AGENCY FINANCIAL REPORT
F   I   N   A   N   C   I   A    L       S     E   C   T   I   O   N


                    R equired
            S upplementary
             S tewardship
              I nformation
                        ( u n au d i t e d )
                                             R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




Required Supplementary Stewardship Information (Unaudited)
Stewardship Investments

Stewardship investments are substantial investments made by the federal government for the benefit of the nation, but are not
physical assets owned by the federal government. Though treated as expenses when incurred to determine the Department’s
Net Cost of Operations, these items merit special treatment so that users of federal financial reports know the extent of
investments that are made for the long-term benefit of the nation.

Investments in Non-federal Physical Property:

Non-federal physical property investments are expenses included in the Department’s Net Cost of Operations for the purchase,
construction, or major renovation of physical property owned by state and local governments. Based on a review of the Department’s
programs, the National Oceanic and Atmospheric Administration (NOAA) and the Economic Development Administration (EDA)
have significant investments in non-federal physical property.

NOAA:

     National Estuarine Research Reserves (NERR): The NERR system consists of 28 estuarine reserves protected by federal,
     state, and local partnerships that work to preserve and protect the nation’s estuaries. The NERR system helps to fulfill
     NOAA’s stewardship mission to sustain healthy coasts by improving the nation’s understanding and stewardship of
     estuaries. Estuarine reserves are the areas where freshwater from rivers meet the ocean. These areas are known as
     bays, swamps, sloughs, and sounds. These important coastal habitats are used as spawning grounds and nurseries for
     the nation’s commercial fish and shellfish. Estuaries filter much of the polluted runoff from rivers and streams that would
     otherwise contaminate oceans. The reserves were created with the passage of the Coastal Zone Management Act of
     1972, and, as of September 30, 2013, encompassed approximately 1.4 million acres of estuarine waters, wetlands, and
     uplands. The most recent reserve, Lake Superior, WI, was designated on October 26, 2010. NERRs are state-operated and
     managed in cooperation with NOAA. NOAA’s investments in non-federal physical property are for the acquisition of lands
     and development or construction of facilities, auxiliary structures, and public access routes for any NERR site.

     Coastal and Estuarine Land Conservation Program: This program was established under the Commerce, Justice, and State
     Appropriations Act of 2002, “for the purpose of protecting important coastal and estuarine areas that have significant
     conservation, recreation, ecological, historical, or aesthetic values, or that are threatened by conversion from their natural
     or recreational state to other uses.” The investments in non-federal physical property include matching grants awarded to
     state and local governments for land acquisition in coastal and estuarine areas. Since FY 2002, matching grants have been
     directed to 210 such projects.

     Coastal Zone Management Fund: The Coastal Zone Management Program is authorized by the Coastal Zone Management Act of
     1972, and administered at the federal level by NOAA’s Office of Ocean and Coastal Resource Management. The investments
     in non-federal physical property include incidental expenses of land acquisition, and low-cost construction on behalf of
     various state and local governments, for the purpose of preservation or restoration of coastal resources and habitats.
     NOAA’s financing supports various coastal states in their redevelopment of deteriorating and urbanized waterfronts and
     ports, as well as providing for public access to beaches and coastal areas. The state and local governments receive funding
     for these investments through NOAA grant expenditures, and these grant expenditures also include funding for purposes
     other than the investments in non-federal physical property. There is currently not in place a mechanism for the state and
     local governments to determine and report to NOAA the amount of monies they expend for the investments in non-federal




                                                                                                                                               127
                                                                                   FY 2013 AGENCY FINANCIAL REPORT
R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




      physical property. The Department, accordingly, cannot report the amount of investments in non-federal physical property
      for the Coastal Zone Management Fund.

      NOAA’s investments in non-federal physical property for FY 2009 through FY 2013 were as follows:

      (In Millions)
                               Program                                FY 2009        FY 2010        FY 2011        FY 2012    FY 2013       Total
        National Estuarine Research Reserves                          $     11.7     $    14.7      $        5.5   $    3.9   $   2.4   $    38.2
        Coastal and Estuarine Land Conservation Program                    21.6           32.4               6.9        8.8       5.7        75.4
        Total                                                         $    33.3      $     47.1     $       12.4   $   12.7   $   8.1   $ 113.6


EDA:
      Public Works: The Public Works program promotes long-term economic development in distressed areas by providing
      investments for vital public infrastructure and development facilities. These critical investments enable communities to
      attract new, or support existing, businesses that will generate new jobs and income for unemployed and underemployed
      residents. Among the types of projects funded are water, sewer, fiber optics, access roads, and facilities such as industrial
      and business parks, business incubator and skill training facilities, and port improvements.

      Economic Adjustment Assistance: The Economic and Adjustment Assistance program provides flexible investments for
      communities facing sudden or severe economic distress to diversify and stabilize their economies. Factors that seriously
      threaten the economic survival of communities include plant closures, military base closures or realignments, defense
      laboratory or contractor downsizings, natural resource depletion, out-migration, under-employment, and the impacts of
      foreign trade.

      Global Climate Change Mitigation Incentive Fund (GCCMIF): The GCCMIF program was established to strengthen the linkage
      between economic development and environmental quality. The purpose and mission of the GCCMIF program is to
      finance projects that foster economic development by advancing the green economy in distressed communities. The
      GCCMIF program is the development and use of products and services that contribute to economic growth and alleviate
      economic distress by respecting and revitalizing the environment. The GCCMIF program supports projects that create
      jobs through, and increase private capital investment in, efforts to limit the nation’s dependence on fossil fuels, enhance
      energy efficiency, curb greenhouse gas emissions, and protect natural systems.

      Disaster Recovery: EDA supports the repair of infrastructure and economic development-related facilities damaged by
      floods and other natural disasters. Funding for Disaster Recovery is generally through supplemental appropriations from
      Congress for recovery efforts to save, sustain, and preserve private enterprise and job creation in economically distressed
      communities.




  128           FY 2013 AGENCY FINANCIAL REPORT
                                               R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




     EDA’s investments in non-federal physical property for FY 2009 through FY 2013 were as follows:

     (In Millions)
                           Program                           FY 2009        FY 2010        FY 2011        FY 2012        FY 2013           Total
      Public Works                                           $    139.9     $   175.8     $    224.4     $    160.7     $    120.5     $       821.3
      Economic and Defense Adjustments                             68.6           61.4           47.6          49.5           66.8             293.9
      Global Climate Change Mitigation Incentive Fund               0.2            5.5           6.8           12.8           14.9              40.2
      Disaster Recovery                                             6.3          32.4           85.1           111.0         146.2             381.0
      Total                                                  $    215.0     $   275.1     $    363.9     $    334.0     $    348.4     $    1,536.4

     The above investments require matching funds by state and local governments of 20 to 50 percent.

Investments in Human Capital:

Human capital investments are expenses, included in the Department’s Net Cost of Operations, for education and training
programs that are intended to increase or maintain national economic productive capacity and produce outputs and outcomes that
provide evidence of the constant or increasing national productive capacity. These investments exclude education and training
expenses for federal civilian and military personnel. Based on a review of the Department’s programs, the most significant dollar
investments in human capital are by NOAA.

NOAA:

     National Sea Grant College Program: Sea Grant is a nationwide network, administered through NOAA, of 32 university-based
     programs that work with coastal communities. With the adoption in 1966 of the National Sea Grant College Act, Congress
     established an academic/industry/government partnership that would enhance the nation’s education, economy, and
     environment into the 21st century. The program supports activities designed to increase public awareness of coastal, ocean,
     and Great Lakes issues, to provide information to improve management decisions in coastal, ocean, and Great Lakes policy,
     and to train graduate students in marine and Great Lakes science. The Knauss Fellowship Program offers qualified masters
     and doctoral students the opportunity to spend a year working on marine and Great Lakes policy issues with the Executive
     and Legislative branches of the federal government. The program currently has 43 fellowships awarded: 12 fellowships
     funded by the National Sea Grant College Program, and 31 fellowships funded by other NOAA offices and other federal
     agencies. There is also a Graduate Fellowship Program for Ph.D. candidates in the specialized areas of population dynamics
     and marine resource economics. The Graduate Fellowship Program currently has 17 fellowships awarded. Participants in
     this program can receive up to three years of funding.

     National Estuarine Research Reserve Program: This program supports activities designed to increase public awareness of
     estuary issues, provide information to improve management decisions in estuarine areas, and train graduate students
     in estuarine science. The National Estuarine Research Reserve System’s Graduate Research Fellowship (GRF) Program
     offers qualified masters and doctoral students the opportunity to address scientific questions of local, regional, and national
     significance. The result is high-quality research focused on improving coastal management issues. All GRF projects must be
     conducted in a National Estuarine Research Reserve and enhance the scientific understanding of the reserve’s ecosystem.
     In FY 2013, 14 fellowships were awarded.

     Educational Partnership Program: NOAA’s Educational Partnership Program (EPP) with Minority-serving Institutions (MSI) provides
     financial assistance through competitive processes to minority-serving institutions that support research and training of
     students in NOAA-related sciences. The program’s goal is to increase the number of trained and graduated students from




                                                                                                                                                 129
                                                                                     FY 2013 AGENCY FINANCIAL REPORT
R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




      underrepresented communities in science and technology directly related to NOAA’s mission. EPP/MSI also seeks to
      increase collaborative research efforts between NOAA scientists and researchers at minority-serving academic institutions.
      Financial assistance is provided through four competitive program components: the Cooperative Science Centers, the
      Environmental Entrepreneurship Program, the Graduate Sciences Program, and the Undergraduate Scholarship Program.

      NOAA provides funding to eligible MSIs on a competitive basis to educate, train, and graduate students in NOAA sciences,
      particularly atmospheric, oceanic, environmental, living marine resources, remote sensing, and scientific environmental
      technology. The Cooperative Science Centers’ goals are to:

        ●●   Train and graduate students, particularly from underrepresented communities, in NOAA mission sciences;

        ●●   Develop expertise in a NOAA scientific area;

             •	 Strengthen and build capacity in a NOAA scientific and management area; and

             •	 Build research experience in a NOAA scientific and management area.

        ●●   Increase graduation rates of students from underrepresented communities in NOAA mission sciences;

        ●●   Impact NOAA workforce statistics by increasing representation from underrepresented communities in NOAA mission
             sciences; and

        ●●   Leverage NOAA funds to build the education and research capacity at MSIs.

      In FY 2013, the Cooperative Science Centers awarded 89 degrees to students, and continued to support 265 students in
      post-secondary NOAA mission-relevant science, technology, resource management, and policy degree programs.

      The Environmental Entrepreneurship Program (EEP) provides funding to eligible minority-serving institutions on a competitive
      basis to engage students to pursue advanced academic study and entrepreneurship opportunities in the NOAA-related
      sciences. EEP supports student training and experiential learning opportunities for the purpose of stimulating job creation
      and business development, and revitalizing local communities. EEP’s objective is to increase the number of students at
      MSIs proficient in environmental business enterprises.

      The Graduate Sciences Program (GSP) is aimed primarily at increasing opportunities for students in NOAA mission fields
      to pursue research and educational training in atmospheric, environmental, remote sensing, and oceanic sciences at MSIs
      when possible. GSP offers between two years (master’s candidates) to four years (doctoral students) of NOAA-related
      research and training opportunities. GSP provides college graduates entry-level employment and hands-on research and
      work experience at NOAA. NOAA did not advertise for student applications in 2013, as it is unable to continue GSA in the
      same manner that it has operated recently due to federal government-wide changes being directed by the U.S. Office of
      Personnel Management. NOAA plans, however, to advertise a redesigned graduate program in the near future.

      The Undergraduate Scholarship Program is designed to increase the number of students who undertake course work and
      graduate with degrees in the targeted areas integral to NOAA’s mission. Appointments are for two years, and are made
      to students who have recently declared or are about to declare a major in atmospheric, oceanic, or environmental science.
      The students participate in research, training, and development activities at NOAA offices and facilities during two summer
      internships. In FY 2013, 11 students were selected for the program.




  130           FY 2013 AGENCY FINANCIAL REPORT
                                         R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




Ernest F. Hollings Undergraduate Scholarship Program: This program was established in 2005 to 1) increase undergraduate
training in oceanic and atmospheric science, research, technology, and education, and foster multidisciplinary training
opportunities; 2) increase public understanding and support for stewardship of the ocean and atmosphere and improve
environmental literacy; 3) recruit and prepare students for public service careers with NOAA and other agencies at the
federal, state, and local levels of government; and 4) recruit and prepare students for careers as teachers and educators
in oceanic and atmospheric science and to improve scientific and environmental education in the U.S. Students live and
attend universities across the U.S. They are majoring in the following science, technology, engineering, and mathematics
fields: Mathematics; Meteorology; Engineering; Biology; Chemistry; Climatology; Computer Science; Earth Sciences;
Economics; Science Teachers; Physical Sciences; and Science Policy. In FY 2013, the program added 128 students.

Southeast Fisheries Science Center’s Recruiting Training Research Program: This is a joint program between NOAA’s National
Marine Fisheries Service (NMFS) and the University of Florida. The program had resided at Virginia Tech before moving to
the University of Florida in December 2011. The objectives of the program are the following: 1) to recruit top undergraduate
and graduate students into the field of fisheries population dynamics and careers with NMFS; 2) to train graduate students;
and 3) to conduct population dynamics and stock assessment research in support of the NMFS mission. The program also
offers graduate courses and workshops in computer programming, simulation modeling, and fish population dynamics.
In FY 2013, 17 outstanding undergraduate students from across the country participated in a week-long undergraduate
workshop. In June of 2013, 8 outstanding graduate students participated in a two-week summer program. Because of the
workshop and summer program, 4 new students began SEFSC-related research in the fall of 2013.

Northeast Fisheries Science Center (NEFSC) Partnership Education Program (PEP): The NEFSC of NOAA’s National Marine Fisheries
Service leads a consortium of six science institutions in Woods Hole, MA., offering a ten-week summer program that
combines undergraduate course work with research in marine and environmental science. Launched in 2009, PEP is
an ongoing diversity program designed to recruit talent from minority groups that are under-represented in marine and
environmental sciences. PEP recruitment targets college students with priority given to entering juniors and seniors
majoring in the natural sciences who have had some course work in marine and/or environmental science. The program
includes a credit course taught in Woods Hole by research scientists from Woods Hole science institutions, student research
projects, and presentation of research results in a one-day seminar. Participants receive financial support for tuition, travel,
and room and board, as well as a stipend. In FY 2013, 15 students participated in the ten-week summer program.

Northeast Fisheries Science Center Bradford E. Brown Student Internship Program: The NEFSC has named its student intern program
after Dr. Bradford Brown, a retired NOAA Fisheries Service scientist who was a leader in recruiting young people into fishery
science. The program is open to active undergraduate and graduate students. Research topics include population biology
and dynamics, resource assessment and environmental surveys, taxonomy, physical and biological oceanography, social
sciences, data management, larval fish/plankton ecology, large marine ecosystems, aquaculture, biotechnology, remote
sensing, protected species, and apex predators. Summer positions are offered throughout NEFSC laboratories, which are
located in Woods Hole, MA; Narragansett, RI; Milford, CT; Highlands, NJ; Washington, DC; and Orono, ME. In FY 2013,
the program was not supported due to sequestration.

Woods Hole Science Aquarium (WHSA) High School Intern Program: WHSA offers three summer programs for students who
have completed grades 10, 11, or 12. The programs are run by WHSA staff, and are projects of the NEFSC of NOAA’s
National Marine Fisheries Service and the Marine Biological Laboratory. Interns selected for the five-week program work
in the aquarium, help lead public collecting walks, and participate in the Careers in Marine Science seminars. The one and
two-week Careers in Marine Science seminars consist of short presentations by marine scientists, activities, and field trips
that introduce students to marine-related careers. All students learn basic animal husbandry and aquarist skills, visit the
local Woods Hole research institutions, meet with working scientists in a variety of fields, and visit area aquariums, zoos,
and waterfronts. In FY 2013, 17 students participated in the program.



                                                                                                                                           131
                                                                               FY 2013 AGENCY FINANCIAL REPORT
R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




      Pacific Islands Fisheries Science Center (PIFSC) Student Intern Program (PSIP): PSIP offers qualified college students professional
      work experience and formal training opportunities tailored to meet their educational and professional goals and interests. PSIP
      is a paid, summer-long (8-12 weeks) program that combines on-the-job training, formal training, one-to-one mentoring, and
      developmental assignments at PIFSC. Internship opportunities are established in specific PIFSC projects. Program components
      include:

        ●●   Performance Plans to establish goals and timelines for the intern’s work assignments (established in meetings between
             intern and mentor);

        ●●   Periodic meetings between intern and mentor to check on progress (includes a mid-point review and final review);

        ●●   Inclusion of intern in PIFSC staff activities (division meetings, all-hands meetings, training, and other activities);

        ●●   Program wrap up: Interns and mentors hold a final meeting to review final products and discuss the internship
             experience; and

        ●●   Evaluations: Interns and mentors complete a program evaluation to provide feedback that will help PIFSC improve the
             structure of the internship program.

      In addition to the individual and group mentoring by PIFSC staff, PSIP interns are encouraged to synergize with each other
      and with other undergraduate and graduate interns at PIFSC. In FY 2013, PIFSC hosted 6 undergraduate summer interns:
      1 each in the Fisheries Research and Monitoring Division, Ecosystems and Oceanography Division, Coral Reef Ecosystem
      Division, and Human Dimensions Program; and 2 in the Protected Species Division.

      The following table summarizes NOAA’s investments in human capital for FY 2009 through FY 2013:

      (In Millions)

                                    Program                                   FY 2009       FY 2010         FY 2011    FY 2012    FY 2013            Total
        National Sea Grant College Program                                    $     0.7     $     0.9       $    0.8   $    0.7   $        0.7   $      3.8
        National Estuarine Research Reserve Program                                  1.0          1.3            1.5        1.5            1.4          6.7
        Educational Partnership Program                                            15.0          14.3           14.3       12.5           13.0         69.1
        Ernest F. Hollings Undergraduate Scholarship Program                        3.6           4.6            4.5        4.9            5.0         22.6
        Southeast Fisheries Science Center’s Recruiting Training
        Research Program                                                            0.4           0.5            0.5        0.5            0.5          2.4
        Northeast Fisheries Science Center Partnership Education
        Program                                                                        -             -           0.2        0.2            0.2          0.6
        Northeast Fisheries Science Center Bradford E. Brown                                                                          	
        Student Internship Program                                                  N/A          N/A             0.2        0.2              -          0.4
        Total                                                                 $    20.7     $    21.6       $   22.0   $   20.5   $       20.8   $    105.6

        N/A = Not Applicable




  132           FY 2013 AGENCY FINANCIAL REPORT
                                              R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




    The following table further summarizes NOAA’s human capital investments for FY 2009 to FY 2013 by performance outcome:

    (In Millions)

                     Performance Outcome                           FY 2009             FY 2010           FY 2011       FY 2012          FY 2013
     Protect, Restore, and Manage the Use of Coastal and              	                 	                 	               	                 	
     Ocean Resources                                              $       20.7     $        21.6              N/A             N/A               N/A
     Increase Scientific Knowledge and Provide Information
     to Stakeholders to Support Economic Growth and to                	                 	                 	               	                 	
     Improve Innovation, Technology, and Public Safety                    N/A               N/A      $        22.0    $       20.5      $       20.4
     N/A = Not Applicable


Investments in Research and Development (R&D):

Investments in R&D are expenses that are included in the Department’s Net Cost of Operations. The investments
are divided into three categories: 1) basic research, the systematic study to gain knowledge or understanding of the
fundamental aspects of phenomena and of observable facts without specific applications toward processes or products in
mind; 2) applied research, the systematic study to gain knowledge or understanding necessary for determining the means
by which a recognized and specific need may be met; and 3) development, the systematic use of the knowledge and
understanding gained from research for the production of useful materials, devices, systems, or methods, including the
design and development of prototypes and processes. The investments are made with the expectation of maintaining or
increasing national economic productive capacity, or yielding other future economic or societal benefits. Based on a review
of the Department’s programs, the only significant investments in R&D are by NIST and NOAA.

NIST:

    NIST Laboratories Program:

    For more than 100 years, NIST has maintained the national standards of measurement, a role that the U.S. Constitution
    assigns to the federal government. Today, NIST Laboratories address increasingly complex measurement challenges. For
    example, NIST develops measurements focusing on the very small (e.g., nanotechnology devices) and the very large (e.g.,
    skyscrapers), the physical—methods for characterizing strands of DNA for forensic testing and the virtual—methods for
    testing electronic health record systems, and tests the performance of walk-through metal detectors.

     ●●   NIST Laboratories work at the frontiers of measurement science to ensure that the U.S. system of measurements is
          firmly grounded on a sound scientific and technical foundation. NIST promotes the use of measurements based on the
          international system of units (SI). The measurement science research at NIST is useful to all science and engineering
          disciplines.

     ●●   NIST Laboratories work to assure that the U.S. realization of the basic and derived measurement units is consistent with
          the realization in other nations. NIST Laboratories engage in a number of international activities to support trade and
          global science, and to promote the international acceptance of U.S. measurement standards.

     ●●   NIST Laboratories provide industry and academia with unique user facilities that support innovation in materials science,
          nanotechnology, and other emerging technology areas through the NIST Center for Neutron Research, which provides
          world class neutron measurement capabilities to the U.S. research community, and the NIST Center for Nanoscale
          Science and Technology, which supports nanotechnology development from discovery to production.




                                                                                                                                                 133
                                                                                    FY 2013 AGENCY FINANCIAL REPORT
 R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




         ●●   NIST Laboratories also support the development of standards and specifications that define technical and performance
              requirements for goods and services. These standards—also known as documentary standards—are often developed
              collaboratively with the private sector through an open, consensus-based process. NIST scientists and engineers
              lend their expertise to these efforts in order to promote standards that are based on sound science, and to ensure
              that the standards are supported by effective measurements and testing methods for conformity. In addition, NIST is
              designated under the National Technology Transfer Advancement Act as the coordinator for all federal agencies using
              documentary standards that are developed by private-sector consensus bodies to carry out their policy objectives.

        Technology Innovation Program (TIP):

        NIST’s FY 2013 appropriations did not provide funding for TIP, and the program is currently undergoing a closeout planned
        from FY 2012 through FY 2015. NIST proposes to use unobligated balances (carryover funding), and funding from
        recoveries of prior-years unpaid obligations, to close out the program and to perform NIST’s fiduciary responsibilities.

        Advanced Manufacturing Technology Consortia (AMTech) Program:

        In FY 2013, Congress provided funding for the AMTech Program. The purpose of this program is to establish new, and
        strengthen existing, industry-led, technology consortia which will identify and prioritize research projects supporting long-
        term industrial research needs. The AMTech Program funding will enable consortia to develop advanced technologies to
        address major technological and related barriers that inhibit the growth of advanced manufacturing in the U.S. and the
        global competitiveness of U.S. companies. In 2011, NIST’s Visiting Committee on Advanced Technology issued a report
        that endorsed the AMTech Program as “a model public-private partnership for supporting technological innovation and
        facilitating its deployment to support advanced manufacturing.” There were not any significant R&D investments for the
        AMTech Program in FY 2013.

        The following table summarizes NIST’s R&D investments for FY 2009 through FY 2013 by R&D Category:

        (In Millions)

                                NIST Laboratories                       Technology Innovation Program                                   Total
                     FY        FY       FY        FY        FY       FY        FY        FY        FY         FY        FY       FY      FY       FY      FY
R&D Category        2009      2010     2011      2012      2013     2009      2010      2011      2012       2013      2009     2010    2011     2012    2013
Basic Research     $ 144.9 $ 162.0 $ 185.3 $ 198.9 $ 206.4 $               - $       - $       - $       - $        - $ 144.9 $ 162.0 $ 185.3 $ 198.9 $ 206.4
Applied Research     378.5    395.9     377.8     379.1     382.5     25.0       26.2      22.1      19.7      10.6     403.5   422.1   399.9    398.8   393.1

Development           15.4      15.3     19.4      12.7      14.7     25.1       26.2      22.1      19.7      10.6      40.5    41.5     41.5    32.4    25.3

Total              $ 538.8 $ 573.2 $ 582.5 $ 590.7 $ 603.6 $ 50.1 $ 52.4 $ 44.2 $ 39.4 $ 21.2 $ 588.9 $ 625.6 $ 626.7 $ 630.1 $ 624.8




   134           FY 2013 AGENCY FINANCIAL REPORT
                                           R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




The following tables further summarize NIST’s R&D investments for FY 2009 through FY 2013 by performance outcome.

(In Millions)

                                                                 FY 2013
                                                                                Basic              Applied
                      Performance Outcome                                                                          Development                Total
                                                                               Research            Research
 NIST Laboratories: Provide Measurement Tools and Standards
 to Strengthen Manufacturing, Enable Innovation, and Increase              	                   	                   	                  	
 Efficiency                                                                    $       206.4       $       382.5       $       14.7       $     603.6
 Technology Innovation Program: Stimulate High-growth Business
 Formation and Entrepreneurship through Investing in High-risk, High-
 reward Technologies and by Removing Impediments to Accelerate             	                   	                   	                  	
 Technology Commercialization                                                              -                10.6               10.6              21.2
 Total                                                                         $       206.4       $       393.1       $       25.3       $     624.8


(In Millions)

                                                                 FY 2012
                                                                                Basic              Applied
                      Performance Outcome                                                                          Development                Total
                                                                               Research            Research
 NIST Laboratories: Provide Measurement Tools and Standards
 to Strengthen Manufacturing, Enable Innovation, and Increase              	       	           	       	           	       	          	
 Efficiency                                                                    $       198.9       $       379.1       $       12.7       $    590.7
 Technology Innovation Program: Stimulate High-growth Business
 Formation and Entrepreneurship through Investing in High-risk, High-
 reward Technologies and by Removing Impediments to Accelerate             	                   	                   	                  	
 Technology Commercialization                                                              -                19.7               19.7              39.4
 Total                                                                         $       198.9       $       398.8       $       32.4       $    630.1


(In Millions)

                                                                 FY 2011
                                                                                Basic              Applied
                      Performance Outcome                                                                          Development                Total
                                                                               Research            Research
 NIST Laboratories: Provide Measurement Tools and Standards
 to Strengthen Manufacturing, Enable Innovation, and Increase              	
 Efficiency                                                                    $       185.3       $       377.8       $       19.4       $    582.5
 Technology Innovation Program: Stimulate High-growth Business
 Formation and Entrepreneurship through Investing in High-risk, High-
 reward Technologies and by Removing Impediments to Accelerate             	
 Technology Commercialization                                                              -                22.1               22.1              44.2
 Total                                                                         $       185.3       $       399.9       $       41.5       $    626.7




                                                                                                                                                      135
                                                                                       FY 2013 AGENCY FINANCIAL REPORT
R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




      (In Millions)

                                                                              FY 2010
                                                                                             Basic          Applied
                                Performance Outcome                                                                     Development       Total
                                                                                            Research        Research
        NIST Laboratories: Promote Innovation, Facilitate Trade, and
        Ensure Public Safety and Security by Strengthening the Nation’s                 	
        Measurements and Standards Infrastructure                                           $   162.0       $   395.9    $    15.3    $    573.2
        Technology Innovation Program: Promote U.S. Competitiveness by
        Directing Federal Investment and R&D into Areas of Critical National
        Need that Support, Promote and Accelerate High-risk, High-reward                	
        Research in the United States                                                               -            26.2         26.2           52.4
        Total                                                                               $   162.0       $   422.1    $    41.5    $    625.6


      (In Millions)

                                                                              FY 2009
                                                                                             Basic          Applied
                                Performance Outcome                                                                     Development       Total
                                                                                            Research        Research
        NIST Laboratories: Promote Innovation, Facilitate Trade, and
        Ensure Public Safety and Security by Strengthening the Nation’s                 	
        Measurements and Standards Infrastructure                                           $   144.9       $   378.5     $   15.4    $    538.8
        Technology Innovation Program: Promote U.S. Competitiveness by
        Directing Federal Investment and R&D into Areas of Critical National
        Need that Support, Promote, and Accelerate High-risk, High-reward               	
        Research in the United States                                                               -            25.0         25.1           50.1
        Total                                                                               $   144.9       $   403.5     $   40.5    $    588.9



NOAA:

      NOAA conducts a substantial program of environmental R&D in support of its mission, much of which is performed to
      improve the United States’ understanding of and ability to predict environmental phenomena. The scope of research includes:

        ●●   Improving predictions and warnings associated with the weather, on timescales ranging from minutes to weeks;

        ●●   Improving predictions of climate, on timescales ranging from months to centuries; and

        ●●   Improving understanding of natural relationships to better predict and manage renewable marine resources and coastal
             and ocean ecosystems.

      NOAA also conducts research that is intended to provide a solid scientific basis for environmental policy-making in
      government. Examples of this research include determining the stratospheric ozone-depleting potential of proposed
      substitutes for chlorofluorocarbons (CFCs), and identifying the causes of the episodic high rural ozone levels that significantly
      damage crops and forests.

      NOAA conducts most R&D in-house; however, contractors to NOAA undertake most systems R&D. External R&D work
      supported by NOAA includes that undertaken through federal-academic partnerships such as the National Sea Grant College
      Program, the Cooperative Institutes of the Environmental Research Laboratories, the Climate and Global Change Program,
      and the Coastal Ocean Program.



  136           FY 2013 AGENCY FINANCIAL REPORT
                                         R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




A brief description of the major R&D programs of NOAA follows:

Environmental and Climate: The Office of Oceanic and Atmospheric Research is NOAA’s primary research and development
office. This office conducts research in three major areas: climate research; weather and air quality research; and ocean,
coastal, and Great Lakes research. NOAA’s research laboratories, Climate Program Office, and research partners conduct
a wide range of research into complex climate systems, including the exploration and investigation of ocean habitats and
resources. NOAA’s research organizations conduct applied research on the upper and lower atmosphere as well as the
space environment.

Fisheries: NMFS is responsible for the conservation and management of living marine resources and their habitat within the
Nation’s Exclusive Economic Zone. NMFS manages these resources through science-based conservation and management
to ensure their continuation as functioning components of productive ecosystems, while also affording economic
opportunities and enhancing the quality of life for the American public. Fishery stocks and protected species are surveyed;
catch, bycatch, incidental take, economic and social data are collected, and research is conducted to better understand the
variables affecting the abundance and variety of marine fishes and protected species, their habitat, and the benefits they
provide to society. Protection of endangered species, restoration of coastal and estuarine fishery habitats, and enforcement
of fishery regulations are primary NOAA activities. The research and management of living marine resources is conducted
in partnership with states, tribes, universities, other countries, international organizations, and a broad range of stakeholders
who benefit from the use and existence of living marine resources and their habitat.

Marine Operations and Maintenance and Aircraft Services: These efforts support NOAA’s programs requiring operating days and
flight hours to collect data at sea and in the air. NOAA’s Marine and Aviation Operations manage a wide variety of specialized
aircraft and ships to complete NOAA’s environmental and scientific missions. The aircraft collect the environmental and
geographic data essential to NOAA hurricane and other weather and atmospheric research, conduct aerial surveys for
hydrologic research to help predict flooding potential from snowmelt, and provide support to NOAA’s fishery research and
marine mammal assessment programs. NOAA’s ship fleet provides oceanographic and atmospheric research and fisheries
research vessels to support NOAA’s strategic plan elements and mission.

Weather Service: The National Weather Service conducts applied research and development, building upon research
conducted by NOAA laboratories and the academic community. Applied meteorological and hydrological research is integral
to providing more timely and accurate weather, water, and climate services to the public.

Other Programs: As a national lead for coastal stewardship, National Ocean Service promotes a wide range of research
activities to create the strong science foundation required to advance the sustainable use of precious coastal systems.
Understanding of the coastal environment is enhanced through coastal ocean activities that support science and resource
management programs. The National Environmental Satellite Data and Information Service, through its Office of Research
and Applications, conducts atmospheric, climatological, and oceanic research into the use of satellite data for monitoring
environmental characteristics and their changes. It also provides guidance for the development and evolution of spacecraft
and sensors to meet future needs.




                                                                                                                                           137
                                                                               FY 2013 AGENCY FINANCIAL REPORT
R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




      NOAA’s R&D investments by program for FY 2009 through FY 2013 were as follows:

      (In Millions)

                           Program                              FY 2009          FY 2010         FY 2011             FY 2012           FY 2013         Total
        Environmental and Climate                           $      337.0     $      344.1    $      395.3        $      392.8      $      326.3    $   1,795.5
        Fisheries                                                   55.7             59.9             65.7                  64.9            51.2          297.4
        Marine Operations and Maintenance and
        Aircraft Services                                           38.4             34.3             34.3                  33.3           32.4          172.7
        Weather Service                                             58.4             53.9             54.7                  36.4           28.6          232.0
        Others                                                     103.8            102.0             98.0                  90.6            74.8         469.2
        Total                                               $      593.3     $      594.2    $      648.0        $      618.0      $      513.3    $   2,966.8




      The following table summarizes NOAA’s R&D investments for FY 2009 through FY 2013 by R&D category:

      (In Millions)

                       R&D Category                             FY 2009          FY 2010         FY 2011             FY 2012           FY 2013         Total
        Applied Research                                    $      491.3     $      452.4    $      439.6        $      426.5      $      356.9    $   2,166.7
        Development                                                102.0            141.8           208.4               191.5             156.4          800.1
        Total                                               $      593.3     $      594.2    $      648.0        $      618.0      $      513.3    $   2,966.8




      The following tables further summarize NOAA’s R&D investments from FY 2013 back to FY 2009 by performance outcome:

      (In Millions)

                                                                              FY 2013
                                                                                                             Applied
                                        Performance Outcome                                                                     Development            Total
                                                                                                             Research
        Increase Scientific Knowledge and Provide Information to Stakeholders to Support
        Economic Growth and to Improve Innovation, Technology, and Public Safety                             $   125.0             $      7.1      $    132.1
        Enable Informed Decision-making through an Expanded Understanding of the U.S.
        Economy, Society, and Environment by Providing Timely, Relevant, Trusted, and
        Accurate Data, Standards, and Services                                                                       42.5               12.8             55.3
        Improve Weather, Water, and Climate Reporting and Forecasting                                                 7.6               21.0             28.6
        Support Climate Adaptation and Mitigation                                                                    85.9               107.0           192.9
        Develop Sustainable and Resilient Fisheries, Habitats, and Species                                           46.3                5.0             51.3
        Support Coastal Communities that are Environmentally and Economically
        Sustainable                                                                                                  49.6                3.5             53.1
        Total                                                                                                $   356.9             $   156.4       $    513.3




  138            FY 2013 AGENCY FINANCIAL REPORT
                                            R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




(In Millions)

                                                                  FY 2012
                                                                                               Applied
                             Performance Outcome                                                               Development               Total
                                                                                               Research
Increase Scientific Knowledge and Provide Information to Stakeholders to Support
Economic Growth and to Improve Innovation, Technology, and Public Safety                       $    148.1         $      9.9         $    158.0
Enable Informed Decision-making through an Expanded Understanding of the U.S.
Economy, Society, and Environment by Providing Timely, Relevant, Trusted, and
Accurate Data, Standards, and Services                                                               45.2               12.6               57.8
Improve Weather, Water, and Climate Reporting and Forecasting                                         8.9               27.5               36.4
Support Climate Adaptation and Mitigation                                                           104.4              127.5              231.9
Develop Sustainable and Resilient Fisheries, Habitats, and Species                                   56.1                8.8               64.9
Support Coastal Communities that are Environmentally and Economically
Sustainable                                                                                          63.8                5.2               69.0
Total                                                                                          $   426.5          $    191.5         $    618.0


(In Millions)

                                                                  FY 2011
                                                                                               Applied
                             Performance Outcome                                                               Development               Total
                                                                                               Research
Increase Scientific Knowledge and Provide Information to Stakeholders to Support
Economic Growth and to Improve Innovation, Technology, and Public Safety                       $    149.5         $       9.3        $    158.8
Enable Informed Decision-making through an Expanded Understanding of the U.S.
Economy, Society, and Environment by Providing Timely, Relevant, Trusted, and
Accurate Data, Standards, and Services                                                               48.0               12.6               60.6
Improve Weather, Water, and Climate Reporting and Forecasting                                         17.8              36.9               54.7
Support Climate Adaptation and Mitigation                                                            101.2             141.4              242.6
Develop Sustainable and Resilient Fisheries, Habitats, and Species                                   59.1                 6.7              65.8
Support Coastal Communities that are Environmentally and Economically
Sustainable                                                                                          64.0                 1.5              65.5
Total                                                                                          $    439.6         $    208.4         $    648.0


(In Millions)

                                                                  FY 2010
                                                                                               Applied
                             Performance Outcome                                                               Development               Total
                                                                                               Research
Protect, Restore, and Manage the Use of Coastal and Ocean Resources                            $   218.4          $      6.8         $    225.2
Advance Understanding of Climate Variability and Change                                             125.1               84.0              209.1
Provide Accurate and Timely Weather and Water Information                                           108.0               48.4              156.4
Support Safe, Efficient, and Environmentally Sound Commercial Navigation                              0.9                2.6                3.5
Total                                                                                          $   452.4          $   141.8          $    594.2




                                                                                                                                              139
                                                                                  FY 2013 AGENCY FINANCIAL REPORT
R E Q U I R E D S U P P L E M E N TA R Y S T E W A R D S H I P I N F O R M AT I O N ( U N A U D I T E D )




      (In Millions)

                                                                              FY 2009
                                                                                                            Applied
                                        Performance Outcome                                                             Development       Total
                                                                                                            Research
        Protect, Restore, and Manage the Use of Coastal and Ocean Resources                                 $   211.5    $     8.1    $    219.6
        Advance Understanding of Climate Variability and Change                                                 140.4         60.5         200.9
        Provide Accurate and Timely Weather and Water Information                                               138.9         32.7         171.6
        Support Safe, Efficient, and Environmentally Sound Commercial Navigation                                  0.5          0.7           1.2
        Total                                                                                               $   491.3    $   102.0    $    593.3




  140           FY 2013 AGENCY FINANCIAL REPORT
F   I   N   A   N   C   I   A    L       S     E   C   T   I   O   N




                        O ther
                I nformation
                        ( u n au d i t e d )
                                                                                                                                         O T H E R I N F O R M AT I O N ( U N A U D I T E D )




The Schedule of Spending by Major Budget Account presents an overview of how and where the Department is spending (i.e., obligating)
money for the fiscal year, including amounts agreed to be spent during the fiscal year, how the money was spent, and who did the money
go to. The Total Amounts Agreed to be Spent lines represent obligations incurred during the fiscal year.

United States Department of Commerce Schedule of Spending by Major Budget Account
For the Year Ended September 30, 2013 (In Thousands)
                                                                                                                                                                                    NTIA
                                                                                                    NOAA         NTIA Digital                    Census                          Broadband
                                                                    NOAA              USPTO      Procurement,     Television       ITA           Bureau                          Technology
                                                                  Operations,         Salaries   Acquisition,   Transition and  Operations      Periodic             EDA        Opportunities
                                                   Combining     Research, and          and          and        Public Safety      and        Censuses and           Grant        Program -        Other
                                                     Total         Facilities        Expenses    Construction        Fund      Administration   Programs             Fund           ARRA         Programs

WHAT MONEY IS AVAILABLE TO SPEND?
Total Resources                                    $ 23,056,543 $ 3,716,654      $ 2,931,559     $ 1,965,203    $     8,797,016    $ 500,762     $     782,643 $  415,983 $   7,652             $ 3,939,071
Less: Amounts Available but Not Agreed to be Spent  	(1,503,016)  	(268,474)       	(442,291)      	(138,923)       	-               	(14,170)       	(3,087)    	(48,571)  	-                    	(587,500)
Less: Amounts Not Available to be Spent             	(9,198,761)  	(77,572)        	-              	(25,926)        	(8,797,016)     	(11,538)       	(136,139)  	(7,093)   	(7,652)              	(135,825)
TOTAL AMOUNTS AGREED TO BE SPENT               $    12,354,766   $ 3,370,608     $ 2,489,268     $ 1,800,354    $ 	-               $ 475,054     $     643,417   $    360,319   $ 	-            $ 3,215,746

HOW WAS THE MONEY SPENT?
Contracts                                      $     5,144,541   $ 1,067,122     $     726,537   $ 1,715,261    $     5            $   114,483   $   110,633     $ 	-           $ 	-            $ 1,410,500
Grants                                               1,316,348       623,466         	-               33,945        	-                   2,177       	-            360,319        	-                296,441
Loans and Guarantees                                    63,551    	-                 	-            	-               	-                 	-            	-            	-             	-                 63,551
Non-financial Assistance Direct Payments             5,300,695     1,679,371         1,761,128        50,204        	(2)               281,074       234,560       	-             	-              1,294,360
Other                                                  529,631           649             1,603           944        	(3)                77,320       298,224       	-             	-                150,894
TOTAL AMOUNTS AGREED TO BE SPENT               $    12,354,766   $ 3,370,608     $ 2,489,268     $ 1,800,354    $ 	-               $ 475,054     $     643,417   $    360,319   $ 	-            $ 3,215,746

WHO DID THE MONEY GO TO?
Federal Government                             $     3,587,932   $     599,599   $     193,313   $ 1,341,903    $ 	(4)             $    59,745   $     332,370   $ 	-           $ 	-            $ 1,061,006
Non-federal                                          8,766,834       2,771,009       2,295,955       458,451        4                  415,309         311,047     360,319        	-              2,154,740
TOTAL AMOUNTS AGREED TO BE SPENT               $    12,354,766   $ 3,370,608     $ 2,489,268     $ 1,800,354    $ 	-               $ 475,054     $     643,417   $    360,319   $ 	-            $ 3,215,746




                                                                                                                                                                                           143
                                                                                                                     FY 2013 AGENCY FINANCIAL REPORT
          O T H E R I N F O R M AT I O N ( U N A U D I T E D )




United States Department of Commerce Schedule of Spending by Major Budget Account
For the Year Ended September 30, 2012 (In Thousands)
                                                                                                                                                                                          NTIA
                                                                                                       NOAA          NTIA Digital                    Census                            Broadband
                                                                      NOAA               USPTO      Procurement,      Television       ITA           Bureau                            Technology
                                                                    Operations,          Salaries   Acquisition,    Transition and  Operations      Periodic              EDA         Opportunities
                                                   Combining       Research, and           and          and         Public Safety      and        Censuses and            Grant         Program -        Other
                                                     Total           Facilities         Expenses    Construction         Fund      Administration   Programs              Fund            ARRA         Programs

WHAT MONEY IS AVAILABLE TO SPEND?
Total Resources                                    $ 22,590,496 $ 3,639,588         $ 2,612,628     $ 1,830,285     $ 8,782,695      $ 516,628      $    830,647 $   481,345 $   2,976 $ 3,893,704
Less: Amounts Available but Not Agreed to be Spent  	(1,294,023)  	(176,593)          	(237,873)      	(23,226)      	(19,038)         	(19,888)        	(13,456)  	(178,237)  	-        	(625,712)
Less: Amounts Not Available to be Spent             	(9,058,376)  	(66,554)           	-              	(19,006)      	(8,745,196)      	(9,744)         	(118,568) 	(6,075)    	(2,976)  	(90,257)
TOTAL AMOUNTS AGREED TO BE SPENT               $    12,238,097     $ 3,396,441      $ 2,374,755     $ 1,788,053     $      18,461    $ 486,996      $     698,623   $       297,033   $ 	-            $ 3,177,735

HOW WAS THE MONEY SPENT?
Payroll                                        $      4,735,747    $ 1,556,546      $ 1,598,013     $      50,122   $        322     $ 264,441      $   227,698     $ 	-              $ 	- $ 1,038,605
Rent, Communications, and Utilities                     548,590        212,849          119,925             9,240             41        19,763           19,337       	-                	-          167,435
Travel                                                  138,287          51,217           3,209             2,266             15        18,152            17,436      	-                	-           45,992
Supplies                                                 217,413        117,599          38,406            11,646       	-               2,456             1,361      	-                	-           45,945
Equipment                                               474,568         38,041          105,069           252,151       	-               6,050             9,681      	-                	-           63,576
Land, Buildings, and Structures                          31,059           4,419           2,038               681       	-             	-               	-            	-                	-           23,921
Contracts                                             4,674,706        909,632          362,229         1,358,562       200,826         78,625          143,857       	-                	(44)     1,621,019
Grants                                                3,033,356        731,628       	-                    54,314         17,355         1,662          	-            370,247           1,588,798   269,352
Loans                                                   103,273      	-              	-                 	-              	-             	-               	-            	-                	-          103,273
Other                                                   797,795         20,526          103,373             1,851          1,210        77,588          349,313       	-                	-         243,934
Total Spending                                      14,754,794         3,642,457        2,332,262       1,740,833         219,769        468,737          768,683          370,247      1,588,754       3,623,052
Amounts Remaining to be Spent/(Amounts Spent
   Related to Prior Years’ Resources), Net         	(2,516,697)        	(246,016)          42,493          47,220       	(201,308)        18,259        	(70,060)       	(73,214)      	(1,588,754)    	(445,317)
TOTAL AMOUNTS AGREED TO BE SPENT               $    12,238,097     $ 3,396,441      $ 2,374,755     $ 1,788,053     $      18,461    $ 486,996      $     698,623   $       297,033   $ 	-            $ 3,177,735

WHO DID THE MONEY GO TO?
Federal Government                             $     3,791,625     $     613,745    $     198,850   $ 1,260,248     $          728   $     79,377   $     360,304   $ 	-              $ 	-            $ 1,278,373
Non-federal                                          8,446,472         2,782,696        2,175,905       527,805             17,733        407,619         338,319     297,033           	-              1,899,362
TOTAL AMOUNTS AGREED TO BE SPENT               $    12,238,097     $ 3,396,441      $ 2,374,755     $ 1,788,053     $      18,461    $ 486,996      $     698,623   $       297,033   $ 	-            $ 3,177,735

HOW WAS THE MONEY ISSUED?
Contracts                                      $      5,458,134    $ 1,203,642      $     760,431   $ 1,693,842     $      570       $   116,795    $   131,250     $ 	-              $ 	-            $ 1,551,604
Grants                                                1,187,218        591,328          	-               42,075         16,346             2,556        	-            297,033           	-                237,880
Loans and Guarantees                                     65,497      	-                 	-            	-                	-               	-             	-            	-                	-                 65,497
Non-financial Assistance Direct Payments              4,919,799      1,603,805          1,613,088        52,021            337           287,263        241,915       	-                	-              1,121,370
Other                                                   607,449      	(2,334)               1,236           115          1,208            80,382        325,458       	-                	-                201,384
TOTAL AMOUNTS AGREED TO BE SPENT               $    12,238,097     $ 3,396,441      $ 2,374,755     $ 1,788,053     $      18,461    $ 486,996      $     698,623   $       297,033   $ 	-            $ 3,177,735




             144             FY 2013 AGENCY FINANCIAL REPORT
F   I   N   A   N   C   I   A   L   S   E   C   T   I   O   N




                I ndependent
                   Auditors’
                    R eport
INDEPENDENT AUDITORS’ REPORT




          December 16, 2013

          MEMORANDUM FOR:               The Honorable Penny Pritzker
                                        Secretary of Commerce




          FROM:                         Todd J. Zinser

          SUBJECT:                      FY 2013 Consolidated Financial Statements
                                        Final Report No. OIG-14-007-A

          I am pleased to provide you with the attached audit report, which presents an unmodified
          opinion on the Department of Commerce’s fiscal year 2013 consolidated financial statements.
          KPMG LLP, an independent public accounting firm, performed the audit in accordance with U.S.
          generally accepted government auditing standards and Office of Management and Budget
          Bulletin 14-02, Audit Requirements for Federal Financial Statements.

          In its audit of the Department, KPMG
                determined that the financial statements were fairly presented in all material respects
                 and in conformity with U.S. generally accepted accounting principles;
                identified two significant deficiencies in internal control over financial reporting related
                 to accounting for NOAA’s property and controls over information technology access,
                 configuration management, and segregation of duties;
                reported that potential Antideficiency Act compliance matters at NOAA, the Census
                 Bureau, and the Department are under review; and
                identified no instances in which the Department’s financial management systems did not
                 substantially comply with the requirements of the Federal Financial Management
                 Improvement Act of 1996.

          My office oversaw the audit performance. We reviewed KPMG’s report and related
          documentation and made inquiries of its representatives. Our review disclosed no instances
          where KPMG did not comply, in all material respects, with U.S. generally accepted government
          auditing standards. However, our review, as differentiated from an audit in accordance with
          these standards, was not intended to enable us to express, and we do not express, any opinion
          on the Department’s consolidated financial statements, conclusions about the effectiveness of
          internal control, or conclusions on compliance with laws, regulations, contracts, and grant
          agreements. KPMG is solely responsible for the attached audit report, dated December 16,
          2013, and the conclusions expressed in it.




 146    FY 2013 AGENCY FINANCIAL REPORT
                                                                         INDEPENDENT AUDITORS’ REPORT




In accordance with Department Administrative Order 213-5, please provide an action plan
within 60 calendar days of the date of this memorandum addressing the significant deficiency in
the accounting for NOAA’s property. The plan should outline the actions that NOAA plans to
take to address each recommendation. The significant deficiency related to information
technology controls will be addressed in a separate action plan.

If you wish to discuss the contents of this report, please call me at (202) 482-4661, or Ann C.
Eilers, Principal Assistant Inspector General for Audit and Evaluation, at (202) 482-2754.

We appreciate the cooperation and courtesies the Department extended to both KPMG and
my staff during the audit.

Attachment




                                                                                                  147
                                                            FY 2013 AGENCY FINANCIAL REPORT
INDEPENDENT AUDITORS’ REPORT




                                     KPMG LLP
                                     Suite 12000
                                     1801 K Street, NW
                                     Washington, DC 20006

                                         Independent Auditors’ Report


        Inspector General, U.S. Department of Commerce and
        Secretary, U.S. Department of Commerce:

        Report on the Financial Statements
        We have audited the accompanying consolidated financial statements of the U.S. Department
        of Commerce (Department), which comprise the balance sheets as of September 30, 2013 and
        2012, and the related consolidated statements of net cost, changes in net position, and
        combined statements of budgetary resources for the years then ended, and the related notes to
        the consolidated financial statements.

        Management’s Responsibility for the Financial Statements
        Management is responsible for the preparation and fair presentation of these consolidated
        financial statements in accordance with U.S. generally accepted accounting principles; this
        includes the design, implementation, and maintenance of internal control relevant to the
        preparation and fair presentation of consolidated financial statements that are free from
        material misstatement, whether due to fraud or error.

        Auditors’ Responsibility
        Our responsibility is to express an opinion on these consolidated financial statements based on
        our audits. We conducted our audits in accordance with auditing standards generally accepted
        in the United States of America; the standards applicable to financial audits contained in
        Government Auditing Standards issued by the Comptroller General of the United States; and
        Office of Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for
        Federal Financial Statements. Those standards and OMB Bulletin No. 14-02 require that we
        plan and perform the audit to obtain reasonable assurance about whether the consolidated
        financial statements are free from material misstatement.
        An audit involves performing procedures to obtain audit evidence about the amounts and
        disclosures in the consolidated financial statements. The procedures selected depend on the
        auditors’ judgment, including the assessment of the risks of material misstatement of the
        consolidated financial statements, whether due to fraud or error. In making those risk
        assessments, the auditor considers internal control relevant to the entity’s preparation and fair
        presentation of the consolidated financial statements in order to design audit procedures that
        are appropriate in the circumstances, but not for the purpose of expressing an opinion on the
        effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An
        audit also includes evaluating the appropriateness of accounting policies used and the
        reasonableness of significant accounting estimates made by management, as well as
        evaluating the overall presentation of the consolidated financial statements.



                                     KPMG LLP is a Delaware limited liability partnership,
                                     the U.S. member firm of KPMG International Cooperative
                                     (“KPMG International”), a Swiss entity.




 148    FY 2013 AGENCY FINANCIAL REPORT
                                                                         INDEPENDENT AUDITORS’ REPORT




U.S. Department of Commerce
Independent Auditors’ Report
December 16, 2013
Page 2 of 14


We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.
Opinion on the Financial Statements
In our opinion, the consolidated financial statements referred to above present fairly, in all
material respects, the financial position of the U.S. Department of Commerce as of
September 30, 2013 and 2012, and its net costs, changes in net position, and budgetary
resources for the years then ended, in accordance with U.S. generally accepted accounting
principles.

Emphasis of Matters
As discussed in Note 1.C to the consolidated financial statements, in 2013 the Department
adopted Statement of Federal Financial Accounting Standards No. 43, Funds from Dedicated
Collections: Amending Statement of Federal Financial Accounting Standards No. 27,
Identifying and Reporting Earmarked Funds. The 2012 consolidated financial statements have
been restated for the retrospective application of the new accounting guidance. Our opinion is
not modified with respect to this matter.
As discussed in Note 13 to the consolidated financial statements, in 2013 the Department
adopted Technical Bulletin 2006-1, Recognition and Measurement of Asbestos-related
Cleanup Costs. Our opinion is not modified with respect to this matter.
As discussed in Note 7 to the consolidated financial statements, in 2013 the Department has
elected to change its method of accounting for the completion of satellites. Our opinion is not
modified with respect to this matter.

Other Matters
Required Supplementary Information
U.S. generally accepted accounting principles require that the information in the
Management’s Discussion and Analysis, (including the Financial Management and Analysis
section), Required Supplementary Information, and Required Supplementary Stewardship
Information sections be presented to supplement the basic consolidated financial statements.
Such information, although not a part of the basic consolidated financial statements, is
required by the Federal Accounting Standards Advisory Board who considers it to be an
essential part of financial reporting for placing the basic consolidated financial statements in
an appropriate operational, economic, or historical context. We have applied certain limited
procedures to the required supplementary information in accordance with auditing standards
generally accepted in the United States of America, which consisted of inquiries of
management about the methods of preparing the information and comparing the information




                                                                                                   149
                                                             FY 2013 AGENCY FINANCIAL REPORT
INDEPENDENT AUDITORS’ REPORT




         U.S. Department of Commerce
         Independent Auditors’ Report
         December 16, 2013
         Page 3 of 14


         for consistency with management’s responses to our inquiries, the basic consolidated financial
         statements, and other knowledge we obtained during our audits of the basic consolidated
         financial statements. We do not express an opinion or provide any assurance on the
         information because the limited procedures do not provide us with sufficient evidence to
         express an opinion or provide any assurance.
         Supplementary and Other Information
         Our audits were conducted for the purpose of forming an opinion on the basic consolidated
         financial statements as a whole. The September 30, 2013 consolidating balance sheet on page
         115, the information in the Appendices, the information on pages 18 and 31 through 44, and
         the Other Information section are presented for purposes of additional analysis and is not a
         required part of the basic consolidated financial statements.
         The September 30, 2013 consolidating balance sheet is the responsibility of management and
         was derived from and relates directly to the underlying accounting and other records used to
         prepare the basic consolidated financial statements. The September 30, 2013 consolidating
         balance sheet has been subjected to the auditing procedures applied in the audit of the basic
         consolidated financial statements and certain additional procedures, including comparing and
         reconciling such information directly to the underlying accounting and other records used to
         prepare the basic consolidated financial statements or to the basic consolidated financial
         statements themselves, and other additional procedures in accordance with auditing standards
         generally accepted in the United States of America. In our opinion, the September 30, 2013
         consolidating balance sheet is fairly stated in all material respects in relation to the basic
         consolidated financial statements as a whole.
         The information in the Appendices, the information on pages 18 and 31 through 44, and the
         Other Information has not been subjected to the auditing procedures applied in the audits of
         the basic consolidated financial statements, and accordingly, we do not express an opinion or
         provide any assurance on it.

         Other Reporting Required by Government Auditing Standards
         Internal Control Over Financial Reporting
         In planning and performing our audit of the consolidated financial statements, we considered
         the Department’s internal control over financial reporting (internal control) to determine the
         audit procedures that are appropriate in the circumstances for the purpose of expressing our
         opinion on the consolidated financial statements, but not for the purpose of expressing an
         opinion on the effectiveness of the Department’s internal control. Accordingly, we do not
         express an opinion on the effectiveness of the Department’s internal control. We did not test




 150    FY 2013 AGENCY FINANCIAL REPORT
                                                                         INDEPENDENT AUDITORS’ REPORT




U.S. Department of Commerce
Independent Auditors’ Report
December 16, 2013
Page 4 of 14


all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be
prevented, or detected and corrected on a timely basis. A significant deficiency is a deficiency,
or a combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance.
Our consideration of internal control was for the limited purpose described in the first
paragraph of this section and was not designed to identify all deficiencies in internal control
that might be material weaknesses or significant deficiencies and therefore, material
weaknesses or significant deficiencies may exist that were not identified. Given these
limitations, during our audit we did not identify any deficiencies in internal control that we
consider to be material weaknesses. However, we did identify certain deficiencies in internal
control, described below and in more detail in Exhibit I, that we consider to be significant
deficiencies.

•   Accounting for the National Oceanic and Atmospheric Administration (NOAA)
    property needs improvement. NOAA made improvements in its satellite accounting
    during fiscal year 2013 including the formation of a Satellite Accounting Review Board to
    identify and deliberate on complex accounting issues regarding satellites. Despite those
    improvements, we identified control deficiencies related to accounting for property other
    than satellites, such as unclear policies, timeliness issues, and enforcement issues. In
    addition, we identified areas for improvement related to the consistent application of
    accounting standards for accounting for satellites. Because of these matters, NOAA needs
    to continue making improvements to effectively account for its property, including
    satellites.

•   Information technology (IT) access, configuration management and segregation of
    duties controls need improvement. During fiscal year 2013, while we noted some
    progress towards remediating prior year control deficiencies, we identified control
    deficiencies relating to systems access, configuration management, and segregation of
    duties that require management’s attention. Despite the progress made by the Department,
    the Department needs to make improvements in its general IT controls to fully ensure that
    financial data processed on the Department’s systems has integrity, is securely maintained,
    and is available only to authorized users.




                                                                                                     151
                                                            FY 2013 AGENCY FINANCIAL REPORT
INDEPENDENT AUDITORS’ REPORT




       U.S. Department of Commerce
       Independent Auditors’ Report
       December 16, 2013
       Page 5 of 14


       Compliance and Other Matters
       As part of obtaining reasonable assurance about whether the Department’s consolidated
       financial statements are free from material misstatement, we performed tests of the
       Department’s compliance with certain provisions of laws, regulations, contracts, and grant
       agreements, noncompliance with which could have a direct and material effect on the
       determination of financial statement amounts, and certain provisions of other laws and
       regulations specified in OMB Bulletin No. 14-02. However, providing an opinion on
       compliance with those provisions was not an objective of our audit, and accordingly, we do
       not express such an opinion. The results of our tests disclosed instances of noncompliance or
       other matters that are required to be reported under Government Auditing Standards or OMB
       Bulletin No. 14-02, and which are, described below.

       •   Other Matters: During fiscal year 2013, the Department informed us of potential
           Antideficiency Act compliance matters that are currently being reviewed for the following:
           NOAA - relating to the potential incorrect use of budgetary funding sources to support its
           programs; U.S. Census Bureau - relating to the timing of potential obligations for an
           interagency agreement in advance of receiving appropriations; and the Department level –
           relating to accepting terms of agreement on purchases made through the internet. Because
           these reviews are not complete, the ultimate outcome of these matters is not presently
           known.
       We also performed tests of the Department’s compliance with certain provisions referred to in
       Section 803(a) of the Federal Financial Management Improvement Act of 1996 (FFMIA).
       Providing an opinion on compliance with FFMIA was not an objective of our audit, and
       accordingly, we do not express such an opinion. The results of our tests of FFMIA disclosed
       no instances in which the Department’s financial management systems did not substantially
       comply with the (1) Federal financial management systems requirements, (2) applicable
       Federal accounting standards, and (3) the United States Government Standard General Ledger
       at the transaction level.
       The Department’s Responses to the Findings
       The Department’s responses to the findings identified in our audit are described in Exhibit I.
       The Department’s responses were not subjected to the auditing procedures applied in the audit
       of the consolidated financial statements and, accordingly, we express no opinion on the
       responses.




 152    FY 2013 AGENCY FINANCIAL REPORT
                                                                        INDEPENDENT AUDITORS’ REPORT




U.S. Department of Commerce
Independent Auditors’ Report
December 16, 2013
Page 6 of 14


Purpose of the Other Reporting Required by Government Auditing Standards
The purpose of the communication described in the Other Reporting Required by Government
Auditing Standards section is solely to describe the scope of our testing of internal control and
compliance and the result of that testing, and not to provide an opinion on the effectiveness of
the Department’s internal control or compliance. Accordingly, this communication is not
suitable for any other purpose.



December 16, 2013




                                                                                                    153
                                                            FY 2013 AGENCY FINANCIAL REPORT
INDEPENDENT AUDITORS’ REPORT




        U.S. Department of Commerce
        Independent Auditors’ Report
        December 16, 2013
        Page 7 of 14

        Exhibit I – Significant Deficiencies


        A. Accounting for the National Oceanic and Atmospheric Administration (NOAA)’s
           Property Needs Improvement

        The Department has a substantial investment in general property, plant, and equipment
        (PP&E). The National Oceanic and Atmospheric Administration (NOAA) accounts for 87
        percent of the Department’s net PP&E of $11.1 billion as of September 30, 2013. During
        fiscal year 2013, we noted several matters at NOAA that highlighted the need for continued
        improvement in accounting for property, which are discussed below. Collectively, these
        matters are considered to be a significant deficiency in internal control over financial
        reporting.

        Accounting for Property Other than Satellites. During our fiscal year 2013 audit, we
        identified issues at NOAA relating to (1) lack of clarity of the PP&E policies with regards to
        indirect cost allocation methodologies and describing the source documentation necessary to
        support various construction work in process (CWIP) transactions; (2) lack of clarity of PP&E
        procedures to account for personal property assets that have been permanently removed from
        service but not disposed; (3) failure by NOAA offices to consistently coordinate and resolve
        outstanding PP&E related accounting matters on a timely basis; (4) lack of appropriate
        training regarding accounting for general PP&E; and (5) failure to enforce completion of
        personal property inventories and certification of the Unreconciled Property Report (UPR) at
        certain locations.

        Many of the accounting activities for real and personal property are decentralized at the line
        office level, and the NOAA Office of the Chief Financial Officer (OCFO) is reliant on those
        line offices as well as the NOAA Office of the Chief Administrative Officer (OCAO), which
        is responsible for property management, to provide it with information regarding property
        acquisitions and disposals. NOAA has recognized the difficulties in accounting for its property
        and has implemented certain corrective actions in prior years. However, more improvements
        and additional oversight and training are needed to strengthen controls over the Department’s
        significant property investment.

        Accounting for Satellites. As of September 30, 2013, NOAA reported a balance of
        $6.5 billion in satellite CWIP and a balance of completed satellites and ground systems with a
        net book value of $1.6 billion. Accounting for satellites is highly complex; each satellite
        series/program is accounted for separately; each series/program has several instruments; and
        the construction spans many years, and involves significant contracts and arrangements with
        contractors and other government agencies. During our fiscal year 2013 audit, we identified
        the following issues relating to the accounting for satellites:




 154    FY 2013 AGENCY FINANCIAL REPORT
                                                                        INDEPENDENT AUDITORS’ REPORT




U.S. Department of Commerce
Independent Auditors’ Report
December 16, 2013
Page 8 of 14

Exhibit I – Significant Deficiencies, Continued




•   Application of accounting standards for accounting for satellites needs improvement.
    During fiscal year 2013, NOAA increased the review of accounting matters for satellites.
    Despite such efforts, we noted the following instances of misapplication of generally
    accepted accounting principles.

    o The Suomi–National Polar-Orbiting Partnership (S-NPP), which is a satellite carrying
      certain NOAA weather instruments, serves as a bridge between NOAA’s current polar-
      orbiting operational environmental system of satellites and the planned Joint Polar
      Satellite System (JPSS) satellites. Four of NOAA’s instruments aboard the S-NPP will
      support the National Weather Service (NWS) data collection and research. The
      remaining instrument aboard the S-NPP belongs to the National Aeronautics and Space
      Administration (NASA).

       NOAA generally views satellites as operational when all NOAA’s instruments
       associated with satellites are declared operational; however, in certain cases, effective
       for fiscal year 2013, NOAA will declare certain instruments operational because the
       instruments are not interdependent. On September 24, 2013, the NWS informed the
       NOAA National Environmental Satellite, Data, and Information Service (NESDIS)
       that three weather instruments are operational, and the remaining weather instrument,
       the Ozone Mapping Profiler Suite (OMPS), was expected to be operational by October
       31, 2013 (fiscal year 2014).

       The NOAA Office of the Chief Financial Officer incorrectly reclassified the entire
       balance of $939 million for the four S-NPP instruments from CWIP to completed
       PP&E (specifically for satellites personal property category) effective September 30,
       2013, although only three weather instruments were declared operational. Based on
       discussions with NOAA about this matter, NOAA indicated that it had intentionally
       made the adjustment from CWIP to completed PP&E because NOAA believed it was a
       subsequent event that should be disclosed to the readers of the U.S. Department of
       Commerce consolidated financial statements (that is, NOAA believed it was applying
       the concept of substance over form when NOAA made the adjustment). However, we
       noted that generally accepted accounting principles, with regards to the treatment of
       subsequent events, were not followed because NOAA should not have reclassified the
       $125 million of costs associated with the instrument that was not operational as of
       September 30, 2013.




                                                                                                   155
                                                            FY 2013 AGENCY FINANCIAL REPORT
INDEPENDENT AUDITORS’ REPORT




       U.S. Department of Commerce
       Independent Auditors’ Report
       December 16, 2013
       Page 9 of 14

       Exhibit I – Significant Deficiencies, Continued


               As of result of our observations, NOAA reversed the reclassification of $125 million
               for OMPS to return that amount to CWIP.

            o NOAA capitalized all invoiced costs from NASA for the Joint Polar Satellite System
              (JPSS) program, including line items, such as “Education and Public Outreach.”
              Effective October 1, 2013, NOAA’s policy was changed to capitalize any costs
              reported by NASA that are associated with the JPSS program because 1) NASA is the
              vendor and 2) NOAA indicated that program offices within NESDIS need to be treated
              differently and all costs incurred by NASA, as an agent to NESDIS under the NASA
              Acquisition Management contract, represents direct and indirect costs that can be
              capitalized. However, this practice is inconsistent with generally accepted accounting
              principles regarding the accounting for costs incurred to bring the PP&E to a form and
              location suitable for its intended use. We believe that the NASA invoices should be
              reviewed to determine that only capitalizable costs are recorded to the CWIP account.
              While the impact of this treatment in any particular year may be inconsequential, the
              cumulative effect for a program that has incurred costs of approximately $586 million
              to date and is expected to incur significant costs in the future, could result in
              inappropriately capitalized costs that is more than inconsequential as of a point in time
              if this policy continues and is not monitored.

       •    Review of all supporting documentation over NASA intra-governmental payments
            needs improvement. As part of NOAA’s corrective action plans taken during fiscal year
            2013, NOAA coordinated with NASA to receive documentation supporting each Intra-
            governmental Payment and Collection (IPAC) payment. NOAA continued to work with
            NASA to receive supporting documentation for IPAC payments – particularly, those
            charges from the prime contractors. However, we noted that for 29 of the 31 NASA IPAC
            payments tested, NOAA management was unable to review the supporting documentation
            for all of the charges included in the IPAC payment because NOAA did not receive the
            supporting documentation from NASA. In addition, for NASA IPAC payments related to
            the construction of the Jason-3 and Deep Space Climate Observatory (DSCOVR) satellite
            programs, NOAA was unable to review certain documents because NOAA did not receive
            additional detailed reports/information from NASA. For the 29 IPAC payments tested,
            $182.6 million of non-prime contractor costs were not reviewed prior to our inquiry. We
            estimated that an additional $54 million may not have been reviewed at a sufficient level
            of detail for the non-prime contractor costs.

            NOAA management indicated that for non-prime contract costs in which NOAA does not
            receive detailed charge reports/information, they rely on NASA’s review and authorization




 156       FY 2013 AGENCY FINANCIAL REPORT
                                                                        INDEPENDENT AUDITORS’ REPORT




U.S. Department of Commerce
Independent Auditors’ Report
December 16, 2013
Page 10 of 14

Exhibit I – Significant Deficiencies, Continued


    of these charges. However, NASA does not evaluate the accounting treatment for NOAA
    for such costs, including whether these costs should be capitalized or expensed.

    In light of the magnitude of the costs associated with satellites, the review of IPAC
    payments associated with the satellite program is important for proper recording of project
    costs as either CWIP or expense. NASA IPAC payments typically include some cost that
    should be recorded as an expense.

Recommendations
We recommend that NOAA:
Relating to Accounting for Property Other than Satellites:
•   Continue to perform and complete a comprehensive review of all property accounting
    policies, to ensure clarity of procedures and compliance with generally accepted
    accounting principles.
•   Ensure greater coordination between the OCFO and OCAO regarding oversight of the line
    offices to resolve open issues and clarify policies and procedures.
•   Continue training on property policies and procedures for appropriate personnel.
•   Notify and hold accountable the line offices when the UPR and personal property
    inventory certifications are not received or not completed properly to ensure compliance
    with NOAA’s policies and procedures.
•   Perform periodic reviews of impairment adjustments to determine whether the amounts
    recorded are accurate.
Relating to Accounting for Satellites:
•   Implement training for personnel, as applicable, regarding researching generally accepted
    accounting principles for proper treatment of non-routine events.
•   Revise the CWIP policies to specify which satellite program costs should be capitalized
    and to incorporate a written framework for determining whether to capitalize satellites
    costs based on the operational date for each instrument or as a single unit to ensure
    consistency in application.
•   Strengthen the review process over contracts, purchase orders, invoices, and IPAC bills, as
    they pertain to their satellite programs, to determine which costs are incurred to bring the
    PP&E to a form and location suitable for its intended use, and which costs are incurred for
    operation, maintenance, and sustainment of a PP&E asset that has already been placed into
    service.




                                                                                                   157
                                                             FY 2013 AGENCY FINANCIAL REPORT
INDEPENDENT AUDITORS’ REPORT




       U.S. Department of Commerce
       Independent Auditors’ Report
       December 16, 2013
       Page 11 of 14

       Exhibit I – Significant Deficiencies, Continued


       •    Continue to work with NASA to obtain cost data and supporting documentation to support
            IPAC charges.
       •    Assess the potential accounting treatment of charges for cost date that cannot be obtained,
            to determine which costs should be capitalized or expensed or work with NASA to make
            such assessments.

       Management’s Response
       The Department concurs. We will develop corrective action plans and ensure timely
       implementation to address KPMG’s recommendations.




 158       FY 2013 AGENCY FINANCIAL REPORT
                                                                         INDEPENDENT AUDITORS’ REPORT




U.S. Department of Commerce
Independent Auditors’ Report
December 16, 2013
Page 12 of 14

Exhibit I – Significant Deficiencies, Continued


B. Information Technology Access, Configuration Management and Segregation of
   Duties Controls Need Improvement

Information security is recognized as a top management challenge for the Department. For
several years, the Department’s Office of Inspector General, and departmental self-
assessments have identified weaknesses in the Department’s general information technology
(IT) controls. While we observed improvements in the Department’s general IT controls
related to financial systems, we identified new and repeat deficiencies during fiscal year 2013
that require management’s attention.

The general IT controls that we consider to be, collectively, a significant deficiency under
standards issued by the American Institute of Certified Public Accountants and Government
Auditing Standards, and our related findings, are as follows:

   •   Access controls. In close concert with an organization’s entity-wide information
       security program, access controls for general support systems and applications should
       provide reasonable assurance that computer resources such as data files, application
       programs, and computer-related facilities and equipment are protected against
       unauthorized modification, disclosure, or loss. Access controls are facilitated by an
       organization’s entity-wide security program. Such controls include physical controls,
       such as keeping computers in locked rooms to limit physical access, and logical
       controls, such as security software programs designed to prevent or detect
       unauthorized access to data. Similar to security management, inadequate access
       controls diminish the reliability and integrity of computerized data and increase the
       risk of destruction or inappropriate disclosure of information.

       The objectives of limiting access are to ensure that users have only the access needed
       to perform their duties; that access to sensitive resources, such as security software
       programs, is limited to few individuals; and that employees are restricted from
       performing incompatible functions or duties beyond their responsibility. This is
       reiterated by Federal guidelines. For example, the OMB Circular A-130 and
       supporting National Institute of Standards and Technology publications provide
       guidance related to the maintenance of technical access controls. In addition, the
       Department’s IT Security Program Policy contains requirements for operating
       Department IT devices in a secure manner.

       We noted that access controls should be improved at four bureaus/centers, primarily in
       the areas of: (1) managing user accounts to appropriately disable and recertify network,




                                                                                                  159
                                                             FY 2013 AGENCY FINANCIAL REPORT
INDEPENDENT AUDITORS’ REPORT




       U.S. Department of Commerce
       Independent Auditors’ Report
       December 16, 2013
       Page 13 of 14

       Exhibit I – Significant Deficiencies, Continued


              financial system, database and operating system accounts, (2) improving logical
              controls over financial application and database access, (3) strengthening password
              controls, (4) improving data center recertification procedures, (5) ensuring compliance
              with audit log review requirements, (6) enforcing multi-factor authentication, (7)
              preventing the use of shared database accounts and passwords, and (8) improving
              incident response reporting. We recognize that the Department and its bureaus have
              certain compensating controls in place to help reduce the risk of the identified
              weaknesses, and we considered those compensating controls as part of our overall
              consolidated financial statement audit.

          •   Configuration management. Configuration management involves the identification
              and management of security features for all hardware, software, and firmware
              components of an information system at a given point and systematically controls
              configuration changes throughout the system’s life cycle. Configuration settings and
              the related configuration management is a key component of many IT systems to
              ensure that hardware, software and firmware programs, and program modifications are
              properly authorized, tested, and approved, and that access to and distribution of
              programs is carefully controlled. Configuration settings may affect the design,
              implementation and/or operating effectiveness of application controls and may be
              subject to change control procedures to maintain the integrity of the application
              controls. Without proper controls, there is a risk that security features could be
              inadvertently or deliberately omitted or turned off, or that processing irregularities or
              malicious code could be introduced into the IT environment.

              We noted that configuration management controls should be improved at four
              bureaus/centers, primarily in the areas of: (1) restricting access of a certain code to
              authorized individuals, (2) monitoring the unauthorized modification of that code,
              (3) addressing patch and configuration management vulnerabilities, (4) ensuring
              vulnerability scans are performed in accordance with Department policy, and
              (5) system baseline configurations are documented. We recognize that the Department
              and its bureaus have certain compensating controls in place to help reduce the risk of
              the identified weaknesses, and we considered those compensating controls as part of
              our overall consolidated financial statement audit.

          •   Segregation of Duties. A subset of internal control objectives is the safeguarding of
              assets, which includes controls over segregation of duties to minimize opportunities for
              individuals to be in a position to both perpetrate and conceal errors or fraud in the
              normal course of operations. Responsibilities for authorizing transactions, recording




 160    FY 2013 AGENCY FINANCIAL REPORT
                                                                           INDEPENDENT AUDITORS’ REPORT




U.S. Department of Commerce
Independent Auditors’ Report
December 16, 2013
Page 14 of 14

Exhibit I – Significant Deficiencies, Continued


       transactions, and maintaining custody of assets should be assigned to different
       individuals. Key areas of concern from an IT perspective involve duties among major
       operating and programming activities, including duties performed by users, application
       programmers, and data center staff. Policies outlining individual responsibilities
       should be documented, communicated, and enforced. Proper segregation of duties
       requires effective supervision and review by management, as well as formal operating
       procedures.

       We noted that segregation of duties controls should be improved at three
       bureaus/centers, primarily in the areas of: (1) appropriately segregating duties within
       the production environments, (2) monitoring and controlling database activity, and
       (3) restricting the ability to process financial transactions to appropriate personnel. We
       recognize that the Department and its bureaus identified certain compensating controls
       in place to help reduce the risk of the identified weaknesses, and we considered those
       compensating controls as part of our overall consolidated financial statement audit.

Recommendations

We provided the Department specific recommendations to improve its general IT control
related to financial systems in a separate limited distribution general IT controls report, issued
as part of the fiscal year 2013 consolidated financial statement audit. The Department should
monitor bureau actions to ensure effective implementation of our recommendations and to
ensure continued compliance with the Federal Financial Management Improvement Act of
1996.

Management’s Response
The Department concurs. We will develop corrective action plans and ensure timely
implementation of the recommendations presented in the separate limited distribution IT
general controls report.




                                                                                                     161
                                                              FY 2013 AGENCY FINANCIAL REPORT
INDEPENDENT AUDITORS’ REPORT




 162    FY 2013 AGENCY FINANCIAL REPORT
A ppendices
164   FY 2013 AGENCY FINANCIAL REPORT
                          A P P E N D I X A : F Y 2 0 1 3 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




    F Y 2 0 1 3 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N



                 Top Management Challenges Facing the Department

The Reports Consolidation Act of 2000 requires inspectors general to identify the top
management challenges facing their departments. In November 2012, the Department of
Commerce OIG identified five challenges that require significant departmental attention in FY
2013 and beyond.

Challenge 1: Stimulate economic growth in key Industries, increase exports, and
enhance stewardship of marine fisheries.

OIG Statement

The Department engaged in multiple government-wide initiatives to implement the President's
priorities. Successful implementation of these initiatives could have a profound impact on the
nation’s economy; however, it required focused attention by senior management, close
coordination with the private sector and other federal agencies, and sustained congressional
support.

Bureau Responses

NIST has improved its support for advanced manufacturing through a portfolio of programs
that spans the spectrum from cutting-edge research to services provided directly to
manufacturers. The Hollings Manufacturing Extension Partnership (MEP) is supporting
practices that increase competitiveness. The Baldrige Performance Excellence Program
promotes excellence in organizational performance. The Advanced Manufacturing National
Program Office (AMNPO) will strengthen strategic coordination among Federal agencies. The
Advanced Manufacturing Technology Consortia (AMTech) program will provide funding to
tackle long-term R&D challenges shared by industry.

USPTO continues to make significant progress in reducing the patent backlog. The agency has
decreased the patent backlog to approximately 591,000 by the end of July 2013, a 20 percent
reduction from FY2010. USPTO successfully implemented the Leahy-Smith America Invents
Act, and extensively trained examiners about the new regulations. By the end of FY2013, the
USPTO will increase the number of Administrative Patent Judges (APJs) by 15 percent.

ITA’s key functions efficiently support U.S. businesses and their workers, while advancing the
President’s goals set forth in the National Export Initiative (NEI). To support the NEI, ITA's
U.S. and Foreign Commercial Service (US&FCS) unit began repositioning resources to high-
priority markets and continued to make progress toward the President’s goal of doubling
exports by the end of 2014. The Import Administration (IA) unit takes prompt and aggressive
action against unfair foreign trade practices and foreign trade barriers by enforcing U.S. trade
laws and trade agreements.



                                                    1

                                                                                                                        165
                                                                   FY 2013 AGENCY FINANCIAL REPORT
A P P E N D I X A : F Y 2 0 1 3 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




            NOAA continues to make progress fulfilling the actions addressing the recommendations
            contained in the Office of the Inspector General’s January 2013 Report, “NOAA Needs to
            Continue Streamlining the Rulemaking Process and Improve Transparency and Consistency in
            Fisheries Management,” including reviewing and revising policy guidance on financial
            disclosures; providing annual briefings to Fisheries Management Council (FMC) members on
            financial interest and conflict of interest; reviewing and revising guidance to clarify criteria and
            requirements for review of financial disclosure submissions; reviewing and revising guidance
            for identifying and addressing conflicts of interest; reviewing experiences with the operational
            guidelines and develop new guidelines; developing regional operating agreements between
            each Region and FMC; conducting training on NOAA Guidelines for Compiling an Agency
            Administrative Record; and communicating records policy and procedures to NMFS
            employees, FMC members, and Council staff.

            Challenge 2: Increase oversight of resources entrusted by the public and invest for
            long-term benefits.

            OIG Statement

            In an era of constrained budgets, there was a greater risk that management would take
            shortcuts, loosen internal controls, and deemphasize oversight in order to devote resources
            to other requirements. Concerns over conference spending and unauthorized reprogramming
            of funds highlighted the need for more effective oversight. Also, several planned modernization
            efforts, including redesign of the 2020 decennial census, provided significant long-term benefits
            but required increased management attention.

            Bureau Responses

            The Department has completed many key actions to address the concerns specifically related
            to the National Weather Service (NWS) Reprogramming. Reviews of Summary Level Transfer
            (SLT) use within the Department, review of bureau budget allocation methods, review of the
            Department’s budget formulation processes including financial managers’ ability to raise
            concerns about budget issues, development of training on core appropriations law concepts,
            and a review of the reporting structure of all bureaus to ensure that unit level CFO’s and
            finance staff are adequately supervised. NOAA has focused a tremendous amount of resources
            across every Line and Staff Office to ensure the corrective actions prescribed in the decision
            memorandums for the Deputy Secretary of Commerce and the NOAA Administrator are
            implemented timely and effectively. The effort was further amplified based on specific findings
            from the Consolidated Annual Financial Audit for NOAA’s budget execution processes. While
            this significant workload has stretched the limits of NOAA’s financial community, it has not
            been at the expense of management or staff attention to critical mission priorities.
            Simultaneous to implementing significant new internal control activities up, down and across
            the enterprise, NOAA senior leadership and senior financial managers have been guiding the


                                                                      2


 166         FY 2013 AGENCY FINANCIAL REPORT
                        A P P E N D I X A : F Y 2 0 1 3 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




agency through significant budgetary uncertainty with notable mission accomplishments. For
example, the National Weather Service upgraded its supercomputers so they are now more
than twice as fast in processing sophisticated computer models to provide more accurate
forecasts further out in time.

DOC in concurrence with OMB, engaged with the Department of Transportation Enterprise
Services Center (DOTESC) to adopt their shared service solution for core financials,
acquisition, and property systems (personal, real and fleet) including an all-encompassing data
warehouse. Under the Federal Shared Service Provider (FSSP) solution, DOC will adopt the
FSSP’s existing business and administrative application standard processes.

The Census Bureau is implementing new planning, budgeting, research, and testing processes
for the 2020 Census. These efforts support innovations under development that will hold the
cost of the 2020 Census to 2010 levels while producing high quality data. The robust program
management and systems engineering and integration infrastructure will provide the
foundation for an effectively managed program. The American Community Survey (ACS)
efforts continue to further the research goals of the 2020 Program.

Challenge 3: Strengthen security and investments in information technology.

OIG Statement

Cyber attacks on bureau systems confirmed the urgent need to fix the Department's
persistent security weaknesses. We supported senior management's actions to strengthen the
departmental Chief Information Officer's governance, and continue to assess their
effectiveness.

Bureau Responses

The Office of the Chief Information Officer (OCIO) has the following strategic initiatives: (1)
IT Security Policy; (2) Department-Level Audit Management; (3) Work Force Improvements;
(4) Enterprise Security and Incident Response. In June 2012, the Acting Secretary issued the
“Department IT Portfolio Management Strategy,” This new IT Portfolio Management strategy is
an important step. The Department’s IT review board, led by the CIO and Chief Financial
Officer (CFO), reviews major IT investments for status updates and requests for additional
spending authority and conducts TechStat reviews, which focus on putting troubled
investments back on track.




                                                    3
                                                                                                                      167
                                                                 FY 2013 AGENCY FINANCIAL REPORT
A P P E N D I X A : F Y 2 0 1 3 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




             Challenge 4: Implement framework for acquisition project management and
             improve contracts oversight.

             OIG Statement

             The Department issued an Acquisition Project Management Framework/Guidebook in
             response to a special study mandated by former Secretary Locke. The guidance provided
             more-comprehensive coverage of acquisition life-cycle activities and, if implemented
             consistently, should help mitigate risks of cost overruns and schedule delays. Incorporating the
             new framework into the Department's acquisition policy and exercising relentless
             departmental oversight was and still is critical to the implementation's success.

             Bureau Responses

             The Office of Acquisition Management (OAM) successfully completed Department-wide policy
             for acquisition project management with the Deputy Secretary’s signing of the Policy on
             Commerce Acquisition Project Management. The Department’s Business Applications
             Solutions (BAS) project will consolidate the major IT business systems to integrate legacy and
             off-the-shelf systems for finance and accounting, contracting writing and procurement
             management (also termed acquisition), grants management, and associated data warehousing.

             The Department has ensured that all Project/Project Managers, Contracting Officers and
             Contracting Officer Representatives have the requisite education, training, and experience for
             Federal Acquisition Certification (FAC). Employees throughout the Department completed
             several training courses such as: Appropriations Law Training, Contracting Officer's
             Representative Course, Using the Department of Commerce Purchase Card.

             The Department has created the Suspension and Debarment Coordinator function and
             implemented a case referral process to ensure that processes and procedures are followed in
             a timely manner.

             Challenge 5: Reduce risks of cost overruns, schedule delays, and coverage gaps for
             NOAA’s satellite programs.

             OIG Statement

             Satellite programs remained the largest investment in the Department, comprising nearly 20
             percent of the Commerce budget. Preventing significant cost overruns and minimizing the
             impact of potential satellite coverage gaps continued to require top-level management
             attention.




                                                                       4
 168         FY 2013 AGENCY FINANCIAL REPORT
                        A P P E N D I X A : F Y 2 0 1 3 M A N A G E M E N T C H A L L E N G E S A N D A C T I O N S TA K E N




Bureau Responses

NOAA and the National Environmental Satellite, Data, and Information Service (NESDIS) take
seriously the responsibility to provide strong program management and close oversight over
the development and acquisition of the next-generation of weather satellites. The Joint Polar
Satellite System (JPSS) Program hosts several regular meetings to ensure that stakeholders are
up to date on the status of the program and aware of any changes to JPSS capabilities or
timelines. Several activities are now being conducted to ensure communication with the
stakeholders: the Low-Earth Orbiting Requirements Working Group (LORWG); the JPSS
Coordination Group; and the Environmental Satellite Users Group (ESUG). JPSS reports
quarterly at a summary level to DOC, OMB, and Congress to provide overall progress,
performance, issues and risks.

In response to Independent Review Team recommendations, a NOAA/NASA senior
management team developed joint-agency recommendation resulting in two changes: The
NOAA JPSS Director has responsibility and authority to direct all elements of the JPSS
program and will work directly with NASA’s Joint Agency Satellite Division to direct
coordination of the efforts between NOAA and NASA. The Systems Engineering team is an
integrated NOAA-NASA team under a single JPSS Program Chief Systems Engineer.

Changes are documented in the memorandum from NOAA DUS-O and NASA AA, dated
October 22, 2012, directing immediate changes. The updated JPSS Management Control Plan
(MCP), signed in July 2013, codifies these changes. As of August 2013, all NESDIS leadership
positions have been filled with permanent civil servants, and the JPSS Director has been in
place for almost 2 years. JPSS has also filled two key leadership positions with permanent staff,
a Technical Director and a Chief Systems Engineer.

NOAA’s plan to mitigate the effects of a possible gap includes a number of aspects. To
support this planning, NOAA enlisted Riverside Technology to provide objective, independent,
and detailed analyses of alternatives to mitigate the degradation of National Weather Service
(NWS) products and services in the event of a gap in afternoon polar-orbiting satellite data.

The GOES-R Series Program has and will continue to develop and present trade-off
approaches to mitigate launch delays as a program management practice. It is difficult at this
stage of development to generate a comprehensive set of trade-off approaches that don’t
affect the launch schedule. The GOES-R Series Program has passed the point at which
substantial budget reductions can be accommodated without impacting schedule, or major
schedule changes can be made without impacting the budget.




                                                    5
                                                                                                                      169
                                                                 FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




                        F Y 2 01 4 M A N AG E M E N T C H A L L E N G E S




 170    FY 2013 AGENCY FINANCIAL REPORT
                                                APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




    • Strengthen Oversight of National Oceanic and Atmospheric
      Administration (NOAA) Programs to Mitigate Potential Satellite Coverage
      Gaps, Address Control Weaknesses in Accounting for Satellites, and
      Enhance Fisheries Management. Environmental satellites are essential to
      providing weather forecasting data used to track severe storms and predict
      climate. However, cost overruns and schedule slippage may delay the
      replacement of two of NOAA’s most vital satellite systems—which, at more
      than 20 percent of the Department’s 2014 budget request, are its largest
      investments. Separately, during FY 2012, an independent accounting firm
      noted several control weaknesses in NOAA’s accounting for satellites,
      which must be addressed to ensure integrity, accountability, and
      transparency. In addition, NOAA must respond to challenges to its fisheries
      oversight. Commercial and recreational fishing have a value of more than $5
      billion and support more than 1 million jobs. However, NOAA must balance
      the interests of the fishing community with conservation concerns.

    • Continue Enhancing Cybersecurity and Management of Information
      Technology Investments. Our review of events surrounding the Economic
      Development Administration’s (EDA’s) cyber incident, which stemmed
      from a perceived December 2011 massive malware infection, found that
      critical incident response decisions were based on inaccurate information—
      and that deficiencies in the Department’s incident response program
      impeded EDA’s incident response. The Department has several enterprise
      cybersecurity initiatives underway to address mandates from the Office of
      Management and Budget (OMB). Timely implementation of these initiatives
      is crucial to the Department’s cybersecurity program. While OMB increased
      the authority of federal CIOs to manage major IT investments, 1 the
      Department CIO’s responsibility to oversee certain satellite IT investments
      has been diminished. Overall, cost growth and schedule delays of the
      Department’s investment activity exceed the federal government average.
      More than one-fifth of the Department’s high-risk IT investments are 30
      percent or more behind schedule.

    • Exercise Strong Project Management Controls Over 2020 Census
      Planning to Contain Costs. By mid-decade, the Census Bureau must
      analyze 2020 decennial design alternatives and make timely design decisions
      based on the results of its research and testing phase. After conducting
1
  See OMB, December 9, 2010. 25 Point Implementation Plan to Reform Federal Information
Technology Management. Washington, DC: OMB, 28. See also OMB, August 8, 2011. Chief
Information Officer Authorities, M-11-29. Washington, DC: OMB.


                                            2




                                                                                          171
                                                       FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




                    several reviews of the Bureau’s approach and progress toward the planning
                    and development of the 2020 decennial design, we noted significant
                    schedule slippage in key research and testing programs. If continued, missed
                    deadlines might result in a design similar to last decade’s design, which
                    included a massive, costly end-of-decade field operation. In addition, the
                    Bureau must resolve human capital issues related to maintaining a workforce
                    with requisite skills and capabilities. Further, it must complete timely
                    research for making evidence-based design decisions, as well as implement a
                    stable, agile field-testing strategy.

                 • Continue to Foster a Culture of Management Accountability to Ensure
                   Responsible Spending. As the government experiences an extended period
                   of tightened budgets, it is imperative to foster a culture of management
                   accountability. OIG operates a complaint hotline for employees and the
                   public to submit information about alleged wrongdoing, misconduct, or
                   mismanagement. OIG’s determination to audit, investigate, or provide the
                   complaint information to Departmental or bureau management for
                   appropriate action helps to instill a culture of ethical conduct and ensure that
                   spending is appropriate, complies with laws and regulations, and promotes
                   investments with long-term benefits. The Department must continue to
                   adequately address complaints of mismanagement of federal resources. In
                   addition, the lack of centralized financial reporting capability impedes the
                   Department’s ability to oversee and manage Department-wide financial
                   activities. While the Department has developed plans to replace legacy
                   systems, significant financial reporting challenges remain. Other priorities
                   include stricter oversight of the Department’s annual acquisition of
                   approximately $2.4 billion in goods and services and the need for
                   appropriately qualified staff to oversee these acquisitions. Finally, an
                   additional challenge is to strengthen bureaus’ oversight of Departmental
                   programs that award grants or cooperative agreements due to the potential
                   for misuse of federal funds by award recipients and to maintain
                   professionally certified grant managers.

           We remain committed to keeping the Department’s decision-makers informed of
           problems identified through our audits and investigations, so that timely corrective
           actions can be taken. A copy of this report and the Department’s response to it
           (which appears as an appendix) will be included in the Department’s Performance
           and Accountability Report, as required by law. 2

           2
               31 U.S.C. § 3516(d).


                                                        3




 172    FY 2013 AGENCY FINANCIAL REPORT
                                            APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




We appreciate the cooperation received from the Department, and we look forward
to working with you and the Secretarial Officers in the coming months. If you have
any questions concerning this report, please contact me at (202) 482-4661.
cc: Patrick D. Gallagher, Acting Deputy Secretary of Commerce
    Justin Antonipillai, Acting General Counsel
    Simon Szykman, Chief Information Officer
    Ellen Herbst, Chief Financial Officer and Assistant Secretary
      for Administration
    Bruce Andrews, Chief of Staff to the Secretary
    Operating Unit Heads
    Operating Unit Audit Liaisons




                                        4




                                                                                     173
                                                   FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




            
               U.S. DEPARTMENT OF COMMERCE                                                                                                     OFFICE OF INSPECTOR GENERAL


           Contents
           Challenge 1: Strengthen Commerce Infrastructure to Support the Nation’s
           Economic Growth ......................................................................................................................... 1
               Promoting U.S. Exports While Protecting National Security Interests ........................................................... 1
               Enhancing Economic Growth Through Intellectual Property and Wireless Initiatives ................................ 4
           Challenge 2: Strengthen Oversight of National Oceanic and Atmospheric Administration
           (NOAA) Programs to Mitigate Potential Satellite Coverage Gaps, Address Control
           Weaknesses in Accounting for Satellites, and Enhance Fisheries Management .................... 7
               Enhancing Weather Satellite Development and Mitigating Coverage Gaps ................................................... 8
               Addressing Material Weakness over Satellite Accounting ................................................................................ 11
               Enhancing Fisheries Management ............................................................................................................................ 12
           Challenge 3: Continue Enhancing Cybersecurity and Management of Information
           Technology Investments ............................................................................................................ 15
               Establishing a Robust Capability to Respond to Cyber Incidents .................................................................... 16
               Continuing Sustainable Implementation of Enterprise Cybersecurity Initiatives ......................................... 17
               Preserving the CIO’s Oversight Responsibility of Satellite-Related IT Investments ................................... 19
               Continuing Vigilant Oversight of IT Investments ................................................................................................ 20
               Maintaining Momentum in Consolidating Commodity IT to Cut Costs........................................................ 21
           Challenge 4: Exercise Strong Project Management Controls over 2020 Census Planning
           to Contain Costs ......................................................................................................................... 23
               Ensuring Timely Design Decision Making .............................................................................................................. 24
               Focusing on Human Capital Management, Timely Research, and Testing Implementation ...................... 25
           Challenge 5: Continue to Foster a Culture of Management Accountability to Ensure
           Responsible Spending ................................................................................................................. 30
               Responding to Concerns of Mismanagement and Ethical Violations .............................................................. 31
               Implementing Stricter Controls over Funds ......................................................................................................... 33
               Modernizing the Enterprise Financial Management System to Strengthen Financial Oversight ............... 34
               Strengthening Controls over High-Risk Contract Actions and Developing the Acquisition
               Workforce .................................................................................................................................................................... 35
               Addressing Grant Management Issues ................................................................................................................... 37
           Acronym List ............................................................................................................................... 40
           Appendix A: Related OIG Publications ..................................................................................... 42
           Appendix B: Comparison Between FY 2013 and FY 2014 Challenges .................................. 44




 174    FY 2013 AGENCY FINANCIAL REPORT
                                                               APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


Challenge 1:
Strengthen Commerce Infrastructure to Support the Nation’s Economic Growth

As reflected in the President’s FY 2014 proposed budget, the Department is a key player in the
federal government’s efforts to stimulate economic growth and job creation. Several bureaus,
which hold pivotal roles in providing the infrastructure for economic growth, face a variety of
challenges.

The International Trade Administration (ITA)—along with 15 other federal government
departments and agencies, as well as the nation—is not on track to meet the National Export
Initiative’s goal of doubling U.S. export levels within 5 years, while the Bureau of Industry and
Security (BIS) is planning for the increased licensing and enforcement workload resulting from
the Export Control Reform Initiative. The U.S. Patent and Trademark Office (USPTO), in its
mission to foster innovation through high-quality patent and trademark examination, must
implement several remaining provisions of the 2011 America Invents Act and faces several
difficulties in reducing backlogs associated with initial patent applications, requests for continued
examination, and appeals. Due to the increase in spectrum demand and the limitations of
available spectrum capacity, the National Telecommunications and Information Administration
(NTIA) must increase spectrum access for commercial wireless broadband use—via sharing
between federal and commercial users or sale of spectrum for commercial use—while
protecting federal missions and overseeing development of a broadband network for public
safety. In addition to these major initiatives, the Department’s National Institute of Standards
and Technology (NIST) will face the challenge of implementing the National Network for
Manufacturing Innovation,1 if Congress authorizes this program to innovate and expand
advanced manufacturing technologies and processes to bring manufacturing jobs back to the
United States.

We have identified two key areas for management attention:
•      Promoting U.S. exports while protecting national security interests
•      Enhancing economic growth through intellectual property and wireless initiatives

Promoting U.S. Exports While Protecting National Security Interests

Promotion and regulation of U.S. exports are two critical missions of the Department. For FY
2014, the Department has requested $632 million to support agencies that provide export
promotion and regulation. ITA’s U.S. and Foreign Commercial Service provides a broad range
of services and counseling to U.S. exporters while other ITA business units—such as Market
Access and Compliance, Import Administration, and Manufacturing and Services—enforce trade
agreements and protect domestic industries such as manufacturing and textiles. BIS provides
export licensing and enforcement programs to ensure that trade in dual-use exports2 is
                                                            
1
  This $1 billion Presidential proposal brings together industry, colleges and universities, and all levels of
government to support small- and medium-sized enterprises and start-ups in advanced manufacturing, workforce
development, and the transfer of promising new processes and technologies to the marketplace.
2
  Dual-use refers to exports that have both civilian and military applications.


FINAL REPORT NO. OIG-14-002                                                                                      1




                                                                                                                     175
                                                                     FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                                                                                          OFFICE OF INSPECTOR GENERAL

            consistent with national security interests. In FY 2014, ITA and BIS will undertake major
            activities that have potential long-term impact on the U.S. economy.

            Implementing the National Export Initiative Under a New Organizational Structure

            ITA plays a leading role as one of 16 executive departments and federal agencies that support
            the National Export Initiative (NEI), which was formalized by executive order in March 2010.
            The NEI aims to double 2009 U.S. export levels by the end of 2014—from $1.57 trillion to
            $3.14 trillion3—and, in turn, help grow the nation’s $16.6 trillion economy.4 In 2012, the value
            of U.S. exports grew to a high of $2.2 trillion, representing 13.9 percent of gross domestic
            product. In the second quarter of 2013, U.S. exports equaled $564 billion, a quarterly record
            (see figure 1). However, as shown in figure 1, actual export growth has recently fallen below
            the expected rate of export growth needed to double U.S. exports by the end of 2014. This
            will require ITA, along with other federal agencies, to intensify their efforts to promote U.S.
            exports to meet the NEI’s goal.

                          Figure 1. Export Growth—Expected Versus Actual (in Current Dollars)
                                                                               3.5
                                                                                                                                                     3.17
                                      Value of U.S. Exports (in trillions $)




                                                                               3.0                                                       2.76
                                                                                                                           2.40
                                                                               2.5                           2.08
                                                                                               1.81
                                                                               2.0                                                2.21
                                                                                                                    2.11
                                                                               1.5                    1.84
                                                                                       1.57
                                                                               1.0
                                                                               0.5
                                                                               0.0
                                                                                      2009        2010          2011          2012          2013        2014
                                                                                                                       Year

                                                                                     Expected Value of U.S. Exports               Actual Value of U.S. Exports

                                  Source: OIG analysis of Census Bureau export data

            To support many of its priorities,5 the NEI called for enhanced collaboration among federal
            trade agencies and strategic partnerships with state, local, and other trade organizations. In our
                                                                        
            3
              See Export Promotion Cabinet, September 2010. Report to the President on the National Export Initiative: The Export
            Promotion Cabinet’s Plan for Doubling Exports in Five Years. Washington, DC: Trade Promotion Coordinating
            Committee, 1.
            4
              DOC Bureau of Economic Analysis. National Income and Product Accounts Tables: Table 1.1.5 Gross Domestic Product
            [Online]. http://www.bea.gov/iTable/iTable.cfm?ReqID=9&step=1#reqid=9&step=1&isuri=1 (revised July 31, 2013).
            Dollar amounts in this section are in current dollars.
            5
              The eight NEI priorities are (1) exports by small and medium-sized enterprises, (2) federal export assistance, (3)
            trade missions, (4) commercial advocacy, (5) increasing export credit, (6) macroeconomic rebalancing, (7) reducing
            barriers to trade, and (8) export promotion of services.


            FINAL REPORT NO. OIG-14-002                                                                                                                                  2




 176    FY 2013 AGENCY FINANCIAL REPORT
                                                               APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                            OFFICE OF INSPECTOR GENERAL

2012 review of the U.S. Export Assistance Centers we noted that, while protections of client
data inhibited information sharing and guidance on collaboration was limited, fostering
partnerships with other federal agencies such as the Small Business Administration and the
Export–Import Bank can enhance service to exporters.6 In FY 2014, ITA will be challenged to
improve and build on the coordination and partnership efforts developed to date.

ITA’s challenge is to sustain the momentum to increase exports to try to meet the goal of the
NEI—and it must do so while, at the same time, managing an internal reorganization. Effective
October 1, 2013, the Department consolidated ITA’s four existing business units into three to
eliminate overlapping functions and streamline operations. ITA states that the functional
realignment will consolidate regional expertise, strengthen industry expertise and strategic
partnerships, and consolidate trade agreement compliance and trade law enforcement.

Addressing Export Control Reform Changes Through Enhanced Licensing and Enforcement Activities

The task of administering and enforcing dual-use export controls falls on the Bureau of
Industry and Security. In FY 2012, BIS processed more than 23,000 license applications for
exports valued at more than $200 billion.7 Future trade in controlled dual-use exports is
expected to increase significantly as a result of the current Export Control Reform Initiative.
Launched by the Administration in 2010, the initiative aims to streamline the country’s export
control system and facilitate U.S. export of high-tech goods while protecting U.S. national
security interests. In the initiative’s first phase, BIS worked with federal partners to reconcile
and revise export control policies and regulations. Currently, the bureau is also collaborating
with its federal partners to revise the lists of controlled dual-use items (Commerce Control
List) and munitions (U.S. Munitions List), which will result in increased trade for less-sensitive
munitions. These less-sensitive munitions will transfer from the U.S. Munitions List to the
Commerce Control List and BIS jurisdiction, while the Department of State maintains
jurisdiction over more sensitive munitions.

Beginning October 15, 2013, new rules will transfer the first of many items from the U.S.
Munitions List to the Commerce Control List in a process expected to continue throughout FY
2014.8 To address the increase of licensable items under its jurisdiction, BIS has requested
additional resources in its FY 2014 budget for its licensing and enforcement units. To complete
its mission, BIS’ challenge is to coordinate with its federal partners, such as the Departments of
Defense and State, to revise federal export control regulations to effectively implement export
control reform. Such external collaboration can be difficult and time consuming. While BIS is
planning and managing its new munitions licensing responsibilities, its current export regulations
must continue to be administered and enforced. Finally, BIS will be challenged to enhance its
existing outreach and enforcement activities delivered through exporter counseling,
                                                            
6
  U.S. Department of Commerce Office of Inspector General, November 30, 2012. U.S. Export Assistance Centers
(USEACs) Could Improve Their Delivery of Client Services and Cost Recovery Efforts, OIG-13-010-I. Washington, DC:
DOC OIG.
7
  Fergusson, I.F., and Kerr, P.K. April 19, 2013. The U.S. Export Control System and the President’s Reform Initiative,
R41916. Washington, DC: Congressional Research Service, 3.
8
  Bureau of Industry and Security, April 16, 2013, Revisions to the Export Administration Regulations: Initial
Implementation of Export Control Reform, Federal Register 78, no. 73: 22660.


FINAL REPORT NO. OIG-14-002                                                                                               3




                                                                                                                              177
                                                                            FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

            teleconferences, and seminars to educate its stakeholders (primarily first-time dual-use
            exporters) about the detailed changes to the export regulations. Outreach and preventive
            enforcement will be critical to ensuring that all dual-use exporters understand and follow the
            revised regulations and avoid unintentional violations.

            Enhancing Economic Growth Through Intellectual Property and Wireless Initiatives

            Reducing Patent Application Backlogs and Improving Processing Times While Maintaining Quality

            USPTO, as the authority for reviewing and adjudicating all patent and trademark applications,
            must continue to focus on the challenge of reducing the time applicants wait before their patent
            applications or appeals are reviewed. The agency has stated that the passage and
            implementation of the America Invents Act (AIA), enacted on September 16, 2011, would allow
            the agency to process applications faster, reduce the patent backlog, increase patent quality
            through expedited patent challenges, and improve examiner recruitment and retention.

            The AIA included fundamental revisions to patent laws and USPTO practices, such as moving to
            a “first inventor to file” patent process to align the U.S. system with others worldwide, granting
            the agency authority to set and retain fees to ensure it has sufficient resources for its
            operations, and establishing satellite offices. As of August 20, 2013—in the nearly 2 years since
            the AIA’s enactment—USPTO has successfully implemented on time 28 of the 35 provisions
            they were responsible for; 5 are not yet due, and 2 are overdue.

            As USPTO completes its implementation of the remaining AIA provisions, the agency’s recent
            efforts to address its application and appeal backlogs and related pendency issues have yielded
            mixed results. Both the backlog and pendency for patent applications decreased in FY 2013 (see
            figure 2a). Between October 2009 and September 2013, the patent backlog decreased from
            approximately 720,000 unexamined new applications to approximately 585,000. The patent
            appeals backlog—which we reported on in our 2012 audit9—has stabilized and, as of May 2013,
            stood at approximately 26,000, still more than twice the size of the backlog in October 2010.
            However, USPTO’s backlog for requests for continued examination (RCE) has grown from
            17,700 applications in October 2009 to approximately 78,000 in September 2013 (see figure
            2b), an increase of more than 340 percent. As a consequence, during the same period, the
            average waiting time between filing an RCE and receiving an initial decision has grown from 2.2
            to 7.8 months (see figure 2b).




                                                                        
            9
             U.S. Department of Commerce Office of Inspector General, August 10, 2012. USPTO's Other Backlog: Past
            Problems and Risks Ahead for the Board of Patent Appeals and Interferences, OIG-12-032-A. Washington, DC: DOC
            OIG.


            FINAL REPORT NO. OIG-14-002                                                                                     4




 178    FY 2013 AGENCY FINANCIAL REPORT
                                                                                                  APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                                                                       OFFICE OF INSPECTOR GENERAL

                  Figures 2a and 2b. Patent Backlog and Pendency Decreases (2a) and
                      RCE Backlog and Pendency Increases (2b), FYs 2010–2013a

                                    Figure 2a                                                                                Figure 2b
             40                                                          800,000                           9                                                       120,000

             35                                                          700,000                           8
                                                                                                                                                                   100,000
             30                                                          600,000                           7

                                                                                                           6                                                       80,000
             25                                                          500,000




                                                                                   Applications




                                                                                                                                                                              Applications
    Months




                                                                                                           5




                                                                                                  Months
             20                                                          400,000                                                                                   60,000
                                                                                                           4
             15                                                          300,000
                                                                                                           3                                                       40,000
             10                                                          200,000
                                                                                                           2
                                                                                                                                                                   20,000
             5                                                           100,000                           1
             0                                                           0                                 0                                                       0



                     Patent Backlog            Patent Pendency without RCEs                                    RCE Backlog   RCE Pendency from Filing to Next Office Action


 Source: USPTO data
 a
   Graphs present full FY data from October 2010 to September2013.

To address the substantial increases in the RCE backlog and average waiting time, one action
USPTO initiated was a series of outreach efforts to identify why applicants file RCEs. In June
2013, OIG initiated an audit to evaluate the reason for the increase in the RCE backlog and
review USPTO’s efforts to address the issue.

As it works to reduce its patent backlog and pendency (see figure 2a), USPTO’s challenge is to
ensure that the quality of its patent examination process is not adversely affected and to avoid
requiring applicants and the public to file unnecessary and costly challenges to examiners’
decisions.

Increasing Spectrum Usage Efficiency

Radio frequency spectrum provides an array of wireless communications services critical to the
U.S. economy and supports a variety of government functions.10 Spectrum capacity is needed to
deliver the wireless broadband that stimulates economic growth, spurs job creation, and boosts
the nation’s capabilities in education, healthcare, homeland security, and other areas.11 In June
2010, the President requested that 500 megahertz (MHz) of federal or nonfederal spectrum be
freed up for commercial wireless broadband. In response, NTIA announced in March 2012 that
the federal government intends to repurpose 95 MHz of prime spectrum for commercial use.


                                                            
10
   U.S. Government Accountability Office, April 2011. Spectrum Management: Preliminary Findings on Federal
Reallocation Costs and Auction Revenues, GAO-13-563T. Washington, DC: GAO, 1.
11
   President’s Council of Advisors on Science and Technology, July 2012. Realizing the Full Potential of Government-
Held Spectrum to Spur Economic Growth. Washington, DC: President’s Council of Advisors on Science and
Technology, 11.




FINAL REPORT NO. OIG-14-002                                                                                                                                                                  5




                                                                                                                                                                                                 179
                                                                                                                      FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL

            However, the $18 billion that NTIA estimates it will cost to relocate existing federal users to
            other parts of the spectrum12 could make this cost prohibitive.

            Representing a continuation and expansion of the President’s June 2010 directive, a July 2012
            report by the President’s Council of Advisors on Science and Technology recommended that
            up to 1,000 MHz of federal spectrum be made available for a “shared use spectrum
            superhighway” between federal agencies and commercial providers.13 Recent technology
            advances will make such shared-use architecture feasible in the near future. NTIA collaborated
            with industry and government representatives, forming working groups of the Commerce
            Spectrum Management Advisory Committee. These working groups, along with the Federal
            Communications Commission and the White House, have made some progress toward finding
            ways to share spectrum with commercial users. However, many challenges—such as lack of
            incentive for commercial providers to bid for shared spectrum (that is, the cooperative use of
            common spectrum by accessing the same frequencies in different geographical areas or at
            different times), revenue generation, and rights-of-use issues—must be addressed to make this
            effort a possibility. Another challenge NTIA faces in its handling of federal spectrum involves
            the accuracy of data submitted by federal agencies on their requirements for and their usage of
            spectrum. NTIA’s efforts to address its challenges through the implementation of the Federal
            Spectrum Management System, a new data management system that uses IT applications to
            make the spectrum more effective and efficient, has encountered schedule delays and cost
            increases.

            Overseeing the First Responder Network Authority and the Implementation of the Public Safety
            Broadband Network

            On February 22, 2012, the President signed the Middle Class Tax Relief and Job Creation Act.
            This reallocated the “D-Block” spectrum and authorized $7 billion in funding for the
            establishment of an interoperable nationwide Public Safety Broadband Network (PSBN). The
            law requires NTIA to establish an independent authority called First Responder Network
            Authority (FirstNet) to oversee the existing public-safety spectrum and the establishment and
            deployment of the PSBN. FirstNet, which held its first meeting in September 2012, has started
            to implement and establish an organizational structure, hire staff to handle its day-to-day
            operations, and establish controls (for example, to develop its rules and regulations). FirstNet
            faces several challenges in establishing the PSBN, including (1) fostering cooperation among
            various state and local public-safety agencies, (2) integration of seven Broadband Technology
            Opportunities Program (BTOP) grants funded by the American Recovery and Reinvestment
            Act of 2009 into the PSBN, and (3) the physical construction of a nationwide long-term
            evolution network.




                                                                        
            12
                 Ibid, iv, vi.
            13
                 U.S. Government Accountability Office, Spectrum Management, 1.


            FINAL REPORT NO. OIG-14-002                                                                        6




 180    FY 2013 AGENCY FINANCIAL REPORT
                                                   APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL


Challenge 2:
Strengthen Oversight of National Oceanic and Atmospheric Administration
(NOAA) Programs to Mitigate Potential Satellite Coverage Gaps, Address
Control Weaknesses in Accounting for Satellites, and Enhance Fisheries
Management

NOAA plays a critical role in protecting life and property, as well as supporting national
economic vitality. To achieve these missions, NOAA must overcome the challenges associated
with the acquisition, accounting, and operation of weather satellites and has to balance the
competing interests concerning marine fisheries.

Environmental satellites are essential components in weather forecasting. They provide data
used to track severe storms and predict climate. However, long-standing cost overruns and
schedule delays—as well as the aging of the current constellation of satellites—are threatening
adequate coverage of these critical functions. Cost increases and budget shortfalls may delay
the development and launch of two of NOAA’s most vital satellite systems, the Joint Polar
Satellite System (JPSS) and the Geostationary Operational Environmental Satellite-R Series
(GOES-R). These two programs are the Department’s largest investments, accounting for more
than 20 percent of its 2014 budget request. In response to last year's Top Management
Challenges, NOAA improved its communication with stakeholders, as well as the efficacy of
satellite program leadership and staffing, and developed a comprehensive polar satellite data gap
mitigation plan. In addition, NOAA warned that the GOES-R program is at a stage in its
development where launch delays cannot be avoided if its budget is reduced.

The satellites program also faces accounting challenges. During FY 2012, an independent
accounting firm noted several control weaknesses at NOAA related to accounting for satellites.
The transactions in question originate in a NOAA line office where personnel do not have
sufficient financial accounting experience and training, and the bureau’s Finance Office does not
have sufficient oversight of the accounting for satellites. Further, satellite accounting involves
significant contracts and arrangements with contractors and government agencies.

Finally, NOAA must respond to challenges to its fisheries oversight. Vital to our ocean
economy, commercial and recreational fishing have a value of more than $155 billion and
support more than 28 million jobs. But coastal development, pollution, overfishing, and
destruction by invasive species are contributing to the decline in the health of our oceans and
coastal ecosystems. NOAA must balance the interests of the fishing community with
conservation concerns regarding long-term sustainability.

 




FINAL REPORT NO. OIG-14-002                                                                       7




                                                                                                      181
                                                             FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

            To strengthen oversight of NOAA programs, we have identified three areas for management
            attention:
            •      Enhancing weather satellite development and mitigating potential coverage gaps
            •      Addressing material weakness over satellite accounting
            •      Enhancing fisheries management

            Enhancing Weather Satellite Development and Mitigating Potential Coverage Gaps

            Managing risks in the acquisition and development of the next generation of environmental
            satellites is a continuing challenge for the Department. In February 2013, GAO added
            “Mitigating Gaps in Weather Satellite Data” to its high-risk list.14 The two most prominent
            programs,15 the Joint Polar Satellite System (JPSS) and the Geostationary Operational
            Environmental Satellite-R series (GOES-R), together account for one-third of NOAA’s FY 2014
            budget request. They are also the largest investments in the Department, accounting for more
            than 20 percent of the Department’s $8.6 billion budget proposal.

            JPSS evolved from a predecessor program fraught with cost overruns and schedule delays.
            NOAA’s JPSS program uses the National Aeronautics and Space Administration (NASA) as its
            acquisition agent, leveraging that agency’s procurement and systems engineering expertise—an
            arrangement based on previous partnerships between the two agencies. In its FY 2014 budget
            submission, NOAA requested $824 million and reported that the JPSS program, running
            through 2025, would cost $11.3 billion. The first JPSS-developed satellite (JPSS-1) is scheduled
            for launch no later than the second quarter of FY 2017. GOES-R, with scope and importance
            comparable to JPSS, is experiencing development and budgetary challenges that could delay the
            launch of its first satellite from the first to the second quarter of FY 2016. NOAA requested
            $955 million for FY 2014 for the GOES-R series of satellites that will provide uninterrupted
            short-range severe weather warning and “now-casting” capabilities through 2036. With four
            satellites (the GOES-R, -S, -T, and -U), the program is estimated to cost $10.9 billion over the
            course of its life cycle.

            The satellites will provide data and imagery for weather forecasting—including severe-storm
            tracking and alerting—and the study of climate change. NOAA’s environmental satellite
            operations and weather forecasting are designated as primary, mission-essential functions of the
            Department because they help lead and sustain the nation during severe weather events.
            However, because of cost overruns, schedule delays, and the aging of NOAA’s current
            constellation of satellites, NOAA has had to take steps to mitigate potential coverage gaps for
            these critical assets.

             



                                                                        
            14
               U.S. General Accountability Office, February 2013. High-Risk Series: An Update, GAO-13-283. Washington, DC:
            GAO, 155-160.
            15
               Other satellite acquisitions include Jason-3, which will measure sea surface height, and Deep Space Climate
            Observatory, which will provide advance warnings of solar storms affecting Earth.


            FINAL REPORT NO. OIG-14-002                                                                                      8




 182    FY 2013 AGENCY FINANCIAL REPORT
                                                               APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

Reducing Program Risks Associated with JPSS-1 Development

Strong program management and close oversight of these programs are needed to reduce risks
associated with their development. For JPSS, this requires that the program successfully execute
to cost, schedule, and performance baselines established August 1, 2013. The program must
also ensure that its flight and ground segments’ schedules are fully integrated. JPSS must also
effectively coordinate with the newly established NOAA Polar Free Flyer program, the planned
NASA climate instrument project,16 and NOAA’s data distribution and archive systems.

NOAA needs to mitigate any degradation to weather forecasting capabilities during polar-orbit
data coverage gaps through efficient use of supplemental funding it received as part of the
Disaster Relief Appropriations Act, 2013. The bureau has developed a mitigation plan for polar
satellite coverage gaps, but obtaining support from other reliable sources—one of its options—
could be time-consuming. 17 NOAA should ensure that the mitigation plan is executed before
the November 2016 design-life end of Suomi National Polar-orbiting Partnership (NPP), a risk-
reduction satellite launched in October 2011 that is flying the first versions of JPSS sensors.

Over the course of the JPSS program, we have analyzed Suomi NPP and JPSS schedules to
assess potential gaps in weather forecast data. Consistent with our September 2012 JPSS audit
report,18 we continue to project a 10–16-month gap between Suomi NPP’s end of design life
and when JPSS-1 satellite data become available for operational use (see figure 3). NOAA’s
medium-range weather forecasting (3–7 days) could be significantly degraded during the period
of time JPSS data are unavailable.

 




                                                            
16
   With the FY 2014 President’s Budget, NOAA removed five instruments from the JPSS budget and created a
separate program, Polar Free Flyer, to develop and launch three of the instruments. It transferred to National
Aeronautics and Space Administration (NASA) responsibility for two climate instruments. The JPSS ground system
will still support the Polar Free Flyer satellite, and the two NASA climate instruments will be accommodated on
the JPSS-2 satellite if their development schedules align with the satellite’s development.
17
   For example, using new or different data from the European Organization for the Exploitation of Meteorological
Satellites or Japan Aerospace Exploration Agency requires establishing agreements, implementing communication
links, updating data processing systems, and assimilating the data.
18
   U.S. Department of Commerce Office of Inspector General, September 27, 2012. Audit of the Joint Polar Satellite
System: Continuing Progress in Establishing Capabilities, Schedules, and Costs Is Needed, OIG-12-038-A. Washington,
DC: Department of Commerce OIG.


FINAL REPORT NO. OIG-14-002                                                                                       9




                                                                                                                      183
                                                                        FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                                            OFFICE OF INSPECTOR GENERAL

              Figure 3. Potential Continuity Gaps for Polar-Satellite Operational Forecast Data




                 Source: OIG analysis of NOAA data

            Reducing Program Risks Associated with GOES-R Development

            The GOES-R program must continue to manage its development to meet requirements within
            its long-standing baselines. The program also needs to ensure sufficient ground system,
            instrument, and spacecraft development maturity to enter and successfully complete the
            integration and test phase. In addition, the program must effectively manage activities between
            flight and ground projects in a compressed development schedule and constrained budget
            environment.

            In our 2013 GOES-R audit report,19 we found that schedule slips and a potential reduction in
            testing activities have raised concerns about the satellite’s readiness to launch. Funding stability
            is the program’s top risk; an appropriation amount below the FY 2014 requested level may
            delay launch. Scope reductions are diminishing the satellite’s operational capabilities. For these
            reasons, NOAA needs to implement a comprehensive plan to mitigate the risk of potential
            launch delays and communicate to users (e.g., in the National Weather Service and Department
            of Defense) and other stakeholders (e.g., the Administration, Congress) the changes that may
            be necessary to maintain GOES-R’s launch readiness date.


                                                                        
            19
               U.S. Department of Commerce Office of Inspector General, April 25, 2013. Audit of Geostationary Operational
            Environmental Satellite-R Series: Comprehensive Mitigation Approaches, Strong Systems Engineering, and Cost Controls Are
            Needed to Reduce Risks of Coverage Gaps, OIG-13-024-A. Washington, DC: Department of Commerce OIG.


            FINAL REPORT NO. OIG-14-002                                                                                            10




 184    FY 2013 AGENCY FINANCIAL REPORT
                                                  APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

NOAA’s policy for its geostationary satellites is to have three satellites in orbit—two
operational satellites with overlapping coverage and one spare for backup. Currently, GOES-13,
GOES-14, and GOES-15 are in orbit (see figure 4). However, GOES-13 is due to be retired in
FY 2015, at which time GOES-14 is projected to become operational. GOES-15 is due to be
retired in FY 2017. GOES-R is scheduled to be launched in October 2015, but there is a risk of
launch delay. NOAA may not be able to meet its policy of having an on-orbit spare, even
without a GOES-R launch delay, based on current GOES satellites’ projected retirement dates.
Furthermore, a launch delay for GOES-R beyond October 2015 increases the risk that only one
geostationary imager will be in orbit—which would severely limit NOAA’s capability to visualize
and track severe weather events.

        Figure 4. Potential Policy Gaps for Geostationary Operational Satellites




   Source: OIG analysis of NOAA data

Addressing Material Weakness over Satellite Accounting

During FY 2012, the accounting firm KPMG noted several material control weaknesses at
NOAA related to accounting for satellites. NOAA has a large investment in satellites and, as of
the end of FY 2012, satellite construction work-in-progress amounted to $6.1 billion, with
completed satellites and ground systems costing another $0.6 billion, totaling approximately
more than one-fifth of the Department’s assets. In addition, NOAA’s accounting for satellites is
highly complex. Such transactions originate in a NOAA line office where personnel do not have
sufficient financial accounting experience and training, and NOAA’s Finance Office does not


FINAL REPORT NO. OIG-14-002                                                                   11




                                                                                                    185
                                                            FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

            have sufficient oversight of the accounting for satellites. Further, satellite accounting involves
            significant contracts and arrangements with contractors and other government agencies.

            These challenges have resulted in material deficiencies in NOAA’s satellite accounting during FY
            2012. Specifically, KPMG identified the incorrect classification of a satellite ground system,
            unrecorded transfer of a satellite from another federal agency, and corrections to the satellite
            impairment amount. These errors resulted in approximately $900 million in adjustments to
            correct the amount of satellites included in NOAA’s accounting records. In addition, KPMG
            identified uncapitalizable costs included in construction work-in-progress, as well as a lack of
            documentation evidencing review and approval of intragovernmental payments related to
            satellites. Although NOAA has developed a corrective action plan to address these conditions
            during FY 2013, we believe that these deficiencies highlight more than accounting challenges.
            The operation and management of NOAA’s satellite program needs strengthening to ensure
            integrity, accountability, and transparency. Public and Congressional confidence in the
            Department depends on these basic principles of stewardship. Therefore, program and finance
            officials must work together to ensure that satellite investments are accurately identified,
            recorded, and reported—a basic principle of asset management. We also identified additional
            challenges related to NOAA’s accounting and budgetary controls of funds in challenge 5 (see
            Continue to Foster a Culture of Management Accountability to Ensure Responsible Spending).

            Enhancing Fisheries Management

            In 2011, there were 51 million jobs in U.S. coastal shoreline counties. Of those, the commercial
            fishing industry accounted for approximately 1 million jobs and the recreational fishing industry
            accounted for 327,000 jobs. U.S. fishermen at ports in the 50 states brought in 9.9 billion
            pounds of fish valued at $5.3 billion in 2011—an increase of 1.63 billion pounds (up 19.7
            percent) and $769 million (up 17 percent) compared to 2010. Fishing is an important industry
            in our nation’s economy as a whole and in the many coastal communities and port towns, as
            shown in figure 5.




            FINAL REPORT NO. OIG-14-002                                                                          12




 186    FY 2013 AGENCY FINANCIAL REPORT
                                                         APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

                     Figure 5. Dollar Value of Fish Landings at U.S. Ports




                                                            Less than $10 million 

                                                            $10–50 million 

                                                            $50–100 million 

                                                            More than $100 million 

     Source: NOAA Office of Science and Technology, National Marine Fisheries Service

However, NOAA must also consider the health of our oceans and coastal ecosystems, which
are impacted by coastal development, pollution, overfishing, and the destructive impact of
invasive species. In U.S. waters, there are 74 listed endangered species and 62 marine mammals
under the Marine Mammal Protection Act. There are 219 species under review or of concern
to the National Marine Fisheries Service’s (NMFS’s) Office of Protected Resources.

For several years, we have reported on NOAA’s challenges in balancing two competing
interests: promoting commercial and recreational fishing as vital elements of our national
economy and preserving populations of fish and other marine life. In recent years, members of
the fishing industry and elected officials from the New England region have repeatedly
questioned certain fishery regulations and whether NOAA has abandoned a core mission to
develop the commercial fishing industry and increase industry participation.

In January 2013, we reported on NOAA’s controls and processes surrounding fisheries
rulemaking as the first phase of our assessment of transparency and the role of fishery




FINAL REPORT NO. OIG-14-002                                                                           13




                                                                                                              187
                                                                    FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

            management councils (FMCs20) in rulemaking. An effective regulatory environment requires a
            fair and transparent rulemaking process. We learned that FMC members’ financial disclosures
            do little to increase transparency of the process—and NOAA performs minimal reviews of the
            information on the financial disclosure forms. NMFS has not implemented many of the
            regulatory changes designed to streamline its rulemaking, and rules packages and administrative
            records are inconsistently maintained among its regional offices. In response to last year’s
            challenge pertaining to fisheries management, NOAA reported that it continues to make
            progress in streamlining the rulemaking process and improving the transparency and
            consistency of fisheries management by addressing the relevant OIG recommendations.

            We also issued the results of our survey of fishery management council members and staff—
            who, in general, supplied positive responses to the survey. Most survey participants were
            satisfied with their interactions with NMFS, as well as with the fishing industry and
            nongovernment organizations. Suggestions to improve collaboration between NMFS and FMCs
            mainly involved occurrence and methods of communication, participation from NOAA's Office
            of the General Counsel, and outreach and transparency to stakeholders.

            We are currently reviewing several of NOAA’s catch share programs to determine whether
            there are (1) adequate controls in place to prevent excessive ownership of limited shares and
            (2) adequate tools and processes in place to collect information needed to make decisions and
            to ensure adequate competition.

            Considering the importance of fisheries to the U.S. economy, it is critical that NOAA and the
            FMCs balance the interests of the fishing community with conservation concerns. Regardless of
            long-term sustainability and conservation concerns, many stakeholders claim that measures
            such as limiting catch in fisheries and enforcing limited access privilege programs have had a
            negative impact on some local fishing communities. NOAA’s challenge is to effectively balance
            those interests—and effectively communicate to stakeholders how the agency’s efforts serve
            the long-term economic interests of the fishing industry.




                                                                        
            20
              FMCs allow for regional, participatory governance by knowledgeable stakeholders. NMFS partners with FMCs—
            along with state agencies and other federal bureaus—to develop fishery management strategies and rules for the
            commercial and recreational fishing industries. There are currently 46 fishery management plans, developed by the
            eight regional FMCs or the Office of the Secretary under certain circumstances, to manage fishery resources.


            FINAL REPORT NO. OIG-14-002                                                                                    14




 188    FY 2013 AGENCY FINANCIAL REPORT
                                                               APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL


Challenge 3:
Continue Enhancing Cybersecurity and Management of Information Technology
Investments

Pervasive and sustained cyber attacks against the United States could have a devastating effect
on federal and nonfederal systems, disrupt the operations of governments and businesses, and
impact the lives of the American people. The President’s FY 2014 budget requires that agencies
eliminate duplicative or low-value IT investments while expanding efforts to counter current
and evolving cyber threats. The administration has identified cybersecurity as among the most
serious economic and national security challenges we face. To bolster the national
cybersecurity program, federal agencies have been asked to implement cross-agency
cybersecurity priorities—including strong authentication, Trusted Internet Connections (TIC),
and continuous monitoring. In addition, the President has directed the National Institute of
Standards and Technology (NIST) to develop a voluntary framework for reducing cyber risks to
our nation’s critical infrastructure.

We reported our concerns about the Department’s fragmented IT governance in previous
years. In response to OMB direction, the Acting Secretary issued a June 2012 memorandum
that described a strategy to strengthen the Department’s Chief Information Officer’s (CIO’s)
ability to oversee the bureaus’ annual $2.5 billion IT investments.21 The CIO has leveraged this
increased authority to lead the effort to consolidate commodity IT Department-wide—and
continues to strengthen IT oversight through the Commerce IT Review Board. However, the
CIO’s responsibility to oversee satellite IT investments has been diminished, and IT investments
still need to close the gap between planned and actual schedule and cost performance.

To help the Department counter current and evolving cybersecurity threats, as well as
maximize the consolidation and oversight of its IT investments, we have identified five areas for
management attention:
•      Establishing a robust capability to respond to cyber incidents
•      Continuing sustainable implementation of enterprise cybersecurity initiatives
•      Preserving the CIO’s oversight responsibility of satellite-related IT investments
•      Continuing vigilant oversight of IT investments
•      Maintaining momentum in consolidating commodity IT22 to cut costs


                                                            
21
   U.S. Department of Commerce, Office of Secretary, June 21, 2012. Department IT Portfolio Management Strategy.
Washington, DC: DOC OS.
22
   According to OMB, commodity IT includes “IT infrastructure (data centers, networks, desktop computers and
mobile devices); enterprise IT systems (e-mail, collaboration tools, identity and access management, security, and
web infrastructure); and business systems (finance, human resources, and other administrative functions).” See
Office of Management and Budget, August 8, 2011. Chief Information Officer Authorities, Memorandum M-11-29.
Washington, DC: OMB, 2.


FINAL REPORT NO. OIG-14-002                                                                                      15




                                                                                                                      189
                                                                        FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

            Establishing a Robust Capability to Respond to Cyber Incidents

            In our FY 2013 Top Management Challenges report,23 we noted that, in January 2012, as a result
            of a perceived massive malware infection, the Economic Development Administration (EDA)
            disconnected its systems from the Internet, significantly affecting its ability to maintain normal
            business operations. Since issuing that report, we completed our review24 of the events
            surrounding EDA’s cyber incident and found that critical incident response decisions were
            based on inaccurate information—and that deficiencies in the Department's incident response
            program impeded EDA's incident response. Because of a series of missteps in responding to this
            incident, a common malware infection originally found on two EDA computers was portrayed
            as a widespread cyber attack on EDA’s IT infrastructure. This resulted in a prolonged disruption
            of normal business operations and the unnecessary expense of more than $2.7 million for
            recovery activities.

            Our review also highlighted challenges for the Department when responding to a cyber
            incident. We made recommendations to improve the Department’s Computer Incident
            Response Team (DOC CIRT), which provides response services to the seven bureaus located
            in the Department’s headquarters at the Herbert C. Hoover Building (HCHB). To begin
            addressing deficiencies in DOC CIRT incident response capabilities, the Department’s CIO
            conducted an internal review of DOC CIRT’s practices and processes. The review identified
            areas for improvement and focused on strengthening DOC CIRT’s organizational structure; its
            roles and responsibilities; and operating unit procedures for incident identification, analysis,
            response, and reporting. The Department’s CIO has also taken steps to ensure that DOC CIRT
            staff members receive appropriate training, update DOC CIRT’s incident response procedures,
            develop agreements with external agencies to gain incident response expertise, and hire
            experienced incident response staff.

            The President has identified the cybersecurity threat as one of the most serious national
            security, public safety, and economic challenges we face. To deal successfully with the cyber
            threat, the Department needs to establish a robust incident response capability at DOC
            CIRT. Furthermore—because DOC CIRT primarily provides incident response services to
            bureaus located at HCHB—ensuring productive collaboration among all bureaus is critical
            for the Department to effectively respond to a cyber event. This includes bureaus that have
            their own CIRT capabilities, such as the Census Bureau, the International Trade
            Administration (ITA), NIST, the National Oceanic and Atmospheric Administration
            (NOAA), and the U.S. Patent and Trademark Office (USPTO). OIG is currently conducting
            an audit of the incident detection and response capabilities of several bureaus within the
            Department. Our audit should complement work already done by the Department and help
            to further improve its incident response program.



                                                                        
            23
               DOC Office of Inspector General, November 9, 2012. Top Management Challenges Facing the Department of
            Commerce, OIG-13-003. Washington, DC: OIG, 15.
            24
               DOC OIG, June 26, 2013. Malware Infections on EDA's Systems Were Overstated and the Disruption of IT Operations
            Was Unwarranted, OIG-13-027-A. Washington, DC: DOC OIG.


            FINAL REPORT NO. OIG-14-002                                                                                      16




 190    FY 2013 AGENCY FINANCIAL REPORT
                                                               APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

Continuing Sustainable Implementation of Enterprise Cybersecurity Initiatives

The Department has three enterprise cybersecurity initiatives underway to address mandates
from the Office of Management and Budget (OMB). The Enterprise Cybersecurity Monitoring
and Operations (ECMO) and Enterprise Security Oversight Center (ESOC) initiatives support
OMB’s mandate25 to continuously monitor security-related information from across the
enterprise. The TIC initiative supports the mandate26 that federal agencies optimize and
standardize their individual external network connections, including connections to the
Internet. Collectively, these undertakings should significantly improve the Department’s
cybersecurity posture. Table 1, below, provides the goal, implementation status, and issues for
each:

 




                                                            
25
   Executive Office of the President Office of Management and Budget, April 21, 2010. FY 2010 Reporting Instructions
for the Federal Information Security Management Act and Agency Privacy Management, Memorandum M-10-15.
Washington, DC: OMB, 1.
26
   OMB, November 20, 2007. Implementation of Trusted Internet Connections (TIC), Memorandum M-08-05.
Washington, DC: OMB, page 1. Also, see OMB, September 17, 2009. Update on the Trusted Internet Connections
Initiative, Memorandum M-09-32. Washington, DC: OMB, 1.


FINAL REPORT NO. OIG-14-002                                                                                       17




                                                                                                                       191
                                                                        FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                                                     OFFICE OF INSPECTOR GENERAL

                                               Table 1. Department’s Enterprise Cybersecurity Initiatives
            Enterprise
                                                 Initiative Goal               Implementation Status                        Issues
            Initiatives
                                                                              Initial capability has been
                                     Provide nearly real-time                  implemented on more than            Delays in obtaining
                                     security status, support for              8,500 system components             funding and participation
                                     patch management, and                     across HCHB operating units.        commitments from
           ECMO                      remediation of software                  Upon full deployment in             USPTO and the Census
                                     configuration issues for                  September 2014, ECMO will           Bureau in FY 2013 may
                                     Department-wide system                    support more than 100,000           result in missing the
                                     components                                system components                   September 2014 deadline.
                                                                               throughout the Department.
                                                                           Currently in the planning stage, the
                                                                           Department is:
                                     Provide Department-wide                  Doing a detailed assessment of
                                     security situational                      incident handling capabilities in   The initiative faces
           ESOC                      awareness to senior                       HCHB and NOAA, and a high-          challenges acquiring
                                     Departmental and operating                level assessment across the         project resources.
                                     unit managers                             Department.  
                                                                              Conducting a technical
                                                                               capabilities study. 
                                                                              All bureaus—except the
                                                                               Bureau of Industry and Security
                                                                               (BIS), the Census Bureau, and    BIS is working with its
                                                                               NOAA—have acquired a TIC         selected service provider
                                                                               service.                         to resolve technical
                                                                              BIS will acquire TIC services by issues.
                                     Consolidate Department                    March 2014.
                                     external network                                                           Census is working with
           TIC                       connections and provide                  The Census Bureau has not        the Department of
                                     better monitoring of cyber                implemented TIC because of       Homeland Security to
                                     threats from the Internet                 concerns about third-party       develop a memorandum
                                                                               access to sensitive Title 1327   of understanding that
                                                                               data.                            would ensure that the
                                                                              NOAA has made progress           confidentiality of Title 13
                                                                               becoming its own TIC access      data is protected.
                                                                               provider and will do so by
                                                                               March 2015.

            Source: Department of Commerce

            Timely implementation of these initiatives is crucial to the Department’s cybersecurity program,
            particularly in light of the ever-increasing cyber threats facing government systems. The ECMO
            and ESOC initiatives are critical to maintaining cybersecurity best practices to protect network
            components, implementing continuous monitoring, and providing timely cyber situational
            awareness across the Department. Thus, the Department needs to ensure that current efforts
                                                                        
            27
               Title 13 guarantees the confidentiality of information obtained by the Census Bureau and establishes penalties for
            disclosing this information.


            FINAL REPORT NO. OIG-14-002                                                                                                   18




 192    FY 2013 AGENCY FINANCIAL REPORT
                                                               APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

for these initiatives move forward as planned and that operating units cooperate and participate
to the fullest extent.

Since last year, NOAA has made progress toward becoming its own TIC provider by
implementing about 72 percent of the required TIC capabilities. However, the Census Bureau
and BIS have yet to acquire TIC services. The TIC initiative should significantly reduce the risks
associated with external network and Internet connections. Accordingly, the Department needs
to encourage NOAA to complete its TIC implementation quickly and should make every effort
to enable the Census Bureau and BIS to expeditiously resolve their TIC issues.

Preserving the CIO’s Oversight Responsibility of Satellite-Related IT Investments

Under the OMB IT reform plan28 and subsequent OMB guidance,29 agencies have been directed
to expand federal CIO responsibility from a traditional role of policymaking and infrastructure
maintenance to managing the agency’s entire major IT investment portfolio. The Department of
Commerce CIO oversees major IT investment in three ways: (1) reviewing the capital asset
plan (Exhibit 300) for the initiation or re-planning of each investment; (2) comparing the
investment’s status against the asset plan monthly and submitting the assessment to the OMB IT
Dashboard for public exposure; and (3) holding Commerce IT Review Board sessions
periodically for an in-depth look at the investment and gauging when an investment is in trouble
because it has significantly deviated from its plan.

However, the CIO oversaw about a quarter fewer IT investments in FY 2013 than in FY 2012.
In particular, in an effort to streamline oversight, the Department has waived the requirement
to follow CIO oversight practices for six satellite-related investments totaling $642 million in FY
2013 spending.30 Two of these investments, the development of the Geostationary Operational
Environmental Satellite–R Series and Joint Polar Satellite System ground systems, are part of the
acquisition of two new satellite series that undergo substantial oversight as part of the satellite
acquisition process, including comprehensive milestone reviews by independent satellite
experts. The other four satellite-related investments— the maintenance and enhancement of
two satellite ground systems and two satellite data processing and distribution systems—do not
receive such extensive oversight. Although the Department has established quarterly reviews
for executives to discuss high-level investment issues, the reviews do not replace the CIO’s in-
depth tracking and evaluation of these satellite investments.31 The four satellite-related
maintenance and enhancement investments are similar to other major IT investments overseen

                                                            
28
   OMB, December 9, 2010. 25 Point Implementation Plan to Reform Federal Information Technology Management.
Washington, DC: OMB, 28.
29
   OMB, August 8, 2011. Chief Information Officer Authorities, M-11-29. Washington, DC: OMB.
30
   The satellite-related IT investments include (1) two satellite ground system development projects (Geostationary
Operational Environmental Satellite–R series and Joint Polar Satellite System), (2) two ground system maintenance
projects (Geostationary Operational Environmental Satellite and Polar Operational Environmental Satellite), and
(3) maintenance of two systems that process and distribute satellite data products (NPOESS Data Exploitation
Ground System and Environmental Satellite processing center).
31
   The Department has also established a Milestone Review Board for high-profile programs; however, it will only
review the two new satellite series acquisitions, not the four satellite-related maintenance and enhancement
investments.


FINAL REPORT NO. OIG-14-002                                                                                      19




                                                                                                                      193
                                                                       FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                                          OFFICE OF INSPECTOR GENERAL

            by the CIO. The Department should reinstate the CIO oversight process for these four
            investments.

            Continuing Vigilant Oversight of IT Investments

            We reported in our FY 2013 Top Management Challenges that the IT Review Board has
            improved its reviews of IT investments, leading to a greater likelihood that investments will
            progress more satisfactorily.32 The number of IT investments assessed as high-risk has
            substantially decreased, falling from six last year to only one investment this year: the National
            Weather Service (NWS) Telecommunication Gateway. Table 2 presents the current risk
            evaluation of investments that were at high risk in FY 2012:

                        Table 2: Disposition of the Department’s FY 2012 High-Risk Investments

                               Investment                                         Current Risk Disposition

                               Census Bureau American Community
                                                                             Medium risk
                               Survey
                               Census Bureau 2010 Decennial system
                                                                             Completed
                               design, integration, and evaluation
                               Census Bureau IT infrastructure               Low risk
                               NOAA National Weather Service
                                                                             High risk
                               Telecommunication Gateway
                               NOAA Joint Polar Satellite System             Risk not evaluated by CIO due to
                               Ground System                                 oversight streamlining
                                                                             Risk not evaluated by CIO due to
                               NOAA Weather Radio Improvement
                                                                             restructuring and the merging of this
                               Project
                                                                             project with other investments
                            Source: OIG, Top Management Challenges Facing the Department of Commerce, October 24, 2011,
                            and OMB IT Dashboard, August 2013

            We remain concerned, as we reported last year, about IT investments with a history of being
            high-risk. For example, in December 2010, the Department’s CIO assessed the NWS
            Telecommunication Gateway and designated it a high-risk project. In that same year, OMB
            designated the Bureau of Industry and Security’s Commerce USXPORTS Exporter Support
            System as a high-risk Departmental project. Although both investments have made some
            progress since 2010, the Telecommunication Gateway is still assessed as a high-risk investment
            and USXPORTS recently ran into significant development roadblocks and was again evaluated
            high-risk for a short period in FY 2013 (see table 3). Both investments now require re-planning
            to move forward.




                                                                        
            32
               DOC OIG, November 9, 2012. Top Management Challenges Facing the Department of Commerce, OIG-13-003.
            Washington, DC: OIG, 18.


            FINAL REPORT NO. OIG-14-002                                                                                   20




 194    FY 2013 AGENCY FINANCIAL REPORT
                                                                 APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                         OFFICE OF INSPECTOR GENERAL

                  Table 3: Department FY 2013 Investments with a High-Risk History
                                                                 FY 2013        FY 2014 to     Total Life-
        Investments                                            Spend Plan       Completion     Cycle Costs
                                                               ($ Millions)     ($ Millions)   ($ Millions)

        NOAA NWS Telecommunication Gateway                          21              165             403

        BIS Commerce USXPORTS Exporter
                                                                     6                5             17
        Support System
      Source: Exhibit 300s for FY 2013

The number of investment work activities that are behind schedule is somewhat reduced but
more than one-fifth of them are still 30 percent or more behind schedule (see table 4). Overall,
cost growth and schedule delays of the Department’s investment activities exceed the federal
government average.

                              Table 4: Investment Activity Cost and Schedule Variance
                                                               Department of                Federal
                                                                Commerce                  Government
           Percentage of activities with cost
                                                                     19                        12
           growth greater than 30 percent
           Percentage of activities with schedule
                                                                     22                        15
           delays greater than 30 percent
         Source: OMB IT Dashboard (August 2013)

The challenge for Departmental IT investment oversight (CIO, IT Review board, and Milestone
Review board) is to identify the fundamental reasons that high-risk projects continue not to
make adequate progress; implement necessary changes to their acquisition approach,
management structure, and development plans; and, if necessary, bring in outside expertise to
identify weaknesses and recommend mitigation actions.

Maintaining Momentum in Consolidating Commodity IT to Cut Costs

The Department CIO is leading the effort to reduce commodity IT costs per full-time
equivalent by about 25 percent annually33 to be more in line with costs at comparable agencies.
Departmental and bureau CIOs are employing three basic approaches to break down costly
and inefficient IT:

       1. Consolidating infrastructure, including data centers and services (e.g., the Census Bureau is
          operating centralized Bureau-wide collaboration and content management services)

       2. Sharing procurement vehicles to leverage economies of scale (e.g., the use of Department-
          wide Microsoft Office and McAfee SafeBoot contracts)
                                                            
33
     In FY 2011, the Department spent $8,884 per full-time equivalent, about $2,300 more than comparable agencies.


FINAL REPORT NO. OIG-14-002                                                                                     21




                                                                                                                     195
                                                                              FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                       OFFICE OF INSPECTOR GENERAL

                3. Hosting services for other Department bureaus (e.g., the Office of Secretary and NOAA
                   are hosting all IT services for the Economic Development Administration)

            Department and bureau heads must ensure that their respective CIOs continue to have full
            cooperation in overcoming bureaucratic impediments to consolidating and sharing IT
            commodity resources.




            FINAL REPORT NO. OIG-14-002                                                                    22




 196    FY 2013 AGENCY FINANCIAL REPORT
                                                               APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


Challenge 4:
Exercise Strong Project Management Controls over 2020 Census Planning to
Contain Costs

The decennial census is a highly visible, decade-long program that requires extensive planning
and testing. The 2020 Census process has already started building on 2010 Census lessons
learned about late-stage design changes and higher-than-expected contractor expenses. Both
contributed to pushing the final cost of the 2010 Census to more than $12 billion—nearly
twice that of the 2000 Census (in nominal dollars). The Census Bureau has promised bold
design changes for the 2020 Census, seeking to reduce per household costs (on an inflation-
adjusted basis) to an amount lower than the 2010 Census. To reach this goal, the Bureau must
complete research and testing early enough in the decade to plan and build the necessary
infrastructure for the projected workload and workforce. The Bureau will be making key 2020
Census design decisions during FYs 2015–16 that drive the program’s methodology, quality, and
cost for producing congressional apportionment data by December 31, 2020, and redistricting
data by March 31, 2021.34

As a result of our 2010 Census oversight, we noted challenges the Census Bureau faces to
innovate its 2020 Census design.35 Overcoming these challenges calls for fundamental
improvements in decennial planning, management, testing, and transparency to help ensure that
the missed opportunities of previous decades are not repeated in 2020. We identified 19
recommendations categorized into 7 areas of improvement:
1. Revamp cost estimation and budget processes to increase accuracy, flexibility, and
   transparency.
2. Use the Internet and administrative records to contain costs and improve accuracy.
3. Implement a more effective decennial test program using the American Community Survey
   as a test environment.
4. Effectively automate field data collection.
5. Avoid a massive end-of-decade field operation through continuous updating of address lists
   and maps.
6. Implement improved project planning and management techniques early in the decade.
7. Establish a Census Bureau director position that spans presidential administrations.

The Census Bureau has made improvements since its 2010 decennial operation, including early
monitoring of 2020 decennial risks, more open communication about progress and problems
with stakeholders, and efforts to implement an Internet response option to its American
Community Survey (ACS) that can serve as a model for 2020 decennial responses. In addition,

                                                            
34
 These delivery dates are mandated by law; see 13 U.S.C. § 141.
35
 U.S. Department of Commerce Office of Inspector General, June 27, 2011. Census 2010: Final Report to Congress,
OIG-11-030-I. Washington, DC: DOC OIG.


FINAL REPORT NO. OIG-14-002                                                                                  23




                                                                                                                  197
                                                                     FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

            Congress authorized a term-appointed Census Bureau director to oversee timely, critical
            decennial design decisions. A new director was appointed to this term position in July 2013.
            The Bureau has partially addressed some of our recommendations; however, more work
            remains. As the Bureau innovates a 2020 decennial design, we have identified two areas for
            management attention:
            •  Ensuring timely design decision making
            •  Focusing on human capital management, timely research, and testing implementation

            Ensuring Timely Design Decision Making

            The Census Bureau is approaching critical 2020 Census design decision points that require
            planning and developing a decennial census in a significantly more constrained budget
            environment than experienced during the 2010 Census. Soon, the Bureau must rapidly analyze
            2020 decennial design alternatives and make key design decisions based on the results of its
            research and testing phase. Components of this more than $1 billion effort (see figure 6)
            include:

                   2010 Census evaluations, referred to as the Census Program Evaluation and Experiments
                    (CPEX)
                   The Geographic Support System (GSS), which provides the maps, address lists, geographic
                    reference files, and associated processing systems to meet the geographic requirements
                    of all Census Bureau programs. GSS priorities related to the decennial census include
                    maintaining and updating the integrated database that contains the Master Address File
                    (MAF)—an inventory of the nation’s addresses—as well as the Topologically Integrated
                    Geographic Encoding and Referencing (TIGER), a national inventory of streets and map
                    features. The GSS also includes an initiative intended to inform the Bureau on the
                    viability of conducting a targeted rather than a full address canvassing operation in 2019
                    in support of the 2020 Census.
                   2020 Census research and testing (R&T) projects that test new enumeration methods, new
                    processes to support field operations, more cost-effective IT systems, and address and
                    map improvements needed for the 2020 Census to supplement GSS efforts
                   Other Census Bureau-wide efforts, including development and processing infrastructure
                    that supports Bureau surveys and leveraging work conducted on the ACS (e.g., adapting
                    an online response option)




            FINAL REPORT NO. OIG-14-002                                                                      24




 198    FY 2013 AGENCY FINANCIAL REPORT
                                                                                APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                                         OFFICE OF INSPECTOR GENERAL

                                          Figure 6. 2020 Census Design Decision Process

                                                               2010 Census Evaluations (CPEX)
                                                                  Life cycle cost: $86 million



                                                                                              Geographic
                                           2020 Census
                                                                                            Support System
                                           R&T projects                2020 Census
                                                                                                 (GSS)
                                          Life cycle cost:            Design Decision
                                                                                            Life cycle cost:
                                           $405 million
                                                                                             $674 million



                                                                            Other
                                                                      (e.g., Center for
                                                                      Adaptive Design,
                                                                             ACS)


                                    Source: OIG analysis of Census Bureau documents available May 2013

Our office has conducted several reviews of the Census Bureau’s approach and progress
toward the planning and development of a new cost-effective 2020 decennial design (e.g, the
CPEX,36 GSS,37 and R&T38 programs). We found that, as research and testing continues, the
Bureau must contend with and plan for several challenges that could adversely impact the next
decennial census. Like the rest of the federal government, the Bureau is operating in a
constrained budget environment. It must therefore be strategic in how it spends available
funding and provide the Secretary and Congress reliable and transparent budget requests. The
Bureau must devote careful attention to its FYs 2015 and 2016 budget submissions, which will
fund testing of new decennial design options that ultimately drive the cost trajectory for the
2020 Census.

Focusing on Human Capital Management, Timely Research, and Testing
Implementation

During our current 2020 Census redesign evaluation, we noted significant schedule slippage in
the Census Bureau’s key research and testing programs. If continued, missed deadlines will
translate into an untenable continuation of an already expensive design. The cost (in constant
dollars) of counting each housing unit could reach $151, compared with $97 for 2010. Through

                                                            
36
   DOC OIG, April 5, 2012. 2020 Census Planning: Delays with 2010 Census Research Studies May Adversely Impact the
2020 Decennial Census, OIG-12-023-1. Washington, DC: OIG.
37
   DOC OIG, May 10, 2012. High-Quality Maps and Accurate Addresses Are Needed to Achieve Census 2020 Cost-Saving
Goals, OIG-12-024-I. Washington, DC: OIG.
38
   DOC OIG, September 17, 2013. 2020 Census Planning: Research Delays and Program Management Challenges
Threaten Design Innovation (draft report). Washington, DC: OIG.


FINAL REPORT NO. OIG-14-002                                                                                                 25




                                                                                                                                    199
                                                                                          FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL

            our ongoing work on the Bureau’s approach to and progress on planning for 2020 decennial
            census we have identified three time-sensitive Bureau management priorities:

                         Managing human capital to align with the Bureau’s mission and programmatic goals

                         Completing timely research for making evidence-based design decisions

                         Implementing a stable, agile field-testing strategy

            Managing Human Capital to Align with Bureau Mission and Programmatic Goals

            As part of the decennial census planning effort, the Census Bureau is striving to improve the
            management and culture of the decennial directorate. The Bureau’s two-pronged effort entails
            collaboration between its 2020 Census directorate and Human Resources division to (1) review
            required skills and competencies and (2) conduct a formal analysis to compare those requisite
            skills to the skills and capabilities of their current workforce.

            An objective and informative assessment of the Census Bureau’s current workforce is critical
            to containing 2020 Census costs. Like many federal agencies facing mandatory budget
            reductions, the Bureau must balance meeting critical mission requirements against ensuring the
            maintenance of its existing human capital. To implement the FY 2013 budget reductions, the
            Bureau (1) sought to “minimize the impact on our employees, seeking to avoid furloughs, while
            sustaining our core mission and preserving our most important programs within the limited
            flexibility provided,”39 (2) canceled or reduced the scope of, or decided not to award, more
            than $30 million in contracts for the second half of FY 2013, (3) froze hiring on all but the most
            mission-critical positions, and (4) did not fill more than 100 “critical vacancies.” With more
            budget reductions projected, the Bureau’s workforce assessment should help inform its long-
            term strategy to implement a decennial census that costs less than the 2010 Census.

            Completing Timely Research for Making Evidence-Based Design Decisions

            The Bureau’s research agenda includes capturing lessons learned from the last decennial census
            and conducting research and testing projects that emphasize containing costs without
            diminishing information quality (see table 5.)




                                                                        
            39
               Census Director’s blog on June 19, 2013; available at: http://directorsblog.blogs.census.gov/2013/06/19/census-
            bureau-budget-update-2/.


            FINAL REPORT NO. OIG-14-002                                                                                          26




 200    FY 2013 AGENCY FINANCIAL REPORT
                                                         APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

                          Table 5. Costly 2010 Census Operations and
                            2020 Research Efforts to Address Them

   2010 Census Cost and Operation                    2020 Research Aimed to Reduce Costs
                                                     Can the number of household visits be reduced by finding
                 Enumerating nonresponding           an alternative, less costly response option?
   $2 billion
                 households                          Can existing government records fill in missing
                                                     information?

   $790          Building a one-time-use field
                                                     Can reusable enterprise-wide solutions be built and
                 data collection automation
   million                                           expanded to meet decennial needs?
                 system

                 Ensuring that labor, systems, and   Can the number of paper questionnaires be reduced
                 development are in place to         through an Internet response option?
   $473          process and capture the data for    Can an automated field data collection reduce the paper
   million       more than 164 million paper         workload?
                 questionnaires at three data        Can the reduced paper workload result in fewer data
                 centers                             capture centers?
                                                     Can Census maps and addresses be efficiently updated
   $444          Having an end-of-decade
                                                     throughout the decade, with areas experiencing change
                 address and geography updating
   million                                           accurately targeted to reduce the amount of end-of-
                 operation
                                                     decade canvassing?

   $330                                              Can distance management, training, and automated
                 Leasing 494 local and 12 regional
                                                     processes allow the Census Bureau to reduce the number
   million       Census offices
                                                     of temporary Census offices?

  Source: OIG analysis of Census Bureau documents

In addition to the cancellation of 20 of the original 109 studies aimed to measure the Bureau’s
performance in the 2010 decennial, we found that the CPEX program results were often not
implemented as designed to inform the 2020 R&T program. We also found the Census Bureau
is experiencing schedule slippage and project delays in its R&T program that affect subsequent
research phases and design decision points (see figure 7). The multifaceted and interrelated
nature of the research program underscores the necessity of adhering to a schedule to make
timely, evidence-based design decisions.




FINAL REPORT NO. OIG-14-002                                                                                     27




                                                                                                                     201
                                                                     FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL

                                     Figure 7. Research and Testing Activity Delays




                                                 Source: OIG from Census Bureau data

            Another challenge identified in our recent report is to develop a schedule that provides
            managers and oversight stakeholders with valid, timely, accurate, and auditable performance
            information on which to base critical decisions. The Census Bureau alters baselines (i.e., re-
            baselines), which can conceal delays and give the appearance that schedules are met. For
            example, major decision points for the 2020 Census have been re-baselined three times, with
            original deadlines pushed back from September 2014 to September 2015 (see figure 8).

                          Figure 8. Shifting Deadlines: The 2020 Census Design Decision

                                     Original
                                     Deadline:
                                     September                        Current Deadline:
                                     2014                              September 2015




                                                       Delayed:
                                                       May 2015



                                 Source: OIG analysis of Census Bureau documents




            FINAL REPORT NO. OIG-14-002                                                                         28




 202    FY 2013 AGENCY FINANCIAL REPORT
                                                      APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

Implementing a Stable, Agile Field-Testing Strategy

Testing operations in real-life situations is critical to ensuring that research results yield
improvements in the decennial census. However, field test plans are in flux: their schedule has
been pushed back three times, with an FY 2016 completion date reflecting a year-and-a-half
delay. Further, the Census Bureau canceled 13 of 25 scheduled field tests. Frequent schedule
changes, testing delays, and cancellations threaten the Bureau’s ability to incorporate test
results into subsequent research and design decisions. The Bureau cites the major impacts of
the Congressional budget cut and sequestration as a cause for the changes in content and
timing of its research and testing efforts. Nevertheless, budget reductions, continuing
resolutions, and the sequestration (signed into law in August 2011) should have been planned
for.

To increase opportunities for testing, both the National Academy of Sciences and OIG have
recommended using the ACS as a test environment for smaller trials of new processes,
procedures, and systems for the decennial. The Census Bureau recently developed a small test
that uses a modified ACS infrastructure—including ACS’s systems, questionnaire, and training
materials. Previously, using the ACS as a test environment had been delayed to January 2015. In
addition, several legislative proposals to eliminate or alter the quality of the data collected by
the ACS threaten its use for decennial testing. The Bureau faces the challenge of implementing
the ACS while conducting cost-effective, small-scale tests—or implementing separate large-
scale, more costly 2020 Census field tests—to evaluate new design features. With the 2020
Census design still under development, it is unknown how legislatively-mandated changes to the
ACS will impact the Bureau’s goal of containing the cost of the decennial census while
preserving data quality.




FINAL REPORT NO. OIG-14-002                                                                       29




                                                                                                       203
                                                             FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL


            Challenge 5:
            Continue to Foster a Culture of Management Accountability to Ensure
            Responsible Spending

            As the government experiences an extended period of tightened budgets, it is imperative to
            foster a culture of management accountability. OIG operates a complaint hotline for employees
            and the public to submit information about alleged wrongdoing, misconduct, or
            mismanagement. OIG’s determination to audit, investigate, or provide the complaint
            information to Departmental or bureau management for appropriate action helps to instill a
            culture of ethical conduct and ensure that spending is appropriate, complies with laws and
            regulations, and promotes investments with long-term benefits.

            While the Department has improved its ability to deal with hotline complaints, there has been
            an increasing number of complaints to OIG. In FY 2013, NOAA-related complaints represented
            the largest increase; those complaints comprise almost 40 percent of total complaints. OIG’s
            hotline also receives complaints related to the use of appropriated funds by other bureaus.
            These issues highlight the Department’s need to implement stricter control over funds
            Department-wide. The Department and most of its bureaus use outdated financial management
            systems. Limited system functionality and high support costs impede the Department’s ability to
            oversee and manage Department-wide financial activities. Plans to replace the legacy systems by
            FY 2018 face significant challenges.

            The Department’s annual acquisitions total approximately $2.4 billion and range from satellites,
            public safety networks and broadband technology opportunities to the construction of facilities.
            Last year the Department reported it exceeded its goals in reducing the dollar amount of high-
            risk contracts, per 2009 Office of Management and Budget guidance. However, our audits
            indicate that reducing the use of several types of high risk contracts remains a critical challenge.
            Oversight of these goods and services requires a qualified staff of appropriate numbers.
            However, budget constraints and uncertainties present significant roadblocks to recruiting
            competent staff, retaining mid-level staff, and adjusting to attrition.

            Finally, the potential misuse of federal funds by award recipients requires stronger oversight of
            Departmental programs that award grants or cooperative agreements. These awards amounted
            to $6.5 billion in the 3-year period ending June 30, 2013. In addition, American Recovery and
            Reinvestment Act of 2009 (Recovery Act)-funded Broadband Technology Opportunities
            Program (BTOP) awards, a $3.8 billion program, require oversight as they are closed out.




            FINAL REPORT NO. OIG-14-002                                                                       30




 204    FY 2013 AGENCY FINANCIAL REPORT
                                                  APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL

We have identified five key areas for management attention:
•  Responding to concerns of mismanagement and ethical violations
•  Implementing stricter controls over funds
•  Modernizing the enterprise financial management system to strengthen financial oversight
•  Strengthening controls over high-risk contract actions and developing the acquisition
    workforce
•  Addressing grant management issues

Responding to Concerns of Mismanagement and Ethical Violations

According to the Office of Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Control, federal departments’ managements are responsible for
establishing, maintaining, implementing, and continuously monitoring and improving internal
control systems. Each year, in the Department’s financial statement audit, the Secretary and
other management officials certify their responsibility for the design and implementation of
programs and controls to prevent, deter, and detect fraud. OIG’s compliance and ethics hotline
has helped the Department make progress toward this responsibility.

Addressing Hotline Complaints

OIG operates a hotline for employees and members of the public to report information about
alleged wrongdoing, misconduct, waste, or mismanagement. Many hotline complaints become
the basis of OIG audits and investigations. Complaints that detail management issues are
provided promptly to Departmental and bureau leadership for inquiry and action. These
referrals provide Departmental leadership with information regarding possible issues with their
programs and operations and an opportunity to confront discrete issues before they develop
into larger problems.

Over the past year, bureaus have worked closely with OIG to look into and resolve many
management issues raised through OIG’s hotline. Timely and thorough action to resolve these
issues helps to create a culture of compliance and accountability in the Department. Examples
of successful efforts to resolve such problems during FY 2013 include:

       In March 2013, the National Oceanic and Atmospheric Administration (NOAA)
        confirmed information provided by OIG indicating that a team of university researchers
        had been improperly occupying space in a federal facility, subjecting NOAA to potential
        security and appropriations law issues. NOAA informed OIG that it discovered eight
        university employees improperly occupying space in a research facility since 2009 and,
        because an official agreement could not be reached with the university, the team
        vacated that space.
       In November 2012, the Department, working through OIG’s complaint process, looked
        into and confirmed that an employee, using the identity of a former employee, applied
        for and received a Department of Commerce ID badge. The individual, granted access
        to a federal facility under a false identity, proceeded to access the facility using the


FINAL REPORT NO. OIG-14-002                                                                     31




                                                                                                     205
                                                            FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

                    assumed identity repeatedly after normal business hours. The individual, when
                    confronted by Department officials, lied about this activity and later resigned.
                    In January 2013, NOAA looked into, and substantiated, an OIG hotline allegation that
                    employees in NOAA's Office of Marine and Aviation Operations (OMAO) sold scrap
                    metal and expired pharmaceutical drugs and used the money to fund an employee social
                    group. In November 2012, OMAO issued new policy and procedures to address the
                    issues discovered during this inquiry to prevent future recurrence. NOAA is in the
                    process of recovering almost $43,000 for return to the Treasury.

            While the Department’s management has increased its capacity and ability to deal with hotline
            complaints, employees and members of the public have provided an increasing volume of
            complaints to OIG. During FY 2013, OIG received 600 Department-related complaints, a 14
            percent increase over the previous year (526 complaints). Figure 9 shows the total volume of
            Department-related complaints over FYs 2012–2013; in FY 2013, 39 percent of total
            complaints related to NOAA.

                            Figure 9. Department-Related Complaints Received by OIG
                                (First Quarter, FY 2012–Fourth Quarter, FY 2013)




            Source: OIG (October 2013 data)

            In order to continue managing potential issues and resolving problems, Departmental
            management must remain vigilant in its efforts to seriously look into and address hotline
            complaints.




            FINAL REPORT NO. OIG-14-002                                                                     32




 206    FY 2013 AGENCY FINANCIAL REPORT
                                                   APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL

Results from OIG Investigations

In addition to awarding funds to contractors and grantees, Departmental management is
responsible for providing oversight and ensuring that these funds are properly spent. The
following examples from OIG investigations underscore the need for stronger controls and
more vigilant oversight to prevent fraud, waste, and abuse within the Department and among
its grant recipients and contractors:
       Two former executive directors of the Alaska Eskimo Whaling Commission were
        sentenced to 41 months and 6 months in prison, respectively, for their roles in
        defrauding the commission, a NOAA grantee, by money laundering and embezzlement.
        One of the former executive directors was convicted of misapplying almost $400,000 in
        funds from the Commission.
       An engineering consultant on a National Telecommunications and Information
        Administration (NTIA) grant pled guilty to a felony count of theft of grant funds, which
        the consultant used for personal purposes. The consultant—who pled guilty and was
        sentenced to serve almost 4 months in jail—agreed to repay the Department of
        Commerce and the Indian Health Service more than $240,000 in restitution.

       Former employees of the Upper Cumberland Development District in Tennessee, an
        Economic Development Administration (EDA) grantee, were indicted and await trial for
        substantial theft of government property, bank fraud, and an unlawful monetary
        transaction, as well as making false statements.

Implementing Stricter Controls over Funds

In response to hotline complaints about mismanagement of appropriated funds within National
Oceanic and Atmospheric Administration’s (NOAA’s) National Weather Service (NWS) in
2010 and 2011, the Department conducted a review that highlighted mismanagement of
budgetary resources throughout NWS, including specific instances where accounting records
were manipulated and the Antideficiency Act (ADA) was violated. The Department’s review,
Internal Inquiry into Alleged Mismanagement of Funds at National Weather Service (May 11, 2012),
found significant management, leadership, budget, and financial control problems at NWS.
Further, the Department’s independent auditor reported a material weakness in internal
controls over financial reporting in FY 2012, in part because NWS circumvented budgetary
controls by inappropriately moving expenses between accounts to prevent budget authority
from being exceeded.

Addressing Issues Related to the Unauthorized Reprogramming of Funds

Following the release of the May 11, 2012 report, then-Deputy Secretary Rebecca Blank and
then-Under Secretary of Commerce for Oceans and Atmosphere Jane Lubchenco issued
separate decision memorandums on May 24, 2012. Their memorandums required a total of 20
specific actions for correcting the conditions that led to the report’s findings, including audits,
organizational reporting adjustments, and budget formulation and execution process changes. In
a recent review of these actions, we found that the Department and NOAA have taken steps
to address the findings identified in the Department’s internal inquiry and completed many


FINAL REPORT NO. OIG-14-002                                                                        33




                                                                                                        207
                                                             FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL

            action items, but additional work is needed to complete several key action plan items and
            ensure proper stewardship of funds and compliance with laws and regulations. Continued
            Departmental leadership attention is essential to ensuring a culture of transparency,
            accountability, and effective oversight.

            Modernizing the Enterprise Financial Management System to Strengthen Financial
            Oversight

            The financial control problems at NWS highlight the Department’s need to implement stricter
            control over funds Department-wide. A lack of centralized data systems poses reporting and
            oversight challenges to the Department, such as effectively reporting financial data and
            monitoring financial activity across its bureaus.

            The Department and most of its bureaus use a financial system developed with aging technology
            and augmented with in-house software that is increasingly difficult to maintain. This system
            currently addresses core financial accounting, financial management, grants management,
            acquisition management, and property management. However, limitations such as high support
            costs and a lack of system integration and lack of centralized reporting capability impede the
            Department’s ability to oversee and manage Department-wide financial activities.

            The Department plans to replace these legacy systems—collectively known as the Commerce
            Business System (CBS)—with Business Application Solutions (BAS), a commercially available
            system, by FY 2018. While the Department has provided OIG with regular updates on the
            status of this modernization project, significant challenges remain:

                   The implementation timetable is aggressive. The Department plans to implement the BAS
                    component that handles the bulk of financial statement reporting at NOAA, the Census
                    Bureau, and NIST—the only 3 bureaus that use CBS—in stages. Its aim is to complete
                    NOAA by the end of FY 2015, the Census Bureau by the end of FY 2016, and NIST by
                    the end of FY 2017. This modernization affects multiple bureaus and will involve defining
                    new system requirements and identifying potential changes to business operations and
                    processes across the Department.

                   The Census Bureau’s successful conversion is critical to its 2020 decennial readiness. The
                    Census Bureau plans to implement BAS by the end of FY 2016. Any delays to this time
                    frame could necessitate pushing back the implementation dramatically. Having a
                    functional financial system in place prior to the 2020 decennial will be critical, as the
                    decennial will likely monopolize available resources.

                   The Department plans to host the system with a shared-service provider instead of hosting it
                    internally. The existing system is currently hosted and managed internally at each of the
                    three bureaus that utilize CBS. Following OMB’s strategy for federal financial
                    management systems, the Department plans to use the Department of Transportation
                    Enterprise Service Center, which has been designated a “Center of Excellence”
                    provider. As the Department moves to using this external shared-service provider, it
                    faces the challenge of adapting to a new accounting environment within its bureaus and a
                    modified role in responding to necessary system changes.


            FINAL REPORT NO. OIG-14-002                                                                          34




 208    FY 2013 AGENCY FINANCIAL REPORT
                                                     APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL

       CBS modernization will result in BAS, but there will continue to be separate component systems
        that will require interfacing with BAS. For example, CBS modernization will not integrate
        the U.S. Patent and Trademark Office and National Technical Information Service
        financial systems into BAS. Also, NOAA’s grants management system, which will serve
        all bureaus, will remain a separate system—although the plan is to interface the grants
        management system with BAS. The current acquisition system will be replaced with a
        system that will be integrated into BAS.

       The modernization requires adequate funding. Inadequately funding the modernization
        project could result in implementation delays—and in the Department being forced to
        continue using its legacy systems for longer than anticipated. This would lead to a much
        longer delay at the Census Bureau—which, constrained by decennial responsibilities,
        would take longer to begin focusing on its migration to BAS. As a result, the Bureau
        would need to maintain both the new and old systems concurrently.

Strengthening Controls over High-Risk Contract Actions and Developing the Acquisition
Workforce

In FY 2012, the Department obligated about $2.4 billion for goods and services that include
satellite acquisitions, intellectual property protection, broadband technology opportunities,
management of coastal and ocean resources, information technology, and construction and
facilities management. Although the Department’s requirements have not diminished, available
funding resources likely will. Continuing to address high-risk contracts and maintaining a
qualified acquisition workforce will enable better management of the Department’s day-to-day
spending.

Incurring Risk from the Use of High-Risk Contracts

In July 2009, the Office of Management and Budget’s (OMB’s) Office of Federal Procurement
Policy issued contracting guidance to chief acquisition officers and senior procurement
executives. The guidance—stating that time and materials/labor hour (T&M/LH) contracts, cost-
reimbursement contracts, and noncompetitive contracting pose special risks of overspending
(see table 6)—directed agencies to reduce by at least 10 percent the use of high-risk
contracting authorities for new contract actions. For FY 2012, the Department reported that it
exceeded its goals in reducing the dollar amount of high-risk contracts, and it continues to
track its goal based on OMB’s 2009 guidance. However, our audit results indicate that a critical
challenge remains in the use of high-risk contracts such as T&M/LH contracts.




FINAL REPORT NO. OIG-14-002                                                                         35




                                                                                                         209
                                                               FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                                                             OFFICE OF INSPECTOR GENERAL

                                                                           Table 6. High-Risk Contracts
            Type of Contract                                                            Definition                      High-Risk Factor
                                                                            These contracts require
                                                                            contractors to provide their best
                                                                            effort to accomplish contract
                                                                            objectives up to the maximum
                                                                                                                 The contractor’s profit is tied to
                                                                            number of hours authorized.
                                                                                                                 the number of hours worked. As
            T&M/LH                                                          Each hour of work authorizes a
                                                                                                                 a result, these contracts pose a
                                                                            contractor to charge the
                                                                                                                 risk of overspending.
                                                                            government an established labor
                                                                            rate, which includes profit, along
                                                                            with reimbursement for the
                                                                            actual cost of materials used.
                                                                                                                 Under this contract type, the
                                                                            This type of contract provides       contractor has minimal
                                                                            for payment of allowable             responsibility for the
            Cost Reimbursement
                                                                            incurred costs, to the extent        performance costs. There is no
                                                                            prescribed in the contract.          incentive for the contractor to
                                                                                                                 control costs.
                                                                                                                 The government enters (or
                                                                                                                 proposes to enter) into
                                                                            These procurements are
                                                                                                                 purchases of supplies or services
                                                                            awarded to a single contractor
            Noncompetitive Contracts                                                                             after soliciting and negotiating
                                                                            without requiring any
                                                                                                                 with only one source. There is
                                                                            competition.
                                                                                                                 no direct market mechanism for
                                                                                                                 setting the contract price.
            Source: OIG

            In a report issued in November 2013,40 we reported weaknesses in the awarding and
            administering of T&M/LH contracts. We found that Departmental contracting officers did not
            award T&M/LH contract actions in accordance with the requirements of the Federal
            Acquisition Regulation and the Commerce Acquisition Manual. T&M/LH contracts are
            considered high risk because the contractor’s profit is tied to the number of hours worked. We
            also noted that contract actions in our sample were incorrectly coded in the Federal
            Procurement Data System (FPDS).

            The Department’s challenge is to better monitor and evaluate its T&M/LH contracts through
            the acquisition review board and investment review board processes, which are used to
            manage the Department’s major acquisitions of goods and services. A further challenge it faces
            is to improve the processes for entering accurate and complete data in FPDS. Effective
            implementation of the Department’s measures will be crucial to ensuring that the Department
            properly awards, administers, and reports high-risk T&M/LH contracts.



                                                                        
            40
               DOC OIG, November 8, 2013. The Department’s Awarding and Administering of Time-and-Materials and Labor-Hours
            Contracts Needs Improvements, OIG-14-001-A. Washington, DC: OIG.


            FINAL REPORT NO. OIG-14-002                                                                                                          36




 210    FY 2013 AGENCY FINANCIAL REPORT
                                                               APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL

Needing a Sufficiently Staffed and Qualified Acquisition Workforce

In a March 2009 memorandum,41 the President acknowledged that the federal government must
maintain the workforce needed to carry out robust and thorough oversight of contracts to help
program management achieve goals, avoid significant overcharges, and curb wasteful spending.
However, the Department’s acquisition workforce faces major challenges to its capacity and
capability to oversee and manage contracts because of budget constraints and uncertainties
affecting recruitment. Although the Department has 215 contracting officers and specialists, 15
more than projected, it could face an attrition of 70 retiring members by the end of 2014. Many
of the bureau procurement officer corps consider the potential loss of approximately one-third
of the workforce through attrition a catastrophic risk to their ability to support the
Department’s mission. To develop mid-level staff under current budget conditions, the
Department needs to continue recruitment at the entry levels and seek to retain that staff at
higher certification levels.

Addressing Grant Management Issues

OIG also provides oversight of the Department’s management of more than 70 programs
authorized to award grants or cooperative agreements. Each program has its own rules,
regulations, and eligibility requirements. For the period July 1, 2010–June 30, 2013, these
programs issued approximately 4,353 awards amounting to $6.5 billion. We review an average
of 340 finding reports a year; of those, about 7–8 percent will have significant procedural or
internal control findings.

Tightening Controls over Use of Federal Funds by Award Recipients

Grant oversight requires that recipients of awards meeting certain dollar thresholds submit
either a Circular A-133 single audit report or a program-specific audit report. These types of
awards pose particular oversight challenges for the Department. OIG continues to review these
audit reports to identify trends in findings across bureau programs, as well as to monitor
whether findings are resolved in a timely manner.

Table 7 presents averages of the single audit and program-specific audit reports that OIG
reviewed during the period July 1, 2010–June 30, 2013, the number of material findings, and
amounts of questioned costs and funds to be put to better use reported. We have noted a
problematic indicator in the Economic Development Administration’s (EDA’s) revolving loan
fund program, NTIA’s BTOP, and the National Institute of Standards and Technology’s (NIST’s)
Advanced Technology/Technology Innovation Program. The most common types of findings
across all Departmental programs involved violations of reporting requirements (e.g., deficient,
late, or unfiled reports); noncompliance with cost principles pertaining to allowable costs;
inadequate preparation of financial statements; the lack of, inadequate, or deficient internal
control policies concerning segregation of duties; and not following, lacking, or having deficient
policies and procedures on cash management. It is important that all Departmental program
and grants management offices review these findings and implement internal controls to address
                                                            
41
   The White House, Office of the Press Secretary, March 4, 2009, “Memorandum for the Heads of Executive
Departments and Agencies: Government Contracting.”


FINAL REPORT NO. OIG-14-002                                                                                37




                                                                                                                211
                                                                     FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                                          OFFICE OF INSPECTOR GENERAL

            the root causes of the findings, which may require program or grant operations changes in
            order to improve grant recipients’ compliance with laws and regulations.

                      Table 7. Analysis, by Bureau, of OIG-Reviewed Single Audit Reports:
                          Annual Average (from July 1, 2010, Through June 30, 2013)a

                                                        Reports
                                                                                                      Funds Put
                                           Reports        with        Material      Questioned
                           Bureau                                                                     to Better
                                          Reviewed      Material      Findings        Costsc
                                                                                                        Used
                                                        Findingsb

                           EDA               105              7           20            1,154            1,990
                           NOAA               43              4           13            2,269                0
                           NTIA               46              5           20            1,441                0
                           NIST               76            10            23            1,045               96
                           Othere             72              0             0               0                0
                            TOTAL            342            26            76           5, 909            2,086

                          Source: OIG
                          a
                            The table does not include less significant procedural or internal control findings, the
                          resolution of which OIG does not monitor; b material findings are those with
                          questioned costs greater than or equal to $10,000 and/or significant nonfinancial
                          findings; c questioned costs, shown here in thousands of dollars, are subject to change
                          during the audit resolution/appeal process; d funds to be put to better use, shown here
                          in thousands of dollars, are subject to change during the audit resolution/appeal
                          processes; e other includes the International Trade Administration (ITA), the Minority
                          Business Development Agency (MBDA), and multiple, which are single audit reviewed
                          programs from more than one bureau.

            To improve controls over award recipients’ use of federal funds, bureaus need to review these
            single audit and program-specific audit reports and take action on the report findings.
            Maintaining Focus on the Broadband Technology Opportunities Program (BTOP) Through Grant
            Closeouts

            With approximately $3.8 billion in grant awards, BTOP—funded by the Recovery Act—
            represents the Department’s largest grant program. As of August 31, 2013, about 20 percent of
            BTOP funds remain to be disbursed. As these projects near their completion dates (as of
            June14, 2013, only 7 of approximately 230 projects had been closed, with another 36 in the
            closeout process), the potential lingers for fraud, waste, and abuse associated with such large-
            dollar-amount awards (many of which are more than $25 million). Management must remain
            committed to monitoring BTOP recipient compliance with grant award terms and achievement
            of intended benefits. Awards for which the grantee has requested extensions to complete
            projects also merit close attention.

            The audit closeout process—how the award recipient and the grants office ensure that project
            activity is complete and the award recipient has met all the requirements under applicable laws,
            regulations, OMB circulars, and award terms and conditions—calls for particular attention.


            FINAL REPORT NO. OIG-14-002                                                                                  38




 212    FY 2013 AGENCY FINANCIAL REPORT
                                                               APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                                          OFFICE OF INSPECTOR GENERAL

OIG’s ongoing work indicates that the completion dates for many of the awards (112 as of
September 13, 2013) have been extended and the BTOP award closeout process (a) is taking
longer than expected, particularly with infrastructure projects and (b) could be improved by
strengthening closeout policies and procedures and ensuring the consistent implementation of
those policies and procedures in place.

Potential consequences of not strengthening the closeout process at NTIA and the grants
offices (NOAA and NIST) supporting NTIA in the implementation of BTOP include an
increased likelihood that grants are closed without (a) obtaining and reviewing all required
closeout documentation and determining that all award activity was completed and laws and
regulations were complied with or (b) ensuring that the federal government’s interest in BTOP
property was protected. In addition, the closeout process should help identify unused funds or
funds not used in compliance with grant terms—both of which must be returned to the
government. NTIA, NOAA, and NIST, in responding to our September 23, 2013, draft report,
concurred with our findings and identified improvements they had taken or were in the process
of taking to strengthen the closeout process.

Maintaining a Professionally Certified Grants Management Workforce

The quality and effectiveness of the grants management process depends on the development
and maintenance of a qualified workforce. The Department’s grants management office (GMO)
and grants program office (GPO) personnel have a fiduciary responsibility to manage resources
appropriately, with assurance that proposed work is feasible and has verifiable merit. However,
unlike acquisitions personnel, the approximately 1,119 personnel who monitor grants and
cooperative agreements do not maintain their professional education through a formal,
standardized certification program.

In October 2008, the Office of Personnel Management initiated a government-wide study to
identify critical competencies for grants management work. Based on this effort, the Grants
Policy Committee42 developed a set of competencies for grants personnel serving as officers,
government technical representatives, and program office staff. The resulting competency
model forms the foundation upon which the Department based its Grants Management
Certification Program43—which, once implemented,44 would establish policies and procedures
for certification of GMO and GPO personnel. 




                                                            
42
   The Chief Financial Officers Council, which represents the 24 largest federal agencies, established a Grants Policy
Committee to lead implementation of Public Law 106-107. With OMB providing oversight and technical assistance,
the Committee’s workgroups of agency staff work to accomplish the grants streamlining required by the
legislation.
43
   The GMCP develops and maintains a Departmental grants workforce through a formal, standardized grants
education and certification program. Through the program, the grants workforce learns federal and Departmental
requirements and regulations, as well as grants management best practices.
44
   The implementation of this important initiative may be delayed if bureaus do not have adequate funds for
training.



FINAL REPORT NO. OIG-14-002                                                                                          39




                                                                                                                          213
                                                                          FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                          OFFICE OF INSPECTOR GENERAL


            Acronym List
            ACS              American Community Survey

            AIA              America Invents Act

            BAS              Business Application Solutions

            BIS              Bureau of Industry and Security

            BTOP             Broadband Technology Opportunities Program

            CBS              Commerce Business System

            CIO              Chief Information Officer

            CPEX             Census Program Evaluation and Experiments

            DOC CIRT         Department of Commerce Computer Incident Response Team

            ECMO             Enterprise Cybersecurity and Monitoring Operations

            EDA              Economic Development Administration

            ESOC             Enterprise Security Oversight Center

            FirstNet         First Responder Network Authority

            FMC              fishery management council

            FPDS             Federal Procurement Data System

            FY               fiscal year

            GMO              grants management office

            GOES-R           Geostationary Operational Environmental Satellite–R series

            GPO              grants program office

            GSS              Geographic Support System

            HCHB             Herbert C. Hoover Building

            IT               information technology

            ITA              International Trade Administration



            FINAL REPORT NO. OIG-14-002                                                                  40




 214    FY 2013 AGENCY FINANCIAL REPORT
                                                       APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL

JPSS             Joint Polar Satellite System

MAF              Master Address File

MHz              megahertz

NASA             National Aeronautics and Space Administration

NEI              National Export Initiative

NIST             National Institute of Standards and Technology

NMFS             National Marine Fishery Service

NOAA             National Oceanic and Atmospheric Administration

NPP              National Polar-orbiting Partnership

NTIA             National Telecommunications and Information Administration

NWS              National Weather Service

OIG              Office of Inspector General

OMB              Office of Management and Budget

PSBN             Public Safety Broadband Network

R&T              research and testing

RCE              request for continued examination

T&M/LH           time and materials/labor hour

TIC              Trusted Internet Connection

TIGER            Topologically Integrated Geographic Encoding and Referencing

USPTO            U.S. Patent and Trademark Office




FINAL REPORT NO. OIG-14-002                                                                 41




                                                                                                    215
                                                             FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL


            Appendix A: Related OIG Publications
            This list presents OIG’s past and current work related to FY 2014’s top management
            challenges. These products can be viewed at www.oig.doc.gov. If the product contains
            information that cannot be released publicly, a redacted version or an abstract will be available
            on the website.

            Challenge 1: Strengthen Commerce Infrastructure to Support the Nation’s
            Economic Growth

                   USPTO Successfully Implemented Most Provisions of the America Invents Act, but Several
                    Challenges Remain (OIG-13-032-A, September 30, 2013)
                   U.S. Export Assistance Centers Could Improve Their Delivery of Client Services and Cost
                    Recovery Efforts (OIG-13-010-I, November 30, 2012)

            Challenge 2: Strengthen Oversight of National Oceanic and Atmospheric
            Administration (NOAA) Programs to Mitigate Potential Satellite Coverage Gaps,
            Address Control Weaknesses in Accounting for Satellites, and Enhance Fisheries
            Management

                   Audit of Geostationary Operational Environmental Satellite-R Series: Comprehensive Mitigation
                    Approaches, Strong Systems Engineering, and Cost Controls Are Needed to Reduce Risks of
                    Coverage Gaps (OIG-13-024-A, April 25, 2013)
                   IG’s Testimony on Commerce Department’s FY 2014 Budget Request: Senate
                    Appropriations Committee (OIG-13-023-T, April 11, 2013)
                   Results of Commerce OIG’s Online Survey of Fishery Management Council Members
                    and Staff (OIG-13-022-I, April 5, 2013)
                   Deputy IG’s Testimony on Top Challenges for Science Agencies: House Science, Space,
                    and Technology Committee (OIG-13-018-T, February 28, 2013)
                   NOAA Needs to Continue Streamlining the Rulemaking Process and Improve Transparency and
                    Consistency in Fisheries Management (OIG-13-011-I, January 16, 2013)

            Challenge 3: Continue Enhancing Cybersecurity and Management of Information
            Technology Investments

                   Malware Infections on EDA’s Systems Were Overstated and the Disruption of IT Operations
                    Was Unwarranted (OIG-13-027-A, June 26, 2013)
                   USPTO Deployed Wireless Capability with Minimal Consideration for IT Security (OIG-13-014-
                    A, February 1, 2013)




            FINAL REPORT NO. OIG-14-002                                                                             42




 216    FY 2013 AGENCY FINANCIAL REPORT
                                                     APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




  U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

Challenge 4: Exercise Strong Project Management Controls over 2020 Census
Planning to Contain Costs

       IG’s Testimony on Top Management Challenges Facing the Department of Commerce in
        FY 2013: House Appropriations Committee (OIG-13-019-T, March 5, 2013)
       Letter to Senator Coburn re: Improving the 2020 Census Through Administrative
        Records and Geospatial Information (OIG-13-002-M, October 25, 2012)

Challenge 5: Continue to Foster a Culture of Management Accountability to
Ensure Responsible Spending

       The Department’s Awarding and Administering of Time-and-Materials and Labor-Hours
        Contracts Needs Improvements (OIG-14-001-A, November 8, 2013)
       Status of Departmental Actions to Correct NWS Mismanagement of Funds (OIG-13-029-I,
        September 13, 2013)
       Nonfederal Audit Results for the 6-Month Period Ending June 30, 2013 (OIG-13-030-M,
        September 9, 2013)
       Monitoring of Obligation Balances Needs Strengthening (OIG-13-026-A, June 18, 2013)
       Internal Controls for Purchase Card Transactions Need to Be Strengthened (OIG-13-025-A,
        May 2, 2013)
       FY 2012 Compliance with Improper Payment Requirements (OIG-13-020-I, March 15, 2013)
       Principal Asst. IG’s Testimony on Broadband Stimulus: House Energy and Commerce
        Committee (OIG-13-017-T, February 27, 2013)
       Fourth Annual Assessment of the PSIC Grant Program (OIG-13-016-A, February 22, 2013)
       Nonfederal Audit Results for the 6-Month Period Ending December 31, 2012 (OIG-13-
        015-M, February 11, 2013)
       Proper Classification and Strengthened Monitoring of Subrecipients Are Needed for the
        Broadband Technology Opportunities Program (OIG-13-013-A, January 31, 2013)
       Letter to Chairmen Walden and Shimkus in response to their request to review the
        National Telecommunications and Information Administration’s (NTIA’s) Broadband
        Technology Opportunities Program (BTOP) grant awarded to the Executive Office of
        the State of West Virginia (OIG-13-012-I, January 23, 2013)
       Quarterly Conference Reporting Processes Need Improvement (OIG-13-001-I, October 17,
        2012)




FINAL REPORT NO. OIG-14-002                                                                       43




                                                                                                        217
                                                               FY 2013 AGENCY FINANCIAL REPORT
APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




              U.S. DEPARTMENT OF COMMERCE                                                                 OFFICE OF INSPECTOR GENERAL


            Appendix B: Comparison Between FY 2013
            and FY 2014 Challenges
                                  FY 2014                                                           FY 2013
            Strengthen Commerce infrastructure to support the                 Stimulate economic growth in key industries, increase
            nation’s economic growth:                                         exports, and enhance stewardship of marine fisheries:
                Promoting U.S. exports while protecting national                Growth in manufacturing, intellectual property, and
                 security interests                                               wireless industries
                Enhancing economic growth through intellectual                  Export promotion and regulation
                 property and wireless initiatives                               Protection and promotion of marine fisheries
            Strengthen oversight of National Oceanic and
            Atmospheric Administration (NOAA) programs to
            mitigate satellite coverage gaps, address control                 Increase oversight of resources entrusted by the public
            weaknesses in accounting for satellites, and enhance              and invest for long-term benefits:
            fisheries management:                                                Internal controls and oversight
                Enhancing weather satellite development and mitigating          Investment for long-term benefits
                 potential coverage gaps                                         Design changes to contain 2020 decennial costs
                Addressing material weakness over satellite accounting
                Enhancing fisheries management
            Continue enhancing cybersecurity and management of
            information technology (IT) investments:
               Establishing a robust capability to respond to cyber
                incidents                                                     Strengthen security and investments in IT:
               Continuing sustainable implementation of enterprise                Addressing persistent IT security weaknesses
                cybersecurity initiatives                                          Incident response and recovery capabilities
               Preserving the CIO’s oversight responsibility of satellite-        IT governance for portfolio management
                related IT investments                                             Oversight of IT investments
               Continuing vigilant oversight of IT investments
               Maintaining momentum in consolidating commodity IT
                to cut costs
                                                                              Implement framework for acquisition project
            Exercise strong project management controls over
                                                                              management and improve contract oversight:
            2020 Census planning to contain costs:
                                                                                   Planned framework for acquisition management
               Ensuring timely design decision making
                                                                                   Oversight of high-risk contracts
               Focusing on human capital management, timely
                                                                                   Acquisition workforce maintenance
                research, and testing implementation
                                                                                   Implementation of suspension and debarment program
            Continue to foster a culture of management
            accountability to ensure responsible spending:
               Responding to concerns of mismanagement and ethical           Reduce risks of cost overruns, schedule delays, and
                violations                                                    coverage gaps for NOAA’s satellite programs:
               Implementing stricter controls over funds                          JPSS capabilities, schedule, and costs
               Modernizing the enterprise financial management                    Leadership and governance structure over JPSS
                system to strengthen financial oversight                           Weather forecasting during JPSS coverage gaps
               Strengthening controls over high-risk contract actions             Risks associated with GOES-R development
                and developing the acquisition workforce
               Addressing grant management issues




            FINAL REPORT NO. OIG-14-002                                                                                                 44




 218    FY 2013 AGENCY FINANCIAL REPORT
                                                  APPENDIX B: FY 2014 MANAGEMENT CHALLENGES




MEMORANDUM FOR:               Todd J. Zinzer
                              Inspector General


FROM:                         Penny Pritzker
                              Secretary of Commerce


SUBJECT:                      Response to the OIG Report, “Top Management Challenges
                              Facing the Department of Commerce” in FY2014



Thank you for the opportunity to review the Office of Inspector General’s report, “Top
Management Challenges Facing the Department of Commerce.” Every day the Department’s
bureaus work with American businesses, communities, and private citizens to spur innovation,
promote trade and investment, foster use of data, and ensure production of critical environmental
products and services – and we want to do so in the most effective and efficient way possible.

We are aware that we have challenges in the areas discussed in your report, and we realize that
these areas require continued oversight, planning, and work. To that end, I have directed Ellen
Herbst, our CFO and ASA, to focus on improving our oversight processes and internal controls at
both the bureau and Department levels. Such oversight is critical to the success of our mission.

We look forward to working with you to address the challenges identified in this year’s OIG
report, and we will document our progress in our Agency Financial Report for FY 2014.




                                                                                                    219
                                                           FY 2013 AGENCY FINANCIAL REPORT
A P P E N D I X C : I M P R O P E R P A Y M E N T S I N F O R M AT I O N A C T ( I P I A ) O F 2 0 0 2 , A S A M E N D E D , R E P O R T I N G D E TA I L S




                           I M P R O P E R PAY M E N T S I N F O R M AT I O N A C T ( I P I A ) O F 2 0 0 2 ,

                                                A S A M E N D E D , R E P O R T I N G D E TA I L S




        I
            PIA of 2002, as amended by the Improper Payments Elimination and Recovery Act (IPERA) of 2010 and the Improper
           Payments Elimination and Recovery Improvement Act of 2012, requires agencies to periodically review all programs
           and activities and identify those that may be susceptible to significant improper payments, take multiple actions when
        programs and activities are identified as susceptible to significant improper payments, and annually report information on
        their improper payments monitoring and minimization efforts. Office of Management and Budget (OMB) Circular A-123,
        Appendix C, Requirements for Effective Measurement and Remediation of Improper Payments, provides guidance to
        agencies to comply with IPIA, as amended, and for agency improper payments efforts. The Department has not identified
        any programs or activities susceptible to significant improper payments nor any significant problems with improper
        payments.

        On January 29, 2013, the President signed into law the Disaster Relief Appropriations Act (Act), which provides a total of
        $50.5 billion in aid for Hurricane Sandy disaster victims and their communities. The National Oceanic and Atmospheric
        Administration (NOAA) received $326 million of funds under the Act for Hurricane Sandy recovery and other disaster-
        related activities. Pursuant to OMB Memorandum M-13-07, Accountability for Funds Provided by the Disaster Relief
        Appropriations Act, the Department in March 2013 submitted its final plan for accountability, internal controls, and other
        requirements, for funds provided to NOAA by the Act. The Act sets forth that programs and activities receiving funds
        under the Act shall be deemed to be susceptible to significant improper payments for the purposes of requirements
        under IPIA of 2002, as amended, and are required to calculate and report an improper payments estimate for the FY 2014
        reporting period, to the extent possible. The Department will develop and submit to OMB for its approval a sampling
        methodology plan for funds received under the Act by NOAA, which, when carried out, will result in a NOAA improper
        payments estimate that will be reported for the FY 2014 reporting period.

        The Department recognizes the importance of maintaining adequate internal controls to ensure proper payments, and
        the Department’s commitment to continuous improvement in the overall disbursement management process remains
        very strong. Each of the Department’s payment offices has implemented procedures to detect and prevent improper
        payments. For FY 2014 and beyond, the Department will continue its efforts to ensure the integrity of its disbursements.

        I. Risk Assessment. Briefly describe the risk assessment(s) performed (including the risk factors examined, if
        appropriate) subsequent to completing a full program inventory. List the risk-susceptible programs (i.e., programs
        that have a significant risk of improper payments based on statutory thresholds) identified by the agency risk
        assessments or required by OMB to be included (OMB may determine, on a case-by-case basis, that certain
        programs that do not meet the thresholds requirements may still be subject to the annual reporting requirements).
        Any programs that had been previously identified in the former Section 57 of OMB Circular A-11, Preparation,
        Submission, and Execution of the Budget, shall continue to report improper payment estimates, unless OMB
        has granted relief from reporting requirements (as discussed in OMB Circular A-123, Appendix C). Highlight any
        changes to the risk assessment methodology or results that occurred since the last report.

        The Department annually conducts an assessment of the effectiveness of internal control over financial reporting, in
        compliance with OMB Circular A-123, Management’s Responsibility for Internal Control. Furthermore, every three years,
        the assessment includes a review of internal controls over disbursement processes. The most recent review performed
        indicated that internal controls over disbursement processes were sound.



  220         FY 2013 AGENCY FINANCIAL REPORT
A P P E N D I X C : I M P R O P E R P A Y M E N T S I N F O R M AT I O N A C T ( I P I A ) O F 2 0 0 2 , A S A M E N D E D , R E P O R T I N G D E TA I L S




Each of the Department’s bureaus/reporting entities periodically completes or updates, over a one to three-year period
(depending on the size of the entity), improper payments risk assessments covering all of its programs/activities as required
by OMB Circular A-123, Appendix C. These improper payments risk assessments of the entity’s programs/activities
also include assessments of the control, procurement, and grants management environments. The improper payments
program/activity risk assessments performed thus far revealed no program or activity susceptible to significant improper
payments.

The results of Departmental assessments revealed no risk-susceptible programs/activities, and demonstrated that, overall,
the Department has strong internal controls over disbursement processes, the amount of improper payments by the
Department is immaterial, and the risk of significant improper payments is low.


II. Statistical Sampling. Any agency that has programs or activities that are susceptible to significant improper
payments shall briefly describe the statistical sampling process conducted to estimate the improper payment
rate for each program identified with a significant risk of improper payments. Please highlight any changes to the
statistical sampling process that have occurred since the last report.

As discussed previously, the Department will develop and submit to OMB for its approval a sampling methodology plan
for funds received by NOAA under the Disaster Relief Appropriations Act, which, when carried out, will result in a NOAA
improper payment estimate that will be reported for the FY 2014 reporting period.



III. Corrective Actions. Any agency that has programs or activities that are susceptible to significant improper
payments shall describe the corrective action plans for:

   a.	 Reducing the estimated improper payment rate and amount for each type of root cause identified. Agencies
       shall report root cause information (including error rate and error amount) based on the following three
       categories: Administrative and Documentation errors; Authentication and Medical Necessity errors; and
       Verification errors. This discussion must include the corrective action(s), planned or taken, most likely to
       significantly reduce future improper payments due to each type of error an agency identifies, the planned or
       actual completion date of these actions, and the results of the actions taken to address these root causes.
       If efforts are ongoing, it is appropriate to include that information in this section, and to highlight current
       efforts, including key milestones. Agencies may also report root cause information based on additional
       categories, or sub-categories of the three categories listed above, if available.

   b.	Grant-making agencies with risk-susceptible grant programs shall briefly discuss what the agency has
      accomplished in the area of funds stewardship past the primary recipient. Discussion shall include the
      status of projects and results of any reviews.

There is not a need for corrective actions plans, as of December 2013, for funds received by NOAA under the Disaster
Relief Appropriations Act. While the Department does not have a current need for corrective actions for improper payments
for risk-susceptible programs/activities, the Department has, nevertheless, further enhanced its processes and is actively
working with each of the Department’s payment offices to identify and implement additional procedures to prevent and
detect improper payments. In FY 2013, the Department continued with the bureaus’ quarterly reporting of any improper
payments to the Deputy Chief Financial Officer (CFO), along with identifying the nature and magnitude of any improper
payments and identifying any necessary control enhancements. The Department has additionally reviewed all financial



                                                                                                                                                    221
                                                                                          FY 2013 AGENCY FINANCIAL REPORT
A P P E N D I X C : I M P R O P E R P A Y M E N T S I N F O R M AT I O N A C T ( I P I A ) O F 2 0 0 2 , A S A M E N D E D , R E P O R T I N G D E TA I L S




        statement audit findings/comments and results of any other payment reviews for indications of breaches of disbursement
        controls. None of these audit findings/comments or reviews have uncovered any significant problems with improper
        payments or the internal controls that surround disbursements.

        In 2013, the Department conducted a sampling process to draw and review random samples of disbursements from a
        Department-wide universe of disbursements. Grants and other cooperative agreements, travel payments, bankcards/
        purchase cards, all procurement vehicles with other federal agencies, government bills of lading, and gifts and bequests
        were excluded from review. Each selected sample item was then subjected to a review of invoices and supporting
        documentation to determine that the disbursement was accurate, made only once, and that the correct vendor was
        compensated. The results of the Department’s review did not reveal any improper payments. The same results were
        achieved following a similar review in 2012.


        IV. Recapture of Improper Payments Reporting.

           a.	An agency shall discuss payment recapture audit efforts, if applicable. The discussion should describe:
              the agency’s payment recapture audit program; the actions and methods used by the agency to recoup
              overpayments; a justification of any overpayments that have been determined not to be collectable; and any
              conditions giving rise to improper payments and how those conditions are being resolved (e.g., the business
              process changes and internal controls instituted and/or strengthened to prevent further occurrences). If the
              agency has excluded any programs or activities from review under its payment recapture auditing program
              (including any programs or activities where the agency has determined a payment recapture audit program
              is not cost-effective), the agency should list those programs and activities excluded from the review, as
              well as and the justification for doing so (i.e., a discussion of the analysis conducted to determine that a
              payment recapture audit program would not be cost-effective). Include in your discussion the dollar amount
              of cumulative payment recaptures collected beginning with FY 2004.

        In conformity with IPIA of 2002, the Department has been performing, since 2005, payment recapture audits of closed
        contracts/obligations for many of the Department’s bureaus/reporting entities on a rotational basis. The payment recapture
        audits were performed by a contractor or by the Department’s Office of Financial Management. Payment recapture audits
        of contracts/obligations on a rotational basis will continue to be performed. Since 2005, cumulative recapture of improper
        payments is $96 thousand. Effective FY 2012, the scope of payment recapture audits of contracts/obligations has been
        expanded to additionally include contracts/obligations for which the period of performance ended and last payment was
        made, but for which the closeout process has not yet been completed.

        As a result of the Department’s implementation of additional requirements under IPERA of 2010, payment recapture
        auditing is additionally performed, effective FY 2011, for the Department’s grants and other cooperative agreements
        (i.e., financial assistance). Per OMB’s IPERA implementation guidance, intragovernmental transactions and payments to
        employees are not required to be reviewed. With regard to loan disbursements, NOAA is currently the only bureau with
        loan disbursements. As part of NOAA’s internally-conducted reviews and testing processes, NOAA loan disbursements
        are significantly tested every three years for both internal controls and improper payments, and the disbursements testing
        for improper payments is considered to be essentially equivalent to a payment recapture audit. With regard to the NOAA
        Corps Retirement System and the NOAA Corps Health Benefits benefit programs, these programs are cross-serviced
        for disbursements by the Department of Defense, and therefore are not subject to payment recapture auditing by the
        Department.




  222         FY 2013 AGENCY FINANCIAL REPORT
A P P E N D I X C : I M P R O P E R P A Y M E N T S I N F O R M AT I O N A C T ( I P I A ) O F 2 0 0 2 , A S A M E N D E D , R E P O R T I N G D E TA I L S




For payment recapture audits of contracts/obligations and grants and other cooperative agreements, the auditor analyzes
the reasons why any payment errors occurred, and develops, presents, and documents any recommendations for cost-
effective controls to prevent improper payments in the future; and for enhancing the applicable bureau processes.

In November 2012, payment recapture audits of contracts/obligations were completed by an independent contractor for
the Census Bureau and the Franchise Fund. Contracts/obligations greater than $100 thousand, which were closed out,
or for which the period of performance ended and last payment was made but for which the closeout process has not yet
been completed, after September 30, 2009 and through April 30, 2012, were reviewed. Intragovernmental transactions
and payments to employees were excluded from review in conformity with OMB’s IPERA implementation guidance.
Travel payments, bankcards/purchase cards, government bills of lading, and gifts and bequests were also excluded from
review. The Department determined that, for these categories of transactions, the Department’s costs for the payment
recapture audit activities would likely exceed the benefits of a payment recapture audit. As part of the payment recapture
audit, vendor inquiries were performed for a sample of vendors to determine if the reporting entities had any open credits
or debts with those vendors. Of the $277.8 million reviewed, no amounts were identified for payment recapture.

In December 2013, payment recapture audits of contracts/obligations were completed by an independent contractor
for the National Institute of Standards and Technology (NIST) and NOAA. Contracts/obligations greater than $100
thousand, which were closed out, or for which the period of performance ended and last payment was made but for
which the closeout process has not yet been completed, after April 30, 2012 and through March 31, 2013, were reviewed.
Intragovernmental transactions and payments to employees were excluded from review in conformity with OMB’s IPERA
implementation guidance. Travel payments, bankcards/purchase cards, government bills of lading, and gifts and bequests
were also excluded from review. The Department determined that, for these categories of transactions, the Department’s
costs for the payment recapture audit activities would likely exceed the benefits of a payment recapture audit. As part
of the payment recapture audit, vendor inquiries were performed for a sample of vendors to determine if the reporting
entities had any open credits or debts with those vendors. Of the $48.5 million reviewed, $91 thousand was identified
for payment recapture.

In December 2013, a payment recapture audit of Department-wide grants and other cooperative agreements was
completed by an independent contractor. The applicable bureaus/entities are: Departmental Management, Economic
Development Agency (EDA), International Trade Administration (ITA), Minority Business Development Administration
(MBDA), NIST, NOAA, and National Telecommunications and Information Administration (NTIA). The audit consisted
of two different populations: 1) sustained disallowed costs of $10 thousand or more for grants and other cooperative
agreements per Single Audit Act audit reports, grant/cooperative agreement-specific audits, and Office of Inspector
General (OIG) audits or reviews, issued between May 1, 2012 and through March 31, 2013; and 2) grants and other
cooperative agreements for which the period of performance expired during the timeframe of February 1, 2012 through
December 31, 2012, and greater than $100 thousand, and which were not subjected to any of the types of audits or
reviews indicated in item 1) above. Of the $429.0 million reviewed, no amounts were identified for payment recapture.




                                                                                                                                                    223
                                                                                          FY 2013 AGENCY FINANCIAL REPORT
A P P E N D I X C : I M P R O P E R P A Y M E N T S I N F O R M AT I O N A C T ( I P I A ) O F 2 0 0 2 , A S A M E N D E D , R E P O R T I N G D E TA I L S




            b.	 Payment Recapture Audits Reporting Data.

        The following table presents a summary of results of the Department’s payment recapture audits that are reportable in
        FY 2013 (CY) and that was reportable in prior fiscal years (PYs).

        (In Thousands)

                                                                                                                               Cumulative
                                                                 Amounts                        Amounts                          Amounts
                                  Amount          Actual        Identified                     Identified                       Identified Cumulative
                                 Subject to       Amount       for Payment      Amounts            for         Amounts             for      Amounts
                                 Review for      Reviewed       Recapture      Recaptured      Recapture      Recaptured       Recapture Recaptured
                                    CY             for CY         for CY         for CY          in PYs         in PYs        (CY and PYs (CY and PYs
         Reporting Entity(s)     Reporting       Reporting      Reporting       Reporting      Reporting       Reporting       Reporting)  Reporting)
         Payment Recapture Audits of Department-wide Grants and Other Cooperative Agreements:
         Department-wide
         2013 Audit               $	1,247,808     $428,954       $	–                N/A             N/A        	N/A            	N/A            	N/A
         Department-wide
         2012 and 2011
         Audits                       N/A            N/A            N/A             N/A        $	      –       	N/A            $	      –       	N/A
         Payment Recapture Audits of Contracts/Obligations:
         NIST and NOAA            $	812,215        $48,525       $	57           $	–            	N/A            	N/A            $	57            $	     –
         Census Bureau
         and Franchise
         Fund                     $1,805,658      $277,825       $	–            	N/A           	N/A            	N/A            	N/A            	N/A
         OIG, MBDA, and
         USPTO                     	N/A           	N/A           	N/A           	N/A           $	–             	N/A            $	–             	N/A
         NTIA                      	N/A           	N/A           	N/A           	N/A           $	–             	N/A            $	–             	N/A
         BIS and NTIS              	N/A           	N/A           	N/A           	N/A           $	      6       	N/A            $	6             	N/A
         EDA/S&E and ITA           	N/A           	N/A           	N/A           	N/A           $	–             	N/A            $	–             	N/A
         DM/S&E, DM/WCF,
         and ESA/BEA              	N/A            	N/A           	N/A           	N/A           $	–             	N/A            $	–             	N/A
         Census Bureau,
         NIST, NOAA, and
         USPTO                    	N/A            	N/A           	N/A           	N/A           $	     96       $	    96        $	    96        $	    96
         N/A – Not applicable




  224         FY 2013 AGENCY FINANCIAL REPORT
A P P E N D I X C : I M P R O P E R P A Y M E N T S I N F O R M AT I O N A C T ( I P I A ) O F 2 0 0 2 , A S A M E N D E D , R E P O R T I N G D E TA I L S




   c.	 Payment Recapture Audit Targets. If an agency has a payment recapture audit program in place, then the
       agency is required to establish annual targets to drive their annual performance. The targets shall be based
       on the rate of recapture. Agencies are expected to report current fiscal year amounts and rates, as well as
       recapture rate targets for three fiscal years.

The Department’s target payment recapture rate is 100 percent of amounts identified for recapture. Since 2005, the
Department has recaptured $96 thousand of the $102 thousand identified for payment recapture in prior fiscal years’
reporting, and the remaining $6 thousand identified for payment recapture was subsequently determined by the
Department to be proper payments not subject to payment recapture.


   d.	Aging of Outstanding Overpayments. In addition, agencies shall report the following information on
      their payment recapture audit programs, if applicable: An aging schedule of the amount of overpayments
      identified through the payment recapture audit program that are outstanding (i.e., overpayments that
      have been identified but not recaptured). Typically, the aging of an overpayment begins at the time the
      overpayment is detected—please indicate with a note whenever that is not the case.

The Department has recaptured all amounts that were subject to payment recapture in prior fiscal years’ reporting.


   e.	 Disposition of Recaptured Funds. A summary of how cumulative amounts recaptured have been disposed
       of
       (if any of this information is not available indicate by note).

There has not yet been any recapture of overpayments that fall under the new IPERA requirements for disposition of
recaptured funds.


   f.	 Overpayments Recaptured Outside of Payment Recapture Audits. As applicable, agencies should also report
       on improper payments identified and recaptured through sources other than payment recapture audits. For
       example, agencies could report on improper payments identified through: statistical samples conducted
       under IPIA; agency post-payment reviews or audits; OIG reviews; Single Audit reports; self-reported
       overpayments; or reports from the public. Specific information on additional required reporting for contracts
       is included in Section 7 of OMB Memorandum M-11-04, Increasing Efforts to Recapture Improper Payments by
       Intensifying and Expanding Payment Recapture Audits, issued in November 2010. Reporting this information
       is required for FY 2011 reporting and beyond.

The Department has extensive improper payments monitoring and minimization efforts in place beyond payment
recapture audits, including the identification of improper payments through bureau post-payment reviews, OIG audits or
reviews, Single Audit Act audits of grants/cooperative agreements, other grants/cooperative agreements audits, contract
closeout reviews, grants/cooperative agreements closeout reviews, other audits or reviews, and Departmental annual
reviews of sample disbursements.




                                                                                                                                                    225
                                                                                          FY 2013 AGENCY FINANCIAL REPORT
A P P E N D I X C : I M P R O P E R P A Y M E N T S I N F O R M AT I O N A C T ( I P I A ) O F 2 0 0 2 , A S A M E N D E D , R E P O R T I N G D E TA I L S




The following table summarizes the Department’s overpayments identified, and overpayments verified as recaptured, through
sources other than payment recapture audits that are reportable in the current fiscal year (CY) and that was reported in prior fiscal
years (PYs). Prior fiscal years’ amounts represent amounts reported for FY 2011 and FY 2012, as FY 2011 was the first fiscal
year for this reporting requirement.

(In Thousands)

                                                                                                                     Cumulative            Cumulative
                                                                                                                      Amounts               Amounts
                               Amounts               Amounts              Amounts               Amounts               Identified          Recaptured
 Source of                  Identified for CY     Recaptured for       Identified in PYs      Recaptured in         (CY and PYs           (CY and PYs
 Overpayments                  Reporting           CY Reporting           Reporting           PYs Reporting          Reporting)            Reporting)
 Post-payment
 Reviews                       	$ 1,657              	$ 1,423             $	2,516               $	2,251               	$ 4,173             	$ 3,674
 Closeout Reviews              	–                    	–                        611                   611              	611                 	611
 Audits and Other
 Reviews                       	5,836                	1,930                    141                   141              	5,977               	2,071
 Reported by Grantees
 and Vendors                   	1,219                	1,217               	742                  	742                  	1,961               	1,959
 Settlements with
 Vendors                       	440                  	427                      600                   600              	1,040               	1,027
 Other                         	3                    	–                        100                   100              	103                 	100
 Total                         	$ 9,155              	$ 4,997             $	4,710               $	4,445               	$ 13,865            	$ 9,442



V. Accountability. Any agency that has programs or activities that are susceptible to significant improper payments
shall describe the steps the agency has taken and plans to take (including timeline) to ensure that agency managers,
accountable officers (including the agency head), programs, and States and localities (where appropriate), are held
accountable for reducing and recapturing improper payments. Specifically, they should be held accountable for meeting
applicable improper payments reduction targets and establishing and maintaining sufficient internal controls (including
an appropriate control environment) that effectively prevents improper payments from being made and promptly detects
and recaptures any improper payments that are made.

The Department has not identified any significant problems with improper payments; however, the Department recognizes the
importance of maintaining adequate internal controls to ensure proper payments, and its commitment to continuous improvement
in disbursement management processes remains very strong. The Department’s CFO has responsibility for establishing policies
and procedures for assessing Departmental and program risks of improper payments, taking actions to reduce those payments,
and reporting the results of the actions to Departmental management for oversight and other actions as deemed appropriate.
The CFO has designated the Deputy CFO to oversee initiatives related to reducing improper payments within the Department,
and to work closely with the bureau CFOs in this area.

In FY 2013, the Department continued its reporting procedures that required quarterly reporting to the Department by its bureaus
on any improper payments, identifying the nature and magnitude of any improper payments along with any necessary control
enhancements to prevent further occurrences of the types of improper payments identified. The Department’s analysis of the
data collected from the bureaus shows that Department-wide improper payments were at or below one-tenth of one percent in
FY 2013 and FY 2012. The bureau CFOs are accountable for internal controls over improper payments, and for monitoring and
minimizing improper payments.



  226         FY 2013 AGENCY FINANCIAL REPORT
A P P E N D I X C : I M P R O P E R P A Y M E N T S I N F O R M AT I O N A C T ( I P I A ) O F 2 0 0 2 , A S A M E N D E D , R E P O R T I N G D E TA I L S




For FY 2014 and beyond, the Department will continue its efforts to ensure the integrity of its disbursements.



VI. Agency Information Systems and Other Infrastructure.

a.	      Describe whether the agency has the internal controls, human capital, and information systems and other
         infrastructure it needs to reduce improper payments to the levels the agency has targeted.

b.	      If the agency does not have such internal controls, human capital, and information systems and other infrastructure,
         describe the resources the agency requested in its most recent budget submission to Congress to establish and
         maintain the necessary internal controls, human capital, and information systems and other infrastructure.

The Department has ensured that internal controls, manual as well as financial systems, relating to payments are in place
throughout the Department, and has reviewed all financial statement audit findings/comments and results of any other payment
reviews for indications of breaches of disbursement controls. None of these audit findings/comments or reviews have uncovered
any significant problems with improper payments or the internal controls that surround disbursements.



VII. Barriers. Describe any statutory or regulatory barriers which may limit agency corrective actions in reducing improper
payments and actions taken by the agency to mitigate the barriers’ effects.

The Department has not identified any significant barriers that limit actions to reduce improper payments.



VIII. Additional Comments. Discuss any additional comments on overall agency efforts, specific programs, best practices,
or common challenges identified, as a result of IPIA implementation.

The Department’s Disbursement Best Practices. The following are some examples of internal control procedures used by the
Department’s payment offices:

●● Limited/controlled access to vendor files—access to basic vendor information (e.g., name, address, business size, etc.) is
      available to financial system users; access to banking information, however, is strictly limited by system security to certain
      Office of Finance staff.

●● Controlled access to financial system accounts payable screens—authority to create, edit, approve, process, and amend
      payment records is limited to certain Office of Finance financial system users. Also, authority to add or revise records in the
      vendor database is limited to separate Office of Finance system users.

●● Segregation of duties for financial system data entry and review prior to transmitting disbursement files to Treasury—data
      entry duties are assigned to technicians in the Office of Finance who do not have authority to review and process payments.
      Authority to approve and process payments is assigned to accountants in the Office of Finance. Both data entry and
      approval/processing of payments are separate functions from transmitting disbursement files to Treasury.

●● Financial system edit reports highlight potential items that may result in improper payments (e.g., invoice amount and
      accrual amount are not the same). There is a daily Invoice Workload Report that displays open amounts (not closed by a
      payment) on all invoices. This report is reviewed and action is taken to resolve partially open invoices. Furthermore, system
      settings prevent a payment in excess of the amount of the invoice.




                                                                                                                                                    227
                                                                                          FY 2013 AGENCY FINANCIAL REPORT
A P P E N D I X C : I M P R O P E R P A Y M E N T S I N F O R M AT I O N A C T ( I P I A ) O F 2 0 0 2 , A S A M E N D E D , R E P O R T I N G D E TA I L S




●● Daily pre-payment audit of invoices for accuracy, and corrective actions prior to disbursement, are in place, thereby preventing
   improper payments from occurring.

●● Financial system edit checks if the vendor’s name on the payment does not agree with that on the obligation, or if the
   payment amount is greater than the obligation or accrual amount.

●● The monthly vendor statement for purchase cards is interfaced into the financial system, thereby reducing data entry error.

●● An accountant or supervisor reviews individual payments before releasing for payment to help ensure that the correct
   banking information or payment addresses are used, and that the correct amount will be paid.

●● Monthly post-payment random sample audits are performed for detection purposes.

●● Contracts include a clause requiring the contractor to notify the contracting officer if the government overpays when making
   an invoice payment or a contract financing payment.




  228         FY 2013 AGENCY FINANCIAL REPORT
                A P P E N D I X D : S U M M A R Y O F F I N A N C I A L S TAT E M E N T A U D I T A N D M A N A G E M E N T A S S U R A N C E S




                         S U M M A R Y O F F I N A N C I A L S TAT E M E N T A U D I T

                                     AND MANAGEMENT ASSURANCES




P
       resented below is a summary of financial statement audit and management assurances for FY 2013. Table 1
       relates to the Department’s FY 2013 financial statement audit, which resulted in an unqualified opinion with one
       material weakness. Table 2 presents the number of material weaknesses reported by the Department under
Section 2 of the Federal Managers’ Financial Integrity Act (FMFIA)—either with regard to internal controls over operations
or financial reporting, and Section 4, which relates to internal controls over financial management systems; as well as the
Department’s compliance with the Federal Financial Management Improvement Act (FFMIA).



Table 1. Summary of Financial Statement Audit
 ●●   Audit Opinion:                  ●●   Unqualified
 ●●   Restatement:                    ●●   No
         Material Weaknesses           Beginning Balance              New              Resolved          Consolidated     Ending Balance
 NOAA Financial Management
 Oversight                                        1                    0                  1                   0                 0
 Total Material Weaknesses                        1                    0                  1                   0                 0


Table 2. Summary of Management Assurances

 EFFECTIVENESS OF INTERNAL CONTROL OVER FINANCIAL REPORTING (FMFIA § 2)
 Statement of Assurance:             Unqualified
 Material Weaknesses                  Beginning Balance      New            Resolved      Consolidated      Reassessed    Ending Balance
 NOAA Financial Management
 Oversight                                       1                0            1                  0               0             0
 Total Material Weaknesses                       1                0            1                  0               0             0
 EFFECTIVENESS OF INTERNAL CONTROL OVER OPERATIONS (FMFIA § 2)
 Statement of Assurance:             Unqualified
 Material Weaknesses                  Beginning Balance      New            Resolved      Consolidated      Reassessed    Ending Balance
 Total Material Weaknesses                       0                0            0                  0               0             0
 CONFORMANCE WITH FINANCIAL MANAGEMENT SYSTEM REQUIREMENTS (FMFIA § 4)
 Statement of Assurance:             Systems conform with financial management system requirements
 Non-Conformances                     Beginning Balance      New            Resolved      Consolidated      Reassessed    Ending Balance
 Total Non-Conformances                          0                0            0                  0               0             0
 COMPLIANCE WITH FFMIA
                                                         Agency                                               Auditor
 1. System Requirements                         No noncompliance noted                                No noncompliance noted
 2. Accounting Standards                        No noncompliance noted                                No noncompliance noted
 3. U.S. Standard General Ledger 	
    at Transaction Level                        No noncompliance noted                                No noncompliance noted




                                                                                                                                           229
                                                                                          FY 2013 AGENCY FINANCIAL REPORT
APPENDIX E: GLOSSARY OF KEY ACRONYMS




                                          G LO S S A RY O F K E Y AC RO N Y M S


Abbreviation        Title                                     Abbreviation   Title


A	     AFR	        Agency Financial Report                        DOL	       U.S. Department of Labor

                                                                  DOT	       U.S. Department of Transportation
       APG	        Agency Priority Goals

       APR	        Annual Performance Report
                                                             E	   ECMO 	     Enterprise Cybersecurity Monitoring
       ARRA	       American Recovery and Reinvestment                        and Operations
                   Act of 2009
                                                                  EDA	       Economic Development Administratio
       ASAP	       Automated Standard Application for
                                                                  ELGP	      Emergency Steel Loan Guarantee Program
                   Payments
                                                                  ERM	       Enterprise Risk Management

B	     BAS	        Business Application Solutions Project         ESA	       Economics and Statistics Administration

                                                                  ESC	       Enterprise Services Center (DOT)
       BEA	        Bureau of Economic Analysis
                                                                  ESOC	      Enterprise Security Oversight Center
       BIS	        Bureau of Industry and Security

       BTOP	       Broadband Technology Opportunities
                   Program
                                                             F	   FAR 	      Federal Acquisition Regulation

                                                                  FCC 	      Federal Communications Commission
C	     CAS	        Condition Assessment Survey                    FCCS	      Federal Claims Collection Standards

       CBS	        Commerce Business Systems                      FECA 	     Federal Employees Compensation Act

       CCR-SAM	 Central Contractor Registration – System          FEGLI	     Federal Employees Group Life Insurance
                   for Award Management                                      Program

       CEIP	       Coastal Energy Impact Program (a NOAA          FEHB	      Federal Employees Health Benefit Program
                   direct loan program)                           FERS	      Federal Employees Retirement System
       CFO	        Chief Financial Officer                        FFMIA	     Federal Financial Management Improvement
       CFO/ASA	 Chief Financial Officer and Assistant                        Act of 1996
       	           Secretary for Administration (DM)              FMFIA	     Federal Managers’ Financial Integrity Act
       CITRB	      Commerce Information Technology                           of 1982
                   Review Board                                   FTR	       Federal Travel Regulation
       CLC	        Commerce Learning Center                       FVOG	      Fishing Vessel Obligation Guarantee Program
       CPI	        Consumer Price Index                                      (a NOAA loan guarantee program)

       CSRS 	      Civil Service Retirement System                FWC 	      Future Workers’ Compensation

       CSTARS	     Commerce Standard Acquisition and              FY	        Fiscal year ended September 30
                   Reporting System
                                                             G	   G&B 	      Gifts and Bequests (a fund that is part of DM)
D	     DASHER	     Department’s Executive Dashboard
                                                                  GAAP	      Generally Accepted Accounting Principles
                   Application
                                                                  GPRA	      Government Performance and Results Act
       DM	         Departmental Management                                   of 1993


 230           FY 2013 AGENCY FINANCIAL REPORT
                                                                     APPENDIX E: GLOSSARY OF KEY ACRONYMS




Abbreviation   Title                                         Abbreviation      Title



     GSA 	     U.S. General Services Administration               NWHI	        Northwestern Hawaiian Islands

     GTAS	     Government-wide Treasury Account Symbol
               Adjusted Trial Balance System (Treasury)      O	   O&M	         Operations and Maintenance

                                                                  OAM	         Office of Acquisition Management (DM)
H	   HCHB 	    Herbert C. Hoover Building Renovation
                                                                  OCIO	        Office of the Chief Information Officer (DM)
               Project (a reporting entity included in the
               financial statements)                              OFM	         Office of Financial Management (DM)

     HR	       Human Resource                                     OGC	         Office of General Counsel (DM)

                                                                  OHRM	        Office of Human Resources Management (DM)
I	   IFQ 	     Individual Fishing Quota Direct Loans (a
                                                                  OIG	         Office of Inspector General (DM)
               NOAA direct loan program)
                                                                  OMB	         Office of Management and Budget
     IPIA	     Improper Payments Information Act of 2002
                                                                  OPM	         U.S. Office of Personnel Management
     IT	       Information Technology

     ITA	      International Trade Administration
                                                             P	   PAM	         Payment Application Modernization (Treasury)

                                                                  PP&E	        Property, Plant, and Equipment, Net
J	   JPSS	     Joint Polar Satellite System (NOAA)
                                                                  PII	         Personally Identifiable Information

M	   MBDA	     Minority Business Development Agency
                                                             R	   R&D	         Research and Development
     MD&A	     Management’s Discussion and Analysis

                                                             S	   S&E	         Salaries and Expenses (a fund that is part
N	   NASA	     National Aeronautics and Space
                                                                               of DM)
               Administration

     NBS	      National Bureau of Standards (former               SBR	         Combined Statements of Budgetary Resources
               name of NIST)                                      SCNP	        Consolidated Statements of Changes in
     NEFSC	    Northeast Fisheries Science Center (NOAA)                       Net Position

     NERR	     National Estuarine Research Reserve                SFFAS	       Statement of Federal Financial Accounting
                                                                               Standards
     NIST	     National Institute of Standards and
               Technology
                                                             T	   Treasury	    U.S. Department of the Treasury
     NMFS	     National Marine Fisheries Service (NOAA)
                                                                  TROR	        Treasury Report on Receivables
     NOAA	     National Oceanic and Atmospheric
               Administration                                     TSP	         Thrift Savings Plan

     NPOESS	   National Polar-orbiting Environmental
               Satellite System (NOAA)                       U	   USPTO	       U.S. Patent and Trademark Office

     NPP	      NPOESS Preparatory Project (NOAA)
                                                             W	   WCF	         Working Capital Fund (a fund that is
     NTIA	     National Telecommunications and
                                                                               part of DM)
               Information Administration

     NTIS	     National Technical Information Service



                                                                                                                        231
                                                                         FY 2013 AGENCY FINANCIAL REPORT
ACKNOWLEDGEMENTS




                                   OW             LEDGEM
                                KN                                       EN
                                                                                TS
                        AC




              This Agency Financial Report was prepared with the energies and talents of many
              Department of Commerce employees. To these individuals, the Office of Financial
              Management would like to offer our sincerest appreciation and recognition.


              In particular, we would like to recognize the following organizations for their
              contributions:


              The bureau finance offices, Office of the Secretary, Office of the Chief Financial
              Officer and Assistant Secretary for Administration, Office of Inspector General,
              Office of Acquisition Management, Office of Budget, Office of Human Resources
              Management, and Office of Performance, Evaluation, and Risk Management.


              We also offer special gratitude and recognition to The DesignPond for their
              outstanding contributions in the design and production of this report.




 232   FY 2013 AGENCY FINANCIAL REPORT
U.S. DEPARTMENT OF COMMERCE

   1401 Constitution Avenue, NW
      Washington, DC 20230
          (202) 482-2000


     www.commerce.gov
